<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-569]
[From the U.S. Government Publishing Office]










                                                        S. Hrg. 114-569

    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2028

 AN ACT MAKING APPROPRIATIONS FOR ENERGY AND WATER DEVELOPMENT FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2016, AND FOR OTHER PURPOSES

                               __________

                      Department of Defense--Civil
                          Department of Energy
                       Department of the Interior

                               __________

         Printed for the use of the Committee on Appropriations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
                               __________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE 

93-112  PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland, 
RICHARD C. SHELBY, Alabama               Vice Chairwoman
LAMAR ALEXANDER, Tennessee           PATRICK J. LEAHY, Vermont
SUSAN M. COLLINS, Maine              PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               DIANNE FEINSTEIN, California
LINDSEY GRAHAM, South Carolina       RICHARD J. DURBIN, Illinois
MARK KIRK, Illinois                  JACK REED, Rhode Island
ROY BLUNT, Missouri                  JON TESTER, Montana
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            JEANNE SHAHEEN, New Hampshire
JOHN BOOZMAN, Arkansas               JEFF MERKLEY, Oregon
SHELLEY MOORE CAPITO, West Virginia  CHRISTOPHER A. COONS, Delaware
BILL CASSIDY, Louisiana              BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
STEVE DAINES, Montana                CHRISTOPHER MURPHY, Connecticut

                      Bruce Evans, Staff Director
              Charles E. Kieffer, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                  LAMAR ALEXANDER, Tennessee, Chairman
THAD COCHRAN, Mississippi            DIANNE FEINSTEIN, California, 
MITCH McCONNELL, Kentucky                Ranking
RICHARD C. SHELBY, Alabama           PATTY MURRAY, Washington
SUSAN M. COLLINS, Maine              JON TESTER, Montana
LISA MURKOWSKI, Alaska               RICHARD J. DURBIN, Illinois
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            JEANNE SHAHEEN, New Hampshire
JAMES LANKFORD, Oklahoma             JEFF MERKLEY, Oregon
                                     CHRISTOPHER A. COONS, Delaware
                                     BARBARA A. MIKULSKI, Maryland, (ex 
                                         officio)

                           Professional Staff

                              Tyler Owens
                              Adam DeMella
                             Meyer seligman
                            Hayley Alexander
                         Doug Clapp (Minority)
                        Chris Hanson (Minority)

                         Administrative Support

                       Samantha Nelson (Minority)
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                            C O N T E N T S

                              ----------                              

                                HEARINGS
                      Wednesday, February 11, 2015

                                                                   Page

Department of Defense--Civil: Department of the Army; Corps of 
  Engineers--Civil...............................................     1
Department of the Interior: Bureau of Reclamation................    22

                        Wednesday, March 4, 2015

U.S. Nuclear Regulatory Commission...............................    73

                       Wednesday, March 11, 2015

Department of Energy: National Nuclear Security Administration...   113

                       Wednesday, March 25, 2015

Department of Energy.............................................   149

                              ----------                              

                              BACK MATTER

List of Witnesses, Communications, and Prepared Statements.......   203

Subject Index....................................................   205
    Department of Defense--Civil.................................   205
        Department of the Army...................................   205
        Corps of Engineers--Civil................................   205
    Department of Energy.........................................   205
        National Nuclear Security Administration.................   206
    Department of the Interior...................................   206
        Bureau of Reclamation....................................   206
    U.S. Nuclear Regulatory Commission...........................   207
 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:28 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Cochran, Collins, Murkowski, 
Graham, Hoeven, Lankford, Feinstein, Tester, Udall, Merkley, 
and Coons.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENT OF HON. THOMAS P. BOSTICK, LIEUTENANT 
            GENERAL, COMMANDER


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order.
    This is the first hearing, not just of our subcommittee, 
but of the entire Appropriations Committee.
    How is that, Senator Feinstein? So we are the early birds.
    I want to say at the outset what a privilege it has been to 
work with the Senator from California over the last few years 
when she has been chairman and I have been the ranking member. 
Our seats have switched, but the relationship hasn't changed. 
And I look forward to treating her with at least as much 
courtesy as she has always treated me. I am going to see if I 
can outdo her, because it is a treat to work with somebody who 
is capable of making a decision, expressing herself well, and 
easy to work with.
    So, Senator Feinstein, I look forward to our continued good 
relationship.
    This morning, we are having a hearing to review the 
President's fiscal year 2016 funding request and budget 
justification for the U.S. Army Corps of Engineers and the 
Bureau of Reclamation, which is part of the Department of the 
Interior. Senator Feinstein and I will each have an opening 
statement, and then each Senator may have up to 5 minutes for a 
statement in the order in which they arrived.
    Senator Graham has let me know that he has a 3 o'clock 
hearing, so if the Senators don't mind, I will try to work him 
in before 3 o'clock, as a courtesy to him.
    We will then turn to the witnesses for their testimony. 
Each witness will have 5 minutes. We would appreciate you 
summarizing your testimony in that time. We will include their 
full statements in the record. Then Senators will be recognized 
for 5 minutes of questions in the order in which they arrived.
    I want to thank the witnesses for being here today, and 
thank Senator Feinstein for working with me on this.
    Our witnesses include Jo-Ellen Darcy, the Assistant 
Secretary of the Army for Civil Works. Welcome, Secretary 
Darcy.
    Estevan Lopez, Commissioner for the Bureau of Reclamation. 
Mr. Lopez, welcome.
    Jennifer Gimbel, Principal Deputy Assistant Secretary for 
Water and Science for the Department of Interior. That is a 
long title. Nice to see you.
    And Lieutenant General Thomas P. Bostick, Chief of 
Engineers for the U.S. Army Corps of Engineers. We welcome you.
    Governing is about setting priorities, and unfortunately, 
the President's budget request for these agencies shows a 
failure to do so, in my opinion.
    The overall budget proposes spending that exceeds the 
budget caps established by the Budget Control Act of 2011 by 
about $74 billion. One of the priorities the President often 
speaks about is our Nation's infrastructure. Yet despite all 
the proposed new spending and all that talk, this proposal cuts 
the Corps' budget by $751 million, or 14 percent below last 
year's actual spending level.
    This budget proposes cutting the Corps' funding to the 
actual level of spending in 2007. We are literally moving 
backward on an agency that is crucial to maintaining our 
country's infrastructure.
    The reason this is such a problem is that the U.S. Army 
Corps of Engineers touches the lives of almost every American. 
The Corps maintains our inland waterways. It deepens and keeps 
our ports open. It looks after many of our recreational waters 
and land. It manages the river levels to prevent flooding. Its 
dams provide emission-free, renewable, hydroelectric energy.
    All of these activities attract the intense interest of the 
American people and of their United States Senators.
    I can recall when I was a member of the Environment and 
Public Works Committee, after a flooding of the Missouri and 
Mississippi rivers 4 years ago, a whole room full of Senators 
showed up to ask for more money to deal with what went wrong 
and what went right on the disaster relief efforts. So there is 
a real interest in these proposals.
    The reality is that for all the Corps does, there are many 
things it could do better, and setting priorities in our 
spending is one way to better invest taxpayer dollars.
    An important example of the administration's failure to set 
priorities in my home State of Tennessee is the lack of funds 
in the President's budget request to restart replacement of 
Chickamauga Lock. Congress has done its job over the last 3 
years to move ahead promptly on replacing Chickamauga Lock, and 
it is disappointing that the administration has failed to do 
its job.
    Here is what we have done. Congress, first, passed a law 
that reduced the amount of money that comes from the Inland 
Waterways Trust Fund to replace Olmsted Lock, a project in 
Illinois and Kentucky that was soaking up almost all of the 
money that is available for inland waterway projects.
    Second, Congress worked with the commercial waterways 
industry to establish a priority list for projects that needed 
to be funded, on which Chickamauga Lock ranks near the top, in 
fourth place.
    And third, just this past year, working together, we 
enacted a user fee increase that commercial barge owners asked 
to pay in order to provide more money to replace locks and dams 
across the country, including Chickamauga Lock.
    These are three extremely important steps to give our 
country the inland waterways that we need. These three things 
taken together should make it possible for the Corps of 
Engineers to move rapidly to begin to replace Chickamauga Lock.
    The problem with Chickamauga Lock is it is made of aging 
concrete. It could fail if we don't replace it. In fact, in 
October of last year, the lock was closed for several days. It 
was closed to all navigation traffic for emergency repairs 
after an inspection revealed cracks in the concrete.
    The project is not just important to Chattanooga, but to 
all of eastern Tennessee because of the number of jobs 
affected. We are almost out of time for a solution. The lock 
could close in a few years unless progress is made.
    That would throw 150,000 trucks on Interstate 75. It would 
increase the cost of shipping to Oak Ridge, to the national 
laboratory, and to the weapons areas, and to manufacturers 
across the State.
    So you can see how Chickamauga Lock, and other projects 
like it across the country, ought to be a priority, and why the 
Corps' budget should make it a priority.
    In addition to the Corps, we fund the Bureau of 
Reclamation. The Bureau of Reclamation delivers water to one in 
five Western farmers, irrigating 10 million acres of some of 
the most productive agricultural land in the world.
    I would note that this is the first time that Commissioner 
Lopez and Secretary Gimbel have appeared before this 
subcommittee, and we welcome them both.
    Without the infrastructure that these two agencies provide, 
our Nation would be vastly different. With that in mind, we are 
here today to discuss the administration's fiscal year 2016 
budget request for both agencies. I will look forward to the 
testimony.
    Before I turn to Senator Feinstein for her statement, I 
would like to note that this is Roger Cockrell's last hearing, 
at least the last one he will attend in his capacity with us as 
a staff member of the Appropriations Committee. He is retiring 
at the end of the month, and we are going to miss him.
    For the past 14 budget cycles, Senators on the 
subcommittee, whether Republicans or Democrats, have been well 
served by Roger's expertise on both the Corps of Engineers and 
the Bureau of Reclamation. It is hard to think of anybody 
inside or outside Washington who matches Roger in knowledge or 
experience. It is hard to think of a water resources bill that 
has not benefited from his guidance.
    So, Roger, on behalf of the subcommittee, I wish to thank 
you for your service over these many years and to wish you and 
your family the best in your retirement.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    I would like to thank our witnesses for being here today, and also 
Senator Feinstein, who I will be working with on the appropriations 
bill that this subcommittee considers.
    Our witnesses today include:
  --Jo-Ellen Darcy, Assistant Secretary of the Army for Civil Works
  --Lieutenant General Thomas P. Bostick, Chief of Engineers for the 
        U.S. Army Corps of Engineers
  --Estevan Lopez, Commissioner for the Bureau of Reclamation
  --Jennifer Gimbel, Principal Deputy Assistant Secretary for Water and 
        Science for the Department of Interior
    This is my first budget hearing as chairman of the Appropriations 
Subcommittee on Energy & Water Development.
    Governing is about setting priorities, and unfortunately, the 
president's budget request for these agencies shows a failure to do so.
    The president's overall budget proposes spending that exceeds the 
budget caps established by the Budget Control Act of 2011 by about $74 
billion. One of the priorities he speaks about often is our Nation's 
infrastructure.
    Yet despite all that proposed new spending and all that talk, this 
proposal cuts the Corps' budget by $751 million, or about 14 percent 
below last year's actual spending level. This budget proposes cutting 
the Corps' funding to the actual level of spending in 2007--we are 
literally moving backward, on an agency that is crucial to maintaining 
our country's infrastructure.
    The reason this is such a problem is that the U.S. Army Corps of 
Engineers touches the lives of all Americans. The Corps maintains our 
inland waterways, keeps our ports open, looks after many of our 
recreational waters and land, manages the river levels to prevent 
flooding, and its dams provide emission-free, renewable hydroelectric 
energy.
    All of these activities attract the intense interest of the 
American people, and of their United States Senators. I can recall 
when, after the flooding of the Missouri and Mississippi rivers 4 years 
ago, eight Senators showed up at a Senate Environment and Public Works 
Committee hearing to discuss what went right and what went wrong with 
disaster relief efforts.
    The reality is that for all the Corps does there are many things it 
could do better, and setting priorities in our spending is one way to 
better invest taxpayer dollars.
    An important example of the administration's failure to set 
priorities is in my home State of Tennessee: the lack of any funds in 
the president's budget request to restart replacement of Chickamauga 
Lock. Congress has done its job to move ahead promptly on replacing 
Chickamauga Lock, and it's disappointing the Obama administration has 
failed to do its job.
    First, Congress passed a law that reduced the amount of money that 
comes from the Inland Waterways Trust Fund to replace Olmsted Lock, a 
project in Illinois and Kentucky that was soaking up almost all of the 
money that is available for inland waterway projects. Second, we worked 
with the commercial waterways industry to establish a priority list for 
projects that needed to be funded, on which Chickamauga ranks near the 
top, in fourth place. And third, just this past year we enacted a user 
fee increase that commercial barge owners asked to pay in order to 
provide additional funds to replace locks and dams across the country, 
including Chickamauga Lock.
    Those three things taken together should make it possible for the 
Corps of Engineers to move rapidly to begin to replace Chickamauga 
Lock. The problem with Chickamauga Lock is it's made of aging concrete 
and could fail if we don't replace it. In fact, in October of last 
year, the lock was closed for several days to all navigation traffic 
for emergency repairs after an inspection revealed cracks in the 
concrete.
    This project is important not just to Chattanooga, but to all of 
East Tennessee because of the number of jobs affected. We are almost 
out of time for a solution--the lock could close in a few years unless 
progress is made, throwing 150,000 trucks on I-75 and increasing the 
cost of shipping goods for Oak Ridge, Y-12, and manufacturers across 
the State.
    So you can see how Chickamauga Lock--and other projects like it 
across the country--ought to be a priority, and why the Corps' budget 
should be a priority.
    In addition to the Corps, we fund the Bureau of Reclamation.
    The Bureau of Reclamation delivers water to one in five Western 
farmers, irrigating 10 million acres of some of the most productive 
agricultural land in the world.
    I would note that this is the first time that Commissioner Lopez 
and Secretary Gimbel have appeared before this subcommittee, and we 
welcome them.
    Without the infrastructure that these two agencies provide, our 
Nation would be vastly 2016 budget request for these two agencies. I'll 
look forward to the testimony of our witnesses, but first would like to 
hear from our subcommittee's ranking member, Senator Feinstein.
    Senator Alexander. Now, Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman.
    I just want to begin by saying what a sincere pleasure it 
has been for me to work with you. I had the same relationship 
with Senator Chambliss on Intelligence. Regardless of who is in 
your seat today, I really believe we are a good working team. 
Where we disagree, we work it out. Where we come together, I 
think the Nation is better for it.
    So it has been a really great pleasure for me to work with 
you. I look forward to being ranking member on your 
subcommittee. I look forward to our getting our nuclear waste 
bill done that we have worked for 4 years now, put together 
with Lisa Murkowski, and then Jeff Bingaman, and then Jeff left 
and it was Wyden, and then Mary Landrieu, and now Maria 
Cantwell. That has been a very high priority for me and I know 
it is for you, too.
    So it has been a very good relationship, and I really 
appreciate it. I want you to know that.
    Senator Alexander. Thank you.
    Senator Feinstein. If I could just say a word about Roger, 
too. I think you said it all, Mr. Chairman. But he joined the 
committee in 2003. He had a 23-year career with the Army Corps 
of Engineers' Vicksburg District. He has worked on 14 
successive Energy and Water appropriations bills. He was 
involved in supporting critical national projects like the 
restoration of the Everglades. And I think most importantly, he 
has detailed knowledge of the appropriations process and the 
budgets of both the Corps and the bureau. And he was 
instrumental in shaping the Federal Government's response to 
hurricanes Katrina and Sandy.
    He has been a tremendous resource for me personally. And, 
actually, there is no one I would trust more than Roger 
Cockrell when it came to this particular budget.
    So, Roger, I am really so sorry that you are leaving. Our 
side is, and it is great to know the other side is as well. We 
all want to wish you the very, very best. So thank you so much.
    Okay, Mr. Chairman, I very much agree with you about your 
comments on the budget. I found it very surprising that there 
was a 13.8 percent drop in the Corps' budget and a 2.2 percent 
drop in Reclamation's budget.
    Candidly, it is really not acceptable when we consider all 
of the water resource needs our Nation faces. It is 
particularly troubling when there is such a big push for 
infrastructure spending elsewhere in the administration's 
budget. I don't know how they came to leave this out here, 
unless they knew that we were all passionate about it and we 
would probably put the money back here, at least that is kind 
of what I hope we do.
    As I often say, the work these agencies do affects more 
people on a daily basis than anything else in this bill. So I 
am a big fan of both of your agencies.
    You are responsible for improving our flood protection 
systems, maintaining and improving navigation channels and 
ports, providing ecosystem restoration, and perhaps most 
importantly, providing water for irrigation and municipal and 
industrial purposes.
    It is clear that in order to maintain and modernize our 
existing infrastructure to meet 21st century demands, we need 
sufficient budgets to accomplish real benefit. This budget, 
regretfully, does not do this.
    The ports and channels handled by the Corps handled more 
than 2.3 billion tons of cargo. Flood control infrastructure 
owned or managed by the Corps prevents more than $36 billion in 
annual damages. And Corps recreation facilities serve more than 
370 million visitors each year. Most people don't know that, 
that the Army Corps of Engineers runs these recreation 
facilities.
    So I think we need to help with this shoestring budget. I 
am concerned that your budgets have been so tight for so long. 
We talked about Chickamauga. Well, in my State I would talk 
about the California drought.
    We are in the fourth year of the worst drought. We've got 
wells running dry. We have people unable to have drinking water 
or bathing water. We have about 800,000 acres of land that is 
being fallowed because farmers can't plant.
    I must say that Reclamation has just been a tremendous help 
to us in that regard, by working to run the systems, to work 
with the State system, run both systems much more efficiently. 
We need to keep this up.
    What I am here to say is that I intend to work in every way 
possible to be cooperative with the chairman and try to do 
those things that can improve the situation for all of the 
States that are represented here.
    So I thank you, Mr. Chairman. That really completes my 
remarks.
    Senator Alexander. Thank you, Senator Feinstein.
    We have a tradition in the subcommittee of giving the 
Senators who are here an opportunity to make opening 
statements, if they would like, up to 5 minutes. We will do it 
back and forth in order of arrival. We will begin with Senator 
Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you for the 
opportunity of questioning our witnesses here today and to join 
you in welcoming them to our hearing. I have prepared an 
opening statement for the subcommittee's hearing. I will ask 
unanimous consent that statement be printed at this point in 
the record, and I will reserve my questions until the regular 
order.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, thank you for convening this hearing to review the 
President's fiscal year 2016 Budget request for the U.S. Army, Corps of 
Engineers and the Bureau of Reclamation. I appreciate the good work 
conducted by these agencies, and I look forward to learning more about 
their fiscal year 2016 funding needs.
    The activities carried out by the Army Corps help provide our 
country with the basic necessities to survive and prosper. Its civil 
works responsibilities support initiatives focused on navigation and 
waterborne commerce, flood prevention and storm damage reduction, 
environmental restoration, among other important activities. Without 
adequate funding, the Corps cannot perform these functions effectively, 
which would result in greater risk of catastrophic flooding and adverse 
impacts on our Nation's economy.
    Today I look forward to engaging in meaningful discussion with our 
distinguished members of the panel, because I have deep concerns with 
various aspects of the President's fiscal year 2016 Civil Works 
request. As Chairman of the Senate Appropriations Committee, I am aware 
of the challenges associated with outlining funding for all of the 
executive departments and independent agencies within the Federal 
Government. However, we cannot lose sight of the important work 
performed by the Amy Corps and their responsibilities to the Nation.
    The funding levels proposed by the administration for all of the 
Corps important infrastructure accounts--Investigations, Construction, 
Operation & Maintenance, and Mississippi River & Tributaries (MR&T)--
are far below the levels provided by Congress in the recently enacted 
fiscal year 2015 Omnibus appropriations bill. On the other hand, the 
President's budget requests increases for the Corps' regulatory 
programs and agency expenses, which is again cause for concern. 
Considering the President's comprehensive budget is expected to exceed 
the caps for discretionary spending set by the Budget Control Act of 
2011 by $74 billion, I question the level of priority this 
administration is placing on our Nation's critical infrastructure.
    Going forward, one of the most pressing issues this subcommittee 
must address pertains to the President's request for the Mississippi 
River & Tributaries (MR&T) project, which reflects neither the need nor 
the importance of this valuable flood control program. For fiscal year 
2016, the administration has requested $225 million for MR&T, which is 
far below the amount Congress had annually provided over the last 30 
years.
    In light of my concerns about the Corps Civil Works budget, I am 
pleased to have the opportunity to discuss these important matters so 
they can be addressed in the appropriations process. These hearings are 
designed for that specific purpose, and I am confident that our 
subcommittee will benefit from the valuable insight provided today by 
Lieutenant General Bostick and Assistant Secretary Darcy.
    I appreciate today's witnesses appearing before this subcommittee, 
and I look forward to hearing their testimony.

    Senator Alexander. Thank you, Senator Cochran. It will be 
included.
    Next, Senator Merkley.

                   STATEMENT OF SENATOR JEFF MERKELY

    Senator Merkley. Thank you very much, Mr. Chairman. This is 
the first hearing of the subcommittee that I have been a part 
of as a new member, so I am delighted to join the subcommittee 
on these issues of energy and water and, of course, today, 
particularly water.
    The Army Corps of Engineers and Bureau of Reclamation, 
these organizations reverberate in so many issues that we 
encounter in Oregon. So I look forward to hearing their 
testimony and exploring ways that we can maximize the 
effectiveness of their good work on the ground. Thank you very 
much.
    Senator Alexander. Thank you, Senator Merkley.
    Senator Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you very much, Chairman Alexander. I 
am back on the subcommittee, and I look forward to it. I know 
that you and Senator Feinstein work very well together, and I 
look forward to being a part of that team. I really appreciate 
your good bipartisan work.
    I want to take a minute to congratulate Commissioner 
Estevan Lopez, the new Commissioner of the Bureau of 
Reclamation. Estevan is a native New Mexican. We are proud of 
him and pleased to have him represent our State in such an 
important leadership role.
    I want to welcome you to your first hearing as Commissioner 
before this subcommittee.
    Commissioner Lopez understands the issues that are 
critically important to the West. He has more than 20 years of 
experience in water management policy. We really look forward 
to working with you on those issues.
    As you all know, issues of drought and future water supply 
are critically important to the State of New Mexico. Climate 
change and prolonged drought have meant devastating wildfires. 
Extreme weather events alter our watersheds. Competing 
interests from municipalities, agriculture, wildlife, and 
industry strain our limited water resources.
    Programs that help provide sustainable water management are 
crucial and need to be adequately funded. I am pleased to see 
the President's budget has highlighted some of these priorities 
to ensure support for important tribal water settlements and 
grant programs, for instance, programs like WaterSMART, which 
promotes public-private partnerships for much-needed 
infrastructure funding.
    I intend to work my colleagues to make sure that this 
program and others like it have the resources they need.
    With that, I look forward to hearing from today's witnesses 
and yield back the balance of my time, Mr. Chairman.
    Senator Alexander. Thank you, Senator Udall. Welcome to the 
subcommittee. Welcome back.
    And, Senator Merkley, welcome to you.
    Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. I want to echo the statements of many of 
the subcommittee participants in thanking Chairman Alexander 
and Ranking Member Feinstein for your ability to work together 
and your common-sense approach to everything in the Senate, but 
especially this issue, water resources. It is very, very 
important, and I want to thank the panelists for being here.
    I just stepped in, I sat down, and I drink this water. I 
did not think one thing about it. I just assumed that it would 
be here, not a problem. And that is part of the problem. The 
fact is that good water resources take planning and dollars, 
because you have to have the infrastructure to support it. That 
is your job, and it is our job to make sure you have the tools 
and the resources to be able to do your job and do it right. 
Everything from agriculture to recreation to just the basic 
necessities of life is water.
    I look forward to working with everybody at the table today 
and a whole lot of other folks to make sure that we have the 
water infrastructure in this country to meet the needs of a 
21st century United States of America. So thank you all for 
your work.
    Senator Alexander. Thank you, Senator Tester.
    Senator Collins and Graham, we want to give each of you a 
chance to make an opening statement.
    Senator Graham, you have a hearing at 3 p.m.?
    Senator Graham. Yes, Mr. Chairman. We are doing the pay and 
benefits reform commission.
    Senator Alexander. Senator Collins, would you mind?
    We will go to Senator Graham and then Senator Collins.
    Senator Graham. This is an opening statement?
    Senator Alexander. Yes.

                  STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. I thank you for coming.
    Roger, you will be missed. You have done an incredible job 
for a long period of time.
    To our witnesses, you have been great working with 
Charleston and other areas important to South Carolina. I will 
come back and ask you questions about the Port of Charleston.
    As to the committee, I hope we can find a way to fix 
sequestration. You cannot get there from here. Anything and 
everything should be on the table. The projects we need as a 
Nation are enormous; the money is insufficient. If we do not 
fix sequestration, we are going to run into infrastructure 
nightmares all over the country.
    I cannot think of a better duo to do this than our chairman 
and ranking member.
    Senator Alexander. We will count on you to be the platoon 
leader.
    Lindsey, I think we may have a vote around 3:45 or 4:00, 
but we will arrange to give every Senator an opportunity to ask 
the questions you want to ask of the witnesses, even if votes 
come in the middle of it.
    Senator Collins.

                 STATEMENT OF SENATOR SUSAN M. COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. I want 
to thank you and the ranking member for holding this hearing 
today to review the fiscal year 2016 budget submissions for the 
Army Corps of Engineers and the Bureau of Reclamation.
    The Army Corps projects are particularly important in my 
State, and they play such an important role in local economies. 
There is an ongoing need to address the maintenance backlog and 
to ensure that our ports and harbors are properly maintained.
    A great example of that for which I want to thank the Army 
Corps is the cooperative work that it did with the town of 
Yarmouth this past fall to dredge the Royal River. The river 
was gradually filling up to the point where it threatened the 
survival of the marina that was located there and would have 
affected the economy of the region.
    The Army Corps worked very closely with the town, both 
financially and in the timing, and I really appreciate that 
project being done.
    I also want to salute the efforts of the chairman and 
ranking member for working with me and other members of the 
subcommittee last year to include the $42.5 million for 
operation and maintenance at small, remote, or subsistence 
navigation harbors and waterways.
    In a State like mine, with an extensive coastline, those 
small harbors are just as critical to the coastal communities 
as large, better-known harbors are in this country. They are 
truly the economic lifeblood for many small and rural 
communities. And the funding for their maintenance dredging is 
critically important.
    Sometimes that is not fully accounted for under the Corps' 
budget metrics, which tend to favor larger ports. That is why 
the money that has been set aside in recent years is so 
important.
    I am extremely pleased to learn that the Corps' business 
fiscal year 2015 work plan includes $2.9 million for 
maintenance dredging at Beals Harbor in Maine, and $1.2 million 
for Pig Island Gut--that probably doesn't trippingly come off 
the tongues of many here--which is also in the Beals area. If 
all goes well, those projects, which are absolutely essential, 
will begin this fall.
    Finally, I want to associate myself with the comments made 
by the chair and ranking member about the cuts to the Army 
Corps budget. The cuts are deep. The needs are great. And I 
hope we can work together to try to narrow the gap.
    Thank you very much, Mr. Chairman.
    Senator Alexander. Thank you, Senator Collins.
    Senator Lankford, each of the Senators has made a short 
opening statement. You are welcome to make one too, if you 
would like to do that.
    Senator Lankford. Why don't I just submit one for the 
record, so we can get on with the testimony?
    Senator Alexander. Thank you, Senator Lankford.
    We will move on to the testimony. I have introduced the 
witnesses, so, General Bostick, why don't we begin with you and 
then go right down the line? If each of you would summarize 
your remarks in about 5 minutes, we would appreciate it.

       SUMMARY STATEMENT OF LIEUTENANT GENERAL THOMAS P. BOSTICK

    General Bostick. Thank you, Mr. Chairman and members of the 
subcommittee. I am honored to testify before your subcommittee 
today along with the Honorable Jo-Ellen Darcy on the 
President's fiscal year 2016 budget for the Civil Works Program 
of the United States Army Corps of Engineers.
    This is my third time to testify before the subcommittee on 
the civil works budget. Thank you for your support in the past, 
and I look forward to your continuing efforts together in the 
future.
    I have been in command for nearly 3 years, and I would like 
to provide a brief update on our four campaign goals, which 
drive the organization.
    First, support to national security. The Corps supports the 
national security of the United States. We continue to work in 
more than 110 countries using our civil works and military 
missions, water resources, and research and development 
expertise to support our Nation's combatant commanders. Army 
Corps employees, both military and civilian from all across the 
Nation, have volunteered and continue to volunteer to provide 
critical support to our military and for humanitarian missions 
abroad.
    Second, transform civil works. Civil works transformation 
focuses on four broad areas. First, we are modernizing the 
project planning process. Second, we're enhancing the budget 
development process through a systems-oriented approach that 
includes significant collaboration. Third, we are developing an 
infrastructure strategy to evaluate the current inventory of 
projects that will help identify priorities and develop better 
solutions to water resources challenges. And fourth, we're 
improving methods of delivery, to produce and deliver sound 
decisions, products, and services that will improve the ways in 
which we manage and use our water resources.
    Since the inception of civil works transformation in 2008, 
42 chief's reports have been completed. During that 7-year 
period, 13 chief's reports were completed in the first 4 years 
and 29 chief's reports were completed in the last 3. This is 
clear evidence that we are learning and becoming more efficient 
in our processes.
    In our third campaign plan goal, we must continue to be 
proactive and develop improved strategies to reduce disaster 
risks, as well as respond to natural disasters when they do 
occur. I continue to be very impressed at the work of the Army 
Corps of Engineers in this area.
    One great example of this proficiency is with Hurricane 
Sandy recovery work. The flood control and coastal emergency 
program is over 95 percent complete. The Sandy operations and 
maintenance program is over 70 percent complete and on schedule 
to be 100 percent complete by the end of 2016.
    I am pleased to highlight that the Army submitted the North 
Atlantic Coast Comprehensive Study on schedule to Congress and 
the American people on 28 January 2015.
    And our fourth goal is to prepare for tomorrow. This is 
about our people, ensuring that we have a pipeline of talented 
military and civilian teammates as well as a strong workforce 
development and talent management program.
    Equally important is helping the Nation's wounded warriors 
and soldiers transition out of Active Duty to find fulfilling 
careers. Last year, we set a goal to assist 125 transitioning 
wounded warriors, and we exceeded that goal by more than 50 
percent. Nearly 200 wounded warriors found permanent positions 
within the Corps and other organizations.
    We are also focused on research and development efforts 
that will help some of the Nation's toughest challenges.
    Mr. Chairman, I ask that you and other members refer to my 
complete written testimony submitted to the subcommittee for 
the fiscal year 2016 budget for specifics.
    Thank you again for this opportunity. I look forward to 
your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Thomas P. Bostick
    Mr. Chairman and members of the subcommittee: I am honored to be 
testifying before your committee today, along with the Assistant 
Secretary of the Army for Civil Works, the Honorable Jo-Ellen Darcy, on 
the President's fiscal year 2016 Budget for the Civil Works Program of 
the United States Army Corps of Engineers (Corps). This is my third 
time before this Subcommittee to testify on the Civil Works budget; 
thank you for your support in the past, and I look forward to 
continuing to work together.
    I have been in Command of the Corps for nearly 3 years, and I want 
to briefly update you on the four Campaign Plan Goals for the Corps.
    First, Support National Security. The Corps supports the National 
Security of the United States. We continue working in more than 110 
countries, using our Civil Works, Military Missions, and Water 
Resources Research and Development expertise to support our Nation's 
Combatant Commanders. We are proud to serve this great Nation and our 
fellow citizens, and we are proud of the work the Corps does to support 
America's foreign policy. Civilian Army Corps employees from across the 
Nation have volunteered--and continue to volunteer--to work, in a 
civilian capacity, to provide critical support to our military missions 
abroad and humanitarian support to the citizens of those nations. Many 
of them have served on multiple deployments.
    Second, Transform Civil Works. The four elements of the Civil Works 
Transformation strategy will make the Corps more efficient and 
effective while continuing to support the Nation by addressing some of 
our greatest infrastructure needs. Civil Works Transformation focuses 
on modernizing the project planning process; enhancing the budget 
development process through a systems-oriented approach and 
collaboration; evaluating the current inventory of projects and the 
portfolio of proposed water resources projects using an infrastructure 
strategy to identify priorities and develop better solutions to water 
resources problems; and improving methods of delivery to produce and 
deliver sound decisions, products, and services that will improve the 
ways in which we manage and use our water resources.
    Since the inception of Civil Works Transformation efforts in 2008, 
42 Chief's reports have been completed. In 7 years, 13 Chief's Reports 
were completed in the first 4 years, and 29 Chief's Reports completed 
in the last three; we are learning and becoming more efficient in our 
processes.
    Third, we must continue to be proactive and develop better 
strategies to Reduce Disaster Risks, as well as respond to natural 
disasters when they do occur, under the National Response Framework, 
National Disaster Recovery Framework, Public Law 84-99 as amended, and 
Corps project authorities for flood risk management. I continue to be 
amazed at the work the Army Corps does in this arena. One great example 
of this proficiency is the Hurricane Sandy recovery work ongoing in 
three of our Divisions. The Flood Control and Coastal Emergency (FC&CE) 
program is over 95 percent complete. At the end of 2014, the South 
Atlantic Division completed its Sandy Operation and Maintenance 
program; with nearly 70 percent complete, both the North Atlantic 
Division and Great Lakes and Ohio River Division O&M programs are on 
schedule to be 100 percent complete by the end of 2016. And I'm pleased 
to highlight that the Army submitted the North Atlantic Coast 
Comprehensive Study to Congress and the public on 28 January 2015. This 
2-year study addresses coastal storm and flood risk from New Hampshire 
to Virginia and provides a Coastal Storm Risk Management Framework, 
data, and tools such as the Sea Level Change Calculator that are now 
available online to help all stakeholders better assess vulnerabilities 
and adopt forward thinking floodplain management strategies.
    Fourth, Prepare for Tomorrow. This is about our People--ensuring we 
have a pipeline of Science, Technology, Engineering and Mathematics 
workers, as well as Workforce Development and Talent Management. 
Equally important is helping the Nation's Wounded Warriors and Soldiers 
transitioning out of active duty to find fulfilling careers. I am proud 
that last year we set a goal to assist 125 transitioning Wounded 
Warriors, and we exceeded that goal by more than 50 percent. Nearly 200 
Wounded Warriors found permanent position within the Corps and other 
organization.
    We are also focused on Research and Development efforts that will 
help solve some of the toughest challenges facing the Army and the 
Nation. Civil Works Program research and development provides the 
Nation with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency of the Nation's 
engineering and construction industry and providing more cost-effective 
ways to operate and maintain public infrastructure, Civil Works program 
research and development contributes to the national economy.
                   summary of fiscal year 2016 budget
    The fiscal year 2016 Civil Works Budget is a performance-based 
budget, which reflects a focus on the work that will provide the 
highest net economic and environmental returns on the Nation's 
investment or address a significant risk to safety. Investments in the 
Civil Works program will reduce the risks of flood impacts in 
communities throughout the Nation, facilitate waterborne 
transportation, restore and protect significant aquatic ecosystems, 
generate low-cost renewable hydropower and support American jobs. 
Continued investment in critical Civil Works infrastructure projects is 
an investment in the Nation's economy, security and quality of life--
now and in the future.
    The Budget focuses on high performing projects and programs within 
the three main water resources missions of the Corps: commercial 
navigation, flood and storm damage reduction, and aquatic ecosystem 
restoration. The fiscal year 2016 Budget includes $4.732 billion in 
gross discretionary funding to fund Civil Works activities throughout 
the Nation, including the construction of water resources projects that 
will provide high economic, environmental and public safety returns on 
the Nation's investment. Second, in the Operation and Maintenance 
program, the Budget focuses on investments that address infrastructure 
maintenance needs on a risk assessment basis. The budget also proposes 
an increase in funding for the Regulatory program to better protect and 
preserve the Nation's water-related resources.
                         investigations program
    The fiscal year 2016 Budget provides $97 million in the 
Investigations account, and $10 million in the Mississippi River and 
Tributaries account to fund projects, programs, and activities that 
will enable the Corps to evaluate and design projects that are the most 
likely to be high-performing within the Corps three main mission areas. 
The Budget also supports the Corps planning and technical assistance 
programs, including using its expertise to help local communities 
increase their resilience to risks such as the flood risks in coastal 
communities associated with sea level rise.
                          construction program
    The goal of the construction program is to produce as much value as 
possible for the Nation from the available funds. The Budget provides 
$1.172 billion for the Construction account, and $62 million in the 
Mississippi River and Tributaries account, to further this objective 
and gives priority to the projects with the greatest net economic and 
environmental returns per dollar invested, as well as to projects that 
address a significant risk to safety. The Budget includes funds for 
four high-priority construction new starts: Port Lions Harbor 
(Deepening and Breakwater), Alaska; Coyote and Berryessa Creeks, 
Berryessa Creek, California; Ohio River Shoreline, Paducah, Kentucky; 
and Marsh Lake, Minnesota River Authority, Minnesota. In keeping with 
our Civil Works transformation strategy, the Budget also allocates 
construction funding to complete projects and deliver their benefits to 
the Nation sooner.
    The Corps uses objective performance measures to establish 
priorities among projects. These include benefit-to-cost ratios for 
projects that are being funded primarily due to their economic outputs. 
For projects funded on the basis of their environmental return, those 
projects that are highly effective at restoring degraded structure, 
functions or processes of significant aquatic ecosystems on a cost-
effective basis are given priority. The selection process also gives 
priority to dam safety assurance, seepage control, and static 
instability correction projects and to projects that address a 
significant risk to safety.
                   operation and maintenance program
    All structures age over time with a potential decline in 
reliability. With proper maintenance and periodic rehabilitation, we 
can extend for many years the effective lifetime of most of the 
facilities owned or operated by, or on behalf of, the Corps. As 
stewards of this infrastructure, we are working to ensure that its key 
features continue to provide an appropriate level of service to the 
American people. In some cases, this is proving to be a challenge.
    The Corps strives to continually improve the efficiency and 
effectiveness of its investigations, construction, and operation and 
maintenance programs. In fiscal year 2016, the Corps will further 
expand the implementation of a modern asset management program, 
dedicating an increased amount of its O&M funding to the key features 
of its infrastructure and for work that will reduce long-term O&M costs 
in real terms, while implementing an energy sustainability program and 
pursuing efficiencies in the acquisition and operation of its 
information technology.
    The Budget for the operation and maintenance program provides $2.71 
billion in the Operation and Maintenance (O&M) account, and $152 
million in the Mississippi River and Tributaries account. Our focus in 
this program is on the operation and maintenance of key commercial 
navigation, flood and storm damage reduction, hydropower, and other 
facilities. The Budget gives priority to those coastal ports and inland 
waterways with the most commercial traffic, and includes $915 million 
to be spent from the Harbor Maintenance Trust Fund. The Budget also 
funds small harbors that support significant commercial fishing, 
subsistence, or public transportation benefits. The Budget provides 
operation and maintenance funding for safety improvements at Federal 
dams and levees based on the risk and consequence of a failure. 
According to our analyses, almost half of the 707 Corps dams will 
likely require some form of modification or risk reduction measure in 
the future if they are to continue to serve their original purposes.
    Generally, the O&M program supports completed works owned or 
operated by the Corps, including administrative buildings and 
laboratories. Work to be accomplished includes: operation of the locks 
and dams along the inland waterways; dredging of inland and coastal 
Federal channels; operating multiple purpose dams and reservoirs for 
flood risk reduction, hydropower, recreation, and related purposes; 
maintenance and repair of the facilities; monitoring of completed 
coastal projects; and general management of Corps facilities and the 
land associated with these purposes.
    The fiscal year 2016 Budget provides $212 million in Operation and 
Maintenance for hydropower activities in order to maintain basic power 
components such as generators, turbines, transformers and circuit 
breakers at Corps hydropower facilities to keep them operating 
efficiently and effectively. The Corps is the largest hydropower 
producer in the U.S., producing 24 percent of the Nation's hydropower.
                          reimbursable program
    Through the Interagency and International Services (IIS) 
Reimbursable Program, the Civil Works program helps other Federal 
agencies, State, local, and tribal governments, and other countries 
with timely, cost-effective implementation of their programs. These 
agencies can turn to the Corps of Engineers, which already has these 
capabilities, rather than develop their own internal workforce and 
expertise to oversee project design and construction. Such 
intergovernmental cooperation is effective for agencies and the 
taxpayer by using the skills and talents that we bring to our Civil 
Works and Military Missions programs. The work is principally technical 
oversight and management of engineering, environmental, and 
construction contracts performed by private sector firms, and is 
financed by the agencies we service. IIS Reimbursable Program 
activities in support of our domestic stakeholders totaled $905 million 
in fiscal year 2014. We only accept agency requests that are consistent 
with our core technical expertise, in the national interest, and that 
we can execute without impacting our primary mission areas.
                          emergency management
    The fiscal year 2016 Budget proposes an increase in funding for the 
Flood Control and Coastal Emergencies account to enable the Corps to 
prepare for emergency operations in response to natural disasters. The 
Budget for the emergency management program also includes $4.5 million 
for the National Emergency Preparedness Program as well as $3 million 
in the Investigations account for the Corps participation in the 
development and expansion of interagency teams, known as Silver 
Jackets, which collaboratively reduce the risks associated with 
flooding and other natural hazards. The Silver Jackets is an innovative 
program providing a common forum to address State and local flood risk 
management priorities. Silver Jacket programs are developed at the 
State level. Currently, there are 43 active teams (42 States and the 
District of Columbia); the ultimate goal is to offer an interagency 
team in every State.
                               conclusion
    The fiscal year 2016 Budget represents a continuing, fiscally 
prudent investment in the Nation's water resources infrastructure and 
restoration of its aquatic ecosystems. The U.S. Army Corps of Engineers 
is committed to a performance-based Civil Works Program, based on 
innovative, resilient, sustainable, risk-informed solutions.
    Thank you, Mr. Chairman and members of the subcommittee. This 
concludes my statement. I look forward to answering questions you or 
other members of the subcommittee may have.

    Senator Alexander. Thank you, General.
    Secretary Darcy.
STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY 
            OF THE ARMY FOR CIVIL WORKS
    Ms. Darcy. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee. Thank you for the opportunity to 
present the President's budget for the Civil Works Program of 
the Army Corps of Engineers for fiscal year 2016.
    This year's civil works budget reflects the 
administration's priorities through targeted investments in the 
Nation's water resources infrastructure, including dams and 
levees, navigation, and the restoration of ecosystems.
    It supports a civil works program that relies on a 
foundation of strong relationships between the Corps and local 
communities, which allows us to work together to meet their 
water resources needs.
    The budget also helps us in our efforts to promote the 
resilience of communities to respond to the impacts of climate 
change. We are investing in research, planning, vulnerability 
assessments, pilot projects, and evaluations of the value and 
performance of nonstructural and natural measures.
    The budget also helps us to maintain and improve our 
efforts on sustainability. For example, we are reducing the 
Corps' carbon footprint by increasing renewable electricity 
consumption, reducing greenhouse gas emissions, and reducing 
non-tactical vehicle petroleum consumption.
    We are also advancing our sustainability efforts by using 
innovative financing techniques, such as energy savings 
performance contracts.
    We are making important investments to promote the 
sustainable management of the lands around Corps facilities by 
providing funds to update the plans that govern how we manage 
our facilities and to help combat invasive species.
    The budget also focuses on maintaining the water resources 
infrastructure that the Corps owns and manages, and on finding 
innovative ways to rehabilitate it, hand it over to others, or 
retire it.
    Here are some of the funding highlights for this year's 
budget. It provides $4.7 billion in gross discretionary 
appropriations for the Army Civil Works Program, focusing on 
investments that will yield high economic and environmental 
returns or address a significant risk to public safety.
    The budget focuses funding on our three major mission 
areas, allocating 41 percent to commercial navigation, 27 
percent to flood and storm damage reduction projects, and 9 
percent to aquatic ecosystem restoration.
    Other effective and sound investments include allocating 5 
percent of the budget to hydropower, 2 percent to the cleanup 
of sites contaminated during the early years of the Nation's 
nuclear weapons program, and 4 percent to regulatory 
activities.
    Overall, the budget funds 57 projects, nine of those to 
completion. It also funds 54 feasibility studies, 13 of those 
to completion. The budget also includes four new construction 
starts, two of which the Corps will complete in 1 year.
    The budget funds inland waterway capital investments at 
$974 million, of which $53 million will be derived from the 
Inland Waterways Trust Fund. The budget provides $950 million 
from the Harbor Maintenance Trust Fund to maintain coastal 
channels and related works, matching the highest amount ever 
budgeted.
    The $44 million is provided for our comprehensive levee 
safety initiative that will help ensure that all Federal levees 
are safe and in line with the Federal Emergency Management 
Administration standards. This initiative will provide 
nonfederal entities with access to levee data that will inform 
them on safety issues.
    The budget supports a Corps program that has a diverse set 
of tools and approaches to working with local communities, 
whether this means funding projects with our cost-sharing 
partners or providing planning assistance and technical 
expertise to help communities make better informed decisions.
    This year, the President's civil works budget provides $31 
million for the Corps to provide local communities with 
technical and planning assistance to help them develop and 
implement nonstructural approaches to improve their resilience 
to the impacts of climate change.
    We continue to contribute to the Nation's environmental 
restoration and the budget provides funding to restore several 
large ecosystems that have been the focus of interagency 
collaboration, including the California Bay Delta, the 
Chesapeake Bay, the Everglades, the Great Lakes, and the Gulf 
Coast.
    Other funded Corps efforts include the Columbia River, 
portions of Puget Sound, and priority work in the upper 
Mississippi, as well as Missouri rivers.
    Finally, this budget provides $6 million for the Corps' 
Veterans Curation Program, which was started in 2009 with 
support from the American Recovery and Reinvestment Act. The 
program offers veterans the opportunity to learn tangible work 
skills and gain experience by rehabilitating and preserving 
federally owned or administered archaeological collections 
found at the Corps' projects.
    Mr. Chairman, if you could indulge me in having me give my 
personal thanks to Roger Cockrell, as well. He has been a 
longtime friend, a personal friend, as well as a friend to the 
Army and a friend to the Corps of Engineers. He will be truly 
missed.
    [The statement follows:]
               Prepared Statement of Hon. Jo-Ellen Darcy
    Thank you Chairman Simpson and distinguished members of the 
subcommittee for the opportunity to present the President's Budget for 
the Civil Works program of the Army Corps of Engineers for fiscal year 
2016. We are pleased to have an opportunity to further expand on the 
Administration's priorities and goals. Those priorities include 
promoting resilient communities in the wake of the impacts of climate 
change and sea level rise; fostering and maintaining strong 
partnerships with local communities; and practicing sustainability and 
sound stewardship across all our missions. I also want to take this 
opportunity to touch on points that this committee has raised in the 
past.
    This year's Civil Works Budget reflects the Administration's 
priorities through targeted investments in the Nation's water resources 
infrastructure, including dams and levees, navigation, and the 
restoration of aquatic ecosystems.
    The 2016 Civil Works Budget provides $4.7 billion in discretionary 
appropriations for the Army Civil Works program, focusing on 
investments that will yield high economic and environmental returns or 
address a significant risk to safety.
    The Budget focuses on funding our three major mission areas:
  --41 percent of funding is allocated to commercial navigation,
  --27 percent to flood and storm damage reduction,
  --And 9 percent to aquatic ecosystem restoration.
    Other practical, effective, sound investments include allocating 5 
percent of the Budget to hydropower, 4 percent to regulatory 
activities, and 2 percent to the clean-up of sites contaminated during 
the early years of the Nation's nuclear weapons program.
    The Civil Works program, which this Budget supports, relies on the 
strong relationships between the Corps and local communities; these 
strong relationships allow us to work together to meet their water 
resources needs across all of our missions, as well as to address 
broader water resources challenges that are of concern at the national 
or regional level.
    The Budget supports a Civil Works program that has a diverse set of 
tools and approaches to working with local communities, whether this 
means funding studies and projects with our cost-sharing partners, or 
providing planning assistance and technical expertise to help 
communities make better informed decisions.
                         planning modernization
    This Budget supports the continued implementation of Corps efforts 
to modernize its planning process. The Budget provides funding in the 
Investigations account for 54 feasibility studies, and funds 13 of them 
to completion.
    Section 1002 of the Water Resources Reform and Development Act of 
2014 repeals the requirement for the Corps to conduct a federally 
funded reconnaissance study prior to initiating a feasibility study. 
This creates an accelerated process which allows non-Federal project 
sponsors and the Corps to proceed directly to the cost shared 
feasibility study. The Budget reflects that change, and does not 
propose any new reconnaissance studies.
    The Budget reflects full implementation of the SMART (Specific, 
Measurable, Attainable, Risk Informed, Timely) planning initiative, 
under which each feasibility study is to have a scope, cost, and 
schedule that have been agreed upon by the District, Division, and 
Corps Headquarters. The Budget supports efficient funding of these 
studies.
    Studies generally are funded with the presumption that they will 
complete in 3 years and for $3 million ($1.5 million Federal). For most 
studies, the Corps estimates that it will spend $300,000 in the first 
year, $700,000 in the second year, and $500,000 in the final year. In 
the first year, the Corps will work to identify the problem, develop an 
array of alternatives, and begin the initial formulation. The bulk of 
the study costs are anticipated to be incurred during year two, as the 
alternatives are narrowed down and a Tentatively Selected Plan is 
identified, which requires more detailed feasibility analysis and 
formulation. During the third year, the focus is on completing the 
detailed feasibility analysis, State and agency review, and ?finalizing 
the Chief's Report. There are limited exceptions to this funding 
stream, where the Corps has approved an increase in the study cost or 
an extension in its schedule based on factors such technical 
complexity, public controversy, the need for more detailed work to 
address a specific issue, or the overall cost of a proposed solution.
    The Budget includes funding to complete two ongoing preconstruction 
engineering and design efforts. Within the past year, the Corps has 
initiated 19 new studies under the fiscal year 2014 and fiscal year 
2015 work plans. The Budget does not propose additional new studies for 
fiscal year 2016. Instead, the Corps would focus on managing its 
existing portfolio of ongoing studies and bringing them to a 
conclusion. However, the Budget does propose two important, new 
initiatives in the Investigations account--the North Atlantic Coast 
Comprehensive Study Focus Areas; and Disposition of Completed Projects. 
Both of these are funded as remaining items.
North Atlantic Coast Comprehensive Study Focus Areas
    The Disaster Relief Appropriations Act, 2013, tasked the Corps to 
work with a variety of partners to conduct a Comprehensive Study of the 
coastal areas affected by Hurricane Sandy to evaluate flood risks and, 
as part of this study, to identify areas warranting further analysis 
and institutional and other barriers to reducing flood risks. The Water 
Resources Reform and Development Act, 2014, provided further 
requirements to the study. In January of 2015, the U.S. Army Corps of 
Engineers released to the public the North Atlantic Coast Comprehensive 
Study (NACCS) detailing the results of a 2-year effort to address 
coastal storm and flood risk to vulnerable populations, property, 
ecosystems, and infrastructure in the North Atlantic region of the 
United States affected by Hurricane Sandy in October 2012.
    Within the NACCS, nine focus areas were identified and analyzed. 
There is a new remaining item included in the fiscal year 2016 Budget 
in the Investigations account to follow on with additional analysis 
into those focus areas; in-depth studies of three of the nine areas--
New York-New Jersey Harbor, the New Jersey Back Bays, and Norfolk, 
Virginia--will be undertaken beginning in fiscal year 2016 under this 
remaining item.
Disposition of Completed Projects
    The Corps would use the funds provided under the new remaining item 
for Disposition of Completed Projects to develop a process to help 
identify projects that it could sell or transfer to other parties, and 
to determine the viability of such a divestiture and what actions would 
be necessary to make it happen. In the future, funds provided through 
this line item would primarily be used to undertake studies or analyses 
of options for candidate projects to support specific divestiture 
recommendations.
                              construction
    The Budget for the construction program funds 53 ongoing efforts, 
and four new ones. It funds nine of them to completion. Several of 
these efforts are in fact programs, which comprise multiple projects. 
For transparency, the supporting budget justification materials for 
each of these programs display their constituent parts separately. For 
example, the South Florida Ecosystem Restoration Program includes many 
projects. Some of these projects are part of an integrated, ongoing 
Federal and State effort to restore the unique aquatic ecosystem of the 
Everglades; while others primarily seek to restore the aquatic 
ecosystems of surrounding areas. This year's Budget also presents the 
main stem flood damage reduction features of the Lower Mississippi 
River together, since they are the component parts of a single, 
integrated project.
    The Corps continues to contribute to the Nation's efforts to 
restore degraded environments; to that end, the Budget for the Corps 
funds restoration of several large aquatic ecosystems that have been a 
focus of interagency collaboration, including the California Bay-Delta, 
the Chesapeake Bay, the Everglades, the Great Lakes, and the Gulf 
Coast. Other funded efforts include the Columbia River, portions of 
Puget Sound, and priority work in the Upper Mississippi and Missouri 
Rivers.
    The Budget requests funds sufficient to complete nine construction 
projects. Among these is the Chicago Sanitary and Ship Canal Dispersal 
Barrier in Illinois; the Budget will allow the Corps to physically 
complete Permanent Barrier I and appurtenant features. Finishing this 
project has been a high priority of both the Administration and 
Congress and I am pleased that the Corps will be able to deliver a 
solution that will reduce the risk of migration of Asian carp and other 
invasive species between the Great Lakes and Mississippi River through 
the Chicago Area Waterway System (CAWS). After fiscal year 2016, work 
for this project will be limited to operation and maintenance and will 
be funded through the Operation and Maintenance account.
    The Budget also helps to further combat the spread of invasive 
species by its proposals for funding work associated with the Great 
Lakes and Mississippi River Interbasin Study (GLMRIS). The Budget 
supports efforts to reduce the risk of interbasin transfer of aquatic 
nuisance species through the CAWS in the vicinity of Brandon Road Lock 
and Dam. The Brandon Road effort will assess the viability of 
establishing a single point to control the one-way, upstream transfer 
of aquatic nuisance species from the Mississippi River basin into the 
Great Lakes basin near the Brandon Road Lock and Dam located in Joliet, 
Illinois. Carryover funds are being used to develop a scope, schedule, 
and cost for a study. This is needed as a basis for further action to 
undertake a feasibility-level evaluation of options to support a 
decision. The Budget includes funding to continue this effort.
    Another completion of note is the Main Tunnel System (Stage 1) of 
the McCook Reservoir, Illinois project. The $9 million in the Budget 
coupled with the additional funds provided in the fiscal year 2015 work 
plan will allow the Corps to complete this work on a schedule that will 
support the non-Federal sponsor, the Metropolitan Water District of 
Greater Chicago, in meeting its requirements under the Clean Water Act 
by December 2017.
    Also funded to completion are two dam safety projects in Oklahoma--
Pine Creek Lake and Canton Lake--that will result in reduced dam safety 
action classification ratings as a result of the construction.
Dam and Levee Safety
    Over the last several years, Congress has funded the dam safety 
program at a lower level than the Budget, based on revisions of 
capabilities that the Corps has provided to Congress subsequent to the 
Budget submission; these revisions--often but not always showing a 
lower capability than requested in the Budget--are caused by a variety 
of factors, including savings from contract awards, process 
efficiencies, and unforeseen changed conditions. The Budget includes 
$310 million (not including $24 million for the Dam Safety remaining 
item) for the dam safety program that, when coupled with anticipated 
unobligated carryover balances on these important projects, will ensure 
that each of the Dam Safety Action Classification (DSAC) I and DSAC II 
projects funded in the Budget is able to progress as efficiently and 
effectively as possible toward risk reduction.
    The Budget also provides $44 million for a comprehensive levee 
safety initiative that will help ensure that all Federal levees are 
safe and in line with the Federal Emergency Management Administration 
standards.
Inland Waterways
    The overall condition of the inland waterways has improved over the 
last few years. The number of lock closures due to preventable 
mechanical breakdowns and failures lasting longer than 1 day and 
lasting longer than one week has decreased significantly since fiscal 
year 2010. However, the lock closures that do occur result in 
additional costs to shippers, carriers, and users. That is why the 
Budget continues to provide a high level of funding to operate and 
maintain the inland waterways, with emphasis on those that together 
carry 90 percent of the commercial traffic.
    The Budget funds inland waterways capital investments at $974 
million, of which $53 million will be derived from the Inland Waterways 
Trust Fund (IWTF). With the passage of the Water Resources Reform and 
Development Act of 2014 (WRRDA 2014), the Olmsted Locks and Dam, Ohio 
River, Illinois and Kentucky project is now cost-shared 85 percent 
General funds and 15 percent IWTF. This change reduced the cost of this 
project to the navigation users by around $500 million, and increased 
the amount that Federal taxpayers will have to pay by an equivalent 
amount. In the ABLE Act, the Congress also increased the tax on diesel 
fuel used in commercial transportation on certain of the inland 
waterways. As a result of both of these changes, over the next few 
years there will be somewhat more money in the IWTF to support the 
user-financed share of inland waterways capital investments.
    The Administration has proposed legislation to reform the way that 
we finance capital investments for navigation on the inland waterways. 
The Administration's proposal includes a new user fee to produce 
additional revenue from the users to help finance long-term future 
capital investments in these waterways to support economic growth. We 
would like to work with the Congress to enact this legislation.
    The Corps also is working to develop a Capital Investment Program 
for the inland waterways. It will coordinate this effort with 
stakeholders and the Inland Waterways Users Board to provide an 
opportunity for their input. The process will include development of 
objective nationwide criteria to provide a framework for deciding which 
capital investments should have priority for funding from a national 
perspective.
                       operation and maintenance
    The Budget provides $2.71 billion for Operation and Maintenance, 
with $1.08 billion for operation and $1.44 billion for maintenance, and 
an additional $186 million for remaining items. This encompasses a wide 
range of activities, from operating and maintaining our locks and dams 
to monitoring the condition of dunes and berms that reduce the risk of 
flooding in a hurricane from wave action and storm surges, running the 
Corps recreation facilities that are visited by millions of Americans 
each year, and helping us be responsible stewards of the lands 
associated with Corps projects and operate them in an increasingly 
sustainable fashion.
    For example, the Budget helps us maintain and improve our efforts 
on sustainability. We are reducing the Corps' carbon footprint by:
  --increasing renewable electricity consumption,
  --reducing greenhouse gas emissions,
  --and reducing non-tactical vehicle petroleum consumption.
    The Budget continues to support the Corps' actions to improve the 
sustainability of our facilities and projects, by participating in 
Energy Savings Performance Contracts, which are innovative tools that 
enable us to work with non-Federal partners in financing improvements 
that otherwise might be postponed due to competition for scarce Federal 
dollars, and which can help to make upgrades to our facilities in ways 
that have immediate positive impacts, such as by cutting power 
consumption from lighting and buildings.
    We are also making important investments to promote the sustainable 
management of the lands around Corps facilities; the Budget provides 
$2.3 million to update 22 of the Master Plans that govern how we manage 
our facilities, which will helps us make better decisions about how to 
use the land and keep it healthy, such as by combating invasive 
species.
Harbor Maintenance Trust Fund
    The Budget provides $915 million from the Harbor Maintenance Trust 
Fund (HMTF) to maintain coastal channels and related work, matching the 
highest amount ever budgeted. This includes $856 million from the O&M 
Account, $2 million from the Mississippi River & Tributaries account, 
and $57 million from the Construction account.
Levels of Service
    At some of our navigation projects, we have adopted changes to the 
level of service at low commercial use locks (those with less than 
1,000 commercial lockages per year). The Corps has worked with 
navigation stakeholders to reduce impacts to commercial users. 
Generally, commercial traffic will be able to continue to use the locks 
at certain times. The intent of this effort is to focus the available 
Federal resources on maintenance that will extend the service life of 
these or other navigation locks.
                        research and development
    Research, Development, and Technology is a component of the Science 
and Technology portfolio of the Corps and continues to address key 
strategic technology needs to inform policy-making and business 
processes. The fiscal year 2016 Budget includes $18.1 million for 
research and development. This funding will be used to extend the 
service life of water resources infrastructure through research, use of 
novel materials, and technology transfer. Research, Development, and 
Technology efforts address ways to maintain or improve the reliable and 
efficient operation of marine transportation, continued development of 
tools for flood and coastal storm preparation and recovery, and 
capabilities that address ecosystem restoration, sustainable 
environmental management, and changing environmental conditions.
                            remaining items
    The Budget includes $61 million in the Investigations account, $47 
million in the Construction account, and $186 million in the Operation 
and Maintenance account for remaining items.
    Annual funding for these remaining items is determined based on 
current needs, such as the increased focus on technical assistance to 
States and local communities to improve resilience to climate change.
    This year, the President's Civil Works Budget provides $31 million 
for the Corps to provide these resources to local communities, to 
improve their resilience to the impacts of climate change and sea level 
rise.
                           regulatory program
    The Budget includes a $5 million increase from the fiscal year 2015 
Budget level for the Regulatory program, which is necessary to 
implement Clean Water Act (CWA) rulemaking activities while maintaining 
staffing needs, adequate scientific and technologic support, and 
Regulatory strategic priorities. This increase is based on estimates 
derived from the EPA Economic Analysis to support revisions to the 
definition of waters of the United States and would support certain 
actions to facilitate implementation, such as changes to documentation 
forms, training, science and technology development, and public 
outreach. Without the increase over 2015 levels, resources could be 
shifted away from permit evaluation, affecting processing times and 
increasing the time it takes to render a permit decision.
         alternative financing and public-private partnerships
    As part of looking to the future of the Army's Civil Works program, 
we are considering potential tools to expand and strengthen our already 
strong partnerships, especially in the area of Alternative Financing. 
As part of this effort, we are actively talking with potential non-
Federal partners about their ideas for how we can work together and 
soliciting suggestions and best practices from others in the Federal 
Government with experience in this area.
    As part of this effort, we are considering new authorities, such as 
Section 5014 of the Water Infrastructure Finance and Innovation Act 
(WIFIA), and other parts of WRDDA 2014. We are focusing on 
understanding how we could structure programs to provide efficient 
forms of Federal assistance and partnership under authorities, 
including identifying potential challenges to implementation and what 
additional tools we may need to successfully engage in public-private 
partnerships. There are limitations on how such structures can be 
applied to the Civil Works program, but we are working on developing 
several pilots to flesh out opportunities associated with alternative 
financing.
    We are also considering other approaches to public-private 
partnerships, such as by expanding use of existing authorities. In some 
cases, non-Federal sponsors have expressed interest in contributing 
funds to enable work to occur more quickly than it could with just 
Federal funds. Before entering into an agreement to accept such funds, 
the Corps carefully evaluates its overall workload to ensure that 
execution of the proposed work will not adversely affect directly-
funded programs, projects and activities.
                       veterans curation program
    Finally, this Budget provides $6 million for the Corps' Veterans 
Curation Program, which was started in 2009 with support from the 
American Recovery and Reinvestment Act. This program offers veterans 
the opportunity to learn tangible work skills and gain experience by 
rehabilitating and preserving federally owned or administered 
archaeological collections found at Corps projects.
    Thank you all for attending today. General Bostick will provide 
further remarks on the Army Corps of Engineers 2016 Budget.

    Senator Alexander. Thank you, Secretary Darcy.
    Commissioner Lopez.

                       DEPARTMENT OF THE INTERIOR


                         Bureau of Reclamation

STATEMENT OF HON. ESTEVAN LOPEZ, COMMISSIONER

    Mr. Lopez. Thank you, Chairman Alexander, Ranking Member 
Feinstein, and members of the subcommittee. It is an honor and 
pleasure to appear before this subcommittee to discuss the 
President's fiscal year 2016 budget for the Bureau of 
Reclamation. I appreciate the time and consideration given to 
understanding Reclamation's budget, projects, and programs. I 
look forward to working collaboratively with you to continue to 
address complex water issues in the West. I have submitted 
detailed testimony for the record.
    Reclamation's overall fiscal year 2016 budget is $1.1 
billion. It allocates funds based on objective and performance-
based criteria designed to effectively implement Reclamation's 
programs and management responsibilities for its water and 
power infrastructure in the West. At this time, I would like to 
give you some highlights of that budget.
    The budget supports the Powering Our Future initiative by 
including $1.3 million to implement an automated data 
collection and archival system to aid in hydropower 
benchmarking, performance testing, and strategic 
decisionmaking; to investigate Reclamation's capability to 
integrate large amounts of renewable resources, such as wind 
and solar power to the electric grid; and to assist tribes in 
developing renewable energy sources.
    Reclamation's budget supports Interior's Strengthening 
Tribal Nations initiative, through endangered species recovery, 
rural water projects, and water rights settlement programs. The 
budget includes $112.5 million for the planning and 
construction of five recent Indian water rights settlements. 
Reclamation's Native American Affairs Program is funded at 
$10.9 million for activities with tribes, including technical 
assistance, Indian water rights settlement negotiations, and 
implementation of enacted settlements, as well as outreach to 
Tribes.
    The budget includes $36.5 million for rural water projects, 
of which $18 million is for the operation and maintenance of 
completed tribal systems. A remaining $18.5 million is for the 
continued construction of authorized projects, which benefit 
both tribal and nontribal communities.
    The budget supports the Engaging the Next Generation 
initiative by continuing to provide work and training 
opportunities by leveraging funding through agreements with 
conservation partnerships, such as the 21st Century 
Conservation Service Corps.
    The budget supports ecosystem restoration, providing $158 
million to operate, manage, and improve California's Central 
Valley Project (CVP), including $35 million in current 
appropriation for the San Joaquin Restoration Fund. Within the 
CVP total, the Trinity River Restoration Program is proposed at 
$11.9 million with an additional $1.5 million in the Central 
Valley Project Restoration Fund.
    The budget provides $437.7 million at a project level for 
water and power facilities operation, maintenance, and 
rehabilitation activities. Reclamation's highest priority is 
the safe, efficient, economic, and reliable operation of its 
facilities, ensuring system and safety measures are in place to 
protect those facilities and the public.
    The budget provides $88.1 million for Reclamation's Safety 
of Dams program, which includes $66.5 million to correct and 
identify safety issues, $20.3 million for safety evaluations of 
existing dams, and $1.3 million to oversee the Interior 
Department's Safety of Dams program.
    Consistent with the direction in the President's 2013 
Climate Action Plan, Reclamation is developing and implementing 
approaches for climate change adaptation to understand and 
effectively adapt to the risks and impacts of a changing 
environment on Western water management, including through 
Interior's WaterSMART program.
    Principal Deputy Assistant Secretary Gimbel is going to 
describe the WaterSMART program, so I won't repeat that here.
    The Science and Technology Program is funded at $16.6 
million for water resources research to improve capability to 
manage water resources under multiple stressors, including a 
changing climate. Reclamation is committed to working with its 
customers, Federal, State, and Tribal partners and other 
stakeholders to find ways to meet our challenging water 
resource demands in 2016 and into the future.
    This completes my statement. I would be happy to answer 
questions at the appropriate time.
    [The statement follows:]
                Prepared Statement of Hon. Estevan Lopez
    Thank you Chairman Alexander, Ranking Member Feinstein and members 
of this subcommittee for the opportunity to discuss with you the 
President's fiscal year 2016 budget for the Bureau of Reclamation.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding Reclamation's budget, projects, and 
programs and I look forward to working with the committee in the future 
as Reclamation continues to address water issues in the West. 
Reclamation is committed to prioritizing and implementing its overall 
program in a manner that serves the best interest of the American 
public.
    Reclamation's fiscal year 2016 budget sustains our efforts to 
deliver water and generate hydropower, consistent with applicable 
Federal and State law, in an environmentally responsible and cost-
efficient manner. It also supports the Administration's and Department 
of the Interior's (Department) priorities to ensure healthy watersheds 
and sustainable, secure water supplies; build a landscape-level 
understanding of our resources; celebrate and enhance America's great 
outdoors; power our future; strengthen tribal nations; and engage the 
next generation.
    The extreme and prolonged drought facing the Western States affects 
many major river basins in the Western States. The effects of the 
current drought on California's Sacramento and San Joaquin River 
Basins, water, its agricultural economy, and its communities are 
particularly acute. Another basin crucial for seven States and a number 
of Native American Tribes--in addition to two countries--is the 
Colorado River Basin. Nearly 35 million people rely on the Colorado 
River for some, if not all, of their municipal and industrial needs. 
The Basin is currently experiencing a historic drought that has not 
been witnessed in over 100 years of recorded history. Lake Mead, behind 
Hoover Dam on the Colorado River, has reached its lowest level since 
filled more than 75 years ago. Snowpack, which acts like reservoir 
storage for many western basins, is below normal in many areas.
    This budget addresses priorities by allocating funds based on 
objective and performance-based criteria to most effectively implement 
Reclamation's programs and its management responsibilities for its 
water and power infrastructure in the West. Climate variability 
adaptation, water supply, water conservation, improving infrastructure, 
sound science to support critical decisionmaking, and ecosystem 
restoration were balanced in the formulation of the fiscal year 2016 
budget. Reclamation continues to look at ways to more efficiently plan 
for the future challenges faced in water resources management and to 
improve the way it does business.
    This budget focuses on meeting National priorities for: Indian 
water rights settlements, ecosystem restoration, and healthy watersheds 
and sustainable, secure water supplies. In order to meet Reclamation's 
mission goals, we are building a landscape-level understanding of our 
resources and the protection and restoration of the aquatic and 
riparian environments influenced by our operations. Ecosystem 
restoration involves a large number of activities, including 
Reclamation's Endangered Species Act recovery programs, which directly 
address the environmental aspects of the Reclamation mission. This 
includes increased efforts to support Platte River Recovery to meet key 
timelines in the partnership with the States of Colorado, Nebraska, and 
Wyoming. Reclamation is engaged in several river restoration projects.
                      water and related resources
    The 2016 budget for Water and Related Resources, Reclamation's 
principal operating account, is $805.2 million. The fiscal year 2016 
budget shifts $112.5 million from this account to establish a separate 
Indian Water Rights Settlement Account and $35.0 million for a separate 
discretionary account within the San Joaquin River Restoration Fund.
    The 2016 budget includes a total of $367.4 million at the project 
and program level for water, energy, land, and fish and wildlife 
resource management and development activities. Funding in these 
activities provides for planning, construction, water sustainability 
activities, management of Reclamation lands, including recreation 
areas, and actions to address the impacts of Reclamation projects on 
fish and wildlife.
    The budget also provides a total of $437.7 million at the project 
level for water and power facility operations, maintenance, and 
rehabilitation activities. Reclamation emphasizes safe, efficient, 
economic, and reliable operation of facilities, ensuring systems and 
safety measures are in place to protect the facilities and the public. 
Providing adequate funding for these activities continues to be one of 
Reclamation's highest priorities.
     highlights of the 2016 budget for water and related resources
    I would like to share with the committee several highlights of the 
Reclamation budget. Reclamation's budget continues to promote and 
support efficient water management, increased renewable energy 
production, the construction of new infrastructure and sound 
maintenance of existing facilities, restoration of aquatic 
environments, and the continued use of applied science and new 
technologies to help ensure sustainable water deliveries and energy 
production. As a result, Reclamation continues to play an important 
role in providing a strong foundation for economic activity across the 
American West.
    WaterSMART Program--One method Reclamation employs to stretch water 
supplies in the West and prepare for these ongoing challenges is the 
WaterSMART (Sustain and Manage America's Resources for Tomorrow) 
Program. The programs included in WaterSMART are collaborative in 
nature and work to effectively achieve sustainable water management. 
WaterSMART Grants, Title XVI Water Reclamation and Reuse, and the Water 
Conservation Field Services Program, along with other Reclamation 
activities, support the Department's Priority Goal for Water 
Conservation. The Basin Studies component of WaterSMART supports the 
Department's priority for Ensuring Healthy Watersheds and Sustainable, 
Secure Supplies.
    In the 2016 budget, Reclamation proposes to fund WaterSMART at 
$58.1 million. The WaterSMART components include: WaterSMART Grants 
funded at $23.4 million; the Basin Study Program funded at $5.2 
million; the Title XVI Water Reclamation and Reuse Program funded at 
$20.0 million; Water Conservation Field Services Program, funded at 
$4.2 million; the Cooperative Watershed Management Program, funded at 
$250,000; the Drought Response program, funded at $2.5 million, and the 
Resilient Infrastructure program, funded at $2.5 million.
    Rural Water Projects--Congress specifically authorized Reclamation 
to undertake the design and construction of six projects intended to 
deliver potable water supplies to specific rural communities and Tribes 
located primarily in Montana, New Mexico, North Dakota, and South 
Dakota. The 2016 Reclamation budget includes $36.5 million for rural 
water projects, $18.0 million of that total is for operation and 
maintenance of completed tribal systems and the remaining $18.5 million 
is for continued construction for authorized projects.
    Dam Safety Program--A total of $88.1 million is provided for 
Reclamation's Safety of Dams Program, which includes $66.5 million to 
correct identified safety issues. Funding also includes $20.3 million 
for safety evaluations of existing dams and $1.3 million to oversee the 
Interior Department's Safety of Dams Program.
    Site Security--A total of $26.2 million is provided for Site 
Security to ensure the safety and security of the public, Reclamation's 
employees, and key facilities. This funding includes $4.1 million for 
physical security upgrades at high risk critical assets and $22.1 
million to continue all aspects of Bureau-wide security efforts 
including law enforcement, risk and threat analysis, personnel 
security, information security, risk assessments and security-related 
studies, and guards and patrols.
    Powering Our Future--To support the Powering Our Future initiative, 
the 2016 Reclamation budget includes $1.3 million to implement an 
automated data collection and archival system to aid in hydropower 
benchmarking, performance testing and strategic decisionmaking; 
investigate Reclamation's capability to help integrate large amounts of 
renewable resources such as wind and solar into the electric grid; and 
work with Tribes to assist them in developing renewable energy sources. 
These important projects will assist in the production of cleaner, more 
efficient renewable energy.
    Strengthening Tribal Nations--The 2016 Reclamation budget supports 
the Strengthening Tribal Nations initiative through a number of 
activities and projects. For example, the budget includes $10.9 million 
for Reclamation's Native American Affairs Program in support of 
Reclamation activities with Tribes, including technical assistance, 
Indian Water Rights Settlement negotiations, implementation of enacted 
settlements, and outreach to Tribes; and $15.3 million to continue the 
operation and maintenance associated with the delivery up to 85,000 
acre-feet of water to the Ak-Chin Indian Community. Ongoing authorized 
rural water projects also benefit both tribal and non-tribal 
communities. Projects in the fiscal year 2016 budget benefiting Tribes 
include the rural water component of the Pick-Sloan Missouri Basin 
Program, Garrison Diversion Unit; Fort Peck Reservation/Dry Prairie; 
and Rocky Boy's/North Central Montana; and operation and maintenance 
funding only for tribal features of the Mni Wiconi Project following 
completion of construction. Numerous other projects and programs, such 
as the Columbia/Snake River Salmon Recovery Program, Klamath Project, 
and the Yakima River Basin Water Enhancement Project also benefit 
Tribes. In 2016, $112.5 million for planning and construction of five 
recent Indian Water Rights Settlements is being proposed in a new 
separate account as described below.
    Ecosystem Restoration--To meet Reclamation's mission goals of 
securing America's energy resources and managing water in a sustainable 
manner for the 21st century, our programs also focus on the protection 
and restoration of the aquatic and riparian environments influenced by 
our operations. Ecosystem restoration involves many activities, 
including Reclamation's Endangered Species Act recovery programs, which 
directly address the environmental aspects of the Reclamation mission. 
In 2016, a total of $122.1 million in Reclamation's budget directly 
supports the goals of the America's Great Outdoors Program, through 
local and basin-wide collaboration in watershed partnerships.
    The budget has $24.4 million for Endangered Species Act Recovery 
Implementation programs including $17.5 million in the Great Plains 
Region to implement the Platte River Endangered Species Recovery 
Implementation program. Within California's Central Valley Project, 
$11.9 million is for the Trinity River Restoration Program, with an 
additional $1.5 million from the Central Valley Project Restoration 
Fund.
    Many other projects and programs also contribute to ecosystem 
restoration including the Lower Colorado River Multi-species 
Conservation Program, Middle Rio Grande Endangered Species Act 
Collaborative Program, the Columbia/Snake River Salmon Recovery 
Program, and the Yakima River Basin Water Enhancement Project.
    Engaging the Next Generation--By September 30, 2017, the Department 
of the Interior will provide 100,000 work and training opportunities 
over four fiscal years, 2014 through 2017, for individuals ages 15 to 
35 to support the mission of the Department. In fiscal year 2016, 
Reclamation will continue to provide work and training opportunities by 
leveraging funding through agreements with 21st Century Conservation 
Service Corps partners and through other conservation partnerships.
    Climate Change Adaptation--Consistent with the direction in the 
President's 2013 Climate Action Plan, Reclamation is developing and 
implementing approaches to understand, and effectively adapt to, the 
risks and impacts of a changing environment on western water 
management. Some examples include:
  --The Basin Study Program takes a coordinated approach to assess 
        risks and impacts; develop landscape-level science; communicate 
        information and science to other entities and agencies; and 
        work closely with stakeholders to develop adaptation strategies 
        to cope with water supply and demand imbalances in a 
        collaborative manner.
  --The Drought Response Program will implement, under existing 
        authorities, a comprehensive new approach to drought planning 
        and will implement actions to help communities manage drought 
        and develop long-term resilience strategies.
  --Through the Resilient Infrastructure Program, Reclamation will 
        proactively maintain and improve existing infrastructure for 
        system reliability, safety, and efficiency for water 
        conservation to prepare for extremes and to support healthy and 
        resilient watersheds. Reclamation will continue to develop, 
        implement, and test an enhanced decisionmaking criteria 
        framework for selecting resilient infrastructure investments 
        and will identify opportunities to integrate operational 
        efficiencies more compatible with climate variability 
        adaptation goals, as part of the Bureau's ongoing 
        infrastructure investments.
  --Reclamation's Science and Technology Program conducts water 
        resources research to improve capability for managing water 
        resources under multiple stressors, including a changing 
        climate. This research agenda will collaborate with and 
        leverage the capabilities of the Interior Climate Science 
        Centers.
  --Reclamation's WaterSMART Grants, Water Conservation Field Services, 
        and Title XVI Programs are enabling the West to better adapt to 
        the impacts of a changing environment by helping to conserve 
        tens of thousands of acre-feet of water each year in urban and 
        rural settings, and on both large and small scales.
    The 2016 Water and Related Resources budget provides $123.0 million 
to operate, manage, and improve California's Central Valley Project. 
The next three accounts are also related to California water and 
restoration.
                   san joaquin river restoration fund
    Reclamation proposes $35.0 million of current funds for the San 
Joaquin River Restoration Fund account in 2016. The 2016 budget funds 
activities consistent with the settlement of Natural Resources Defense 
Council v. Rodgers as authorized by the San Joaquin River Restoration 
Settlement Act. The Act includes a provision to establish the San 
Joaquin River Restoration Fund to implement the provisions of the 
Settlement. The Settlement's two primary goals are to restore and 
maintain fish populations, and restore and avoid adverse impacts to 
water supplies. Under the Settlement, the legislation provides for 
nearly $2.0 million in annual appropriations from the Central Valley 
Project Restoration Fund for this purpose.
                central valley project restoration fund
    The 2016 budget includes a total of $49.5 million for the Central 
Valley Project Restoration Fund (CVPRF). This amount is determined on 
the basis of a 3-year rolling average not to exceed $50.0 million per 
year and indexed to 1992 price levels. These expenditures are offset by 
collections estimated at $49.5 million from mitigation and restoration 
charges authorized by the Central Valley Project Improvement Act.
                    california bay-delta restoration
    The 2016 budget provides $37.0 million for California Bay-Delta 
Restoration, equal to the 2015 budget. The account focuses on the 
health of the Bay-Delta ecosystem and improving water management and 
supplies. The budget will support the coequal goals of environmental 
restoration and improved water supply reliability, under the following 
program activities including: $1.7 million for a Renewed Federal State 
Partnership, $7.2 million for Smarter Water Supply and Use, and $28.1 
million for Habitat Restoration. These program activities are based on 
the Interim Federal Action Plan for the California Bay-Delta issued 
December 22, 2009.
                    indian water rights settlements
    In 2016, Reclamation will enhance support of tribal nations. The 
2016 budget proposes $112.5 million for Indian Water Rights Settlements 
(IWRS), in a new account of the same name. Reclamation is proposing 
establishment of an Indian Water Rights Settlements account to assure 
continuity in the construction of the authorized projects, and to 
highlight and enhance transparency in handling these funds. This 
account is proposed to cover expenses associated with the four Indian 
water rights settlements contained in the Claims Resolution Act of 2010 
(Public Law 111-291) and the Navajo-Gallup Water Supply Project within 
Title X of the Omnibus Public Land Management Act of 2009 (Public Law 
111-11).
    Of this amount, $6.0 million is for the Aamodt Settlement (Pueblos 
of Nambe, Pojoaque, Tesuque and San Ildefonso in New Mexico); $12.8 
million for the Crow Settlement (Crow Tribe in Montana); $89.7 million 
for the Navajo-Gallup Settlement (Navajo Nation in New Mexico); and 
$4.0 million for the Taos Settlement (Taos Pueblo in New Mexico). These 
settlements will provide permanent water supplies and offer economic 
security for the Tribes and pueblos described above. The agreements 
will build and improve reservation water systems, rehabilitate 
irrigation projects, construct a regional multi-pueblo water system, 
and codify water-sharing arrangements between Indian and neighboring 
communities.
    Construction will take place over time, and annual funding 
requirements will vary from year to year. Per the Claims Resolution Act 
of 2010, in addition to the discretionary funding included in this 
budget, additional mandatory funds have already been made available to 
Reclamation, in order to realize the deadlines mandated in the 
settlement acts. The White Mountain Apache Tribe activities will 
continue in 2016 using mandatory funds.
                       policy and administration
    The 2016 budget for Policy and Administration, the account that 
finances Reclamation's central and regional management functions is 
$59.5 million. The account supports activities necessary to the 
management and administration the of the bureau which are not 
chargeable directly to a specific project or program, such as corporate 
oversight, policy and overall program management, budget preparation, 
finance and procurement, and management of safety and health, human 
resources, and information technology.
                        permanent appropriations
    The total permanent appropriation of $117.4 million in 2016 
primarily includes $114.2 million for the Colorado River Dam Fund. 
Revenues from the sale of Boulder Canyon power are placed in this fund 
and are available without further appropriation to pay for operation 
and maintenance of the project and other costs.
         2016 through 2018 priority goal for water conservation
    Priority goals are a key element of the President's agenda for 
building a high-performing government. The priority goals demonstrate 
that our programs are a high value to the public and they reflect 
achievement of key Departmental milestones. These goals focus attention 
on initiatives for change that have significant performance outcomes, 
which can be clearly evaluated, and are quantifiable and measurable in 
a timely manner. Reclamation's participation in the Water Conservation 
priority goal helps to achieve these objectives.
    The 2016 budget will enable Reclamation to achieve water 
conservation capability for agricultural, municipal, industrial, and 
environmental uses in the western United States by 975,000 acre-feet 
(since 2009) through September 30, 2016. This will be accomplished 
through the use of the WaterSMART Program to assist communities in 
stretching water supplies while improving water management and 
increasing the efficient use of water. Reclamation has already exceeded 
the prior goal of 840,000 acre-feet by the end of fiscal year 2015 by 
partnering with States, Indian Tribes, irrigation and water districts 
and other organizations with water or power delivery authority to 
implement programs resulting in water conservation.
    Reclamation is participating in the following priority goals to 
help achieve the objectives set out by the President: Water 
Conservation, Renewable Energy, Climate Adaption, and Youth Employment 
and Training. The Department is currently employing a set of internal 
measures and milestones to monitor and track achievement of the 
Priority Goals.
    Reclamation is requesting two significant changes in authorizations 
for which language is included in our fiscal year 2016 request. The 
first is to extend the California Federal Bay-Delta Authorization Act, 
as amended, from 2016 to 2018, so the CALFED program can continue its 
critical mission--even more important given the current drought. 
Language is also included as part of the 2016 Budget to increase the 
authorized appropriations ceiling of Section 9504(e) of the Secure 
Water Act of 2009 from $300 million to $400 million. The latter 
provides much of the funding for Reclamation's WaterSMART program, 
which is one of our most effective programs.
    Importantly, the 2016 budget demonstrates Reclamation's commitment 
to addressing the water and power demands of the West in a fiscally 
responsible manner. This budget continues Reclamation's emphasis on 
cost-effectively managing, operating, and maintaining its public 
infrastructure, and in delivering water and power in an environmentally 
and economically sound manner, in the interest of the American public. 
Reclamation is committed to working with its customers, States, Tribes, 
and other stakeholders to find ways to balance and support the mix of 
water resource demands in 2016 and beyond.
                               conclusion
    This completes my statement. I would be happy to answer any 
questions.

    Senator Alexander. Thank you, Commissioner Lopez.
    Ms. Gimbel.
STATEMENT OF JENNIFER GIMBEL, PRINCIPLE DEPUTY 
            ASSISTANT SECRETARY FOR WATER AND SCIENCE
    Ms. Gimbel. Good afternoon, Chairman Alexander, Senator 
Feinstein, members of the subcommittee. I am Jennifer Gimbel, 
Interior's Principal Deputy Assistant Secretary for Water and 
Science. I appreciate the opportunity to talk with you about 
Water and Related Programs at the Department of the Interior.
    My office oversees the Bureau of Reclamation and USGS 
activities. I am particularly pleased today to join Senator 
Udall in introducing Commissioner Estevan Lopez. We are 
fortunate to have someone of the caliber and with the 
experience of Commissioner Lopez at the helm of the Bureau of 
Reclamation.
    I will highlight just a few of our overall programs with 
respect to water challenges across the country.
    It is well known that we are facing unprecedented pressure 
on our water supplies all across the Nation, but particularly 
in the West. We continue to experience drought not only in 
California but on the Colorado River and the Rio Grande River 
basins.
    Population growth, aging infrastructure, a changing 
climate, increased domestic energy development, and recognition 
of ecosystem needs are all challenging the already scarce 
supplies. This subcommittee is well aware of these challenges.
    This administration continues to put high priority on 
addressing these challenges both in the short- and long-term. 
The specific focus of Interior's WaterSMART program is to 
secure and stretch water supplies and to provide tools that 
allow water managers to continue to move toward sustainability.
    To date, Reclamation has helped to create an additional 
supply of more than 860,000 acre-feet of water for the West. 
That is enough water to supply nearly 1 million families of 
four for a year.
    In 2016, Reclamation proposes to fund WaterSMART at $58.1 
million. Those programs include $23.4 million for the 
WaterSMART water efficiency grants, $20 million for Title XVI 
Water Reclamation and Reuse funding, and $5.2 million for Basin 
Studies, which have broad State and local support.
    Basin Studies are an excellent tool that allows Reclamation 
to work with water managers and other water interests by 
convening a collaborative and proactive analysis of particular 
watersheds and working with stakeholders to identify options 
and strategies to respond to changing needs and anticipated 
shortages.
    Although not under your jurisdiction, I thought you would 
be interested to know that USGS is asking for $31 million under 
the WaterSMART program to help understand the quantity and 
quality of our water resources nationwide.
    This year California is in the bull's eye with respect to 
drought. Interior, with the Departments of Agriculture and 
Commerce, is continuing to work with the State of California to 
pursue projects that might help stretch California water 
supplies. In December of this year, Reclamation and partner 
agencies developed a draft Interagency 2015 Drought Strategy. I 
know Senator Feinstein is very familiar with this strategy.
    On the Colorado River, Reclamation has been working with 
municipal providers in Arizona, California, Nevada, and 
Colorado on a Colorado River System Conservation Pilot Program 
to begin to address long-term imbalance on the Colorado River.
    Finally, the Central Utah Project Completion Act Office, or 
CUPCA, is under the auspices of the Office of Water and 
Science. In this budget, we are no longer proposing that CUPCA 
be integrated into Reclamation. We will keep it a separate 
program in Interior, and we are requesting $7.3 million for the 
budget for that this year.
    The budgets of the Department of the Interior and the 
Bureau of Reclamation support these water priorities. We very 
much appreciate the support this subcommittee has shown for 
Reclamation's mission and projects over the year. That 
concludes my oral statement.
    [The statement follows:]
                 Prepared Statement of Jennifer Gimbel
    Chairman Alexander, Ranking Member Feinstein and members of this 
subcommittee, I am pleased to appear before you today to discuss the 
President's fiscal year 2016 budget for the Department of the 
Interior's Bureau of Reclamation and Central Utah Project Completion 
Act. I would like to thank the members of this subcommittee for your 
efforts to enact a fiscal year 2015 appropriation, and for your ongoing 
support for our initiatives.
    The 2016 budget request is $13.2 billion for the Department of the 
Interior. The Secretary will testify later this month before various 
Congressional committees on the Department's request. I am here today 
to discuss the President's fiscal year 2016 budgets for the Bureau of 
Reclamation and the Central Utah Project Completion Act, which is a 
Department of the Interior program that reports to the Office of Water 
and Science. My office is also responsible for the United States 
Geological Survey, which is funded by the Interior and Environment 
Subcommittee. As in the past, we are thankful to the subcommittee for 
your continued support of these programs.
                              introduction
    The Department of the Interior's mission affects the lives of all 
Americans. Interior has stewardship of 20 percent of the Nation's 
lands, oversees the responsible development of 21 percent of U.S. 
energy supplies, is the largest supplier and manager of water in the 17 
western States, maintains relationships with 566 federally recognized 
Tribes, and provides services to more than two million American Indian 
and Alaska Native peoples. This budget enables the Department to carry 
out its important missions in resource stewardship, balanced 
development of energy and mineral resources, water management and 
conservation, providing opportunities to youth and veterans, resilience 
in the face of a changing climate, advancement of self-determination 
and stronger communities for tribal Nations, and fulfilling commitments 
to Insular communities. The Interior Department's fiscal year 2016 
budget maintains core capabilities to meet these responsibilities and 
proposes investments in key priorities.
   ensuring healthy watersheds and sustainable, secure water supplies
    The 2016 budget addresses the Nation's water challenges through 
investments in water conservation, sustainability, and infrastructure 
critical to the arid Western United States and its fragile ecosystems.
Drought
    Ongoing and multi-year droughts in California and across other 
Western States are resulting in water shortages impacting agriculture, 
municipalities and ecosystem functions and underscoring the importance 
of improving the resilience of communities to the effects of climate 
change. In 2014, Reclamation awarded $17.8 million in WaterSMART water 
and energy efficiency grants and $20.0 million in Title XVI Water 
Reclamation and Reuse projects that contribute significantly to drought 
response and resilience. In November 2014, Reclamation awarded $9.2 
million for 131 research projects within five research priority areas. 
The research projects are leveraged with partners providing $3.8 
million in non-Federal cost sharing.
    The Departments of the Interior, Agriculture, and Commerce are 
continuing their work with the State of California to accelerate water 
transfers and exchanges, provide operational flexibility to store and 
convey water, expedite environmental review and compliance actions, and 
to pursue new or fast-track existing projects that might help stretch 
California's water supplies. In December 2014, Reclamation and partner 
agencies developed a draft Interagency 2015 Drought Strategy for the 
Central Valley Project (CVP) and State Water Project (SWP) which 
outlines a preliminary framework for the Drought Contingency Plan for 
Operations of the CVP and SWP, the Drought Contingency Biological 
Monitoring Plan, and other Drought-Related Measures.
    The U.S. Geological Survey is providing California managers and 
residents with timely and meaningful data to help decisionmaking and 
planning for the State's water resources as drought affects stream flow 
across the State, reducing reservoir replenishment, and increasing 
groundwater depletion. In December 2014, the USGS released an 
interactive California Drought visualization Web site to provide the 
public with atlas-like, State-wide coverage of the drought and a 
timeline of its impacts on water resources.
    In the Colorado River Basin, Reclamation is working with the seven 
Basin States to craft new strategies to ensure critical infrastructure, 
such as the Hoover and Glen Canyon Dams, continues to operate as 
intended and to assist agricultural and municipal users in addressing 
current and future water challenges. In July 2014, Reclamation and 
municipal water providers in Arizona, California, Nevada, and Colorado 
signed a landmark water conservation agreement called the Colorado 
River System Conservation Program to address the long-term imbalance on 
the Colorado River caused by years of drought conditions.
    In the Klamath River Basin, Interior is working with other Federal 
agencies, Oregon, California, Tribes and local stakeholders to 
implement authorized actions designed to alleviate the impacts of 
drought by reducing water demand in conjunction with activities that 
improve habitat, and restore fisheries.
WaterSMART
    The budget includes $89.0 million for WaterSMART programs in 
Reclamation and the U.S. Geological Survey, a $22.1 million increase 
from 2015, to assist communities in stretching water supplies and 
improving water management. This funding supports the Department's goal 
to increase by 975,000 acre-feet, the available water supply for 
agricultural, municipal, industrial, and environmental uses in the 
Western United States through water-conservation programs by the end of 
fiscal year 2016. The budget includes $5.2 million for Reclamation's 
Basin Studies program. The WaterSMART program's Basin Study component 
leverages funding and technical expertise from the Bureau of 
Reclamation in a collaborative effort with knowledgeable State and 
local water practitioners. Basin Studies aim to identify practical, 
implementable solutions to existing or anticipated water shortages and 
to support related efforts to ensure sustainable water supplies. The 
Basin Studies conducted to date advanced the state of knowledge about 
the dynamics of each particular watershed and generated a collective 
expertise to formulate constructive actions to address imbalances.
    In addition to $1.1 billion requested for the Bureau of Reclamation 
within the jurisdiction of the Energy and Water Subcommittee, the 
budget also requests over $220 million for the U.S. Geological Survey's 
water programs to provide scientific monitoring, research, and tools to 
support water management across the Nation. USGS research conducted 
under the Department's WaterSMART program includes characterizing long-
term trends in streamflow, assessing groundwater availability, 
quantifying water losses to the atmosphere, estimating water use 
requirements, and developing tools to understand the ecological impacts 
of changes in water availability.
                          powering our future
    To encourage resource stewardship and development objectives, 
Interior is shifting from a reactive, project by project resource 
planning approach to more predictably and effectively managing its 
lands and resources. Interior's focus on powering America's energy 
future supports an all-inclusive approach including conventional and 
renewable resources on the Nation's public lands.
                               hydropower
    Hydropower is a very clean and efficient way to produce energy and 
is a renewable resource. Each kilowatt-hour of hydroelectricity is 
produced at an efficiency of more than twice that of any other energy 
source. Further, hydropower is very flexible and reliable when compared 
to other forms of generation. Reclamation maintains 475 dams and over 
8,000 miles of canals and owns 76 hydropower plants, 53 of which are 
operated and maintained by Reclamation. On an annual basis, these 
plants produce more than 40 billion kilowatt hours of electricity, 
enough to meet the entire electricity needs of over 3.5 million 
households.
    The Department signed a Memorandum of Understanding (MOU) with the 
Department of Energy and U.S. Army Corps of Engineers in 2010 to 
increase collaboration among those agencies and strengthen the long-
term relationship among them to prioritize the generation and 
development of sustainable hydropower. This Administration is committed 
to increasing the generation of environmentally sustainable, cost-
effective hydropower on existing dams and conduits for our national 
electricity supplies as efficiently as possible. Activities under this 
MOU have been ongoing, and have resulted in accomplishments such as 
assessments of potential conventional and pumped-storage hydropower 
resources on Federal and non-Federal lands and facilities; a 
collaborative basin-scale pilot project in the Deschutes Basin (Oregon) 
and the Bighorn Basin (Wyoming and Montana); and grant opportunities 
for research and development of new technologies.
    Reclamation is supporting non-Federal development of hydropower 
through Lease of Power Privilege (LOPP), and updated the LOPP Directive 
and Standard in 2014 to incorporate the Bureau of Reclamation Small 
Conduit Hydropower Development and Rural Jobs Act (PL 113-24) of 2013. 
As a result of Reclamation's focus on non-Federal hydropower 
development and the implementation of PL 113-24, there are now 9 LOPP 
hydropower projects online with 19 additional projects moving through 
the process. The LOPP process allows new hydropower development while 
preserving, maintaining, and sometimes enhancing environmental 
protections to ensure that any new projects will be developed in an 
ecologically sensitive and environmentally sustainable manner.
    Additionally, Reclamation is working with Federal and non-Federal 
partners to restore species in ecosystems that were damaged by past 
Federal multipurpose dam construction. For example, the budget includes 
$18 million for restoration of endangered salmon on the Columbia and 
Snake Rivers to ensure that the Federal Columbia River Power System can 
meet Endangered Species Act requirements and Reclamation's Pacific 
Northwest Region can continue to generate approximately 23.7 million 
MWh of electricity (net) per year.
    To further support the Powering Our Future initiative, the 2016 
Reclamation budget includes $1.3 million to implement an automated data 
collection and archival system to aid in hydropower benchmarking, 
performance testing and strategic decisionmaking; investigate 
Reclamation's capability to integrate large amounts of energy generated 
by renewable resources such as wind and solar into the electric grid; 
and work with Tribes to assist them in developing renewable energy 
sources. These important projects will assist in the production of 
cleaner, more efficient, ecologically sensitive, renewable energy.
         strengthening tribal nations--indian water settlements
    The Department's programs maintain strong and meaningful 
relationships with native and insular communities, strengthen the 
government-to-government relationships with federally recognized 
Tribes, promote efficient and effective governance, and advance self-
governance and self-determination. The 2016 budget makes significant 
new investments to improve Interior's capacity to work with and support 
Tribes in the resolution of their water rights claims and develop 
sustainable water sharing agreements and management activities.
    Interior's investments in Indian Water Settlements total $244.5 
million in Reclamation and Indian Affairs for technical and legal 
support and for authorized water settlements, an increase of $73 
million over 2015. This includes $40.8 million for Interior-wide 
technical and legal support, and $203.7 million for settlement 
implementation, of which $136.0 million is funded by the Bureau of 
Reclamation. In 2016, Interior will complete the funding requirements 
for the Taos Pueblo Indian Water Rights Settlement Act.
                      engaging the next generation
    By September 30, 2017, the Department of the Interior will provide 
100,000 work and training opportunities over 4 fiscal years, 2014 
through 2017, for individuals ages 15 to 35 to support the mission of 
the Department. To meet the Secretary's challenge to Engage the Next 
Generation, Reclamation will strive to expand youth programs and 
partnerships to accomplish high priority projects, promote quality 
participant experiences, and provide pathways to careers for young 
people through temporary positions with the bureau, as conservation 
interns, or as part of conservation work crews in conjunction with 
partnering organizations.
                          central utah project
    The Central Utah Project Completion Act (CUPCA), Titles II--VI of 
Public Law 102-575, provides for completion of the Central Utah Project 
(CUP) by the Central Utah Water Conservancy District (District). The 
Act also authorizes funding for fish, wildlife, and recreation 
mitigation and conservation; established an account in the Treasury for 
deposit of these funds and other contributions; established the Utah 
Reclamation Mitigation and Conservation Commission to coordinate 
mitigation and conservation activities; and provides for the Ute Indian 
Rights Settlement.
    The 2016 budget for the Department of the Interior's CUPCA program 
is $7.3 million. Of this amount, $6.3 million will be expended from 
this account and $1.0 million will be transferred to the Utah 
Reclamation Mitigation and Conservation Account for use by the Utah 
Reclamation Mitigation and Conservation Commission. The 2016 budget 
provides funding to continue the partnership with the Central Utah 
Water Conservancy District in the ongoing construction of the Utah Lake 
System facilities. The 2016 budget will also continue Interior's 
required program oversight activities and endangered species recovery 
program implementation through the Department's CUPCA Office.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's 2016 budget for the Department of the Interior and the 
Bureau of Reclamation. We have the opportunity to positively impact our 
Nation's future for all generations through wise investments, 
collaboration, and new and innovative ideas to meet the future needs 
for the growth and prosperity of our Nation.
    I look forward to working with the committee to implement this 
budget. This concludes my testimony and I am happy to answer questions.

    Senator Alexander. Thank you very much.
    Now we will begin a round of 5-minute questions. We have a 
vote at 3:45. What we will do is just go right on through the 
vote, and I will go over and vote at about 3:45. We will just 
pass the gavel around so we can keep going and give every 
Senator a chance to ask his or her questions.

                      INLAND WATERWAYS TRUST FUND

    Let me begin, Ms. Darcy, if I may, with you. I am 
disappointed that there is no funding in the President's budget 
to begin replacement of Chickamauga Lock. But let me put it on 
a more national scope than that.
    Two or 3 years ago, several of us, Senator Graham, I, 
others, sat down with the staffs of various Senators and said 
let's put aside all the practical problems. What do we need to 
do for a great country to have the kind of inland waterway 
system that it should have? And the staff came back with a 
plan. We talked with the Vice President about it and talked it 
around ourselves. In fact, we have gotten it done.
    As I mentioned earlier, number one, we passed a law that 
excluded the Olmsted Lock or reduced the amount of money we 
spent on the Olmsted Lock, because it was soaking up all the 
money available for the inland waterway. Second, we worked with 
the industry and with the administration and we established a 
priority list of which inland water projects should go in 
order, so it wouldn't be just a log-rolling exercise by 
senators and congressmen. Then, third, we enacted a user fee 
increase. In other words, the commercial users of the inland 
waterways volunteered, and we approved at the end of last year 
increasing the amount of money they pay to go through the 
locks.
    So we did all three of those things, and all three of those 
things together should make it possible for the Corps over the 
next several years to do what we need to do in our country for 
inland waterways.
    However, the Corps' budget does not propose to spend all of 
the money that is available in the Inland Waterways Trust Fund, 
specifically $57 million is not being spent, according to 
information we have from your staff. So my question is, why did 
we go to all the trouble to increase the user fee if you are 
not going to spend it?
    Ms. Darcy. Well, Senator, we are spending some of it. As 
you know, the Inland Waterways Trust Fund funds every other 
project but Olmsted on a 50-50 cost share. And the overall 
budget number for us within our construction account needs to 
be able to meet that other cost share.
    In the case of Olmsted, we need to find 85 percent. And the 
other projects that are funded in this year's budget 
Monongahela Lock 2, 3, and 4, we had to find the 50 percent 
within the rest of the budget.
    Senator Alexander. You are saying you don't have enough 
appropriated money to match the trust fund money?
    Ms. Darcy. In the President's proposed budget, we do not 
have an equal amount.
    Senator Alexander. Well, it is disappointing to me and hard 
to go back to the people whose taxes we raised, basically, and 
say we took your money but we are just going to put it on the 
shelf for a while. I would like to find a way, if I may, 
working with you to be able to fully fund the plan for building 
a great inland waterway system in this country. It will take 
several years.

                            CHICKAMAUGA LOCK

    General Bostick, let me go to you. It is my understanding 
that between $3 million and $9 million could be appropriately 
used this year to restart work on Chickamauga Lock.
    For example, with just $3 million, the Corps could award a 
base contract to get started on the highest priority and 
earliest work, which is grouting the cofferdam. I am getting 
down to details here, but that is what we need to do. If $6 
million were available, the Corps could also start anchoring 
the cofferdam and construct a small pile wall.
    In other words, if you had $3 million, or if you had $6 
million, and you decided to spend it, you could begin to do 
work on the Chickamauga Lock, which is the fourth highest 
priority, which we are going to do, and which is in danger of 
being closed if we don't do this.
    My understanding is also that your work plan does not 
obligate nearly $6 million that could be spent on the lock or 
other critical waterway projects. So why don't you spend the 
available $6 million to get started on the Chickamauga Lock, 
General Bostick?
    General Bostick. First, Mr. Chairman, I would like to thank 
you and the subcommittee for the work you have done. I think 
all of those efforts to try to help our inland waterways are 
going to pay off in the future, and some immediately.
    From a bigger picture, part of what we have to do is really 
look at the capital projects as a whole. And although we have 
priorities, we don't feel like we have done all of our work to 
properly assess those projects, and Chickamauga is one of them, 
on the economic benefits and the requirements that they have in 
maintenance.
    So we are completing this capital projects report. That 
should be done by the summer of this year. And I think that 
will help us get a framework on how we should spend the 
taxpayer dollars.
    The other thing I would address is on the work plan. There 
are opportunities in the months ahead to use that additional $6 
million. We will have, by the end of the month, provided some 
recommendations to Secretary Darcy, and she will work with the 
administration to determine the way ahead.
    Senator Alexander. Good. I have an opportunity to suggest 
for you for that $6 million. I understand what you are saying, 
but I hope you understand what I am saying. We have developed 
the plan. We worked with you. We think you are doing a good job 
with the money you have. But if we are going to raise that 
money from the commercial barge people, we ought to spend it. 
That is what it is for.
    And if we have a lock on the priority list and with $3 
million to $6 million we can move along with it, I would 
suggest we do it.
    My time is up. Senator Feinstein.

                   SAN FRANCISCO BAY SHORELINE STUDY

    Senator Feinstein. Thanks very much, Mr. Chairman. I am 
going to begin with a subject that I am very frustrated about, 
and that is the South San Francisco Bay shoreline study. I have 
had several conversations with Secretary Darcy about this, so, 
General Bostick, I would like to involve you in this, too.
    This bay line study was congressionally authorized in 2002. 
That is 13 years ago. The work began in 2005. The purpose was 
to recommend flood risk management and ecosystem restoration 
projects along South San Francisco Bay for Federal funding.
    The study continues to be a high priority for me and very 
frustrating.
    This portion of Santa Clara County shoreline is at great 
risk from floods due to storms and high tides. And sea level 
rise we know is going to occur in the future.
    So, more than 10 years have passed. The study is not done. 
In excess of $10 million has been spent. There was a 6-month 
delay in 2005, 2006. There was a dispute between the Corps and 
the local sponsors, who would be responsible for the mapping. 
Between 2006 and 2010, there was a 2-year delay. Local sponsors 
informed me that the Army Corps of Engineer's research and 
development center took twice as long, 4 years instead of 2 
years, and at twice the original cost, $4 million instead of $2 
million, to complete the floodplain maps.
    The project had to be re-scoped in January 2011 to focus on 
the Alviso area to avoid the project getting further delayed. 
There was then another 10-month delay between August 2013 and 
June 2014, when the Corps raised concerns about how the project 
would address sea level rise, even though the Corps had been 
aware of the design assumptions since March 2011.
    In mid-2014, I was told the chief's report would be done by 
July 2015. A few months later, the schedule again slipped to 
December 2015.
    During this long process, the lack of a completed chief's 
report has meant authorization of a potential project was 
missed in 2007 and 2014. And last week, we suffered another 
blow. The Corps unveiled its fiscal year 2015 work plan and 
2016 budget and no money, zero, was allotted to completion of 
this high-priority study.
    So can you tell me how you plan to finish the chief's 
report by December 2015 as promised without Federal funding in 
the 2015 work plan and the 2016 budget?
    General.
    General Bostick. We currently have funds on hand to 
continue to move the study forward.
    Senator Feinstein. Could you tell me how much?
    General Bostick. I would have to follow up with you on the 
exact amount.
    Senator Feinstein. Will you tell me how much?
    General Bostick. We can. I don't have that number now, 
Senator.
    Senator Feinstein. So it is your intention to continue with 
the study?
    General Bostick. We will continue the study. We will at 
some point need additional funds. As I talked about earlier, we 
would work with Secretary Darcy on recommendations on how work 
plan funds might be utilized.
    Senator Feinstein. So you will meet the December 2015 
deadline?
    General Bostick. We will. We will meet the December 2015 
deadline.
    Senator Feinstein. Shall I ask you to raise your right 
hand, and swear to God?
    General Bostick. If you want me to raise my right hand, I 
will do that, ma'am.
    Senator Feinstein. Got it.
    General Bostick. We are doing everything we can to stay on 
top of this.
    Senator Feinstein. Okay. It is really a high priority for 
that area. As you know, there is a lot of high-tech right on 
the water there. There are cities. There is a sewage treatment 
plant that serves 1 million people. It could be catastrophic if 
that area floods.
    General Bostick. I understand.
    Senator Feinstein. I am going to hold you to your word, 
General. Thank you.

                               SALT PONDS

    Now, while I have you, it has come to my attention that the 
Corps is performing some type of wetlands evaluation pertaining 
to salt ponds in the north end of San Francisco Bay near the 
Port of Redwood City. I discussed it with one of the generals 
this morning.
    Apparently, these salt ponds are being considered for some 
type of potential development, and the press has said that the 
Army Corps is about ready to say that certain parts of the bay 
behind a dike are not waters of the United States. It is my 
understanding that that differs with the EPA.
    It is a highly sensitive matter, and I would appreciate 
knowing what the Corps' position is. I intend to go down there 
and take a look myself next week.
    General Bostick. We haven't come to a conclusion, at this 
point. We are working with the EPA on this issue, and General 
Peabody has been out there. He is going out again next week, 
and will look at several sites and have an opportunity to talk 
about this.
    We are working very closely with EPA and Justice, to make 
sure we come to the appropriate conclusion on the way ahead.
    Senator Feinstein. Well, I would hope you would work with 
me. I am kind of the mother of that whole salt ponds situation. 
I got the funding. I got the State money. I got the private 
money to buy the land from Cargill. I know exactly what has 
been planned, and I am very concerned about this. What makes 
our whole area is the bay, and we do not want it filled.
    And I have the pleasure of speaking with General Peabody 
next week. It is my intention to come down there on Tuesday, 
General, at 11 o'clock, so I will take a look for myself.
    General Bostick. We will absolutely work closely with you 
on this, Senator.
    Senator Feinstein. Thank you very much.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Cochran.

                   MISSISSIPPI RIVER AND TRIBUTARIES

    Senator Cochran. Mr. Chairman, thank you very much for 
presiding over this hearing and providing leadership for our 
subcommittee. And my thanks for our panel coming here today to 
talk about the President's budget submission for the Army Corps 
of Engineers and the Bureau of Reclamation.
    I have put my statement in the record describing the 
steady, but sure decline of commitment from the Federal 
Government for its inland waterways system maintenance, 
projects such as the Mississippi River & Tributaries project, 
similar projects but smaller throughout the country that have 
come in for some of the lowest budget requests that I have seen 
since I have been in Washington. We started out poor, and we're 
getting poorer.
    I wonder what the reaction of the administrators are as to 
what kind of frustration you might be enduring, and what you 
can suggest to the subcommittee for ways to ameliorate or help 
minimize the practical consequences of this budget.
    I don't want to just fuss about it, but I would like to get 
into some of the specifics.
    For example, on the Mississippi River & Tributaries 
project, only $225 million is requested. That sounds like a big 
number, but guess what? That is more than $100 million below 
the average amount of funding provided by Congress over the 
last 30 years.
    What is your reaction, General, to the overview that this 
presents to our subcommittee?
    General Bostick. Senator, I can speak to it from a leader 
standpoint and from one who has to execute the mission that the 
country has asked us to do. It is challenging. It is very 
challenging for us to execute our mission with the funding 
levels that the taxpayers are able to afford and what the 
country is able to afford.
    We state what the priorities should be, and where the focus 
should be. But at the end of the day, when the President looks 
at the budget, when the Nation looks at the requirements across 
this country, priorities have to be set. And I am not privy to 
those. I respect all the decisions that are made.
    What I would say in our area is we have to look at how we 
become more efficient. I think we can become more efficient in 
how we use taxpayer dollars. I think that we have to look at 
alternative means of financing.
    You gave us the opportunity through WRRDA with public-
private partnerships. I don't think the Federal Government, 
even if it could pay all of the needs of the inland waterways--
and there are many needs that are there. I think we have to be 
part of the solution to be innovative and creative in how we 
move forward.

                   MISSISSIPPI DELTA REGION PROJECTS

    Senator Cochran. One other example of the budget request 
that is out of line with what has been the suggestion is the 
Yazoo Backwater projects in the Mississippi Delta region are 
also going to be subjected to substantial cuts. The combined 
annual benefits of the projects, by comparison, are roughly 
$77.7 million. But the budget submitted by the President, once 
again, doesn't request funding for the headwaters project or 
the Upper Yazoo project.
    But given the importance to the lives of the people of that 
region, and their property and the sustainability of the 
economy in the region, it makes it clear that something has to 
give or that project is going to be dead in the water.
    The Federal Government has invested more than $700 million 
up to this point in these projects. This is the construction 
phase now that is over 30 years in the making. But because of 
inadequate funding, it is going to be, as I said, dead in the 
water.
    I am going to ask you, if you can, to give the subcommittee 
the benefit of your suggestions, as to how we can compromise, 
if there is a way to come together with something less than had 
been requested in the budget by the Congress and the reality of 
how much you are likely to be permitted to spend by fiat of the 
Federal Government, after we are completed with this 
legislation.
    Are there other comments that maybe the administration's 
representative can give us some thought on?
    Ms. Darcy. One of the issues that General Bostick mentioned 
is one that we need to work on, collectively as a government, 
and that is finding public-private partnerships or other 
alternative financing mechanisms to try to meet some of the 
needs that remain unmet, both with Federal dollars and local 
dollars.
    I think one point, Senator, is that in the 2015 work plan, 
we did fund the Delta Headwaters in Mississippi.
    Senator Cochran. Mr. Chairman, my time is up.
    Senator Alexander. Thank you, Senator Cochran.
    At about 3:40, I am going to go vote and come right back, 
so we will just let the hearing go straight through. I will ask 
Senator Feinstein if she will wield the gavel during that 
period of time, then I will take it back in time for her to 
vote.
    Senator Merkley.

                 SMALL SUBSISTENCE AND EMERGING HARBORS

    Senator Merkley. Thank you, Mr. Chairman. Thank you all for 
your testimony.
    Assistant Secretary Darcy, on our coast in Oregon, we have 
a lot of very small ports that have a whole variety of their 
economy affected by crabbing, shrimp, groundfish, salmon, 
tourists, whale watching. Boats go out for every possible 
reason. But the dredging of these ports was in the President's 
proposed fiscal year 2015 budget, but they have all been zeroed 
out for fiscal year 2016.
    I am assuming, just to kind of shorten the conversation, 
that the assumption is that here in Congress we will do a small 
port carve-out as we have for the last few years, and then some 
funds will be redistributed to the high dredging or high-need 
areas. Is that the plan?
    Ms. Darcy. No, Senator. What we have provided in the Harbor 
Maintenance Trust Fund account is $91 million for small 
subsistence and what are termed emerging harbors, which is 10 
percent of the overall request for the Harbor Maintenance Trust 
Fund.
    Senator Merkley. And then there will be a work plan that 
will come out as to where those funds will go?
    Ms. Darcy. If the 2016 budget is enacted----
    Senator Merkley. What I am trying to clarify is the fact 
that those ports are zeroed out in the President's budget does 
not mean that your intention is that the dredging stop on those 
small ports.
    Ms. Darcy. The dredging needs vary from year to year--what 
we have determined for this fiscal year in the 2016 budget is 
that it is not necessary to be funded in this fiscal year. We 
have to go port by port to see which ones----
    Senator Merkley. Right. So I will be in close communication 
with you all about that. There are some ports that you can get 
away with every other year dredging.
    Ms. Darcy. And some every 5 years. It all depends on the 
turbidity and the----

                   CROOKED RIVER PRINEVILLE RESERVOIR

    Senator Merkley. I just want to make sure that the economy 
of our Oregon coast doesn't shut down, as it has come close to 
a number of times when dredging was not funded. So I will keep 
an eye on that in conversation with you all.
    Commissioner Lopez, one of the things that passed at 
authorization at the end of last Congress was a resolution to 
end 40 years of water wars on the Crooked River Prineville 
Reservoir. There is a piece of that that requires developing a 
water management plan, an annual release schedule, if you will. 
I just want to draw that to your attention. I know that will 
take some resources from the Bureau of Reclamation, but it is 
going to be a critical part.
    Crooked River is in the budget. But I just wanted draw it 
to your attention and say, in this first year of implementation 
of this agreement, after decades of fighting over the water, 
how important it will be for us to make sure that it happens in 
a timely and competent basis.
    Mr. Lopez. Senator, I am aware of this legislation and I 
know in the last couple of weeks there have been a whole series 
of meetings between our area and regional staff with Oregon 
State officials and water users out there to begin to map out 
exactly how we go about the implementation of this, both moving 
the Wild and Scenic River boundary and also doing some water 
rights applications that need to be set in motion. We are 
engaged in that and will continue to work on it.

               WATER FOR IRRIGATION, STREAMS AND ECONOMY

    Senator Merkley. Thank you. And I will mention in my last 
few seconds here that the pilot project in Talent Irrigation 
District with Bear Creek, the funding is much appreciated. That 
was announced last week. Thank you.
    It is basically a situation where piping is put into an 
irrigation system to save water, and then more water can stay 
in the streams, so diversion is eliminated, therefore, it's 
better for the irrigators, better for the salmon.
    This is a pilot project for a program called WISE, Water 
for Irrigation, Streams and Economy. That larger project is one 
that Oregon has set aside matching grants for. It is something 
on which I would like to be a dialogue with you all about, 
because it, certainly, has a huge potential impact doing right 
by the irrigation districts and improving the streams and 
habitat in the process.
    Thank you very much.
    Senator Alexander. Thank you, Senator Merkley.
    Senator Feinstein has agreed to preside for the next few 
minutes while I go cast an early vote. So the next Senator will 
be Senator Lankford and then Senator Udall.

                 WATER RESOURCES REFORM DEVELOPMENT ACT

    Senator Lankford. Thank you for allowing me to jump in the 
conversation. It is good to see several of you again. I need to 
ask some questions about the Water Resources Reform Development 
Act, the WRRDA Act that we passed last year, one of the rare 
things that did pass through Congress last year. And it has a 
requirement to conduct an assessment of all the properties from 
the Corps of Engineers to determine which are ``not needed for 
the mission of the Corps of Engineers.'' So it is an inventory 
statement and then a basic ability to be able to say these are 
priority areas, these are possibly not priority areas. Has the 
Corps begun that assessment, at this point?
    General Bostick. We have begun that assessment. I believe 
you are referring to the $18 billion of projects that we 
believe we can recommend for deauthorization.
    Senator Lankford. It is from WRRDA from last year. It is 
just a list of all projects, so it is not just the new but it 
is a current inventory of all projects nationwide.
    General Bostick. Yes. We are working on that as well. We 
think we have a pretty good handle on the infrastructure 
assessment, and we feel like that is progressing well.
    Senator Lankford. What is your best guess on when Congress 
will have that report?
    Ms. Darcy. Can I offer that? We will have the $18 billion 
deauthorization report to Congress by this September.
    Senator Lankford. Okay, by September. And the obvious next 
question is then, there is a desire to say if there are certain 
projects that are not priority projects, then there is the 
opportunity to say these projects should be divested or find 
other entities, whether it be States, counties, cities, 
whatever it may be, that may want to take on the management of 
that, if there are nonpriority projects.
    What is the best way to be able to handle that disposition, 
from the Corps' perspective?
    General Bostick. We are required through WRRDA to provide a 
list of $18 billion worth of projects that are authorized that 
we believe we can deauthorize, and we will provide that list as 
well.
    Senator Lankford. It is not just a list of them. It is the 
actual process of divesting. The obvious thing for the Federal 
Government is we have a lot of extra real property laying 
around. We have had a very difficult time transitioning it out 
of Federal hands.
    General Bostick. We had to divest of a project a couple of 
years ago that we had been working on, and it took quite a long 
time and quite a lot of money just to divest. I am not able to 
tell you now that the process, once we have that list of how we 
divest, what work we will need and support we will need from 
Congress. But we will be happy to provide that. It is a 
difficult process, as it is currently set up.

                         PROJECT PRIORITIZATION

    Senator Lankford. Okay. That is an understatement, to say 
the least. We have had a tough time letting go of different 
facilities and things. So one of the goals that I would have in 
the days ahead is that, the Corps obviously will never have 
enough money, but to make sure that the low-priority things 
that we have, things that could be divested, the Corps doesn't 
have to spend money on. That can be transitioned so that money 
can then be spent on the things that are the high priorities or 
that are essential, to help protect some of those dollars.
    One of the questions from your statement, General Bostick, 
you talked about one of the priorities was to modernize the 
planning process of this. One of the struggles in the past has 
been the Corps has so many projects going on at once. Is there 
a plan to say we are going to invest more dollars faster in a 
project in order to get this done, knowing that it is more 
expensive to stretch it out over 10 years than it is to do it 
in 5, but that means doing fewer projects, but the projects 
that you do are cheaper and faster. Is that in the 
conversation?
    General Bostick. Absolutely. Secretary Darcy talked a bit 
about this in her opening remarks, about completions. One of 
the things we try to focus on, both with studies and 
construction, is if this increment of funding will complete the 
project. So one of the guiding principles is to look at 
completions.
    The other thing that we are doing on the front end is to 
make sure on these chief's reports, and going back to what we 
talked about on modernizing the process, is to say you can't 
take 10 years, 15 years to study this. And we forced ourselves 
to come inside that 3-year window, and we have done pretty well 
with that. We had to do some exceptions, but that process is 
allowing the whole process to go faster.
    Senator Lankford. Anything that we can do to keep moving on 
that. That Three Rivers project, obviously, is an example of 
that, and all the conversations were so long. And now that is 
moving and going, but there will be so many other areas to look 
at and say, how can we get this done faster?

                    WATERS OF THE UNITED STATES RULE

    One last question on it is the issue of the increase in the 
budget dealing with the regulatory activity. This a $5 million 
increase. Obviously, there are other areas. Is that related to 
the Waters of the U.S. Rule and anticipating increased 
regulatory cost in that area?
    Ms. Darcy. Yes.
    General Bostick. Yes.
    Senator Lankford. Do you know how much that is going to be 
eventually? Is that just an initial guess, an assumption the $5 
million is going to be the basic?
    Ms. Darcy. It is an initial assumption, assuming that the 
startup costs for doing the implementation once the rule is 
final. And that initial $5 million is more than we had last 
year.
    Senator Lankford. Will there be an anticipation that this 
subcommittee will be asked to have additional monies moved out 
of other project areas into regulatory areas because of that 
rule in the days ahead?
    Ms. Darcy. No, sir.
    General Bostick. We believe it is going to be initially 
more expensive, but then it will come down and settle. What we 
are doing now is hiring 125 regulators that we couldn't hire 
because of sequestration and another 25 in order to handle 
Waters of the United States, if it is passed.
    Senator Lankford. Okay, thank you.
    I yield back.
    Senator Feinstein [presiding]. Senator Udall.

              RIO GRANDE ENVIRONMENTAL MANAGEMENT PROGRAM

    Senator Udall. Thank you, Senator Feinstein.
    Secretary Darcy, last year, the Corps held stakeholder 
workshops in New Mexico and elsewhere to better understand the 
specific concerns of stakeholders and their water resources 
management priorities associated with the Rio Grande. I 
appreciate these efforts. It is important that the Corps 
continues to work with local interests and listen to local 
people.
    One program, in particular, that was highlighted as very 
important is the Rio Grande Environmental Management Program. 
On January 28, I along with Senator Heinrich wrote you a letter 
urging you to include $150,000 in fiscal year 2015 study 
funding for the Rio Grande Environmental Management Program. 
Unfortunately, we received a response stating that funds were 
not made available for this program due to other priorities.
    This is an important program. I am hoping to work with you 
to ensure this program is funded.
    Can you talk a little bit about why this project is not 
being funded in fiscal year 2015? Are there other accounts that 
provide funds for similar work?
    Ms. Darcy. Senator, you are correct. It was not included in 
the 2016 budget. This is an environmental program. It is not a 
project-specific program. So the development of what the 
components of this program would be would need to be developed, 
as well as finding a local cost-share sponsor. Then it would 
still also have to compete with other new programs within our 
larger program.
    Senator Udall. Okay, thank you.

                             REIMBURSEMENTS

    General Bostick, local communities in New Mexico and 
elsewhere, I believe, in the country have advanced funding to 
cover Federal costs in environmental infrastructure projects in 
this country. They did this to accomplish needed projects more 
efficiently and reduce overall costs to the Federal Government.
    Two public entities in my State are owed money from the 
Corps for these projects. When funds are appropriated in these 
authorities, reimbursements are not being made to pay back 
these costs. Will you continue to work with me to ensure that 
these past owed reimbursements are paid back to these 
communities in the future?
    General Bostick. Senator, I am not aware of this issue, but 
I am happy to look into it and work with you to close it out 
and find out what we actually owe, and if so, we will clear it 
up.
    Senator Udall. It is a big issue, and it is more than just 
the $10 million to the City of Rio Rancho. It is a big issue, I 
think, across the country, is my understanding.
    But thank you for your willingness to work with me on it.

                    NATIVE AMERICAN AFFAIRS PROGRAM

    Commissioner Lopez, in your testimony, you highlighted 
tribal priorities, and the one thing I struggle to comprehend 
is the fact that many native communities in New Mexico do not 
have adequate water infrastructure, and in some cases, no 
running water at all, as you well know.
    Does the Native American Affairs Program under the Bureau 
of Reclamation aim to address some of these issues?
    Mr. Lopez. Senator Udall, the Native American Affairs 
Program is intended to certainly work on any technical issues 
that a Tribe might have regarding its water supply. Further, it 
gives us an opportunity to negotiate on the water right 
settlements, if a particular tribe has outstanding claims that 
have not yet been resolved.
    So I think it does give us an avenue for beginning those 
conversations and figuring out how we might begin to address 
those issues.
    Senator Udall. Great. Could you talk a little bit about 
water leasing and why it is important? I know that that is part 
of what some of the stakeholders in the Middle Rio Grande 
Project want to do.
    Mr. Lopez. Certainly. Senator, the Rio Grande, as you know, 
is oversubscribed. In many years, essentially all of the water 
was spoken for. But if it were not for leasing water, the river 
would go dry, and there would be no water to sustain the 
endangered species in the river.
    Historically, Reclamation has leased San Juan-Chama water 
from people who have not yet put that water to use. 
Increasingly, that water is being put to use by the cities to 
whom it is under contract. Therefore, it is increasingly 
important that we find other leasing mechanisms, including 
through willing buyer, willing seller methods, whereby a farmer 
or a group of farmers might get together and decide that, in a 
dry year, it is more advantageous for them to lease that water 
and sustain the river, and thereby keep the endangered species 
alive.
    Senator Udall. Great. Thank you very much. And welcome, 
again.
    Thank you, Senator Feinstein.
    Senator Feinstein. Thank you, Senator Udall.
    Senator Murkowski.

                      ARCTIC DEEP-DRAFT PORT STUDY

    Senator Murkowski. Thank you, Madam Chairman.
    To the panelists, thank you for being here today and for 
your work.
    Secretary Darcy, I want to talk with you about some of our 
civil works construction projects. I will start first by 
thanking you. We have four new feasibility studies included. I 
know that the communities of Kotzebue, St. George, Craig are 
going to be pleased moving forward with this. The conversation 
about the subsistence and small boat harbors, know how 
critically important that is to us, as we try to develop these 
small coastal economies, that the boat harbors and these 
subsistence harbors are just so critically important.
    I am going to be starting off I think every appropriations 
hearing I'm participating in challenging agencies and members 
of the administration as to where we are with implementation of 
any aspect of an Arctic strategy.
    So to my colleagues, you are just going to get used to 
these questions, because it is very pressing to me.
    As you know, Secretary Darcy, we are an infrastructure-poor 
State. We face some challenging conditions when it comes to 
construction of some of our infrastructure along our coastline. 
We are, of course, trying to move forward with an Arctic deep 
water port, and the port study has been underway for some 
period of time. I am told that this report is going to be 
issued by the Corps soon. But around here, you are never quite 
sure what ``soon'' means.
    Can you give me the status of the Arctic deep-draft port 
study?
    Ms. Darcy. The draft will be released in February 2015, and 
we are tentatively expecting a civil works review board to be 
scheduled for August.
    Senator Murkowski. Okay, so as soon as this month, then?
    Ms. Darcy. It says February 2015, so yes, ma'am.

                     CONTINUING AUTHORITIES PROGRAM

    Senator Murkowski. Okay, we will be looking for that within 
the next week to 10 days or so. Again, a critically important 
initiative for us, and know that I will be asking you more 
about what we can be doing in the intercoastal communities to 
provide for that necessary arctic infrastructure when it comes 
to ports and our harbors.
    I wanted to ask, also, about where we are with the 
continuing authorities program. As you know, we have many, many 
small navigation projects where our harbors are at risk from 
coastal erosion. We have different storm issues that we are 
dealing with.
    Barrow, for instance, is in need of beach restoration in 
order to keep parts of town from basically being washed away 
here, and Barrow is just one community. The situation is that 
they can't wait for a period of years that it takes for the 
funds to be appropriated for a feasibility study, and then for 
the WRRDA Act to be passed and then more funds to be 
appropriated for construction.
    So, in looking at the budget, we see that section 107, 
which is the navigation, and section 103, the beach restoration 
of the continuing authorities program, is not receiving any 
funding in fiscal year 2016. So I am trying to understand what 
is going on within this category.
    We have a significant reduction in funds between fiscal 
year 2015 and fiscal year 2016. Are we phasing out the 
continuing authorities program in general? What is happening 
with this?
    Ms. Darcy. Senator, we are not phasing out these programs, 
because, as you pointed out, they are very important, 
especially to some smaller communities. These programs and 
projects, have a lower funding level and they don't go through 
the feasibility and chief's report process. We have some 
unobligated balances in those accounts, so that is one of the 
reasons we did not fund some of them; we can carry those over 
to this year.
    Senator Murkowski. And you have sufficient balances, then, 
that will allow you to address the unmet need at this point in 
time?
    Ms. Darcy. Within our budgetary constraints we do, yes, 
ma'am.
    Senator Murkowski. Okay. I am going to be coming back to 
you, because I think you know that we have identified again, 
many of these coastal communities where the dollar amount is 
not high, but for purposes of what they are trying to do in 
dealing with beach erosion and shoreline erosion issues and 
just with sea level issues, it has to be addressed sooner than 
later. And it is nice to know that you have unobligated 
balances, but I am going to want to know for sure that we are 
going to be able to address some of these needs.
    Thank you, Madam Chairman.
    Senator Feinstein. I thought you were going to get a 
``yes'' there for a minute.
    Senator Murkowski. I know, I know. We're working on it.
    Senator Feinstein. Senator Coons.

                     HARBOR MAINTENANCE TRUST FUND

    Senator Coons. Thank you, Senator Feinstein and thank you, 
Chairman Alexander. This is my first hearing as a member of the 
E&W Appropriations Subcommittee, and I want to thank Roger for 
his 35 years of service and say that hopefully my arrival has 
nothing to do with your impending departure. Thank you for your 
decades of good and faithful service here.
    To Assistant Secretary Darcy, I just wanted to open by 
thanking you for your continued support of a project that is 
near and dear to my constituents, the Delaware River deepening 
project. I very much appreciate the additional $62.5 million in 
the fiscal year 2015 work plan that will fully fund the work 
needed to be done in fiscal year 2016. This is a critical year 
for this project that is of great impact to the whole region, 
and I am glad it is going to be moving forward and being 
completed.
    One of my legislative priorities is to increase utilization 
of the Harbor Maintenance Trust Fund. I was somewhat 
disappointed that fiscal year 2016 request doesn't meet the 
target set out in WRRDA of $1.3 billion. The request of $915 
million is the same level requested in 2015 and lower than 
provided in the omnibus.
    How will this lower request effectively maintain our 
Nation's navigation channels and harbors, and maintain our 
global competitiveness? So please, thank you, and question.
    Ms. Darcy. Senator, the $915 million that is in the 
President's budget for the Harbor Maintenance Trust Fund, as I 
said in my testimony, is the second year in a row that it has 
been that high. Given our current budget constraints, this is 
the amount that we think we can use in this fiscal year in 
order to maintain, especially, the 59 busiest commercial 
harbors in the country, which transport about 90 percent of the 
traffic.
    Also, this is in compliance with the set-aside. As Senator 
Murkowski and others noted, we have a 10 percent, $91 million 
allocation for small, subsistence, emerging harbors, which was 
another requirement of the WRRDA bill.

                     NATURAL DISASTER PREPAREDNESS

    Senator Coons. Thank you for the answer. I look forward to 
working with you to find ways to strengthen support for smaller 
harbors.
    The North Atlantic Division just put out an impressive, 
somewhat comprehensive report about the lessons learned from 
Superstorm Sandy, which was a very expensive storm. The total 
Sandy relief I think is $65 billion. And I was wondering if we 
know how well shore protection and other vital Corps projects 
helped to reduce the amount of damage from the superstorm, and 
if you did any quantification of the damages and costs avoided 
because of these vital Corps projects?
    Ms. Darcy. I believe we did. I don't have the numbers at my 
fingertips, but we can provide them for you. I think they were 
in the Sandy report.
    But I would just note that the day after the storm, General 
Bostick and I went up to New York and New Jersey and flew over, 
and you could see the difference between where there had been a 
storm damage reduction project and where there had not been a 
project. The damages were incredible.
    The projects worked as designed in those places where they 
had built a beach nourishment project.

                             CLIMATE CHANGE

    Senator Coons. Well, I'm excited to see that the Silver 
Jackets programs are expanded again in fiscal year 2016 to help 
communities prepare for natural disasters. To me, one of the 
core components of the emergency preparedness, emergency 
management is preparing for climate change. It has been 
estimated every dollar we invest in natural disaster 
preparedness, we might be able to save up to $4 in emergency 
response. Your citation of the Superstorm Sandy impacts 
suggests that.
    Could you elaborate on how we are preparing for the impact 
of climate change and how that factors in to your investment 
and decisionmaking for the Army Corps at the programmatic 
level?
    Ms. Darcy. Certainly, Senator.
    Since 2009, the Corps of Engineers has been requiring 
climate change to be factored into the mainstream lifecycles of 
all of our projects, from the planning for future projects as 
well as for looking at our ongoing projects. All new projects 
and planning must comply, and apply these new policies and 
guidance, including the three different scenarios for sea level 
change over time. When we are looking at a project, we look at 
it through the lens through those three possibilities.
    For existing projects, we conduct progressively detailed 
assessments to understand possible impacts. We have done a 
coastal assessment of all of our projects to determine what it 
is their vulnerabilities would be from not only different sea 
level changes, but climate change as well.
    So those are some of the things we have started to do 
already.
    Senator Coons. General Bostick.
    General Bostick. The only other piece I would add, and I 
talked about this briefly in my opening remarks, is that we are 
looking at these watersheds as a system, more than individual 
projects. How does a system of projects demonstrate the kind of 
resilience that it needs in the face of disasters? We are 
working with the industry. We are working with a lot of think 
tanks and academia, to really understand how we do this. And 
then is there a way that would lead to watershed-informed 
budgeting.
    There is a lot of work that I think can happen in this 
particular area.
    Senator Coons. Thank you, General Bostick. Thank you, 
Secretary Darcy.
    I am from the lowest mean elevation State, so I have an 
abiding interest in how we deal with and plan for climate 
change and its impact on our coasts and waterways.
    Thank you very much.
    Senator Alexander [presiding]. Thank you, Senator Coons.
    Senator Tester.

                              RURAL WATER

    Senator Tester. Thank you, Mr. Chairman. I once again want 
to thank the panelists for being here today.
    We are going to start with you, Commissioner Lopez. There 
are a lot of rural water projects out there. Montana has a 
couple right now. I was first introduced to those water 
projects when I was running for the State Legislature. They 
were $100 million projects. Now they are north of $300 million. 
The same projects. Haven't added anything on. That is just the 
way it has gone.
    The allocation in this budget is anemic for those water 
projects. I would make the claim it doesn't keep up with the 
cost of inflation. Now we may add additional dollars like we 
did last year, but it's not good.
    Is there a plan for getting these projects fixed in a 
timely manner? I mean, we are talking about projects that 
connect up with Indian water settlements, where the water is 
fairly critical if we are going to have economic development to 
move those folks out of poverty.
    Can you give me any insight on that, or do we just live 
with getting a percentage point a year? What are we going to do 
about it?
    Mr. Lopez. Senator, in these constrained budget times, it 
is extremely difficult to allocate additional funds to these 
projects when our core mission requires so much of our budget. 
We will continue to allocate as much of our budget as we 
possibly can to move these projects forward.
    I want to thank this subcommittee for the additional funds 
that we received in 2015. But I think the best we can do is to 
try to prioritize the projects. I think you know about our 
criteria for prioritizing spending for the funds that we do 
receive including serving Indian communities, which the 
projects in your State do.
    Montana projects are also some of the projects that are 
further along, receiving additional priority, as does the 
population these projects serve. So we will keep moving those 
forward with the funds we are able to receive.

                           WATER SETTLEMENTS

    Senator Tester. All right, which brings me to water 
settlements, because they are tied together and we have a 
number of them.
    One of them is in the funding bill right now for Crow. It 
is one of the five that is in there. Let me ask you this, there 
are some, and I am one, who advocate taking money from the 
reclamation fund to pay for some of these water settlements and 
water projects, too. Give me your opinion on that. There is a 
pretty healthy balance in that reserve fund.
    Mr. Lopez. Senator, I know that the Administration had 
looked at some options for funding some of these settlements, 
including looking at taking some money from the Reclamation 
Fund.
    Senator Tester. Would the Administration support that, to 
get right down to it?
    Mr. Lopez. I can't speak for the Administration as a whole. 
I think that we, certainly, recognize that.
    Senator Tester. Okay, we will go a different route. Would 
you support that?
    Mr. Lopez. I would like to get these projects done, 
Senator.

                               INTAKE DAM

    Senator Tester. Okay. So would I. I mean, I just don't see 
there ever being an end to it.
    Secretary Darcy, it is always good to have you here. It 
seems like we ask the same line of questions every year. I am 
going to talk to you about Intake Dam and the fish passage for 
the pallid sturgeon and its viability. I know there is a 
lawsuit pending.
    Does that lawsuit have merit, as far as the viability for 
the fish passage, or is it without merit?
    Ms. Darcy. I can speak to the merit on the project, not to 
the merit of the lawsuit.
    Senator Tester. I think they are suing because they don't 
think the project will work.
    Ms. Darcy. Yes, they don't think that the fish passage, as 
designed, will accomplish the goals under the biological 
opinion.
    Senator Tester. That is correct.
    Ms. Darcy. We believe that, as designed, it will meet the 
needs of the endangered species that is part of the subject of 
the biological----
    Senator Tester. So you think you will win that suit?
    Ms. Darcy. I don't know.
    Senator Tester. Okay. Are you an attorney?
    Ms. Darcy. No, sir.

                    MISSOURI RIVER FISH AND WILDLIFE

    Senator Tester. Lucky you.
    There is about $47 million, I believe, in this year's 
budget for that, for the Missouri River Fish and Wildlife 
Recovery Program. Is that adequate? Is that what you asked for?
    Ms. Darcy. In the 2015 work plan, we have $20 million for 
the Intake and $20 million in the 2016 budget request.

                               HYDROPOWER

    Senator Tester. Okay. One last question that deals with 
something you said in your statement. You said that your budget 
has 5 percent dedicated to hydropower. Do you have any projects 
in mind?
    Ms. Darcy. That is dedicated to our ongoing hydropower 
projects. We don't have new start projects at that 5 percent. 
That is mostly to continue to maintain our ongoing hydro 
infrastructure.
    Senator Tester. Let me ask you this, in the private 
sector--and I will be quick.
    I am sorry, Senator Hoeven.
    In the private sector, they have redone, in Montana at 
least, some of the hydro generation on the Missouri up by Great 
Falls. It has created more electricity. I think it is easier on 
the fish.
    Has there been any discussion of doing that with Fort Peck?
    Ms. Darcy. I do not know specifically about Fort Peck. I 
know we are looking at trying to evaluate where we have 
existing hydropower generation and projects, how we can make 
them even more efficient, or possibly expand on them.
    I don't know about Fort Peck. I thought we had a 
conversation about Libby, but I'm not sure.
    Senator Tester. I think it would be wise to look down that 
line. I think it is a great way to expand.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Tester.
    Senator Hoeven.

                      PUBLIC-PRIVATE PARTNERSHIPS

    Senator Hoeven. Thank you, Mr. Chairman.
    I guess the first several questions are for either General 
Bostick or Secretary Darcy. I want to thank all of you for 
being here today and for the important work that you do.
    General or Secretary, the first question I have is, in the 
water bill, we authorize what is referred to as P3 funding, 
meaning public-private partnerships where we would try to use 
alternative delivery models and alternative means of financing 
to actually make your dollars go further, to leverage the 
Federal and get some of these projects going. And then we 
authorize new starts and said you ought to use alternative 
financing and delivery methods where you can, P3, the public-
private partnership model. And so what I want to know is, where 
are you in that process? Have you picked any projects for the 
P3 approach?
    Ms. Darcy. In the current budget, we haven't picked one 
specifically for the P3. We are looking at some pilots within 
some projects, and we are also looking at other ways to 
leverage P3.
    I think you are interested in some of the proposals on the 
Fargo-Moorhead.
    Senator Hoeven. Very.
    Ms. Darcy. That is an innovative way to help to finance. 
That is like a P4.
    Senator Hoeven. That is better yet, right?
    Ms. Darcy. It is public-public-private-private, back to the 
public, back to the Federal interests. But it is an innovative 
way to finance, and I think it is something that we need to 
take a very good look at, because if there is capital out there 
that can be leveraged against these necessary projects, I think 
it is something we have to do.
    General Bostick. We have been looking at this very hard, 
and we believe it is something we have to do. Last April, I met 
with a group of investors and business leaders who are 
interested in this sort of opportunity. We have created a small 
office in the headquarters and have people who wake up every 
day thinking about how to do this.
    But it is a long road. We are trying to work within our 
authorities, which makes it complex for investors. So we are 
looking at the authorities that we have.
    We have a couple pilots, in fact, that we are working to 
try within our authorities execute a form of P3. There is more 
work to be done.
    This is something we believe in, and we're working hard at 
it. We have a long road to go, but we are very much interested.
    Senator Hoeven. So if you could get a P3 or maybe even a P4 
candidate that, in fact, reduces the Federal share in half, and 
increases the benefit-cost ratio by more than double, that 
would make it an attractive candidate for selection by the 
Corps to proceed to construction? I would ask both of you that 
question.
    Ms. Darcy. Yes. I think your point about doubling the 
benefit-to-cost ratio is an important one to consider. That is 
one we have to consider when we agree to budgets for projects.
    Senator Hoeven. Have you looked at the P4 proposal put 
forward for the Red River Valley project, the Fargo-Morehead 
proposal for P4?
    Ms. Darcy. We have. I know folks on both of our staffs have 
met with the local sponsor to discuss it, yes.
    Senator Hoeven. General.
    General Bostick. I just had a high-level briefing on it, 
but we are willing to take a deeper dive and make sure we 
understand the mechanics of what is being discussed and 
whether, within our authorities or by seeking others, there is 
some way to do something. But within our authorities is where 
we are currently focused. I'm happy to take a look at this.
    Senator Hoeven. General, I would ask you would. I met with 
General Peabody and other members of your staff. We talked 
about the benefit-cost ratio and the importance of getting 
above a 2.5 benefit-cost ratio. Then we also included language 
in WRRDA that requires you to give consideration for 
alternative methods of financing and the Public-Private 
Partnership.
    I think that the Fargo-Morehead project is an incredible 
candidate that meets the requirements that are laid out for us. 
So I would ask that you take a look at it.
    You're willing to do that?
    Ms. Darcy. Yes.
    General Bostick. Yes, we are.
    Senator Hoeven. Thank you. The other question I would ask 
in that regard is, do you give consideration for local cost 
share where both the nonFederal share is already in hand on the 
part of the State and the local participants, and that it is 
higher than your typical 35 percent cost share for nonFederal? 
Do you give consideration for that, again, having the share 
available and a higher percentage from the local and State 
sponsors?
    Ms. Darcy. It would be a consideration in our budgeting, 
but it is not necessarily the criteria that is ultimately used 
in making a budgeting decision. But it is an attractive 
criteria to be able to consider.
    General Bostick. I would only say it doesn't fit into our 
current models of consideration. I think if we are going to go 
forward with P3, we have to look at innovative and creative 
methods. I'm not sure if this one fits into it, but I think we 
have to look at it and see if it is something that we want to 
consider.
    Whatever we do, I think ultimately it will have to work for 
the Nation as policy or law. We're just not there yet, but 
we're going to look at it, Senator.
    Senator Hoeven. Would you agree that if the local and State 
sponsors come up with a higher share than the typical formula, 
and reduce the Federal cost share, and they have their money 
ready to go, would you say that that is a good thing, in terms 
of evaluating projects?
    General Bostick. It sounds good on the surface, Senator. We 
just have to look at the details.
    Senator Hoeven. Thank you, General, and Secretary.
    Mr. Chairman, I do have some other questions, so I would 
ask the chairman's wishes as to whether I should proceed, 
because I am over my time?
    Senator Alexander. Thanks for asking. Why don't you take 2 
or 3 more minutes, and we will see who else comes back.

                       STANDING ROCK RESERVATION

    Senator Hoeven. Thank you, Mr. Chairman.
    Again, Secretary Darcy, I would like to switch gears.
    On the Standing Rock Reservation, they are concerned that 
their application for a permit to draw water out of the Oahe 
Reservoir is being held up on the basis of water rights. So I'm 
wondering if you have any familiarity with that issue and if 
there is anything that you can either comment on now, or if in 
fact you can lend your assistance, because what is coming back 
from Chairman Archambault, the tribal chairman, and the tribal 
council is that they feel that the Corps is telling them no, 
they can't get a permit to draw water from the Missouri River 
and the Oahe Reservoir that they need when, of course, they 
feel, and they do, have water rights for the Standing Rock 
Reservation.
    Ms. Darcy. Senator, having tribal water rights for 
withdrawals are tantamount to having the ability to draw. I 
don't know the details of this particular situation, but I 
would be happy to look into it because it sounds as though that 
is not our usual mode of operating. If there is a tribal water 
right to an existing water supply, then that would be granted.
    Senator Hoeven. But you would agree that the tribe has 
water rights?
    Ms. Darcy. Yes, sir.

                               NEW STARTS

    Senator Hoeven. Thank you. I appreciate your willingness to 
look into it. We need to. We have been requested to by the 
tribal chairman.
    General Bostick, in the case of Minot, North Dakota, they 
had a terrible flood in 2011. It overwhelmed the banks of the 
Souris River. To date, in recovery, we have spent I think more 
than $630 million in terms of flood recovery, just on the 
Federal end and not counting the State and local share.
    They are trying to do a permanent project, and they need to 
get a study going in order to have a Federal project. But that 
requires a new start. Only three new starts were authorized 
under the WRRDA bill.
    I'm wondering what can you tell me in terms of getting to a 
new start, so we can do a study and evaluate a permanent 
project for Minot. They are moving forward on what they can do, 
but they also have to be careful there so that they don't 
preclude the ability to get a Federal project and fail to meet 
the benefit-cost ratio, if they take all the other actions on 
their own.
    So how do we get to a study so they can plan long-term for 
their permanent flood protection?
    General Bostick. Senator, I think we have to look at all of 
these projects as we move forward. We have very limited new 
starts that we are able to begin. From a performance-based 
budgeting, and life safety, try to make the best judgments that 
we can.
    But in terms of the future, I would say we continue the 
process that we have and look to see if there is any other 
consideration that can be made in that particular case to see 
if it would compete better than it has in the past.
    Senator Hoeven. General, my earlier questions related to 
actually having a project move forward to construction. This 
question relates specifically to how you get the study done to 
determine what the Federal project should be, particularly when 
the locality and the State are spending money to improve their 
flood protection but being told by the Corps that they could 
damage their chances to get a Federal project, because of all 
the actions they are taking to get flood protection in place 
now, because they would reduce their ultimate benefit-cost 
ratio.
    You have a cutline, and OMB has a cutline, as to which 
projects get funded based on that benefit-cost ratio. How do we 
solve their dilemma, in terms of getting a study going so they 
can protect themselves, which they are doing, but also plan for 
a long-term permanent project?
    General Bostick. I would have to follow up with you on 
that.
    Senator Hoeven. You understand the dilemma, sir?
    General Bostick. I understand what you're saying.
    Senator Hoeven. Okay. So we need your help, just as we did 
in the case of the P3. We got good information from you. I 
think we met your requirements. We need to have an 
understanding of what we have to do in the Minot case.
    General Bostick. Okay.
    Senator Hoeven. Thank you, Mr. Chairman.

                          TAXES AND USER FEES

    Senator Alexander. Thank you, Senator Hoeven.
    First, all of us are urging you to do things you are not 
doing. Let me thank you for something you are doing. Over the 
last few years, different agencies of the Federal Government 
have worked to keep the mitigation fish hatcheries open, two of 
which are in Tennessee. And the Army Corps, the Board of 
Reclamation provides some money for that, which you should, for 
basically fish that are killed as a result of dams that you 
operate.
    The Fish and Wildlife Service has been very cooperative. 
And now the Tennessee Valley Authority has gotten involved, and 
there is a 3-year study going on which would keep the two major 
fish hatcheries open at Dale Hollow and Irwin in Tennessee. The 
study is looking for permanent solutions.
    So I want that to be on your mind as the various agencies 
come back with a permanent solution, the fact that the 
Tennessee Valley Authority became a new player in this compact 
and has provided additional funds and may make it possible for 
us to have a permanent solution on those.
    So we have all the departments represented here today 
involved in that, and I thank you for it.
    Let me go back to one other point that we started on at the 
beginning. It is a problem that I don't expect you to solve 
today, but it is one I am going to work with you to solve. That 
is this business of collecting taxes and user fees and not 
spending them on ports and inland waterways.
    To start with inland waterways, every year since 2009, I 
believe it is true we have spent basically everything we had in 
the Inland Waterways Trust Fund.
    Isn't that right, Secretary Darcy?
    Ms. Darcy. I believe there has been a balance but not a 
large balance in years past.
    Senator Alexander. Very, very little, I believe. So the 
problem was we were told not enough money in the Inland 
Waterways Trust Fund, so we go out and get the users, the big 
commercial users, to agree to pay $.29 per gallon, I guess, 
instead of $.20. We raised what should be another $30 million. 
So the regular tax would provide about 85 percent. The new user 
fee should get to be about 13 percent, in the first year, maybe 
15 percent.
    So what we have is this year you are carrying $16 million 
to $19 million from last year that you are not spending. Then 
there is 85 coming in from the $.20 fee that existed. Then we 
have $15 million or so coming in from the new $.09, so you are 
collecting $115 million, $53 million you are spending, but $57 
million you are not spending.
    So I have to go back to these users and say, I'm sorry, we 
told you that we would fix the Inland Waterways Trust Fund and 
keep the locks open if you would ante up and pay more, and now 
they are paying more and we're not spending it.
    Then there is the Harbor Maintenance Trust Fund, which we 
collect taxes on cargo. We collect about $1.5 billion, $1.6 
billion a year for the purpose of harbor work, like deepening 
the harbor so we can be competitive in the world marketplace. 
Yet, you're recommending spending $915 million out of the $1.5 
billion or $1.6 billion. And you have about $8 billion in the 
fund that is unspent, that is collected for that purpose and 
unspent.
    Now, part of that problem is the administration's, because 
they don't give you the allocation to spend it. Part of it is 
the Congress' fault, because we don't get the allocation to 
spend it. But it doesn't make common sense that we would want 
to be a great country with great ports and a great inland 
waterway system, that we would be collecting money from taxes 
on cargo and from users of inland waterway systems to 
reconstruct those inland waterways and deepen those ports, and 
we leave $57 million in the Inland Waterways Trust Fund 
unspent, and we have an $8 billion balance in the Harbor 
Maintenance Trust Fund unspent.
    Do you have any comment on that? Any suggestions on how we 
can deal with that?
    General Bostick. One thing first, as I said earlier, I 
think many of the adjustments that have been made will help us 
in the long term. If you look at the capital projects business 
model, they recommend expenditures of approximately $380 
million per year over 20 years to really get after the 
infrastructure needs of the inland waterways. So while the 
money is not spent this year, the Inland Waterways Trust Fund 
and having that build up to a certain level is a good thing, I 
think.
    The other thing is that we are in a period of transition. I 
think that the decision to make the percentage breakdown 85 
percent of the general treasury for Olmstead was helpful, but 
it allowed that fund to grow much higher than it would have 
been in previous years. So I am not saying it is an anomaly, 
but I think it is a one-time issue that we will deal with and 
that will level off in the years ahead.
    Senator Alexander. General, if you had more appropriated 
dollars, could you spend more of the trust fund?
    General Bostick. I think if the top line were higher, we 
could use additional money on increments of work that would add 
value. So yes, we could do that.
    We clearly support the President's budget, because there 
are priorities well beyond civil works that the Nation has to 
deal with. And as I said earlier, with the budget we have, we 
are trying to work alternative financing methods that will 
bring in money that will allow us to address some of these 
needs.
    But at the end of the day, I think the Inland Waterways 
Trust Fund growing is a good thing for us, and in the out-
years, we will continue.
    Senator Alexander. Well, if you are looking for a public-
private partnership, you have it on the Inland Waterways Trust 
Fund. I mean, you have the big users paying a higher user fee 
to help fix the locks. So we have it. We just need to figure 
out a way.
    I know you would like to do everything that needs to be 
done. I know that you want to do that. But what I would like to 
do is to work with you both, in terms of our rules here in 
Congress and the administration, and make sure that if we have 
this money, we're collecting it and we have these important 
goals for our country, that we are able to reach them. It 
doesn't make much sense to the guy on the sideline to look at 
that and say, okay, you want deeper ports and you want to fix 
locks and you have the money in the bank but you won't spend 
it. That doesn't make a whole lot of sense.
    So I know what you want to do, and I would like to work 
with you and see that we do more of it.
    I don't know if other Senators are coming back. I see 
Senator Lankford here, and I will be glad to call on him for 
additional questions. And if Senators come back who haven't had 
a chance to ask questions, we will let them do that. And if 
Senator Feinstein comes back, of course, she can say she 
whatever she wants to say. Then we will conclude the hearing.
    Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman, which would mean 
that our witnesses have an extra eye toward the door, hoping 
that no one else walks it.

                    WATERS OF THE UNITED STATES RULE

    Senator Lankford. Every time the door opens, it is longer 
for them.
    Let me just ask a couple of quick questions, just a follow-
up. We talked a little bit about the Waters of the U.S. Rule, 
and the $5 million that has been moved over asking for 
additional money for the rulemaking authority on that. My 
question is, do you expect a higher volume of permits under a 
new definition of Waters of the U.S.? And what effect will that 
have, long term, on manpower and time for permits and such?
    Ms. Darcy. I think, initially, we will see an increase in 
the number of permits. Our estimate in the economic analysis 
that was done was about a 3 percent increase.
    Senator Lankford. Do you have the manpower already to be 
able to handle that increase?
    Ms. Darcy. No, sir. That is why we have the additional $5 
million in the regulatory request for 2016.
    But over time, we anticipate that the manpower needs will 
not be as great. We are trying to figure out how much money we 
are going to need and how many people we are going to need. We 
looked at what we did after the Rapanos guidance went out in 
2008, and started using that as a benchmark as to what 
additional needs might there be. A lot of the initial needs are 
going to be for training our regulators for what impacts these 
new jurisdictional determinations will need to be made, and 
most of it is training, and, as General Bostick said, 
additional personnel as well.
    Senator Lankford. So your thought is that it will require 
additional training for existing regulators, but once they get 
the training, there won't be a need for additional individuals 
to oversee this regulation?
    Ms. Darcy. I think there will be an initial need for 
additional regulators and also the training for existing 
regulators, as well as new regulators. But I don't see that 
growing over time. I think that is sort of like the startup 
cost for getting us to where we need to be in order to 
implement.
    Senator Lankford. You don't see an additional--I am trying 
to get a sense of it, because it seems like it broadens 
tremendously the number of locations that would require a 
permit or a new type of permit, or at least someone to go out 
and take a look at it and be able to evaluate it. It looks like 
it would increase the inventory by a pretty large margin.
    So the assumption is that the people that you have on the 
ground now, you will need very little change on that long term 
to be able to handle that additional work?
    Ms. Darcy. What we envision, Senator, is part of the rule 
is to get better certainty into what is jurisdictional and what 
is not, who was in and who is out. We do that by providing 
definitions, some definitions for the first time in the 
proposed rule, like a definition of tributary. That is the 
first time that has ever been defined.
    So if we have a bright line test so that people know they 
are in or out, I think that it will, over time, reduce the 
number of case-by-case specific determinations we have to make. 
Right now, if a permit comes in and it's not currently a 
regulated water, we have to go out and make case-by-case 
specific determinations on whether there is a significant 
nexus, whether there is a tributary. By defining tributary and 
other things in the rule, we will know, because they are a 
tributary, whether they need a permit or not.
    Senator Lankford. It's no big surprise to you that many 
people across the frigid plain are a little concerned that 
every low spot on their land that is a dry low spot that holds 
water when it rains suddenly gets defined as a tributary and 
that bright line that you talk about seems a little fuzzy at 
this point.
    Ms. Darcy. Senator, we have received over 1 million 
comments on this rule, and many of the comments are dealing 
with being more specific in the definitions and getting some 
more clarity, so we are taking those comments to heart before 
we issue the final rule.

                     FEDERAL FLOOD RISK MANAGEMENT

    Senator Lankford. Okay. Let me ask about one another piece. 
The Federal Flood Risk Management Standard, which is another 
one of those things that as it comes through the process, there 
are a lot of questions about, if individuals can get access to 
data and the underpinnings of that and the scientific research 
and how that came about, if there will be a significant moment 
for not only receiving comment but knowing that their comment 
is heard and acted upon.
    Tell me the status on that and how much transparency there 
will be in this process?
    Ms. Darcy. The flood standard, as you know, is in the 
public comment period for implementation, to have the public 
comment on how this flood standard should be implemented. It is 
out for a 60-day comment period.
    We, the Corps of Engineers, along with the other Federal 
agencies, are active in that process. That will be transparent. 
I believe the comments will all be publicly available before we 
finalize any implementation guidance.
    Senator Lankford. Okay, all the data and the underpinnings 
and the research for it, background, where will that be, as far 
as availability?
    Ms. Darcy. FEMA was one of the lead agencies on this 
effort, and I believe it will be on FEMA's Web site. But we can 
get back to you on that.
    Senator Lankford. Yes. That has been an issue, that some of 
these decisions have been made and they said the research and 
data behind it is proprietary, so it cannot be released. So 
there is a pretty significant change, and no one can see the 
data. So I would like to have every opportunity that we can to 
have peer-reviewed data that is available to people, and they 
can actually interact with that data.
    Ms. Darcy. I believe we are going to do that, but I will 
get back to you with the website. Hopefully, we can provide 
information.
    Senator Lankford. I would like that very much, to be able 
to have that kind of availability of data and that kind of 
interaction.
    Mr. Chairman, thank you.

                      INLAND WATERWAYS TRUST FUND

    Senator Alexander. Thank you, Senator Lankford.
    I have an appointment with the President's nominee for 
Secretary of Defense. I am going to go keep it. Senator 
Feinstein is going to preside. She has a couple questions that 
she is going to ask, and I trust her with the gavel. She is 
experienced with it.
    I have one question of clarification, General Bostick. Did 
you say that there are $380 million of projects for the Inland 
Waterways Trust Fund? What was the $380 million figure you 
said?
    General Bostick. This was an estimate of capital projects 
business model. There is a capital projects business model, and 
that effort showed that we need about $380 million per year 
over a 20-year period to really address the infrastructure and 
the needs of the inland waterways.
    Senator Alexander. So that would do it? That is all it 
takes, combined appropriated and trust fund money?
    General Bostick. I don't know what the all the assumptions 
are that went into that, but we can provide that to you.
    Senator Alexander. I would like to see that. I would like 
to see some estimate of what the backlog of projects is, what 
the estimated work plan is over the next several years, and how 
the funding that is expected to come in from the trust fund and 
the appropriated funds meets what we need to do. We can talk 
about that separately, but I would like to talk with you about 
that.
    General Bostick. We will do that, sir.
    Senator Alexander. Thank you for coming. The hearing record 
will remain open for a week for additional questions. And 
Senator Feinstein will now preside and ask whatever questions 
she would like to ask.

                           CALIFORNIA DROUGHT

    Senator Feinstein [presiding]. Thank you very much, Mr. 
Chairman. Be assured that I will behave.
    Commissioner Lopez, I would like to thank the bureau for 
working very hard to maximize water supplies in California 
under the most difficult circumstances. The bureau has just 
been terrific, and I have had nothing but positive feedback 
about Reclamation, not only from many constituents but also 
from the State people and State departments who depend on 
various water project supplies.
    I am also very pleased to see that Reclamation has 
developed a spending plan to make good use of the $50 million 
provided to the bureau to address the West's drought. Not only 
California, but other States in the west will also benefit from 
increased funding for increases to fight drought.
    As you know, the drought in California shows no sign of 
abating. Between December 21 and February 6, most of California 
saw no measurable precipitation. Even after this past weekend's 
storms, Shasta remains at 51 percent of capacity, Oroville at 
45 percent, Folsom at 51 percent, and San Luis at 56 percent. 
Snowpack statewide is at 27 percent of normal.
    I mentioned how people are suffering from it. I also want 
to mention that wildlife and refuges are suffering, too. The 
fall trawl surveys showed record low numbers for Delta smelt. 
Low water flows and higher than normal water temperatures have 
killed off many endangered winter run salmon eggs and fries. 
Habitat for migratory birds has shrunk dramatically. This 
weekend's storm flows are expected to decrease quickly.
    Until we see the next storm, if we see one at all, the 
first question is, what do you think you can do to ensure the 
maximum amount of water is captured and stored for human as 
well as environmental use?
    Mr. Lopez. Thank you, Senator. I think the best thing that 
we can do is the continuing coordination with the regulatory 
agencies, that is, the fish agencies, Fish and Wildlife 
Service, National Marine Fisheries Service and EPA.
    Oftentimes, those regulations, be they either biological 
opinions or water quality issues, are really what is going to 
constrain our ability to capture some of those flows when they 
are happening.
    We are, as you know, in very, very close daily coordination 
with them. And I think that we have been trying to maximize 
flexibilities, in terms of how much we are able to take. We are 
monitoring the fish on a real-time basis to make sure we are 
not reaching critical take limits. And we are adjusting the 
pumping daily to keep all that going.
    We continue to have challenges, as you know, with water 
hyacinth that are blocking the CVP pumping facility. We are 
working with a number of irrigation districts, the State and 
others. They are lending us resources and manpower to try to 
deal with those issues as well.
    So we will continue to work in close coordination with all 
the interested entities. Additionally, I think another key 
element is that we continue to do all of what we are doing with 
complete transparency. That is, the people who depend on us for 
their water supply need to know why we are making the decisions 
we are making and need to have confidence that they are well-
reasoned. We are also trying to make sure that we are 
coordinating with Congress and making sure that you know what 
is going on, as well.
    These are all things that we will continue to do.

                        CALFED STORAGE PROJECTS

    Senator Feinstein. Right. As you know, I'm very 
disappointed. I know NMFS and Fish and Wildlife worked on a 
plan, along with your agency, and the plan was turned down by 
the director of the State board. I understand there is going to 
be an appeal to the full board. I am very disappointed at that 
action. So hopefully, we can reverse it. We'll see.
    Last year, the State's voters voted overwhelmingly to 
approve a $7.5 billion water bond, which includes $2.7 billion 
for water storage. To determine whether that money can be 
applied to one or more of the CALFED storage projects, the 
State must know whether the projects are feasible or not by 
2016.
    This is a very high priority for me, and I would like to 
run through the scheduled completion dates for each of the 
projects, and you let me know whether the timeline has changed. 
And if yes, what is the completion date to which you can commit 
Reclamation? It is my understanding that we submitted this to 
you so that you won't be blindsided by it.
    Shasta Dam raise? The final documents were originally 
scheduled to be released in either December 2014 or January 
2015. What is the final completion date for the final 
feasibility study and final environmental impact statement?
    Mr. Lopez. Senator, these reports are undergoing the final 
executive review right now. From our perspective, the technical 
work has been completed. They are getting their final review, 
and we hope that they will be available to you soon. But I 
can't speak to the exact timeframe.
    Senator Feinstein. Well, will it be 1 month, 2 months, 6 
months, or 6 years? It has been 10 years so far.
    Mr. Lopez. Senator, I think we are very, very close.
    Senator Feinstein. Okay. I guess I will now know what you 
mean by very, very close. You are new. We'll see.
    Temperance Flat, I was told last year that the final study 
and EIS will be ready by July of this year. Are they still on 
target to be delivered in July of this year?
    Mr. Lopez. Senator, I think my response is going to be 
similar to my last one. I think that we are on track. 
Reclamation is on track to complete the technical work by July, 
and then it will require some time to complete Executive 
Review. The timeframe for that review to be completed, I am not 
certain how long that will take.
    Senator Feinstein. Okay. But you are saying that the 
technical work will be completed by July?
    Mr. Lopez. Senator, I think we are on track to meet that 
deadline.
    Senator Feinstein. Okay. Sites Reservoir, I understand the 
bureau is working with the local joint powers authority, with 
whom I just met a few days ago and was very impressed with what 
they are putting together, to complete a project management 
plan by the end of this month that would establish the 
remainder of the feasibility study schedule.
    Is delivery of the project management plan on schedule?
    Mr. Lopez. Senator, as you speak, the Joint Powers 
Authority met with us, as well. They are very engaged in 
getting their piece of this puzzle put together, and we are 
working with them on a Project Management Plan. If we can bring 
that to fruition, I think we will remain on schedule for the 
technical work.
    What we are trying to do with all these studies is do them 
sequentially, that is, Shasta first, then Temperance Flat, then 
Sites, such that we don't spread ourselves so thin that none of 
them move ahead.
    We think we are on course to get to that endpoint and stay 
on schedule, so that the decision can be made about this 
reservoir as well.
    Senator Feinstein. Sites, although it is the most 
expensive, may just well turn out to be the best, because it 
produces the most, although it is expensive. But if I 
understood the joint powers agreement, they are going to 
actively participate in the financing and are trying now to 
raise money.
    So I think if it is has a reasonable cost-benefit, and if 
the feasibility is within a reasonable amount, I think that is 
a very important reservoir to take a look at.
    Los Vaqueros Phase 2 expansion. The first phase of 
expansion was completed in 2012, and the locals are 
contemplating a second expansion phase. Does Reclamation have 
any information on the expected timeframe for a decision to be 
made about Phase 2 work and the anticipated completion 
timeline?
    Mr. Lopez. Senator, I do not have a timeline for that one. 
I would like to supplement my answer.
    [The information follows:]

    Regarding the San Luis Low Point Improvement Project, including a 
dam raise alternative, is scheduled for final reports in December 2017. 
Engineering analysis for the Safety of Dams (SOD) Corrective Action 
Study is in progress. Seismic and constructability analyses are 
scheduled for completion in 2015. This project relies on information 
being developed via the SOD program to ensure a dam raise alternative 
also resolves the potential seismic risk.
    We had considered accelerating the schedule, but that effectively 
eliminated the economies that could be achieved by addressing the 
seismic issue in conjunction with the low point problem and other water 
supply reliability issues. The point of the feasibility study is to 
identify the economies that could be achieved by combining the seismic, 
low point, and water supply reliability aspects, and we do not have any 
specific details. The primary economy is gained from allocating the 
cost of the dam raise among numerous purposes.

    Senator Feinstein. Yes, would you? I will mark that down.
    And last, San Luis Reservoir. An initial appraisal study 
was completed in December 2013. Do you have an estimate for 
when the draft and final feasibility studies will be completed?
    Mr. Lopez. I was informed that we are on track to have a 
draft by the summer of next year, the summer of 2016, with the 
target of having a final in the fall of 2016.
    Senator Feinstein. Isn't San Luis the one that doesn't take 
very much? It has to undergo earthquake repair?
    Mr. Lopez. I believe that is correct, Senator.
    Senator Feinstein. So if I understand this, if the work 
could be done when the earthquake repair is done, the amount is 
not that great for a prudent raise. It is not a huge raise, but 
it is a raise that could be very helpful. And as I understood 
it, it costs in the millions, not the billions, low millions.
    Mr. Lopez. Senator, what you are describing I believe is 
correct, that if we could do both of these at the same time, we 
should gain some economies. I don't have at my fingertips all 
the details about it though.
    Senator Feinstein. Okay. Perhaps you would.
    [The information follows:]

    Reclamation and Contra Costa Water District are developing a 
Project Management Plan to identify the tasks, schedule, and budget 
necessary to complete a feasibility report and environmental documents 
for the next phase. Reclamation will need a nonfederal cost share 
partner to implement the Project Management Plan.

    Senator Feinstein. And I thank you for the water hyacinth. 
I have never seen anything quite like the photos that I have 
seen of that mass that has grown.
    I gather this is all imported, the hyacinth is not native. 
Is that correct?
    Mr. Lopez. Senator, I understand that it is a species that 
has been introduced into the area. I don't know that from study 
of my own. But I have been told that it probably came over on 
the ballast of ships into the area. But it is, certainly, 
established now.
    Senator Feinstein. Alright.
    Well, we had a very good meeting, and I look forward to 
working with you, and I think getting those feasibility studies 
done, as I said, it has been 10 years. It really has. And what 
is emerging I think is very interesting as to what looks like 
the most doable.
    You and I both talked to that joint venture, and it was 
very impressive. And to date, I know of no real opposition to 
it. So if the Sites numbers could get done, that would be very 
much appreciated, quickly.
    Mr. Lopez. Senator, we understand the importance of moving 
all of these forward, particularly last year and this year are 
demonstrating the importance of storage. Obviously, the quicker 
we can get all of these answers done, the better for all of us.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Thanks, commissioners. Thank you very 
much, ladies and gentlemen.
    As Senator Alexander stated, the hearing record will remain 
open for 10 days. Members can submit additional information for 
the record within that time, if they would like.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Thad Cochran
                 federal flood risk management standard
    Question. Please identify any non-government organizations or 
individuals that had any role whatsoever in composing, editing, 
drafting, reviewing or developing any part of the FFRMS, the draft 
version of the Implementing Guidelines published in a Federal Register 
Notice on February 5, 2015, pursuant to EO 13690. Identify the 
individuals, their organizations, their roles in the process, including 
any individuals or organizations that worked through a contractual 
relationship with any office, agency or department of the Executive 
Branch.
    Answer. All activities associated with the FFRMS and its 
Implementing Guidelines were facilitated through an interagency process 
as part of the Mitigation Framework Leadership Group (MiTFLG). The 
membership of this group is listed on the Federal Emergency Management 
Agency's (FEMA) Web site.
    Question. Please identify the Governors, mayors, and other 
stakeholders from whom input was solicited prior to the establishment 
of the new FFRMS. Include the dates input was solicited, the dates any 
response or input was provided, and a summary of any input and 
responses that were considered in the development of the FFRMS.
    Answer. The Corps was not involved in the process of soliciting the 
views of Governors, mayors, or other stakeholders on the standard, and 
as a result, cannot offer any comments on how this process was designed 
and/or implemented.
    Question. Please provide a detailed summary of the activities of 
the Mitigation Framework Leadership Group since its inception relating 
to the development of the FFRMS, including a list of Federal members. 
Also provide a list of non-Federal members, including State, local and 
tribal governments, private sector and non-government organizations, 
and include a summary of their involvement in the development of the 
FFRMS and the dates such involvement occurred.
    Answer. FEMA, who serves as the chair of the MitFLG, will be in the 
best position to provide detailed information about its membership and 
associated activities supporting the development of the FFRMS. Also, 
the membership of this group is listed on FEMA's Web site.
    Question. Consistent with Executive Orders 13563 and 12866, please 
detail the methods used in determining the costs, benefits or 
scientific rationale of the FFRMS prior to its issuance, and provide 
the results of any such analyses.
    Answer. EO 13690 amends existing EO 11988 decisionmaking processes 
for agencies to follow when conducting Federal actions in a floodplain. 
Consideration of alternatives for determining the area where agencies 
need to apply the existing EO 11988 decisionmaking process was 
accomplished through an interagency process facilitated by the MitFLG. 
Recommended options for assessing alternatives for Federal actions in 
floodplains are consistent with projected scenarios for sea-level rise, 
and are consistent with findings and recommendations put forth in the 
recently released North Atlantic Coast Comprehensive Study, prepared by 
the Corps.
    Question. Please provide a detailed accounting of any activities to 
engage the public and their representatives in Congress in the 
development of the FFRMS prior to January 30, 2015, not otherwise 
addressed herein.
    Answer. As previously stated, the Corps was not involved in the 
process of soliciting the views of stakeholders on the standard, and as 
a result, cannot offer any comments on how this process was designed 
and/or implemented. Currently, the MiTFLG is soliciting public comments 
on the interagency Implementing Guidelines that could inform future 
revisions to the FFRMS as part of its annual review as required in 
Section 4(b) of EO 13690. In the months ahead, the Corps will seek 
public dialogue as the agency develops its Implementing Guidance.
    Question. Please provide a detailed accounting of any funds 
expended to support the activities of the Water Resources Council, 
including the source of all such funds. Identify any Executive Branch 
personnel, including offices, departments, and agencies, utilized to 
support the activities of the Water Resources Council. Also include the 
dates any meetings of the Water Resources Council were held, attendance 
at such meetings, and whether there was any public notice of any 
meetings.
    Answer. Executive Order 13690 establishes a Federal flood risk 
management standard, a flexible framework to increase resilience 
against flooding and help preserve the natural values of floodplains. 
It also establishes a process for further soliciting and considering 
public input, including from Governors, mayors, and other stakeholders, 
prior to implementing this standard. Executive Order 13690 amends 
Executive Order 11988. It sets up a process under which the Mitigation 
Framework Leadership Group, after reviewing the public comments, will 
provide recommendations to the Water Resources Council. The Water 
Resources Council would then provide guidance to agencies on the 
implementation of Executive Order 11988, as amended, consistent with 
the Federal risk management standard.
    The President issued Executive Order 13690 on January 30, 2015. The 
Army Corps of Engineers will be involved in this process through the 
Mitigation Leadership Framework Group, as a member of the Water 
Resources Council, and as an implementing agency. The Army Corps of 
Engineers will be available to participate in this process, as 
appropriate, within its existing resource levels.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
              kentucky lock project on the tennessee river
    Question. What is the estimated completion date for the Kentucky 
Lock project?
    Answer. The completion date could depend on a range of factors, 
including the availability of funding. At this point, the earliest that 
the Corps estimates that it would be able to complete physical 
construction would be in calendar year 2022.
    Question. What are the annual funding levels assumed for this 
estimated completion date?
    Answer. The capability estimate for each study or project is the 
U.S. Army Corps of Engineers estimate for the most that it could 
obligate efficiently during the fiscal year for that study or project. 
However, each capability estimate is made without reference to the 
availability of manpower, equipment, and other resources across the 
Army Civil Works program, so the sum of the capability estimates 
exceeds the amount that the Corps actually could obligate in a single 
fiscal year. The Budget allocates funding among studies and projects on 
a performance basis in a manner that will enable the Corps to use that 
funding effectively. Consequently, while the Corps could obligate 
additional funds for some studies and projects, offsetting reductions 
within the Army Civil Works program would be required to maintain 
overall budgetary objectives.
    The funding stream below includes inflation. However, it must be 
noted that funding for Kentucky Lock would be considered, along with 
all other funding requirements for projects throughout the Nation.
  Fiscal Year 2015--$15.0 million
  Fiscal Year 2016--$50.6 million
  Fiscal Year 2017--$51.7 million
  Fiscal Year 2018--$50.5 million
  Fiscal Year 2019--$69.0 million
  Fiscal Year 2020--$95.2 million
  Fiscal Year 2021--$85.1 million
  Fiscal Year 2022--$28.8 million
  Fiscal year 2023--$0.8 million
    Question. What is the remaining benefit/remaining cost ratio for 
the Kentucky Lock project?
    Answer. The benefits and the costs of the project need to be 
updated and therefore a current remaining benefit/remaining cost ratio 
is not available.
    Question. Does the cost to complete the Kentucky Lock project 
increase annually as it remains in ``caretaker'' status?
    Answer. In real terms, the cost to complete the project should not 
increase.
                     fiscal year 2015 workplan/iwtf
    Question. The fiscal year 2015 USACE work plan includes $6 M in 
unobligated funding. Does the USACE intend to use this funding, and if 
so, how?
    Answer. Yes. These funds have not yet been allocated because a 
useful increment of work has not yet been identified for those funds. 
The remaining funds will be allocated coincident with identifying a 
useful increment or increments of work for those funds.
                  section 1035 wrrda, floating cabins
    Question. It is my understanding the USACE is currently developing 
health and safety guidance regarding Sec. 1035 of the Water Resources 
Reform and Development Act of 2014 (Public Law 113-121). I am told that 
your agency has committed to considering input from interested parties 
on this health and safety guidance prior to its finalization.
    Will there be an opportunity for interested parties to view a draft 
proposal of the guidance in an effort to provide comment prior to the 
finalization of this guidance? If so, is there a date when stakeholders 
may expect a draft proposal to be made available for review? If not, 
please explain why stakeholders will not have the opportunity to 
provide comment on this guidance.
    Answer. In the fall of 2014, the Corps held a series of three 
listening sessions for government entities and the public to learn 
about and/or express their concerns or issues on any section of WRRDA 
2014. Afterwards, the Corps extended the offer to accept, consider, and 
address any concerns of marina operators or other constituents, but no 
comments were provided to the Corps.
    The Corps is in the final stages of preparing implementation 
guidance that is within the parameters of Section 1035 of WRRDA 2014. 
Once approved by the Assistant Secretary of the Army for Civil Works, 
the policy will be released to the public and to the Nashville District 
for implementation. In addition, the Nashville District will notify 
applicable marina operators of the policy and distribute it 
accordingly. Marina operators will also be extended the opportunity to 
meet with the Project Manager and any other District personnel 
concerning questions and direction on submitting requests to expand the 
marina outgrant to include floating cabins and/or concerning new marina 
proposals to include floating cabins.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                     continuing authorities program
    Question. At the subcommittee hearing, I asked about funding for 
the Continuing Authorities Program, specifically Sections 103 and 107. 
These sections have not received much funding in recent years; in fact, 
the Corps has not included them in the budget since 2011, although the 
appropriations process has put money into those accounts.
    What are the current unobligated balances of those accounts?
    Answer. As of January 31, 2015, Section 103 had $8.63 million in 
unobligated prior-year funds and $1.25 million in fiscal year 2015 
funds, for an unobligated total of $9.88 million. Of this, $4.61 
million is on projects and planned for obligation in fiscal year 2015 
and fiscal year 2016, and $5.27 million is being held in Headquarters 
pending execution of cost sharing agreements.
    Section 107 had $7.08 million in unobligated prior-year funds and 
$2.35 million in fiscal year 2015 funds, for an unobligated total of 
$9.43 million. Of this, $4.09 million is on projects and planned for 
obligation in fiscal year 2015 and fiscal year 2016, and $5.34 million 
is being held in Headquarters pending execution of cost sharing 
agreements.
    Question. How does the Corps plan to fund them going forward?
    Answer. The available balances will be used to complete useful 
increments of work, including completion of ongoing projects and 
initiation of additional projects if affordable.
    Question. Why are the funds not being used?
    Answer. The funding in the sections either has been allocated to 
projects or is being held in Headquarters pending execution of cost 
sharing agreements.
    Question. Can the small, rural communities of Alaska begin 
feasibility studies or general investigations using funds from 103 or 
107?
    Answer. Based on guidance from Congress, new starts are allowed in 
CAP where the Corps has completed a favorable affordability analysis. 
The CAP affordability analysis is looked at over a 3 year period and 
takes into account the anticipated funding, capability cost of active 
projects, less attrition, and potential cost of new starts, less 
attrition. Based on the cost of ongoing feasibility work, the cost of 
scheduled construction for fiscal year 2016, and the potential future 
costs of other ongoing projects (even after allowing for attrition as 
some projects are discontinued), new starts in Section 103 and 107 do 
not appear affordable at this time. For instance, in Section 103 there 
are 3 projects with pending Project Partnership Agreements (PPAs) and a 
total need of $7.2 million in Federal funds for construction. In 
Section 107 there are 4 projects with pending PPAs and a total need of 
$10 million in Federal funds for construction. The Corps will re-
evaluate affordability on a quarterly basis and, when possible, 
consider additional projects.
                         arctic deep draft port
    Question. I am enthusiastic about the release of the Corps' Draft 
Report regarding the Deep Draft Arctic Port System Study. This is a 
plan to build much needed infrastructure in the Arctic that will help 
the people of Alaska lower their cost of living, drive the local and 
State economies, and allow for a faster response in the event of an oil 
spill in the region.
    Can you please provide me with a detailed plan for how this project 
will proceed?
    Answer. Upon completion of public, technical, legal, policy and 
independent external peer reviews, the next step would be for the 
Arctic Deep Draft study team to develop responses to comments submitted 
and modify the recommended plan as appropriate.
    Question. What is the estimated timeline for the Review Board 
Hearing and Chief's Report?
    Answer. The Civil Works Review Board is currently scheduled for the 
first quarter of fiscal year 2016. Upon completion of a successful 
Civil Works Review Board and State and Agency Review of the project, 
the final feasibility report will be forwarded to the Chief of 
Engineers for review and approval.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                south san francisco bay shoreline study
    Question. Can you tell me how you plan to finish the Chief's Report 
by December 2015, as promised, without Federal funding in the fiscal 
year 2015 Work Plan and in the fiscal year 2016 Budget?
    Answer. We are considering all available options for completing 
this report.
    Question. If there are unallocated funds in the fiscal year 2015 
Work Plan that can be applied toward the study, can you commit to me 
that you will make the required sums available so that the study will 
stay on schedule?
    Answer. It is premature to make this commitment at this time as we 
are still developing the fiscal year 2015 Work Plan. However, our goal 
is to keep this study on an efficient schedule.
    Question. Can you commit to me that the Chief's Report will in fact 
be done by December 2015 with no further delays?
    Answer. Our goal is to complete the Chief's Report by the end 2015 
if there are not any unforeseen issues.
                    napa river flood control project
    Question. The Napa River Flood Control Project was provided funding 
in fiscal year 2014 to complete the bypass through the downtown area 
thereby capturing a majority of the project benefits. However, it has 
recently been determined that this work that was committed to in fiscal 
year 2014 will cost more than was initially anticipated and additional 
funds will be required. It would appear that sufficient funds remain 
unallocated that could be used for this purpose.
    Why were these funds not included in the fiscal year 2015 work 
plan?
    Answer. I became aware of the cost increase to complete this final 
phase late in the process of developing the work plan and am still 
gathering information regarding the scope and extent of the additional 
funds needed to complete this project that was previously funded to 
completion in fiscal year 2014.
                           california drought
    Question. What is the Corps doing to help with drought conditions 
in California?
    Answer. First, the Corps implemented temporary deviations to 
operations at Whittier and Prado Dams during the drought which has 
allowed the maximum capture of over 22,000 acre feet of water. Other 
deviation requests will likely be forthcoming.
    Second, the California Department of Water Resources has been 
meeting with the Corps about permits for salinity barriers in the 
Delta. The Corps expects additional permit requests for other work, 
including pumps, siphons, wells and pipe extensions.
    Third, the Corps is engaged with other Federal, State and local 
agencies to anticipate and assist in providing drought responses. 
Regionally, the Corps is participating in forums conducted by the 
California Office of Emergency Services, the lead State agency, 
regional water planning bodies and directly with project partners.
    Fourth, the Corps is providing technical assistance to local 
communities. For example, the Corps provided technical assistance to 
Redwood Valley Water District to place a temporary floating pump 
platform in Lake Mendocino that will allow continued water withdrawal 
if the lake level falls below the permanent intake.
    The Corps remains engaged with the California Drought Task Forces 
and is prepared to immediately act in processing deviations, regulatory 
permits and emergency water assistance requests within existing 
authorities. To improve longer-term drought resiliency, the Corps is 
working with the National Weather Service on improving forecast-based 
decision parameters for reservoir operations.
    Question. Are there legislative or institutional barriers that 
hinder the Corps in assisting with drought mitigation?
    Answer. The Army Civil Works program's actions reflect its 
authorities. In a drought, for example, the Corps may be able to take 
steps to change project operations at a multi-purpose dam that includes 
water supply as an ancillary project purpose. In some cases, the Corps 
may also be able to provide certain emergency assistance under Public 
Law 84-99.
                     harbor maintenance trust fund
    Question. It is my understanding that your fiscal year 2016 request 
for funding for activities that are reimbursed from the Harbor 
Maintenance Trust Fund is $915 million, exactly the same as your fiscal 
year 2015 request.
    As a percentage of the eligible work, what is the percentage that 
the Administration budgeted?
    Answer. The level of Federal spending to support harbor maintenance 
and related work in the Budget reflects consideration for the economic 
and safety return of these investments, as well as a comparison with 
other potential uses of the available funds. The fiscal year 2016 
Budget includes funding for about one-third of the potential eligible 
work.
    Question. What costs to the economy are associated with the 
Administration's request?
    Answer. Generally, the Corps considers costs and benefits in 
recommending which work to fund. However, the Corps does not track 
costs to the broader economy for the operation and maintenance work 
that it performs, or does not perform.
    Question. What types of benefits are not realized?
    Answer. Harbor maintenance and its benefits vary by project. 
Generally, the amount recommended in the Budget has a higher return 
than other potential work. The benefits are of the same type, but 
diminish with each added increment of funding. For example, more 
funding could, in some cases, enable some of the vessels that use a 
port to carry more cargo at high tide. At the current funding level, 
they may need to wait for a low tide, when fully loaded. On the other 
hand, regardless of the level of harbor maintenance, many ships may not 
be fully loaded, and many others--due to factors such as their size, 
and the density of their cargo--may be able to use it even when fully 
loaded. In deciding how much funding to recommend, the Corps would 
consider how many of the vessels that use that port are affected by the 
current channel condition, based on actual usage patterns. The choice 
may involve, for example, dredging one foot more in depth in certain 
places, or two more feet in depth there. The first foot of additional 
depth could have enough of an impact to solve the basic concern, but 
not address it fully for every ship. In that case, the Budget might 
fund the first increment of work but not the second. Finally, the port 
can always decide to provide its funds to enable the Corps to perform 
more work.
    Most of the harbor maintenance work that the Corps performs 
involves maintenance dredging. The Corps also performs other work with 
these funds, such as operation and maintenance of coastal navigation 
locks, construction and maintenance of dredged material placement site, 
and repairs on jetties and breakwaters to maintain their effectiveness.
    Question. How is it rational to be collecting a tax for the purpose 
of maintaining harbors, yet not using it for that purpose?
    Answer. Federal funding for maintenance dredging and related work 
at our coastal ports should not be based on the level of the harbor 
maintenance tax receipts. It should reflect consideration for the 
economic and safety return of each investment, as well as a comparison 
with other potential uses of the available funds.
    Question. What was the total of the most recent amount of 
collections from the HMT?
    Answer. fiscal year 2014 collections included Harbor Maintenance 
Tax receipts of $1.51 billion, plus $107 million in interest, for a 
total income of $1.62 billion.
    Question. What is the fiscal year 2016 target funding level for the 
HMT according to the 2014 WRRDA?
    Answer. Section 2101(a) of WRRDA 2014 identifies a level of 
resources that is the target total budget resources for each fiscal 
year. For fiscal year 2016, this level is $1.254 billion.
    Question. For fiscal year 2015, Congress provided $1.1 billion to 
be utilized for HMT activities. What types of activities were the funds 
used for?
    Answer. fiscal year 2015 Harbor Maintenance Trust Fund activities 
included maintenance dredging of harbors and channels; maintenance of 
breakwaters, jetties, bridges, and other coastal structures; operation 
and maintenance of coastal locks, dams, and other infrastructure; 
construction, operation and maintenance of dredged material placement 
sites; removal of floating debris and aquatic growth; project surveys; 
engineering and design and supervision and administration costs; 
conduct of studies and preparations of reports for dredged material 
management plans and major rehabilitations; environmental testing, 
monitoring, and mitigation; retention of the Corps hopper dredges 
WHEELER and McFARLAND in a Ready Reserve status; and collection of 
Harbor Maintenance Trust fund data.
    Question. How did these activities differ from those that the 
Administration budgeted for in fiscal year 2016?
    Answer. The fiscal year 2015 activities are very similar to those 
activities that were budgeted in fiscal year 2016.
    Question. Did the additional funds included in the fiscal year 2015 
work plan provide benefits to the national economy that might not have 
been realized if just the Administration request had been funded?
    Answer. The fiscal year 2015 work plan funds provided for 
additional maintenance of budgeted projects and maintenance of projects 
that were not included in the fiscal year 2015 Budget.
    Question. WRRDA 2014 provided a very elaborate and confusing 
distribution of funding for HMT related activities. Did you follow this 
distribution when allocating funds for the fiscal year 2015 work plan? 
What about for the fiscal year 2016 budget request?
    Answer. The Corps followed Congressional direction provided in 
Section 105 of the Energy and Water Development and Related Agencies 
Appropriations Act, 2015, Division D of the Consolidated Appropriations 
and Continuing Appropriations Act, 2015, when allocating funds in the 
fiscal year 2015 Work Plan. The fiscal year 2016 Budget takes into 
account some of the provisions of Section 2102 such as allocating not 
less than 10 percent of HMTF funds to emerging harbors and Great Lakes 
harbors.
    Question. In either case, were there sufficient funds to undertake 
all of the activities described in WRRDA 2014?
    Answer. Yes. However, we allocated the funds in the fiscal year 
2015 work plan and the fiscal year 2016 Budget based on a technical 
judgment by the Corps of the best use of those resources.
    Question. In the fiscal year 2016 budget request, how did the 
Administration account for the WRRDA direction when allocating funds in 
the budget request?
    Answer. The fiscal year 2016 Budget takes into account some of the 
provisions of Section 2102 such as allocating not less than 10 percent 
of HMTF funds to emerging harbors and Great Lakes harbors.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                         harbor maintenance tax
    Question. As we all recall, getting the long overdue Water 
Resources Reform and Development Act (WRRDA) over the finish line was 
an uphill battle. But ultimately the end result was an important step 
forward for the Army Corps, water and navigation infrastructure, and 
the Harbor Maintenance Tax (HMT). Specifically, Section 2102 of WRRDA 
allows eligible ports to use funds from the Harbor Maintenance Trust 
Fund (HMTF) for expanded uses beyond the traditional operations and 
maintenance uses. For many years some of the largest generators of HMT 
funds, like the Ports of Seattle and Tacoma in my home State of 
Washington, have received only minimal returns from the HMTF because 
they are deep-water ports that require little maintenance dredging. 
Additionally, Section 2106 of WRRDA allows the biggest HMT donor and 
energy ports to receive funding for expanded uses or for rebates to 
shippers and importers transporting cargo through their ports to 
partially compensate for the inequities in the current HMT system 
resulting in cargo diversion to non-U.S. ports.
    WRRDA was signed into law on June 10, 2014, about 8 months ago, and 
yet we still have not seen implementation guidance from the Army Corps 
on Sections 2102 or 2106. In fact, there is very little of WRRDA to be 
seen in the Army Corps' fiscal year 2015 Work Plan or the President's 
fiscal year 2016 budget request. Our ports need the new tools 
authorized in WRRDA to make infrastructure improvements and to remain 
competitive in the global maritime economy.
    Assistant Secretary Darcy, when can we expect the Army Corps' 
implementation guidelines to be completed? I ask that you complete this 
work quickly to ensure that the real changes Congress enacted can be 
included in the Army Corps fiscal year 2016 Work Plan. Furthermore, I 
urge the Army Corps to take steps to incorporate Sections 2102 and 2106 
in the fiscal year 2017 budget request.
    Answer. The Corps expects to complete implementation guidance for 
Sections 2102 and 2106 this spring.
                              mud mountain
    Question. Assistant Secretary Darcy, as we have previously 
discussed, the Mud Mountain Dam project is of great importance to me, 
my constituents, and Washington State. Appreciate the time and energy 
you have put into finding a path forward with NOAA to ensure the Army 
Corps meets both its Endangered Species Act and tribal trust 
responsibilities by replacing the diversion dam and building a new fish 
trap facility. But I must say I was deeply disappointed to learn that 
no funding was included in the Army Corps' fiscal year 2015 Work Plan 
or the President's fiscal year 2016 budget request to get design work 
underway. In a recent phone call with me, you stated that upon 
completion of the decision document the Army Corps would reprogram 
funding in fiscal year 2015 and fiscal year 2016 to begin the design 
phase.
    When can I expect the decision document to be completed? Further, I 
ask that you keep me apprised of any reprogramming requests made by the 
Army Corps to support this project.
    Answer. The decision document, in the form of a letter report, is 
scheduled to be submitted to my office for review this summer. I will 
keep you apprised of any related reprogramming actions.
    Question. Assistant Secretary Darcy, I need your commitment to work 
with me to achieve the aggressive 2020 timeline for a new and 
operational fish trap facility that the Army Corps has agreed to with 
NOAA in order to meet its Federal obligations and the needs of the 
community and ecosystem. Can I count on your commitment to this 
project?
    Answer. Yes, the Army remains committed to meeting the requirements 
described within the 2014 National Marine Fisheries Service (NMFS) Mud 
Mountain Dam (MMD) Biological Opinion (BiOp).
                         columbia river treaty
    Question. The Army Corps, through the Northwest Division, plays an 
important role implementing the Columbia River Treaty as a member of 
the U.S. Entity. Together with the Bonneville Power Administration 
(BPA), the Northwest Division engaged in a multi-year process with 
domestic stakeholders throughout the Pacific Northwest to reach a 
regional consensus to modernize the Columbia River Treaty. The 
``Regional Recommendation for the Future of the Columbia River Treaty 
after 2024'' was presented to the Administration and U.S. Department of 
State in December 2013. Since then the Army Corps, BPA, and several 
other Federal agencies have been participating in an Interagency Policy 
Committee (IPC) process to determine the parameters for negotiations 
with Canada based on the Regional Recommendation.
    Assistant Secretary Darcy, as a participant in the IPC process, can 
you share the timeline for formulating a consensus among the Federal 
partners on these parameters? Furthermore, are there any specific 
issues preventing the Federal partners from reaching consensus, 
completing the IPC process, and beginning negotiations with Canada?
    Answer. The IPC has been gathering more detailed information from 
affected Federal agencies. It is anticipated that the IPC will convene 
to formulate a recommendation to the Administration concerning the 
National Interest Determination, but we have not been provided a 
timeline for the IPC to formulate a recommendation. The U.S. entity is 
not aware of any specific issues preventing consensus.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                          funding for projects
    Question. The Metro East community has taken significant steps to 
ensure their share of funding for construction of the Metro East 
levees, showing strong commitment to the project.
    How many times has the Corps worked with a local sponsor who raised 
more than half the cost of a Federal project? If the Corps has worked 
with local sponsors who have raised more than the required match, 
please list those projects.
    Answer. With regard to construction of a Corps project, the 
authorized non-Federal share can sometimes exceed 50 percent of the 
cost. This is generally the case for hydropower infrastructure and for 
some coastal navigation projects. It may also occur where the 
authorized project is the locally preferred plan.
    A non-Federal sponsor may also provide more than the authorized 
non-Federal share of the costs under the authorities that allow the 
Corps to accept advanced or contributed funds. On this basis, local 
sponsors have paid more than 50 percent of the construction cost at 
least four times in recent years: for construction of the Milwaukee 
Harbor, WI; Miami Harbor, FL; Keystone Bridge, OK; and Sandbridge 
Beach, VA projects. In addition, the Corps recently executed an 
agreement for the non-Federal sponsor to advance all funds for 
construction of the Mile Point, FL, project. Details for these projects 
are included in the following table.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Total non-
            Project name               Type of     Total project    Non-Federal     Additional     Federal funds
                                        funds          cost         cost share    funds provided     provided
----------------------------------------------------------------------------------------------------------------
Milwaukee Harbor, WI (Dredged        Contributed      $3,108,145      $1,709,480      $1,398,665      $3,108,145
 Material Disposal Facility).
Miami Harbor, FL...................  Advanced        181,553,000      71,553,000     110,000,000     181,553,000
Sandbridge Beach, VA...............  Contributed      15,819,000       5,537,000      10,282,000      15,819,000
Keystone Bridge, OK................  Contributed      15,000,000               0       6,000,000       6,000,000
Mile Point, FL.....................  Advanced         46,400,000      11,500,000      34,900,000      46,400,000
----------------------------------------------------------------------------------------------------------------

    Advanced funds in excess of the required non-Federal cost share are 
eligible for repayment, subject to the availability of appropriations. 
Contributed funds are not eligible for credit or repayment.
water resources reform and development act--consolidation of geographic 
                                projects
    Question. In Water Resources Reform and Development Act (WRRDA) 
2014, Congress instructed the Corps to allow for the consolidation of 
geographically consecutive flood risk reduction projects at the request 
of the local sponsor. The local sponsor of the Metro East Levee 
projects made that request on June 19, 2014, and the spring 
construction season is almost upon us.
    Has the Corps developed the guidance necessary to implement this 
section? If not, what are the specific challenges associated with 
developing the guidance?
    Answer. The Corps Headquarters is currently developing 
implementation guidance for Section 3012 of WRRDA 2014. Section 3012 of 
WRRDA is potentially applicable to many projects nationwide. 
Consequently, we need to carefully evaluate the complexities of 
implementing this provision, to ensure the guidance can be applied 
through a fair and consistent process nationwide.
water resources reform and development act--public/private partnerships
    Question. River commerce in America's heartland depends on the 
system of locks and dams on the Mississippi and Illinois Rivers. I was 
pleased to work with my colleagues in the 2007 reauthorization of the 
Water Resources Development Act to authorize modernization and 
expansion of the locks on these important Illinois waterways. These 
improvements make commerce more efficient and guard against 
catastrophic failures of current locks and dams as most of them reach 
80 or so years old. At the same time, with current project delivery 
schedules and the tight Federal budget, these improvements are not 
expected to be realized until 2090 by some estimates. With that in mind 
I introduced the Water Infrastructure Now Public Private Partnership 
Act or WIN-P3, a version of which was included in the Water Resources 
Reform and Development Act (WRRDA) 2014 (Section 5014). The pilot 
program would provide an opportunity for private financing to come to 
the table, accelerating project delivery of nationally significant 
water infrastructure projects like the locks and dams on the 
Mississippi and Illinois Rivers.
    Please provide a detailed timetable for the development of the 
Corps' Public Private Partnership Pilot Program, as authorized in 
Section 5014 of the Water Resources Reform and Development Act (WRRDA) 
2014.
    Answer. The Corps has been evaluating how it might participate in 
public private partnerships in order to support the development and 
implementation of water resources infrastructure With the passage of 
Section 5014 of WRRDA, the Corps has reviewed the law to determine how 
it can be applied in the best interest of the Nation. The first step 
includes identifying any policy and legal issues and then finding 
resolutions so that the Corps can enter into such partnerships.
                         mel price lock and dam
    Question. The Mel Price Dam is a 100 percent Federal project that 
has a major design flaw, which Army Corps studies have found this 
situation puts the levee at an ``unacceptable level of risk.'' Despite 
repeated calls to fix this problem the Corps has yet to finalize a 
design to shore up this critical stretch of levee. This delay is 
causing the Corps to spend millions each year in emergency measures to 
keep the levee from failing. The fiscal year 2014 Omnibus included both 
bill and report language directing the Army Corps to address the Mel 
Price issue, and yet there is little progress toward that goal.
    What is the status of selection of a third party to oversee the 
Corps on its work on the Mel Price Lock and Dam repair project in 
Southwestern Illinois, pursuant to the 2014 Omnibus?
    Answer. The language in the Bill is in regards to conducting an 
Independent External Peer Review (IEPR), which is a specific review 
activity performed by professionals who are external to the Corps, at a 
key point or points during the development of study reports and 
designs. The IEPR team provides comments on study and construction 
designs.
    The IEPR for the recommended design in the study report is 
currently planned to begin November 30, 2015 and complete January 15, 
2016. The Corps is currently discussing procedural options that could 
result in an earlier schedule for the IEPR. The study team continues to 
move forward with its efforts while options are being discussed.
           great lakes and mississippi river interbasin study
    Question. The Corps released its Great Lakes and Mississippi River 
Interbasin Study (GLMRIS) report in January 2014, which was intended to 
identify options to prevent the transfer of aquatic nuisance species 
between the Great Lakes and the Mississippi River Basins. It is my 
understanding that stakeholders have agreed on a series of short-term 
steps the Corps could take to decrease the risk of Asian carp moving 
into the Great Lakes.
    How have your conversations with Federal, State, and local agencies 
informed your next steps to prevent Asian carp from entering the Great 
Lakes?
    Answer. The Great Lakes Commission publicly identified 
implementation of measures to reduce the risk of Asian carp, which 
included modifications to the Brandon Road Lock and Dam. Additionally 
the Chicago Area Waterway System Advisory Committee, a group of 
governmental and non-governmental stakeholders representing commercial, 
navigation, and environmental interests, identified actions such as 
evaluating aquatic nuisance species controls at Brandon Road that can 
reduce the risk of Asian carp reaching the Great Lakes Basin.
    Question. Based on the evaluations presented in the GLMRIS Report 
and in response to stakeholder input, the Assistant Secretary of the 
Army for Civil Works directed the Corps to proceed with a formal 
evaluation of potential control technologies to be applied in the 
vicinity of the Brandon Road Lock and Dam, located near Joliet, 
Illinois.
    How do the proposed actions at Brandon Road fit into these efforts?
    Answer. See above response.
    Question. How will the Corps use the $500,000 requested in the 
fiscal year 2016 budget to implement these next steps?
    Answer. Fiscal year 2016 funds will be used with anticipated fiscal 
year 2015 carryover funds to continue the feasibility-level decision 
document for the Brandon Road project.
                     water of the u.s.--rulemaking
    Question. There has been a lot of confusion surrounding how the 
proposed ``Waters of the U.S.'' rule would affect agricultural 
communities, industry, and counties in my State.
    Would the new rule expand Clean Water Act jurisdiction in the State 
of Illinois? If so where?
    Answer. In the economic analysis that was done for the proposed 
rule, the Environmental Protection Agency (EPA) estimated a slight 
increase in jurisdictional waters nationally, of approximately 3 
percent compared to current practice. The EPA is preparing an updated 
economic analysis that will be published with any issued final rule 
which will also include an updated estimate of any change in 
jurisdiction under the Clean Water Act.
    Question. How would the Corps' determination of `jurisdictional 
waters' differ under the proposed rule from its practices under the 
2007 guidance?
    Answer. The agencies are proposing this rule to provide much needed 
clarity regarding which waters are and which waters are not 
jurisdictional under all sections and programs of the CWA. Our proposal 
is consistent with the best available science and the agencies' 
interpretation of the Supreme Court decisions; this proposed rule is 
aimed at improving efficiency in making jurisdictional determinations.
    The proposed rule retains much of the structure of the agencies' 
longstanding definition of ``waters of the United States,'' including 
many of the existing provisions that do not require revision in light 
of the SWANCC and Rapanos Supreme Court decisions or other bases for 
revision. Under the 2007 Rapanos guidance, updated in 2008, the 
agencies are required to make case-specific significant nexus 
determinations for certain categories of waters, including certain 
adjacent wetlands and tributaries. The proposed rule will improve 
clarity for regulators, stakeholders, and the regulated public. The 
proposal accomplishes this by defining certain categories of waters 
that under current policies require case-specific analyses, as 
jurisdictional by rule ``waters of the United States.'' A case-specific 
significant nexus determination would be required for waters that would 
not be jurisdictional by rule as long as those waters do not meet one 
of the exclusions included in the proposed rule. The proposed rule also 
adds clarity by providing definitions of ``tributary,'' 
``neighboring,'' and ``significant nexus.'' Certain types of waters or 
features are proposed to be excluded for the first time in rule 
language, including certain ditches, stock ponds created by excavating 
and/or diking dry land, and gullies, rills and non-wetland swales.
    Question. While the intent of the proposed rule is to provide 
clarity on the definition of ``waters of the U.S.'' (WoUS) subject to 
jurisdiction under the CWA, many of the actual methods used in a 
jurisdictional determination by the Corps are not expected to change. 
For example, the Corps would continue to use desktop and field-based 
tools, including remote sensing tools, existing methodology under the 
wetland delineation manual and accompanying regional supplements, and 
existing methodology for identifying the ordinary high water mark 
including the manuals developed for certain regions of the country. In 
addition, the options for requesting either an approved or preliminary 
jurisdictional determination would remain available to landowners.
    Would the proposed rule cause additional permitting requirements? 
If so, how?
    Answer. The proposed rule provides a definition of WoUS under the 
CWA and does not modify any statutory provisions or regulatory 
requirements associated with obtaining authorizations under section 404 
of the CWA. The increase in jurisdictional tributaries, adjacent 
waters, and other/isolated waters over current guidance would 
correspond to an increase in the number of permits required. However, 
there may be efficiencies gained as additional categories of waters 
will be determined to be jurisdictional or non-jurisdictional by rule, 
which previously required case-specific significant nexus 
determinations.
    The proposed rule does not modify or revoke any of the efficient 
permit mechanisms currently available, including general permits. In 
addition, the agencies' proposed rule would retain all existing Clean 
Water Act exemptions and exclusions, including those associated with 
certain activities such as normal farming, ranching and silviculture, 
and maintenance of irrigation and drainage ditches.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. I would really like to thank everybody 
for being here today. I very much appreciate your interest in 
this subject. So thank you for being here, and the subcommittee 
will stand adjourned.
    [Whereupon, at 4:43 p.m., Wednesday, February 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        WEDNESDAY, MARCH 4, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:40 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Murkowski, and Feinstein.

                   U.S. NUCLEAR REGULATORY COMMISSION

STATEMENT OF STEPHEN G. BURNS, CHAIRMAN

              OPENING STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order. This afternoon we are 
having a hearing to review the President's fiscal year 2016 
funding request and budget justification for the Nuclear 
Regulatory Commission. Senator Feinstein and I will each have 
an opening statement, and then each Senator may have up to 5 
minutes for an opening statement, alternating between the 
majority and minority. Some Senators are fleeing before the 
snow comes, so I do not know how many will be here, but we are 
here. We will then turn to the witnesses for their testimony. 
We are glad to have so many of you here, and this is really an 
opportunity for us have to have a good discussion about nuclear 
power, the Nuclear Regulatory Commission.
    I would like to thank our witnesses and introduce them in 
this way. Mr. Stephen Burns is chairman of the U.S. Nuclear 
Regulatory Commission. Mr. Chairman, welcome. Kristine 
Svinicki, good to see you again. Thank you for being here. Mr. 
William Ostendorff, good to see you again, Commissioner. Thank 
you for coming, Commissioner. Mr. Jeff Baran, welcome to the 
hearing, also a member of the Commission, the Nuclear 
Regulatory Commission.
    We are here today to review the 2016 budget request for the 
Nuclear Regulatory Commission, which is an independent agency 
responsible for regulating the safety of our Nation's 
commercial nuclear power plants and other nuclear materials. It 
is the first time in a few years the subcommittee has had a 
hearing to examine the Commission's budget. It is also the 
first of several hearings that the subcommittee will hold this 
year on nuclear power. These hearings are important because 
nuclear power provides about 20 percent of our Nation's 
electricity and more than 60 percent of our carbon-free 
electricity, and I will have more to say about all that as we 
go along.
    I plan to focus my questions on four main areas: licensing 
nuclear waste repositories, which is a passion of Senator 
Feinstein as well as mine; number two, avoiding excessive 
regulation; number three, licensing for new and existing 
reactors; number four, making sure the Agency is running 
effectively.
    First on waste, we have to solve the 25-year stalemate 
about what to do with used fuels from our 99 nuclear reactors, 
as well as fuel from some that have already stopped operating. 
We have to have a place to put the used fuel in order to ensure 
that nuclear power has a strong future in this country. Later 
this year, I look forward to reintroducing with Senator 
Feinstein, and Senator Murkowski, and perhaps others, 
legislation that would create temporary and permanent storage 
sites for nuclear waste. Also, Senator Feinstein and I plan to 
again include a pilot program for nuclear waste storage in the 
water and appropriations bill as we have for the past 3 years. 
Her idea, I strongly support it.
    The new sites we would seek to establish through the 
legislation that we are reintroducing would not take the place 
of Yucca Mountain--we have more than enough waste to fill Yucca 
Mountain to its legal capacity--but would rather complement it. 
The legislation is consistent with the President's Blue Ribbon 
Commission on America's Nuclear Future, but my own view is that 
Yucca Mountain can and should be part of the solution. Federal 
law designates Yucca Mountain as the Nation's repository for 
used nuclear fuel. The Nuclear Waste Fund, which is money that 
utilities have paid the government to dispose of their used 
nuclear fuel, has a balance of about $36 billion, and there are 
still several steps to go in the licensing process for Yucca 
Mountain.
    The Nuclear Regulatory Commission has a balance of unspent 
funding that should be used to continue the licensing process. 
More resources will be required, so I think it is fair to ask 
why are those funds not requested in your budget. The Nuclear 
Regulatory Commission recently completed the safety evaluation 
report that said Yucca Mountain met all of the safety 
requirements through the ``period of geologic stability.'' The 
Commission and the Environmental Protection Agency define the 
``period of geologic stability'' as 1 million years. To 
continue to oppose Yucca Mountain because of radiation concerns 
is to ignore science as well as the law.
    The next steps on Yucca Mountain include completing a 
supplemental environmental impact statement and restarting the 
hearings before the Atomic Safety and Licensing Board, which 
were suspended in September 2011. Money is available for these 
activities, and I would like to hear about your plans to use 
it.
    The second area of questioning is avoiding excessive 
regulation. A couple of years ago, Senator Mikulski and I, and 
Senator Burr, and Senator Bennett asked a group of 
distinguished higher education officials to look at the Federal 
rules and regulations governing higher education. They made 
their report a couple of weeks ago, and it was a startling 
report. And there are some--I would like for Senator Feinstein 
to hear this part because California has a terrific system of 
universities.
    The commission that Senator Mikulski and I, and Bennett, 
and Burr commissioned on regulation of higher education 
reported about what they called a jungle of red tape that is 
interfering with their ability to govern properly. Vanderbilt 
University hired the Boston Consulting Group to assess how much 
it cost Vanderbilt itself to comply with all the Federal rules 
and regulations on higher education in 2014. And the answer was 
$150 million, which is 11 percent of the university's operating 
revenue or expenditures, and adds $11,000 to each student's 
tuition.
    Now, you may wonder what does that have to do with nuclear 
power. It is the same kind of thing all throughout the 
government. None of these rules and regulations, or almost 
none, are put in by evil people, or intentioned. They just add 
up over time. And to the extent excessive regulation makes it 
more difficult for nuclear power plants to be extended and to 
be operated economically, that is something I would like to 
discuss. I wonder whether, for example, we know the answer to 
the question how much does it cost a utility. How much does 
regulation cost a utility for its operation?
    Then there is the question of the licensing of new and 
existing reactors. I proposed one time that we should build a 
hundred new reactors. People thought that was kind of over the 
top. But when you stop and think about it, we have the Center 
for Strategic and International Studies saying that by 2020, 
not long away, that as many as 25 of our 99 reactors may not be 
operating. We have the various factors that are making it less 
economic to operate nuclear reactors, such as the low price of 
natural gas, the subsidies for wind power, which permit wind 
producers in unregulated markets to basically pay the merchant 
utility to take the wind power, and then the producer can still 
make a profit. That means the nuclear power is less economic. 
Excessive regulation may be a factor. Carbon rules from the EPA 
that treat nuclear differently than other renewable sources may 
be a factor.
    And then we think about the fact that if about 20 percent 
of our current capacity from coal goes offline by 2020 as 
projected by the Energy Information Administration or is 
entirely replaced by nuclear power, it would require building 
another 48 new large reactors. So add to that, the third point, 
which are the number of aging reactors, those that are getting 
too old and which may not have their licenses extended. We 
might need a hundred new reactors just to replace the ones we 
already have, and I want to make sure that we do not end up 
surprised by that.
    Then we want to make sure that agencies run effectively. 
Congress appropriated in the year 2000 about $470 million for 
the Agency. The budget this year is $1 billion. Much of the 
increase was due to the significant number of new reactor 
licenses that were anticipated. However, most were never 
actually submitted, so it is fair to ask whether this 
additional funding is being used for unnecessary regulation.
    Finally, let me just make this observation, and I will ask 
Senator Feinstein then to take whatever time she would like. I 
do not want the United States of America 10, 20, 30 years from 
now to suddenly wake up and discover that we are a country 
without nuclear power, and I think it is possible that could 
happen. If CSIS says we may lose 25 reactors within the next 5 
or 6 years, and big utility operators tell me they are not even 
thinking about asking for extensions of the time their reactors 
might stay online, say, from 60 to 80 years, because it is not 
economic to operate them, if we suddenly find ourselves without 
most of the 99 reactors we have, we know what will happen. We 
have seen what happened in Japan. We have seen what happened in 
Germany. And at a time when the President and many in America 
feel that climate change is an urgent challenge for the world 
and our country, the idea of deliberately allowing the 99 
reactors which produce 60 percent of our carbon free emissions, 
to allow that number to decline I think would be serious 
malpractice by all of us involved, whether it is the Congress, 
whether it is the Commission, whether it is the Department of 
Energy.
    So it is with that spirit that I am going to be approaching 
this hearing and other hearings this year. I know that the 
Regulatory Commission is not the Department of Energy. Its job 
is safety, and it has a terrific record in that. I do not think 
and I am sure it is true--any other form of energy production 
in our country has a record of safety that exceeds nuclear 
power. But I am going to be asking questions about what can you 
also do to create an environment so that over the next 30 or 40 
years at least, while we are doing research to find other sorts 
of clean energy, that we do not find ourselves without large 
amounts of renewable emissions and free electricity, which is 
what Japan suddenly found, and which Germany has found. And it 
does not work in a big manufacturing country given the current 
mix of power generation.
    So I welcome the commissioners. I thank you for your 
service, and I look forward to Senator Feinstein's comments.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    We're here today to review the President's fiscal year 2016 budget 
request for the Nuclear Regulatory Commission, the independent Federal 
agency responsible for regulating the safety of our Nation's commercial 
nuclear power plants and other nuclear materials.
    This is the first time in many years that the subcommittee has held 
a hearing to examine the Nuclear Regulatory Commission's budget.
    It is also the first of several hearings that the subcommittee will 
hold this year on nuclear power. These hearings are important because 
nuclear power provides about 20 percent of our Nation's electricity and 
more than 60 percent of our carbon-free electricity.
    I plan to focus my questions today on four main areas:
      1. Licensing nuclear waste repositories;
      2. Avoiding excessive regulations;
      3. Licensing for new and existing reactors; and
      4. Making sure the agency is running effectively.
     licensing nuclear waste repositories, including yucca mountain
    First, we must solve the 25-year-old stalemate about what to do 
with used fuel from our nuclear reactors to ensure that nuclear power 
has a strong future in this country.
    Later this year, I will reintroduce bipartisan legislation with 
Senators Feinstein, Murkowski and perhaps others, to create both 
temporary and permanent storage sites for nuclear waste. Also, Senator 
Feinstein and I plan to include a pilot program for nuclear waste 
storage in the Energy and Water appropriations bill, as we have for the 
past 3 years.
    The new sites we'd seek to establish through the legislation 
Senator Feinstein and I are reintroducing this year would not take the 
place of Yucca Mountain--we have more than enough waste to fill Yucca 
Mountain to its legal capacity--but rather would complement it.
    This legislation is consistent with the president's Blue Ribbon 
Commission on America's Nuclear Future.
    But let me be clear: Yucca Mountain can and should be part of the 
solution. Federal law designates Yucca Mountain as the Nation's 
repository for used nuclear fuel.
    The Nuclear Waste Fund, which is money that utilities have paid the 
government to dispose of their used nuclear fuel, has a balance of 
about $36 billion and there are still several steps to go in the 
licensing process for Yucca Mountain.
    The Nuclear Regulatory Commission has a balance of unspent funding 
that you are supposed to use to continue the licensing process. But 
more resources will be required, so I think it's fair to ask the 
question:
    Knowing that there are additional steps and they will cost money, 
why would you not request additional funds in your budget?
    The Nuclear Regulatory Commission recently completed the Safety 
Evaluation Report that said Yucca Mountain met all of the safety 
requirements through ``the period of geologic stability.''
    The commission and the Environmental Protection Agency define the 
``period of geologic stability'' as one million years. To continue to 
oppose Yucca Mountain because of radiation concerns is to ignore 
science--as well as the law.
    The next steps on Yucca Mountain include completing a supplemental 
environmental impact statement and restarting the hearings before the 
Atomic Safety and Licensing Board, which were suspended in September 
2011.
    Money is available for these activities, and I want to hear why 
there is no request to use it.
                     avoiding excessive regulations
    Federal law requires that nuclear power plants be built safely, but 
the law doesn't say it should be so hard and expensive to build and 
operate reactors that you can't do it.
    A 2013 report by the Center for Strategic and International Studies 
found that up to 25 of our 99 nuclear reactors could close by 2020.
    The decision to close a reactor could be due to a number of 
factors, including the low price of natural gas, and the wasteful wind 
production tax credit, which is so generous that in some markets wind 
producers can literally give their electricity away and still make a 
profit.
    But the decision to close a reactor can also have to do with 
excessive and unnecessary regulations. I want to work with the 
commission to address this.
                licensing for new and existing reactors
    Over the next several decades, most of our 99 nuclear reactors will 
go through the commission's license renewal process to extend their 
licenses, which is critical to the future of nuclear power. I want to 
make sure that the commission is prepared for this additional work.
    I also want to make sure the commission has devoted the appropriate 
resources to the licensing process to keep new reactors--like Watts Bar 
2 in Tennessee--on time and on budget.
    I have proposed that we build 100 new reactors, which may seem 
excessive, but not if about 20 percent of our current capacity from 
coal goes offline by 2020 as projected by the Energy Information 
Administration. If this capacity were replaced entirely by nuclear 
power it would require building another 48 new, 1,250-megawatt 
reactors--which, by the way, would reduce our carbon emissions from 
electricity by another 14 percent. Add the reactors we may need to 
replace in the coming decades due to aging and other factors, and my 
proposal for 100 may not seem so high.
    Additionally, the commission needs to move forward with new small 
modular reactors.
    This subcommittee has provided funding to help small modular 
reactors get through the Nuclear Regulatory Commission's licensing 
process. I'd like to get your views on what you need to continue your 
efforts.
             making sure the agency is running effectively
    One of the challenges for the Nuclear Regulatory Commission is to 
ensure that the agency is running effectively and focusing staff on the 
right goals.
    In fiscal year 2000, Congress appropriated about $470 million for 
the Nuclear Regulatory Commission. The budget request this year is more 
than $1 billion.
    Much of the increase was due to the significant number of new 
reactor licenses that were anticipated--however most were never 
actually submitted. So, it is fair to ask whether this additional 
funding is being used for unnecessary regulation.
                               conclusion
    The best way to understand the importance of nuclear power is to 
look at the stories of three countries: Japan, Germany and the United 
Arab Emirates.
    Japan and Germany have recently experienced what happens when a 
major manufacturing country loses its nuclear capacity. In Japan, the 
cost of generating electricity has increased 56 percent and Germany has 
among the highest household electricity rates in the European Union--
both because they moved away from nuclear power.
    The United Arab Emirates has shown what a country can do when a 
country decides to take advantage of nuclear power. By 2020, the 
Emirates will have completed four reactors that will provide nearly 25 
percent of its annual electricity.
    It will take building more nuclear reactors to avoid the path of 
Japan and Germany, and today's hearing is an important step to making 
sure the United States does what it must to unleash nuclear power.
    I look forward to working with the commission and our Ranking 
Member, Senator Feinstein, who I will now recognize for an opening 
statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you. Mr. Chairman, thank you very 
much. I think that was an excellent opening statement. But I 
also want to thank you for the great privilege of working with 
you. We have worked as chairman and vice chairman. Both of us 
have been alternating. And I just want you to know I do not 
think I ever had a better person to work with in the Senate 
than you.
    Senator Alexander. Thank you.
    Senator Feinstein. We figure out when we disagree what we 
can do about that, and I give some of the time, and you give 
some of the time, and I really think that is in the best 
interest of our democracy and our country. So it is a great 
treat for me to be here. You set up this hearing. I think it is 
a real tribute to you that we have the chairman and three 
members of the Nuclear Regulatory Commission here today.
    My remarks are going to be a little different because I 
wanted to be on this committee because I am really concerned 
about the nuclear waste that is scattered all over this 
country, and I am going to talk a little bit about it. And I 
view the NRC as a critical agency to regulate the nuclear power 
plants and the use of radiologic and nuclear materials critical 
not only to industry, but to the safety of our people.
    So I want to make one other point. There is on the Pacific 
Coast such a thing as a ring of fire, of big earthquakes, that 
over the last several decades have been happening in Southeast 
Asia, southern South America. The latest of these is Fukushima, 
and Fukushima really caused me to open my eyes. And today's 
witnesses are appearing 4 years after that earthquake triggered 
a tsunami that flooded three Fukushima nuclear reactors, 
causing them to melt down. More than 300,000 people were 
evacuated from the surrounding area, and the disaster cost well 
over $100 billion.
    Some post-Fukushima analysis has argued that the Japanese 
regulatory structure was too close to nuclear industry, to the 
industry it was regulating, and that the dysfunction of that 
regulatory system contributed to the disaster. And I want to 
say we cannot allow that to happen in this country. To date, 
the NRC has issued three orders and one request for information 
and initiated a single rulemaking to codify those orders.
    Industry has undertaken some upgrades to back up safety 
equipment, spending around $4 billion on upgrades as required 
by the NRC. This is a substantial amount, but not that much 
when you consider the replacement value of the plants 
themselves, and just a fraction of how much a disaster on the 
scale of Fukushima would cost the United States. So I hope you 
will tell this subcommittee how your actions have made a 
Fukushima-like disaster substantially less likely in the United 
States, and provide us with some reassurance that the NRC is 
executing its role as the tough-nosed regulator it needs to be.
    A second issue of great concern to me, as I mentioned, is 
storage of nuclear fuel. Today, that fuel is piling up at 
reactor sites around the country. To date, we have 78 sites in 
the United States storing approximately 70,000 metric tons of 
spent fuel. Of this total, roughly 20,000 metric tons is in dry 
storage, and the rest in storage pools called spent fuels--
spent fuel pools. The United States nuclear plants continue to 
discharge about 2,100 metric tons of spent fuel per year.
    The United States taxpayers have paid $4.5 billion to 
utilities to store waste at reactor sites, in part because we 
lack a nuclear waste policy. And this is going to lead to an 
additional $23 billion in penalties in the coming years, which 
will be borne by taxpayers. This has driven the two of us to 
call together the chair and ranking member of the energy 
authorizing committee, and try to come up over--was it 3 or 4 
years we have been working on it?
    Senator Alexander. Three years.
    Senator Feinstein. Three years to develop a spent--a 
nuclear waste policy for our country. We have none. Believe it 
or not, we came to agreement. We had in two Secretaries of 
Energy. We had in the Blue Ribbon Commission. We discussed a 
lot among ourselves. At the time, Senator Bingaman was chairman 
of the committee, and so he was replaced by Senator Wyden, and 
we had both of their support. And we had Senator Murkowski who 
has been with us from the beginning, and so we have a Nuclear 
Waste Policy Act now at the energy and water authorizing 
committee.
    The difficult part for me is that it has taken so long to 
generate activity. And candidly, I do not believe the nuclear 
industry itself has been as supportive of it as it should be. 
And for me, this is a real test of that industry because if 
nuclear power is, in fact, as the chairman indicated, to 
continue to be part of our Nation's energy mix, for me this 
situation is unsustainable.
    In August of 2014, the NRC issued a final rule on the 
continued storage of waste at nuclear power plants around the 
country. That rule stated that spent nuclear fuel could be 
stored indefinitely at nuclear sites. So just look at what 
continues to happen at Fukushima. The reactor containment 
vessels were breached during the accident, leaking the 
radioactive water into the ocean. Those vessels continue to 
leak to this day, even as the Japanese pump water into the 
vessels to try to keep the highly radioactive fuel cool.
    Efforts to contain the leaking water, such as building an 
underground ice wall, have proved insufficient. The spent fuel 
pools at Fukushima did not leak, but the temperature inside the 
pools increased, and water quickly evaporated, so that only 20 
feet of water covered the fuel instead of the standard 40 feet. 
Fuel rods were damaged, and radiation was released to the 
environment. Water had to be sprayed from above to keep the 
fuel cool.
    By the NRC's own estimates, nearly all of the spent fuel 
pools in the United States are densely packed with spent fuel 
and will be at capacity in 2015. The Union of Concerned 
Scientists and others believe the risk of an accident and its 
impacts can be significantly reduced by expediting the movement 
of spent fuel from pools to dry casks, and I am inclined to 
agree.
    While the rule does not license storage of spent fuel at 
any specific reactor site, it appears to give a carte blanche 
to nuclear power plant operators to continue generating waste 
without a permanent solution. This is unacceptable to me. 
Previous waste confidence determinations were predicated on 
reasonable progress by the Federal Government in implementing a 
waste management program. However, the NRC has now stated that 
a permanent home for spent nuclear fuel is not necessary for 
the sustainment of growth of nuclear power. In my view, nowhere 
does this new rule provide the basis for such a startling 
reversal of a long-established regulatory framework. Instead, 
it seems to be a rule designed solely to keep the nuclear 
industry operating.
    I deeply believe we desperately need a new policy on 
nuclear waste, and this subcommittee has been committed to 
making progress toward that goal. And that is why I am so happy 
to be working with Senator Alexander on multiple fronts, 
including within this subcommittee, the re-introduction of the 
Nuclear Waste Administration Act.
    Mr. Chairman and members, I think you sit at an important 
juncture. The continued safe operation of nuclear power plants 
is an important source of carbon free electricity. We all 
understand that. But nuclear energy must be safe, and there 
must be a sound policy that addresses the waste stream it 
creates. And let me be candid with you. To me, storing this 
stuff at waste sites, candidly, is not acceptable. I mean, I 
look at San Onofre, two big reactors being de-conditioned, 
2,800 rods in spent fuel pools in an area where six million 
people live and, of course, very close to the Pacific Ocean. Is 
that going to stay there forever?
    If I understand your policy, and please correct me if I am 
wrong, Commissioner Burns, but it could happen. And, you know, 
I look back at Fukushima. The spent fuel pools did not 
collapse, but what happened, as far as I related, and I believe 
is true. California is a very earthquake prone State, and the 
probabilities of a big earthquake in Southern California over 
the next 30 years are way up. I think it is over 60 percent 
probability now, so I feel I have reason to worry.
    And candidly, if it is true that your Commission is saying 
that it is perfectly fine to keep all this stuff at 78 
different sites with all kinds of different geologic 
compositions and all kinds of propensities for geologic 
movement, I really cannot agree with that. So I wanted to just 
put my cards on the table and tell you precisely how I feel, 
and let you know that this is a very big issue for me. So I 
thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein, and I 
thank you for your comments. I mean, there is nobody I would 
rather work with than you. I think as you can tell, we 
sometimes come at a problem from different directions, but we 
often end up pulling the wagon in the same direction, and 
nuclear waste is certainly one of them that we feel that way. 
So it is a great privilege for me to work with Senator 
Feinstein.
    Now, Mr. Chairman, why don't we start with you and ask you 
to summarize your testimony, if you will, in about five 
minutes. Then whatever the Commission protocol is, why do you 
not just go down the line, and we will look forward to hearing 
from the other commissioners after you.

                 SUMMARY STATEMENT OF STEPHEN G. BURNS

    Mr. Burns. Thank you, Mr. Chairman, and thank you, Ranking 
Member Feinstein. My colleagues and I appreciate the 
opportunity to appear before you today to discuss our fiscal 
year 2016 budget request.
    As you said, the NRC is an independent Federal agency 
established to license and regulate the Nation's civilian use 
of radioactive materials at nuclear installations to ensure 
adequate protection of the public health and safety, to promote 
the common defense and security, and protect the environment. 
The resources that we are requesting in fiscal year 2016 will 
allow us to continue to ensure the safe and secure use of 
radioactive material in the United States.
    I want to emphasize this progress that the NRC and the 
industry have made in making safety enhancements at nuclear 
facilities across the United States in response to the 
Fukushima Daiichi Nuclear Power Plant accident in Japan. After 
the event, the NRC took immediate action to evaluate the 
lessons of the event, and to identify required enhancements at 
U.S. nuclear power plants. Our primary focus throughout this 
effort has been on the highest priority, safety significant 
enhancements to maximize the safety value for nuclear power 
plants.
    A key element of the strategy has been the NRC's 2012 
mitigating strategies order, which required licensees to ensure 
that sites are prepared to respond to beyond design basis 
accidents. Last year, the first plants completed implementation 
of the mitigation strategy requirements, and more than half the 
plants are scheduled to achieve full implementation by the end 
of this year, and the remaining plants, with limited 
exceptions, will complete the necessary actions by 2016.
    New reactor licensing and oversight activities will 
continue in 2016. We expect in this year to continue reviewing 
a number of new reactor combined license applications, and to 
complete three of these reviews. Additionally, the NRC will 
continue to conduct inspections for new reactors under 
construction at the Vogtle site in Georgia and the VC Summer 
Plant in South Carolina. And we also will receive before us a 
recommendation with respect to the licensing of Watts Bar Unit 
2, to be operated by the Tennessee Valley Authority. We also 
expect to review and begin the review of an application for a 
small modular reactor in fiscal year 2016.
    We acknowledge that we are in a changing environment. Since 
2001, the Agency grew significantly to enhance security and 
incident response, and to prepare for the projected growth in 
the use of nuclear power in the United States. The forecast in 
the growth has been adjusted downward in responses to changes 
in the industry, and as is appropriate, the NRC is being 
scrutinized by stakeholders for its reasonable use of 
resources. The Congress has charged the NRC with a critical 
mission, and the NRC can never lose sight of that. Still, we 
can and should maintain focus on our mission while being 
responsible and taking a hard look at whether we are using our 
resources.
    Our budget reflects the efforts to demonstrate our 
responsiveness to this environment. Continuing with trends that 
began in fiscal year 2014, the fiscal year 2016 request 
reflects a reduction in both dollars and full-time equivalents 
in recent years, but still will provide the necessary resources 
to carry out our safety and security mission. As required by 
law, our budget request also provides for a 90 percent fee 
recovery less the amounts appropriated for certain specific 
activities.
    As a key step in our preparation to address our anticipated 
environment, the NRC initiated a project called Project AIM 
2020 last June to enhance our ability to plan and execute our 
mission while adapting in a timely and effective manner to our 
dynamic environment. Through a staff initiative that was 
approved, the charter of which was approved by the Commission, 
internal and external stakeholders were engaged to forecast our 
future workload and operating environment.
    The staff's recommendations were recently provided to the 
Commission with a number of measures to transform the Agency 
over the next 5 years to improve our effectiveness, our 
efficiency, and agility. The report was provided to the 
Commission on January 30, and a couple of weeks ago we released 
it to the public and made copies available to our oversight and 
authorization committees. While my colleagues and I want to be 
timely in responding to the report, we want to do so 
deliberately and smartly.
    One other initiative I would like to mention before I close 
is that the NRC has undertaken over the last several years 
revisions to our rulemaking process to understand and, if 
possible, reduce the cumulative effects of regulation. We are 
continuing to engage our stakeholders on this subject, and we 
will receive further recommendations from our staff for 
additional improvements this spring.
    In sum, we are cognizant of our changing environment. We 
are committed to the safety and security mission of the Agency. 
And we are committed to taking a hard look at ourselves to 
ensure we are prepared for the future.
    This concludes my formal testimony on the budget. On behalf 
of the Commission, I thank you again for the opportunity to 
appear before you, and we look forward to your questions. And 
with that, I will turn it over to Commissioner Svinicki.
    [The statement follows:]
                 Prepared Statement of Stephen G. Burns
    Good morning, Chairman Alexander, Ranking Member Feinstein and 
distinguished members of the subcommittee. My colleagues and I 
appreciate the opportunity to appear before you today to discuss the 
U.S. Nuclear Regulatory Commission's (NRC) fiscal year 2016 budget 
request.
    As you know, the NRC is an independent Federal agency established 
to license and regulate the Nation's civilian use of radioactive 
materials to ensure adequate protection of public health and safety, 
promote the common defense and security, and protect the environment.
    The resources that we are requesting for fiscal year 2016 will 
allow the NRC to continue to ensure the safe and secure use of 
radioactive materials in the United States. The NRC's principal 
regulatory functions are to: establish regulatory requirements; issue 
licenses consistent with those requirements to facility operators and 
those who own, possesses, and use, radioactive materials; oversee these 
licensees to ensure they operate safely and securely, and are in 
compliance with NRC requirements; conduct research to support the NRC's 
safety and security mission; and respond to emergencies involving 
regulated activities. The NRC also participates in international work 
that is integral to the agency's mandate.
    The NRC regulates every aspect of the civilian use of radioactive 
materials. This includes all of the steps and the facilities involved 
in the nuclear fuel cycle, including extraction of uranium from ore, 
conversion of the uranium into a form suitable for enrichment, 
enrichment of uranium to a level and type suitable for nuclear fuel, 
and fabrication of uranium into fuel assemblies for use in reactors. 
When the fuel assemblies can no longer sustain efficient reactor 
operations, they are removed from the reactors and stored as waste.
    In fiscal year 2016, the NRC will continue licensing and oversight 
activities for 100 operating commercial nuclear power reactors, 
including the anticipated operation of the Watts Bar Unit 2 nuclear 
power station. The resources that we have requested for fiscal year 
2016 also support completion of the highest-priority actions on the 
lessons learned from the Fukushima Daiichi Nuclear Power Plant 
accident, including seismic and flooding hazard reevaluations.
    I would like to take a moment to emphasize the significant progress 
the NRC and the industry continue to make in implementing post-
Fukushima safety enhancements at nuclear facilities across the United 
States. The NRC's primary focus throughout this effort has been on the 
highest-priority, most safety-significant enhancements to maximize the 
safety impact for nuclear power plants. The NRC's expectation is that 
most licensees will complete implementation of the most safety-
significant enhancements by, or before, 2016.
    A key element of the post-Fukushima safety enhancements is the 
NRC's 2012 Mitigating Strategies Order, which required licensees to 
ensure that sites are prepared to respond to beyond-design-basis 
events. These requirements include procuring additional equipment to 
maintain or restore core cooling, containment integrity, and spent fuel 
pool cooling for all units at a site. Last year, the first plants 
completed implementation of all mitigating strategies requirements. 
More than half of nuclear power plants are scheduled to achieve full 
implementation by the end of 2015, with the remaining plants to be 
completed by 2016. The one exception to this schedule is that some 
boiling water reactors are requesting schedule extensions for those 
parts of the mitigating strategies affected by the NRC's revision to 
the order on containment venting. During and after implementation of 
the mitigating strategies requirements, the NRC will conduct 
inspections to verify that nuclear power plants have put appropriate 
strategies in place to mitigate beyond-design-basis events.
    In the past year, both of the industry's National Response Centers 
(in Phoenix, Arizona and in Memphis, Tennessee) have become 
operational. Both centers contain multiple sets of emergency diesel 
generators, hoses, and other backup equipment that can be delivered to 
any nuclear power plant in the United States within 24 hours. These 
response centers address a key element of the 2012 Mitigation 
Strategies Orders, which was to provide sufficient offsite resources to 
sustain plant safety functions indefinitely.
    New reactor licensing and oversight activities are expected to 
continue during fiscal year 2016. In fiscal year 2016, the NRC planned 
to review nine new reactor combined license applications and to 
complete three of these reviews. Additionally, the NRC will continue to 
conduct inspections for new reactors under construction, namely, the 
Vogtle Electric Generating Plants, Units 3 and 4; and Virgil C. Summer, 
Units 2 and 3. The NRC also expects to receive and will begin to review 
a small modular reactor application. In fiscal year 2016, the NRC 
expects to complete the review of one construction permit application 
for a medical isotope production facility and conduct environmental and 
safety reviews of construction permits for two additional medical 
isotope production facilities.
    The NRC takes regulatory actions to ensure the safety and security 
of radioactive materials by licensing and overseeing medical, academic, 
and industrial and research users; nuclear waste and spent fuel storage 
facilities; certifying storage and transportation containers; 
responding to events; and overseeing decontamination and 
decommissioning activities. In addition, under authority provided in 
the Atomic Energy Act of 1954, as amended, the agency has agreements 
with 37 States under which those States assume regulatory 
responsibility for the use of certain radioactive materials. Combined, 
the NRC and the Agreement States oversee over 21,000 material 
licensees. The NRC further enhances its regulatory program through 
coordination and cooperation with other Federal agencies, States, 
Tribes, and international organizations and foreign governments.
                  the changing regulatory environment
    Before I get into the specifics of the NRC's fiscal year 2016 
budget request, I would like to take a moment to address the NRC's 
efforts to address the changing environment in which we now find 
ourselves. Since 2001, the agency has grown significantly to enhance 
security and incident response and to prepare for the projected growth 
in the use of nuclear power in the United States. That forecast in 
growth has been adjusted downward in response to changes in the nuclear 
industry. As is appropriate, the NRC is being scrutinized by its 
stakeholders for its responsible use of resources. The Congress has 
charged the NRC with a critical mission to ensure adequate protection 
of public health and safety and the common defense and security, and 
the NRC can never lose sight of this mission. Still, the agency can and 
should maintain focus on our mission while also taking a responsible 
and hard look at whether it is effectively using resources.
    The NRC has proactively taken steps to address these issues in its 
regulatory processes, budget, and fee collections.
    I start with the NRC's budget. The NRC's fiscal year 2016 proposed 
budget reflects the NRC's efforts to demonstrate its responsiveness to 
the new environment in which we find ourselves. Continuing with trends 
that began in fiscal year 2014, the fiscal year 2016 budget request 
reflects a reduction in both dollars and full time equivalents from 
budget proposals in recent years.
    In addition, the NRC's proposed fiscal year 2015 fee rule, which 
will be published for public comment in the coming weeks, will include 
estimates for reductions in licensee annual and hourly fees that we 
expect in our final fee rule. For power reactors, the estimated annual 
fees will be $4.75 million per reactor which is down 5 percent from 
fiscal year 2014. The NRC hourly rate is estimated at $268 in fiscal 
year 2015, a drop from $279 in fiscal year 2104. These decreases are 
primarily due to a reduced fiscal year 2015 Enacted Budget which allows 
the NRC to utilize prior year carryover funds providing available 
resources to meet the NRC's mission requirements. The fiscal year 2015 
Enacted Budget also decreases 26.5 FTE from fiscal year 2014. These 
savings were realized from projected workload reductions and overhead 
efficiency measures. The fiscal year 2015 proposed fee rule will also 
reflect a positive increase in the agency's staff productivity 
assumption of 1,375 hours in fiscal year 2014 to 1,420 hours in fiscal 
year 2015.
    The NRC continues to focus on the transparency of the NRC Fee Rule 
and has recently received a benchmarking report to assist us in looking 
at the fee practices of other regulatory agencies. The NRC will hold a 
public meeting on the fiscal year 2015 proposed fee rule during the 
comment period to engage with stakeholders on our methodology and 
presentation of license fees. This is a priority for our Chief 
Financial Officer.
    Perhaps the most significant NRC undertaking with respect to the 
changing regulatory environment is Project Aim 2020. The NRC launched 
Project Aim 2020 in June 2014 to enhance the agency's ability to plan 
and execute its mission while adapting in a timely and effective manner 
to a dynamic environment.
    The Project Aim 2020 team gathered perspectives from internal and 
external stakeholders to forecast the future workload and operating 
environment in 2020. Based on analysis of these perspectives, and an 
evaluation of the NRC's current State compared to the anticipated 
future State, the staff identified key strategies and recommendations 
to transform the agency over the next 5 years to improve the 
effectiveness, efficiency, and agility of the NRC. The staff's efforts 
are reflected in its report that was provided to the Commission on 
January 30, 2015.
    The Commission considers this report to be the beginning of a 
dialogue about the future of the NRC. In that spirit, and in an effort 
to emphasize the NRC's seriousness, the Commission made the report 
available to the public on February 18. In addition, the Commission was 
also briefed by the NRC staff on the report in a public meeting that 
occurred on the same day. Advance copies of the report were also 
provided directly to our Congressional appropriations and oversight 
committees.
    I will not go into great detail on the Project Aim 2020 report 
except to note that it concludes that the NRC needs to function more 
efficiently by: right-sizing the agency while retaining appropriate 
skill sets needed to accomplish its mission; streamlining agency 
processes to use resources more wisely; improving timeliness in 
regulatory decisionmaking and responding quickly to changing 
conditions; and promoting unity of purpose with clearer agency-wide 
priorities.
    I speak for my colleagues when I tell you that each member of the 
Commission wants to be timely in acting on this report, but it also 
wants to do so deliberately and smartly. Although the NRC recognizes 
the need for change, it also is keenly aware that major organizational 
change, if not done wisely, can have a detrimental effect on the 
agency's mission and on the morale of its employees. The NRC has a 
critical mission and some of the most dedicated, knowledgeable, and 
highly-respected employees in the Federal Government. I can tell you 
from my own recent international experience, the NRC is respected as a 
world-class organization.
    I cannot emphasize enough that the NRC's ability to protect public 
health and safety and the common defense and security will always be 
our main concern. Nevertheless, we can and should take a hard look at 
how to ensure the agency carries out its mission effectively while also 
being more efficient and fiscally responsible.
    Project Aim 2020 is but one part of the self-assessment the NRC has 
undertaken in recognition of the changing environment. For instance, 
over the last several years, the Commission has revised its rulemaking 
processes to understand, and if possible reduce, the cumulative effects 
of regulations. These new processes include increased opportunities for 
stakeholder interactions and feedback, publishing draft supporting 
guidance concurrent with proposed rules, requesting specific comment on 
the cumulative effects of regulations in proposed rules, and developing 
better-informed implementation timeframes.
    In addition, the NRC has sought industry volunteers to perform case 
studies on the accuracy of cost and schedule estimates used in NRC's 
regulatory analyses. Based on those results, additional regulatory 
analysis process enhancements are planned to improve cost estimating. 
We believe that applying these process enhancements will result in a 
better understanding of the implementation costs associated with new 
regulations for operating reactors.
    With respect to cost benefit analysis, I note that the Government 
Accountability Office (GAO) recently completed a report that concluded 
the NRC needs to improve its cost estimating practices. Although the 
NRC did not agree with all of GAO's specific recommendations, it did 
agree generally that the NRC's regulatory analyses practices could be 
improved, and has started to take steps, as described above, to do so.
    In sum, as these examples have shown, the Commission is very 
cognizant of our changing environment and is committed to taking a hard 
look at itself to ensure that it is prepared for the future as it now 
appears to exist.
                    fiscal year 2016 budget request
    The NRC's fiscal year 2016 budget request provides the necessary 
resources for to carry out the agency's mission for the American 
public. The NRC's proposed fiscal year 2016 budget is $1,032.2 million, 
including 3,754 full-time equivalents (FTE).
    To fully understand the fiscal year 2016 proposed budget in 
relation to the fiscal year 2015 Enacted Budget one must consider the 
unique funding scenario for the NRC in the Consolidated and Further 
Continuing Appropriations Act of 2015. The fiscal year 2015 
Appropriation Act reduced the fiscal year 2015 budget request for 
salaries and expenses by $44.2 million to account for fee-based 
unobligated carryover and a recognition of reduced workload and agency 
productivity and efficiency gains. It also authorized the Commission to 
reallocate the agency's unobligated prior-year carryover to supplement 
its fiscal year 2015 appropriations. As a result, while the fiscal year 
2016 Budget represents a $16.9 million increase over the fiscal year 
2015 Enacted Budget, the NRC's total available resources in fiscal year 
2015 are $1,049.5 million. For essentially the same workload with the 
exception of the University Grants program, the NRC's fiscal year 2016 
budget request is $17.3 million less (including a reduction of 37.5 
FTE) compared to the total available fiscal year 2015 resources.
    The NRC Office of Inspector General (OIG) component of the fiscal 
year 2016 proposed budget is $12.1 million, including 63 FTE. The OIG 
budget includes approximately $11.2 million for auditing and 
investigation activities for NRC programs, and $1.0 million for the 
auditing and investigations activities of the Defense Nuclear 
Facilities Safety Board (DNFSB). These resources will allow the OIG to 
carry out the Inspector General's mission to independently and 
objectively conduct audits and investigations to ensure the efficiency 
and integrity of NRC and DNFSB programs and operations, to promote 
cost-effective management and to prevent and detect fraud, waste, and 
abuse.
    Under the provisions of the Omnibus Budget Reconciliation Act of 
1990, as amended, the NRC's fiscal year 2016 budget request provides 
for 90 percent fee recovery, less the amounts appropriated for, (1) 
waste incidental to reprocessing activities under Section 3116 of the 
Ronald W. Reagan National Defense Authorization Act for fiscal year 
2005, (2) generic homeland security activities, and (3) DNFSB 
activities. Accordingly, approximately $910 million of the fiscal year 
2016 budget request will be recovered from fees assessed to NRC 
licensees. This will result in a net appropriation of $122 million.
    The NRC continues to look for cost savings at the agency and has 
taken cuts in overhead for the last 5 years. While the available 
resources are comparable for fiscal year 2015 and fiscal year 2016, the 
NRC's fiscal year 2016 workload changes and efficiency savings allows 
the agency to fund fact-of-life increases without an increase to the 
overall budget. The NRC's fiscal year 2016 budget request reflects the 
Office of Management and Budget guideline of a 1.3 percent increase in 
salaries and benefits for a cost of living increase and accommodates 
routine contract cost escalations.. The budget also adheres to 
commitments to the House Committee on Transportation and Infrastructure 
for NRC space usage. In fiscal year 2016, all NRC Headquarters 
employees will be located in the three buildings of the White Flint 
Campus and the Food and Drug Administration will occupy eight floors of 
the newest building. NRC will continue to occupy five floors including 
the Operations Center, Professional Development Center for staff 
training courses, and the Data Center as well as office space to 
support those programs.
    I would now like to highlight the following portions of the fiscal 
year 2016 Budget Request.
                         nuclear reactor safety
Operating Reactors
    The Operating Reactors Business Line encompasses the regulation of 
100 operating civilian nuclear power reactors and 31 research and test 
reactors. The fiscal year 2016 budget request for Operating Reactors is 
$601.7 million, which represents an overall funding decrease of $10.4 
million when compared with the fiscal year 2015 Available Resources.. 
This funding level supports completing work related to implementation 
of the lessons learned from the nuclear accident at the Fukushima 
nuclear power plant in Japan, work on topical reports, and reducing the 
number of pending licensing actions.
New Reactors
    The New Reactors Business Line is responsible for the regulatory 
activities associated with locating, licensing, and overseeing 
construction of new nuclear power reactors. The fiscal year 2016 budget 
request for New Reactors is $191.7 million, which represents an overall 
funding decrease of $5 million when compared with the fiscal year 2015 
Available Resources. The decrease is a result of delays in application 
submittals, and project slowdowns or suspensions.
                   nuclear materials and waste safety
Fuel Facilities
    The Fuel Facilities Business Line supports licensing, oversight, 
rulemaking, international activities, research, generic homeland 
security, and event response associated with the safe and secure 
operation of various operating and new fuel facilities such as 
conversion, enrichment, and fuel fabrication facilities, and nuclear 
fuel research and pilot facilities.
    The fiscal year 2016 budget request for Fuel Facilities is $51.5 
million, which represents an overall funding increase of $0.8 million 
when compared with the fiscal year 2015 Available Resources.
Nuclear Materials Users
    The Nuclear Materials Users Business Line supports the safe and 
secure possession, processing, handling, and the many diverse uses of 
nuclear materials, along with associated licensing, oversight, 
rulemaking, international activities, research, generic homeland 
security, event response, and State, Tribal, and Federal Program 
activities.
    The fiscal year 2016 budget request for Nuclear Material Users is 
$87.4 million, which represents an overall funding decrease of $1.7 
million when compared with the fiscal year 2015 Available Resources.
Spent Fuel Storage and Transportation
    The Spent Fuel Storage and Transportation Business Line supports 
licensing, oversight, rulemaking, international activities, research, 
and generic homeland security associated with the safe and secure 
storage and transportation of spent nuclear fuel and other radioactive 
materials.
    The fiscal year 2016 budget request for Spent Fuel Storage and 
Transportation is $43.8 million, which represents an overall funding 
decrease of $2.4 million when compared with the fiscal year 2015 
Available Resources. The decrease is in the oversight, research, and 
rulemaking areas and does not represent a significant change in work 
scope.
Decommissioning and Low-Level Waste
    The Decommissioning and Low-Level Waste Business Line supports 
licensing, oversight, rulemaking, international activities, and 
research associated with the safe and secure operation of uranium 
recovery facilities, removal of nuclear facilities from service and 
reduction of residual radioactivity to a level that permits release of 
the property and termination of the NRC license, and disposition of 
low-level radioactive waste from all civilian sources.
    The fiscal year 2016 budget request for Decommissioning and Low-
Level Waste is $44.1 million, which represents an overall funding 
increase of $1.5 million when compared with the fiscal year 2015 
Available Resources. The increase reflects greater resource needs to 
support oversight of decommissioning of power reactors and uranium 
recovery facilities licensing activities.
                                closing
    Chairman Alexander, Ranking Member Feinstein, and distinguished 
Members of the Subcommittee, this concludes my formal testimony on the 
NRC's fiscal year 2016 budget request. On behalf of the Commission, I 
thank you for the opportunity to appear before you. I look forward to 
continuing to work with you to advance the NRC's important safety and 
security missions. I would be pleased to respond to any questions that 
you may have. Thank you.

    Senator Alexander. Thank you, Chairman Burns. Commissioner 
Svinicki.
STATEMENT OF KRISTINE L. SVINICKI, COMMISSIONER, U.S. 
            NUCLEAR REGULATORY COMMISSION
    Ms. Svinicki. Thank you, Chairman Alexander and Ranking 
Member Feinstein, for the opportunity to appear before you this 
afternoon. Our Commission's chairman, Stephen Burns, in his 
statement on behalf of our Commission has provided a 
description of the Agency's budget request as well as key 
Agency accomplishments and challenges in carrying out NRC's 
important mission, that of protecting public health and safety 
and promoting the common defense and security. In light of his 
summary, I will simply look forward to your questions. Thank 
you.
    [The statement follows:]
               Prepared Statement of Kristine L. Svinicki
    Thank you, Chairman Alexander, Ranking Member Feinstein, and 
members of the subcommittee, for the opportunity to appear before you. 
The Commission's Chairman, Stephen Burns, in his statement on behalf of 
the Commission, has provided a description of the agency's budget 
request, as well as key agency accomplishments and challenges in 
carrying out the Nuclear Regulatory Commission (NRC's) important 
mission of protecting public health and safety and promoting the common 
defense and security of our Nation.
    I look forward to your questions on these topics. Thank you.
STATEMENT OF WILLIAM C. OSTENDORFF, COMMISSIONER, U.S. 
            NUCLEAR REGULATORY COMMISSION
    Mr. Ostendorff. Good afternoon, Chairman Alexander and----
    Senator Alexander. Commissioner Ostendorff.
    Mr. Ostendorff [continuing]. Ranking Member Feinstein. This 
is my first chance to testify before this committee, and I am 
grateful for the opportunity. I would like to acknowledge that 
this is Chairman Burns' first appearance before Congress in his 
new role as chairman, and we are very pleased to have him 
leading this Commission.
    The chairman has already provided an overview of the NRC's 
changing--the changing environment and steps we are taking to 
improve operations through Project AIM. I am in complete 
alignment with his testimony. I will, however, make three very 
brief points in the next few minutes.
    The first concerns the status of post-Fukushima safety 
enhancements. Along with Commissioner Svinicki, I have been 
involved in all of the Commission's decisionmaking related to 
what safety changes we should require as a result of the 
operating experience from Fukushima. I clearly recall visiting 
Watts Bar with Senator Alexander just a few weeks after the 
Fukushima event. Looking back over the actions NRC has taken 
over the past 4 years as a result of Fukushima lessons learned, 
I firmly believe the Agency has acted on a foundational basis 
of solid science and engineering.
    We have appropriately given highest priority to those tier 
one items associated with the greatest safety significance. I 
will not go in any details here, but will make two very brief 
comments. First, as a former Rickover era nuclear submarine 
officer, and I spent 16 out of 26 years on sea duty operating 
nuclear power plants on submarines, based on experience and my 
experience as a Commissioner, I am very confident in the NRC's 
safety actions we require post-Fukushima. And, second, as I 
compare our actions and approach to that of the broader 
international community, I am convinced we continue to be a 
world leader in nuclear safety.
    My second point relates to licensing of new reactors. When 
I was sworn in as a commissioner on April 1st of 2010, NRC was 
reviewing license applications for 26 reactors. As a member of 
the Commission these past 5 years, I have voted to approve the 
design certifications for the Westinghouse Safety 1000, the 
combined construction operating licenses for Summer and Vogtle. 
More recently, I voted to approve the GE-Hitachi Economic 
Simplified Boiling Reactor Design certification.
    But today we are in a different place, as Chairman Burns 
noted. Rather than reviewing 26 reactor applications as we were 
5 years ago, today we are reviewing seven applications for a 
total of 11 reactors. I need not inform this committee of the 
significant fact of life changes the nuclear industry has faced 
since the heady days of a projected nuclear renaissance circa 
2005-2008. The unexpected leap in shale gas reserves, 
concurrent plummet in natural gas prices, flat or declining 
electricity demand in certain areas, and other economic factors 
have dramatically changed the landscape for projected nuclear 
generation capacity.
    While fully supporting achieving greater Agency 
efficiencies in the Project AIM arena, both this Commission as 
well as this committee and the broader Congress need to work 
together to ensure that we do not lose those critical skill 
sets used by our highly technical staff to review and license 
new reactor technologies in the future. To do otherwise would 
negatively impact our Nation's ability to pursue nuclear 
technology options in the future. We should not let that 
happen.
    My third and final point concerns Yucca Mountain. As 
evidenced in your statement, Senator Alexander, Senator 
Feinstein, I know that you are very interested in our Nation's 
spent fuel and disposal challenge, and we appreciate your 
leadership in that area. I am very proud of our NRC's staff 
work to complete and publish the final safety and evaluation 
report for Yucca Mountain in January of this year. The Yucca 
Mountain Safety Evaluation Report involved highly technical and 
complex issues. Our staff successfully met the challenge and 
did its job. We now look forward to progress towards a long-
term spent nuclear fuel disposal solution as mandated by the 
Nuclear Waste Policy Act or that act as it may be amended going 
forward.
    In closing, I appreciate the opportunity to be here today 
and look forward to your questions. Thank you.
    [The statement follows:]
              Prepared Statement of William C. Ostendorff
    Good afternoon Chairman Alexander, Ranking Member Feinstein and 
distinguished members of the subcommittee.
    This is my first time to testify before this Committee--I am 
grateful for the opportunity. I would also like to acknowledge that 
this is Chairman Burns first appearance before Congress in his new role 
as Chairman. We are very pleased to have him leading the Commission.
    The Chairman has already provided an overview of the Nuclear 
Regulatory Commission's (NRC's) budget, the changing environment, and 
steps we're taking to improve the operations of the NRC through project 
AIM. I am in complete alignment with his testimony
    I will make three brief points in the next few minutes that I 
believe are relevant to this Committee.
    The first concerns the status of post-Fukushima safety 
enhancements. Along with Commissioner Svinicki, I have been involved in 
all of the Commission's decisionmaking related to what safety changes 
we should require as a result of the operating experience from the 
tragic earthquake and tsunami in Japan 4 years ago. I clearly recall 
visiting Watts Bar with Senator Alexander just a few weeks after the 
Fukushima event.
    Looking back over the actions the NRC has taken over the past 4 
years as a result of Fukushima lessons learned, I firmly believe the 
agency has acted on a foundational basis of solid science and 
engineering. We have appropriately given highest priority to the Tier 
One items associated with greatest safety significance. I will not go 
into any details here--the Chairman's testimony does that. I will make 
two comments. First, as a former Rickover era nuclear submarine officer 
who spent 16 out of my 26 years in the Navy operating submarine reactor 
plants, I am confident in the NRC's safety actions post-Fukushima. And 
second, as I compare our actions and approach to that of the broader 
international community, I am convinced we continue to be a world 
leader in nuclear safety.
    My second point relates to licensing of new reactors. When I was 
sworn in as a Commissioner April 1, 2010, the NRC was reviewing license 
applications for 26 reactors. As a member of the Commission these past 
5 years, I have voted to approve design certifications for the 
Westinghouse AP 1000 design certification, Summer and Vogtle combined 
construction/operating licenses (or COL's) and more recently, I voted 
to approve the design certification for the GE-Hitachi Economic 
Simplified Boiling Water Reactor. The math is simple. Rather than 
currently reviewing 26 minus 4 or 22 COLs, we are reviewing 9 
applications. I need not inform this Committee the significant fact of 
life changes the nuclear industry has faced since the heady days of a 
rumored nuclear renaissance circa 20052008. The unexpected leap in 
shale gas reserves and concurrent plummet in natural gas prices, flat 
or declining electricity demand in certain areas and other economic 
factors have dramatically changed the landscape for projected nuclear 
generation capacity. While fully supporting achieving greater agency 
efficiencies in the Project AIM arena, we--both the Commission and 
Congress--need to work together to ensure that we do not lose those 
critical skills sets used by our highly technical staff to review and 
license new reactor technologies, including Small Modular Reactors, as 
we proceed in the months and years ahead. To do otherwise would 
negatively impact our Nation's ability to pursue nuclear technology 
options in the future. We should not let that happen.
    My third and final point concerns Yucca Mountain. I know that this 
Committee is keenly interested in solving our Nation's spent fuel 
disposal challenge. I have spoken over the past few years to both 
Senator Alexander and Senator Feinstein and your staffs on the topic of 
spent fuel. I am proud of our staff's work to complete and publish the 
final safety evaluation report for Yucca Mountain in January of this 
year. The Yucca Mountain Safety Evaluation Report involved highly 
technical and complex issues--our staff successfully met the technical 
challenge and did its job. We now look forward to progress towards a 
long-term spent nuclear fuel disposal solution as mandated by the 
Nuclear Waste Policy Act.
    In closing, I appreciate the opportunity to share these thoughts 
with you today and look forward to your questions.

    Senator Alexander. Thank you. Commissioner Baran.
STATEMENT OF JEFF BARAN, COMMISSIONER, U.S. NUCLEAR 
            REGULATORY COMMISSION
    Mr. Baran. Thank you. Chairman Alexander, Ranking Member 
Feinstein, and members of the subcommittee, thank you for the 
opportunity to appear today before the subcommittee. It is a 
pleasure to be here with my colleagues to discuss NRC's fiscal 
year 2016 budget request and the work of the Commission.
    First and foremost, NRC is focused on our mission of 
protecting public health and safety, yet the Agency faces a 
different environment than what was expected just a few years 
ago when substantial new reactor construction was anticipated 
and no licensees had yet announced plans to shut down any 
reactors. To meet our responsibilities now and in the future, 
we need to enhance the efficiency, effectiveness, and agility 
of the Agency.
    In order to avoid disrupting the Agency's work, it is 
important to set a thoughtful trajectory to the appropriate 
resource and staffing levels over the next few years. We need 
to make sure that we do a good job matching resources to 
expected workload. Before I joined the Commission, my 
colleagues had the foresight to initiate Project AIM, the 
internal working group tasked with looking at the challenges--
or changes rather--NRC should make to prepare for the future. 
This is a valuable and timely effort. The results of the team's 
work were recently submitted to the Commission, and we are 
actively deliberating on the recommendations.
    While we work to increase the Agency's efficiency and 
agility, we need to ensure that NRC also maintains its focus on 
its ongoing safety work. Currently, five new reactors are being 
built in the United States, and five reactors recently ceased 
operations and are entering decommissioning. At the 
construction sites, NRC is conducting oversight to ensure that 
the new plants are built safely and in accordance with 
regulatory requirements. For the decommissioning plants, the 
Agency reviews requests for exemptions from some of the 
requirements that apply to operating plants. Meanwhile, the NRC 
staff is beginning a rulemaking to take a fresh look at a 
number of decommissioning issues.
    NRC is continuing to address post-Fukushima safety 
enhancements and lessons learned. Progress has been made in 
several areas, as my colleagues recognized, but we also 
recognize that more work remains to be done. NRC also is 
responsible for having an efficient and effective licensing 
process for new designs and facilities. While NRC continues its 
work on pending applications for new reactors, we need to be 
ready to accept and review applications submitted for new 
technologies. We are expecting to receive the first application 
for a small modular reactor in 2016. NRC is already reviewing 
an application for a new production facility for medical 
isotopes, and anticipates additional applications of this type 
in the future.
    Thank you, and I look forward to your questions.
    [The statement follows:]
                    Prepared Statement of Jeff Baran
    Chairman Alexander, Ranking Member Feinstein, and members of the 
subcommittee, thank you for the opportunity to appear today before the 
Energy and Water Appropriations Subcommittee. It is a pleasure to be 
here with my colleagues to discuss Nuclear Regulatory Commission's 
(NRC's) fiscal year 2016 budget request and the work of the Commission.
    First and foremost, NRC is focused on our mission of protecting 
public health and safety. Yet the agency faces a different environment 
than what was expected just a few years ago when substantial new 
reactor construction was anticipated and no licensees had yet announced 
plans to shut down any reactors. To meet our responsibilities now and 
in the future, we need to enhance the efficiency, effectiveness, and 
agility of the agency. In order to avoid disrupting the agency's work, 
it is important to set a thoughtful trajectory to the appropriate 
resource and staffing levels over the next few years. We need to make 
sure that we do a good job matching resources to expected workload.
    Before I joined the Commission, my colleagues had the foresight to 
initiate Project Aim, an internal working group tasked with looking at 
the changes NRC should make to prepare for the future. This is a 
valuable and timely effort. The results of the team's work were 
recently submitted to the Commission and we are actively deliberating 
on their recommendations.
    While we work to increase the agency's efficiency and agility, we 
need to ensure that NRC also maintains its focus on its ongoing safety 
work.
    Currently, five new reactors are being built in the U.S. and five 
reactors recently ceased operations and are entering decommissioning. 
At the construction sites, NRC is conducting oversight to ensure that 
the new plants are built safely and in accordance with regulatory 
requirements. For the decommissioning plants, the agency reviews 
requests for exemptions from some of the requirements that apply to 
operating plants. Meanwhile, the NRC staff is beginning a rulemaking to 
take a fresh look at a number of decommissioning issues.
    NRC is continuing to address post-Fukushima safety enhancements and 
lessons learned. Progress has been made in several areas, but we 
recognize that more work remains to be done.
    NRC also is responsible for having an efficient and effective 
licensing process for new designs and facilities. While NRC continues 
its work on pending applications for new reactors, we need to be ready 
to accept and review applications submitted for new technologies. We 
are expecting to receive the first application for a small modular 
reactor in 2016. NRC already is reviewing an application for a new 
production facility for medical isotopes and anticipates additional 
applications of this type in the future.
    Thank you, and I look forward to your questions.

    Senator Alexander. Thank you, Commissioner Baran. We have 
been joined by Senator Murkowski, who is chairman of the Energy 
Committee. And, Senator Murkowski, Senator Feinstein and I have 
already commented on how we have worked with you on nuclear 
waste. And I wonder if you have a statement that you would like 
to make before we begin our questions.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the opportunity to just say briefly a couple of words here. 
First, thank you for this hearing, as well as a series of 
others that relate to our nuclear oversight and what your 
subcommittee certainly has jurisdiction over. I am hopeful that 
I can attend more of these because I do feel that it is 
imperative that as we look to our energy portfolio as a Nation 
that we be working actively to advance the nuclear portfolio 
when it comes to our energy needs and our energy security.
    And, Commissioner Ostendorff, you mentioned kind of where 
we are currently in a post-Fukushima world with the low cost of 
natural gas and the direction that is moving things. This is 
something that I have long felt that the United States has 
started to take a back seat when it comes to our leadership 
role in advancing nuclear energy and the manufacturing end of 
it, the workforce development, and I do not think that we 
should be going backwards in this regard. I think we need to 
assert that leadership and do so in a way that is smart and 
safe, but again, really recognizing our full potential there.
    And that is one of the reasons why I have enthusiastically 
joined the Senator from California and the chairman of this 
appropriations subcommittee in trying to figure out how we do 
deal with the waste end of our nuclear situation and solution 
in this country. And I am hopeful that along with Senator 
Cantwell, we will be able to advance some of the constructive 
ideas that have come from the Blue Ribbon Commission that we 
have attempted to put into our legislation, build that out, and 
ensure that we continue to have a leadership role with regards 
how we address nuclear energy in this country.
    So I look forward to more of these conversations and look 
forward to the opportunity to ask a few questions this 
afternoon. Thank you.
    Senator Alexander. Thank you, Senator Murkowski. I know you 
have other commitments this afternoon, and thank you for making 
time to come. We know the difference between an authorizing 
committee and an appropriations committee, and we are the 
appropriations and you are the authorizing, and I am proud to 
also be a member of your committee. I would like for the 
Commission to know we are working hand-in-hand in this effort. 
While we have a nuclear waste proposal that will go through 
Senator Murkowski's committee, for the last two Congresses we 
have also had through our Appropriations Committee, of which 
she is also a member, a pilot project with her support and 
agreement to try to advance our nuclear waste efforts on two 
different fronts. So I appreciate her attitude, and we will 
look forward to working with her.
    Of course, Senator Feinstein's passion and urgency for 
getting the nuclear waste out of the sites in California where 
reactors are not operating in the 78 sites, getting it out of 
spent fuel and dry cask to a single--the easiest way to do that 
would be to take it all to Yucca Mountain. I mean, it is there, 
the law says that is where the waste is supposed to go, and the 
science now says it is safe. And the U.S. Court of Appeals for 
the District of Columbia in 2013--directed the Commission to 
resume its licensing activities for Yucca Mountain.

                        YUCCA MOUNTAIN LICENSING

    So, Mr. Chairman, is the Commission complying with that 
ruling?
    Mr. Burns. Yes, Senator, I believe we are. As a result of 
the court ruling, the court directed the NRC to expend the--
what was in effect--carryover funds that it had remaining and 
had not expended at that respect, and to continue with Yucca 
Mountain activities. What the Agency did do is it completed the 
SER, I think as you noted during your statement. Recently, the 
Commission approved going forward to complete a supplemental 
environmental impact statement on certain issues. This was in 
part because the Department of Energy declined to do so. But 
with the funding we have left, and it was otherwise appropriate 
for us to do that EIS, and there are some other activities.
    I think that is on the order of something like about $4 
million that is left from that funding, but at that point, we 
have no other funding. And as the court indicates, the funding, 
notwithstanding the authorizations in the Waste Policy Act, it 
does also depend on further appropriation of money to the 
various agencies.
    Senator Alexander. Is the next step after the environmental 
impact statement restarting the hearings before the Atomic 
Safety and Licensing Board?
    Mr. Burns. Yes, that is essentially correct.
    Senator Alexander. And what will that cost, and do you have 
the money to do that?
    Mr. Burns. I think the Agency, and I would ask my two 
colleagues who are here before I return to the Agency to 
correct me if I am wrong. I think the Agency has provided an 
estimate of something like $330 million for the completion of--
an estimate of completion of Yucca Mountain related activities.
    Mr. Ostendorff. I would just like to add to the chairman's 
statement, there are approximately 280 legal contentions that 
would need to be dispositioned by the Atomic Safety and 
Licensing Board. That dollar estimate is an estimate. It is not 
a precise number because the adjudication litigation process 
sometimes is difficult to predict.
    Senator Alexander. So to understand, you are saying roughly 
to complete all of the activities between now and opening of 
Yucca Mountain, it would be $330 million?
    Mr. Burns. For the decision, yes. For the decision on the 
licensing decision that the Agency is--which is part of our 
regulatory----
    Senator Alexander. So the last step before the opening of 
Yucca Mountain is the issuing of a license. Is that right?
    Mr. Burns. Well, the license is a construction 
authorization. There is another--under the Waste Policy Act, 
there is another--basically an operating license. But to take 
it to a point toward construction----
    Senator Alexander. Oh, okay. Is the $330 million just for 
the construction license?
    Mr. Burns. It is for, yes, this phase.
    Ms. Svinicki. I should note, Mr. Chairman, as well that I 
believe those are NRC's costs of $330 million. The applicant, 
which is the Department of Energy in this case, would have 
their own costs for supporting that adjudicatory proceeding.
    Senator Alexander. The President's budget estimates the 
Nuclear Waste Fund has a balance of $36 billion at the 
beginning of fiscal year 2016. How much of that Waste Fund paid 
in by utilities collected from electric bills could you use for 
these costs associated with completing Yucca Mountain?
    Mr. Burns. Well, the amounts that are collected in the 
Waste Fund have to be appropriated to the Agency. We do not 
have an authorization to just to tap the Waste Fund.
    Senator Alexander. So you need for us to act to be able to 
use those funds.
    Mr. Burns. You would need--yes, correct.

                PILOT PROGRAM FOR CONSENT-BASED STORAGE

    Senator Alexander. Let me shift gears just a little bit. If 
we were--if Senator Feinstein, and I, and Senator Murkowski 
were to include in the energy and water appropriation bill 
again this year a pilot program for consent-based storage of 
nuclear waste, are you prepared to act quickly if this becomes 
law? And give me a little idea about what has to happen if we--
assuming we pass--assuming that becomes law, then what happens? 
I think you have an application, for example.
    Mr. Burns. Well, for example, we have an application or are 
about to get an application from a private corporation that is 
interested in building a storage--above-ground storage facility 
in the western part of Texas. We have the capability----
    Senator Alexander. So that could be--that could be a 
consolidated site, not a temporary? That could be a repository 
of the kind envisioned by the pilot program that Senator 
Feinstein talked about.
    Mr. Burns. As I understand it, it could be there. There are 
probably changes in the law in order to authorize it, but that 
is something you could address in your--in your legislation.
    Senator Alexander. Well, is the first step for it to then--
if that application were to come in, is the step then for you 
to give a rule on whether or not it gets licensed or not? Is 
that the----
    Mr. Burns. Well, I think we would have a responsibility 
regardless of, I think, the change to review the application 
and make a decision on it. If there are other aspects because 
of other changes in statute that would affect how it could be 
used, we would certainly take those into consideration.
    Senator Alexander. Well, my time is up, but is there 
anything more that you could say to the three of us about, are 
you prepared if we pass the pilot program to do the 
Commission's part to implement it as rapidly as you could in a 
safe and reliable way?
    Mr. Burns. I do not think it is in the budget. We do not 
have funding in the budget or in our request, so that would--
you know, obviously that would have to be addressed. And I have 
to say, just if you would also give us the opportunity to look 
at it, and we could advise you in terms of what it means in 
terms of our processes. What I want to leave you with is, 
again, the basic idea we have the capability to do this kind of 
technical review.
    Senator Alexander. Thank you, Mr. Chairman. Let me go to 
Senator Feinstein. But I will ask staff to work with you and 
your staff to make sure that as we write language for the 
appropriations bill that we write it in a way that takes 
advantage of your technical advice so that we--so that we speed 
things up rather than slow things down.
    Senator Feinstein.
    Senator Feinstein. Well, thanks very much, Mr. Chairman. 
And, Mr. Burns, essentially what you are saying, if I 
understand it, is that there is now a voluntary proposal to 
provide a pilot nuclear waste facility in Texas. And so, there 
could be a place that is voluntary that people wanted if such a 
pilot facility were authorized by law. Is that correct?
    Mr. Burns. That is correct. We expect to get the--an 
application in the near future.
    Senator Feinstein. Good. Good. I am happy to hear that. So 
other than us authorizing it, there is nothing else that is 
necessary from the Federal Government. Is that correct?
    Mr. Burns. As I say, I think in terms of your 
authorization, I think you would need to look--part of that 
would be looking at the Nuclear Waste Policy Act, which I 
presume you would do, in terms of conforming changes. But off 
the top of my head, I cannot think of anything else.
    Senator Feinstein. Here is the thing. Pardon me?
    Senator Alexander. Mr. Baran----
    Senator Feinstein. Oh, sorry, I did not see that. Please.
    Mr. Baran. No problem at all. I would just add, if what is 
contemplated in Texas is consolidated internal storage whereby 
the Department of Energy would contract with that eventual 
applicant to take the spent fuel from various locations around 
the country, then presumably the Department of Energy would 
also need appropriations from Congress to enter into that 
contract with the potential applicant we would have. That is 
not the NRC part of this, but it is a piece of it.
    Senator Feinstein. Right, and I think we understand that, 
so I appreciate your making it clear. That is good.
    Let me--for the past 30 years, it is my understanding that 
you have allowed the licensing of nuclear power plants based on 
the assumption that a permanent disposal site for waste would 
be available within a reasonable timeframe. And as I understand 
it, the Court of Appeals in 2012 required you to consider the 
health and safety impacts of the possibility that a disposal 
site might never be available. Is that correct?
    Mr. Burns. Yes, I think that is correct.
    Senator Feinstein. Okay. And so, the fact remains that the 
NRC in its final rule digressed from 30 years of regulatory 
precedent by allowing licensing actions to proceed without 
concrete plans for a disposal site in the foreseeable future. I 
gather that is correct.
    Mr. Burns. Well, the decision--the decision that was made 
after the court decision--what the court decision said is that 
in the context it faced then, that the earlier so-called waste 
confidence findings that the Agency had made since the late 
1970s or the early 1980s, it would not satisfy. Recall, too, 
that the basic finding with respect to waste confidence or 
continued storage really deals with the Commission's 
environmental review. It is a piece of environmental review for 
individual licensing actions.
    What the Agency did is in the absence of a firm date, if 
you will, for a repository, it looked at the environmental 
impacts of continued storage at sites. And, again, it is not a 
decision that the Agency is making that that is the preferred 
way of going, but looking at it, that the impacts are small and 
did not prevent the continued licensing of facilities. That is 
essentially what it is. And in that decision, we recently acted 
on some petitions related to that position, and I believe we 
are probably going to be taken to court again on that.
    Senator Feinstein. Okay. And the rods now in spent fuels 
that you say are safe essentially forever, I guess, are you 
saying that they are safe for a millennium in spent fuels, and 
that you can predict that there will be no catastrophic earth 
movement, which has characterized planet earth over the 
millenniums? Is that essentially what you are saying?
    Mr. Burns. No. I think what I am saying is that with 
respect to storage, and storage at sites takes into 
consideration site characteristics, various phenomenon, part of 
our looking at, you know, seismic flooding, things like that, 
will take those issues into account. Eventually, spent fuel, it 
does decay. For example, part of the reason to move it is that 
some sites choose and choose fairly early on to move it to 
dry--what we call dry storage is that it no longer needs to be 
in a pool.
    But because of the decay, because of the characteristics of 
it, the staff and the Agency has made the determination it can 
be safely stored. Whether that, again, from a national policy 
perspective is the preferred long-term solution, I am not 
saying that. What, again, I am saying is we have made the 
technical judgment that it is safe as it is.
    Senator Feinstein. Okay, I understand that. My time is up. 
If there is a second round, I will----
    Senator Alexander. There will be as many rounds as you 
would like to have. Senator Murkowski, if I may ask a 
clarifying question. I think I confused an issue. Mr. Chairman, 
is it correct that if this application from West Texas 
materializes, and the Nuclear Regulatory Commission approves 
the application, that that applicant can then begin to receive 
spent fuel from any of the 78 sites around the country without 
any further action by us?
    Mr. Burns. I believe that is correct, and, again, in 
accordance with the terms of the license that would be issued.
    Senator Alexander. So, Senator Feinstein, did you--I was 
confusing--if the Texas application is approved----
    Senator Feinstein. Right.
    Senator Alexander [continuing]. They can go into business--
--
    Senator Feinstein. Good.
    Senator Alexander [continuing]. Without any further 
action----
    Senator Feinstein. Oh, that is good.
    Senator Alexander [continuing]. By us is the way I--is the 
way I understand it.
    Senator Feinstein. Even now without passing the bill?
    Senator Alexander. Even now without passing our bill, 
correct?
    Mr. Burns. That would be my understanding.
    Senator Feinstein. Good.
    Mr. Burns. I would note, for example, that the Agency had 
an application several years ago for a private--it did not--it 
was called private fuel storage. It was in Utah. Ultimately a 
decision was made not to build it. But the Agency licensed--
approved the licensing of that several years ago. It may have 
been a decade ago.
    Senator Alexander. That is important for us to know and 
understand, so if as we go along this afternoon there is a 
different answer to that, let us know. And we will go to 
Senator Murkowski.

                     DOD TESTING AT YUCCA MOUNTAIN

    Senator Murkowski. I wanted to ask about something that has 
come up in the news recently about possible Department of 
Defense interest in conducting some tests at Yucca Mountain. I 
for one have concerns with the possibility that Yucca would be 
used for anything other than the statutory use as a repository 
for the spent nuclear fuel and our high level defense waste. 
Has anyone from DOD been in contact with you at the NRC 
regarding using Yucca Mountain for purposes other than as a 
repository?
    Mr. Burns. I am not aware of that. My executive director 
for operations, the chief officer is shaking his head no. I am 
not aware.
    Senator Murkowski. I am sure you have seen the same story.
    Mr. Burns. My information is what I read, probably the same 
thing you read in the newspaper.

                         SMALL MODULAR REACTORS

    Senator Murkowski. Yes, okay. Well, I am trying to chase 
rumors, so if anybody has more detailed information, I think it 
would be helpful to know.
    I wanted to ask quickly about where we are with SMRs, small 
modular reactors. You have indicated that the Commission is 
preparing to review the license applications. Kind of give me 
some updates. What are the barriers right now, whether 
legislative or regulatory, that could delay approval of the 
SMRs?
    Mr. Burns. Well, we expect--as I said in my opening 
testimony, we expect to receive an application in 2016 from one 
of those who indicated an interest. Some of it has been, 
frankly, changing interest in terms of the market. I think a 
lot of these things are probably outside the NRC's ken in terms 
of what the interest is and potentially buying or procuring it.
    I mean, our staff--what I would say, Senator, is that our 
staff has engaged with those who have indicated interest in the 
technology. We had a paper that came up several years ago, 
actually before I left the NRC in 2012, to address some of the 
issues. I think there are some issues we need to work through, 
but I think we have been responsive in terms of assuring that 
we--both through the licensing process and also regulatory 
criteria.
    And particularly for what we are seeing, which are 
basically light water reactor based, the technology. What I 
have said in some of the public speeches and all, is looking 
down the path, to the extent you get smaller reactors or 
technologies in the non-light water reactor, what we call--
sometimes call generation four reactors, there is some work 
that needs to be done there. DoE has worked cooperatively with 
the industry. We are looking at a report related to that. And I 
think we are open to do that over the next few----
    Senator Murkowski. Does that review also include then the 
export possibility and ensuring that the licensing process will 
make it easier to export our SMRs to other countries? Do you 
consider that?
    Mr. Burns. I might have to come back to you on the record 
for that.
    Senator Murkowski. Okay.
    Mr. Burns. What I would say is generally, and looking at 
the experience we have had with the larger reactor technology, 
for example, the Westinghouse AP1000, General Electric ABWR. We 
have certified those under our rules, and a lot of--the 
countries who have been interested, for example, Japan and 
China, who have built--have been building that technology, they 
often look to our certification to do that.
    So I think the basic subject or perhaps--I was thinking 
about some discussion with our staff. I think the basics there 
for export, the basic construct is there. And what often you 
find is that the NRC's design review is considered a seal of 
approval that is often recognized around the world.

                            COMPLIANCE COSTS

    Senator Murkowski. With my remaining time, I wanted to 
touch on just the cost of compliance with the NRC regulations. 
As we speak to how we are going to move to this nuclear 
renaissance that we once talked about so freely, it is 
seemingly the cost of regulations that is the big barrier to 
market for new nuclear projects. So what aspects of the 
regulatory process can we modernize, can we streamline, can we 
just be more efficient? How can we do a better job with this?
    Mr. Burns. Well, one of the things the Commission started a 
few years ago, again, was an effort nominally called cumulative 
effects of regulation. And it was a way of trying to look at 
the impact as regulations are proposed or developed, and in 
terms of either staging, you know, the significance or the 
value added, if you will. And some of that effort has continued 
in communication with industry, and I think the Commission is 
going to receive a paper or some information from the staff 
later this month or next month that, again, includes comments 
from stakeholders, industry and others.
    One other thing I would do is that--we are trying to do as 
well is we had a GAO report that critiqued the Agency in terms 
of its cost benefit analysis. We might have some disagreements, 
particular areas of disagreement with it. But we are looking at 
that and doing things to improve our cost benefit analysis 
where that is appropriate in the regulatory sphere.
    Ms. Svinicki. Well, Chairman Burns did mention cost benefit 
analysis. Just to put a finer point on that, it had been 
pointed out to NRC that looking retrospectively at things that 
we had put in place and the Agency's own cost estimates for 
what it would cost the regulated community to put them in 
place. We were confronted with data from the industry that 
showed in some cases we were 10 orders of magnitude low. And, 
of course, this gets into an impact's cumulative effect of 
regulation so much because if our analyses of cost benefit are 
not accurate, then we will impose things where, if we had 
better cost estimates, we would find that the benefits do not 
exceed the costs. And so, I think one of the most basic things 
that regulatory agencies can do is to continue to refine and 
improve cost benefit analyses techniques.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Alexander. I wanted to continue along Senator 
Murkowski's questions. I think your--I love the concept of 
cumulative--what did you call it?
    Mr. Burns. Cumulative effects.
    Senator Alexander. Well, that is true. I mean, we know that 
is true. It is just human nature. I mentioned the higher 
education report, Senator Murkowski, that we commissioned. I 
mean, eight reauthorizations to the Higher Education Act since 
1965, eight groups of well-meaning Senators, eight groups of 
well-meaning legislators. Let us try this, let us try that, let 
us try this.
    And Vanderbilt does a study that shows it costs $150 
million in 1 year for that one university to comply with all 
these rules and regulations. They just build up over time, and 
there is no countervailing discipline to remove them, and it 
adds a lot of costs. I mean, in the university case, it is 
$11,000 per student at that university on the tuition costs. So 
that could make a little difference in the ability of an 
operator--of a utility to say, will I extend a nuclear power 
plant license? Will I open one? What will I do?
    Let us take an example of that with the extension of 
nuclear power. We have 99 reactors, is that right, today 
operating?
    Mr. Baran. That is correct, 99 operating.
    Senator Alexander. And about how many of those are licensed 
to operate for 60 years?
    Mr. Baran. About 75.
    Senator Alexander. About 75.
    Mr. Baran. Yes.
    Senator Alexander. And some of the others are newer, so 
they would not yet be licensed. But a large number of those 
will be thinking about going--applying for permission to go for 
80 years. Is that correct?
    Mr. Baran. There is interest in that, yes.
    Senator Alexander. And scientifically or based on what your 
Commission knows, is it true that a reactor can operate safely 
for 80 years?
    Mr. Burns. Again, if the technical criteria are met, I 
think the answer is yes. I think the Commission last year, and 
I might ask my colleagues who were engaged in this issue before 
I returned to the NRC.
    Senator Alexander. But if I am a utility operator, is the 
Commission generally of the disposition that a properly 
maintained reactor who meets the technical requirements should 
be able to operate for 80 years instead of 60 years?
    Mr. Ostendorff. I would just answer very briefly, Senator, 
and maybe Commissioner Svinicki would like to supplement my 
comments, because last year we were the two folks that were 
here that voted on the subsequent license renewable policy 
issue that came to the Commission last summer. And we 
determined that our current regulatory framework without 
modification is structured to allow an applicant to come in to 
ask to operate from 60 to 80 years. We require basically 
utilities to have an aging management program to look at such 
things as buried piping, electrical cables, the impact of 
neutron to radiation, reactor vessels, those types of material 
issues.
    But there can be a showing made, and so far industry has 
done that up to 60 years that they can monitor material 
degradation in a way that ensures safety.
    Senator Alexander. Commissioner.
    Ms. Svinicki. Just at bottom, Mr. Chairman, last year our 
Commission affirmed that our regulatory framework is adequate 
as it exists to evaluate 60 to 80 years. The demonstration will 
have to be made site by site of each applicant that comes in. 
They will have to provide the safety case.
    Senator Alexander. Has anyone yet applied for an 80-year 
license?
    Ms. Svinicki. No, they have not, but industry has indicated 
we might receive the first 60- to 80-year extension in the year 
2018.
    Senator Alexander. Well, here is what I am getting to. If 
it is a legitimate concern of our country that we want lots of 
low cost, reliable carbon free electricity, and if the 99 
reactors provide 60 percent of that today, and if we open five 
and close five in the same year, and if there are a number of 
forces that make it difficult to start big new reactors right 
now, a strategy for the President and the Congress, which might 
be the easiest way to make sure over the next 30 or 40 years 
that we have an adequate supply of reliable, clean, low cost 
electricity free of carbon emissions, would be to make sure 
that we do not have any unnecessary obstacles to a license 
application to go from 60 to 80 years, if that is a safe thing 
to do.
    And that might also be a good time. You just did your 
review about whether your regulatory structure allows that. It 
might be a good time to do a review about whether they are 
unnecessary obstacles in your regulations that would discourage 
utilities from doing that. Without naming names, I was a little 
surprised to learn from one utility executive that they were 
only planning on asking for a 60- to 80-year extension for 30 
percent roughly of their reactors, when, in fact, the other 70 
percent are good solid reactors. Now, there are a whole 
combination of reasons which make that uneconomic. But one of 
the reasons sometimes is the cost of regulations, so that might 
be an area where you could take a look and say it is in the 
public interest to make sure that we create a welcoming 
environment for those applications rather than an adversarial 
environment, and still meet all of your safety objectives.
    My time is up. Senator Feinstein, why don't you take the 
time you would like for your questions, and then I will ask 
some more. Do not feel constrained by any five-minute rule.

                             WASTE STORAGE

    Senator Feinstein. Thank you. I appreciate that. If I 
understand what I have been told, the NRC has made the judgment 
that nuclear waste storage at the site of a reactor is forever 
safe, and that waste need not be moved. How do you expect 
communities to support further license extensions given that 
you are now allowing plant owners to keep waste on site 
indefinitely?
    Mr. Burns. Senator, the issue--I mean, from the regulatory 
standpoint, our job and our responsibility is to call the 
technical shots as we see them. The question I think on local 
support and those are issues that I fully recognize may have 
some concern. Our job is to assure that we have oversight of 
licensees to ensure that they are carrying out requirements 
that apply to spent fuel storage or to safe operation, and 
communicate to the public how we are doing that. That is, I 
think, what we can--that is what we can do, I think.
    Senator Feinstein. See, the problem is you have no way of 
knowing what might happen 200, 300 years from now, no way. I 
can think of a whole host of things that could happen that are 
not predictable. Now, if you only use the predictable, maybe 
you are right. But if you concede that there are things that 
happen that are not predictable, that is another subject. So it 
would seem to me that a public agency would want to protect the 
public above all, and not just the public today or 50 years 
from now, but the public that is forever going to be on 
adjacent land. Anybody want to take that on?
    Mr. Ostendorff. I would like to make a couple of----
    Senator Feinstein. Okay.
    Mr. Ostendorff. Thank you for the opportunity. I want to 
make a couple of comments. One, NRC has not said let that waste 
sit there indefinitely without ever taking a look at it.
    Senator Feinstein. You said----
    Mr. Ostendorff. We have not said leave it there and never 
take a look at it.
    Senator Feinstein. You have said it is safe.
    Mr. Ostendorff. We have said that it is safe and secure, 
but it also subject to ongoing monitoring programs. As one 
example, Senator Feinstein, one of the steps, again, and we are 
not as a Commission an advocate for indefinite storage onsite. 
There are certain responsibilities that the Department of 
Energy has in repository development under the Nuclear Waste 
Policy Act that are their responsibilities, not ours.
    But we have determined that this is fuel that is currently 
stored onsite in dry casks that are on concrete pads. That fuel 
is being stored safely and securely. If repositories were 
delayed in being developed for whatever reason, then there are 
steps that our staff has looked at to look at maybe after 100 
years, there would be a replacement cask brought on board to 
move that fuel that, as the chairman had noted, would have 
undergone significant decay, move that fuel to a new cask. And 
there would be ongoing monitoring steps.
    As far as the other piece, I would tell you that in the 
Fukushima regulatory actions we have required, we have required 
seismic and flooding walk downs and hazard reevaluations. Those 
seismic reevaluations apply to those locations where we are 
storing spent fuel on sites today.
    Senator Feinstein. Well, I can only speak for myself 
representing a big State, highly earthquake prone with big 
reactors. We have not gone to Diablo yet. This really changes 
my support of the nuclear industry because if things are going 
to be built that they are going to be there forever and never 
moved, and subject to--I do not know what the monitoring regime 
would have to be. I do not know what provisions would have to 
be made for a real emergency, how you would move it out, you 
know.
    I do know that the CEO of PG&E has told me that they are 
prepared to move dry casks to a repository. And now you are 
saying, well, you do not need to do that particularly----
    Mr. Ostendorff. Senator, I am not saying we should not do 
that----
    Senator Feinstein. Let me just finish, sir. I would say 
particularly because of earth instability in that area, you 
would want to get the stuff out of there. So this is--I mean, 
it is hard for me to accept that you are saying one size fits 
all, and we believe this is safe. Well, let me go into this SMR 
that your Commissioner said was going to be licensed this year. 
How many SMRs are they, of what size, the new scale 
application?
    Mr. Burns. Well, we have not received the application as 
yet, and they would have to--what they are basically looking 
for, as I recall, is a design certification or design approval 
that you could--this is a design that could be applied. Right 
now, we do not have a particular site that we have been asked 
to license it at.
    Senator Feinstein. We hear that it is four at 40 watts. Did 
you say Idaho? To Idaho. Do you know anything about that?
    Mr. Burns. As I say, at this point, where the particular 
application might be, we do not have an application for the 
particular thing.
    Senator Feinstein. Okay, fair enough. Fair enough.
    Mr. Burns. And we would license it under--in terms of if we 
had a particular application to cite that design at a 
particular site, we take into consideration the natural 
phenomenon, the geology, soil structure, et cetera, that is at 
that site.
    Senator Feinstein. Okay. It is my understanding that these 
are only really cost effective if you can site a number in one 
place. In this case we could be wrong, but the information I 
have received, it would be four--no, it would be six 40-watt 
reactors sited at one place. I think it is on Federal land. 
What would be the requirements for storage, and where would 
they store the waste?
    Mr. Burns. Well, again, like other licensed plants, they 
would, absent a consolidated storage site or absent a 
repository where after the decay of fuel after it is done 
within the reactor, you would be talking about storage at the 
site.
    Senator Feinstein. Would this be underground? What would 
the requirements be? My understanding is it is underground.
    Mr. Burns. I think I have seen some--and I do not know all 
the details of the design. I understand some of the designs for 
the reactors themselves would be underground. I could not tell 
you in terms of I do not know enough, and would be happy to try 
to supplement for the record, what the expectation is with 
respect to, in effect, the spent fuel storage, at least in 
terms of temporary before potentially moving to like a dry 
storage situation. But I just do not know.

             STEAM GENERATORS AT SOUTHERN CALIFORNIA EDISON

    Senator Feinstein. Well, let me just--let me just ask you 
another thing because I am just a lay person, sort of a simple 
soul. At Southern California Edison, what I understand happened 
was not a like-for-like steam generator of one reactor, which 
began to have holes in it, and then the second reactor had the 
same problem. It was a Japanese designed reactor--Japanese 
designed steam generator. The thought was that the alloys in it 
were much more advanced and better to use.
    Do you consider that kind of thing when you approve an 
application as you will, for example, with the SMRs so that 
situations do not happen like what happened to Southern 
California Edison?
    Mr. Burns. Yes. We look at the technical aspects of 
equipment--the major equipment as well as the systems that are 
used to operate the facility. As you indicated, the replacement 
steam generators at San Onofre 2 and 3 had problems. Those were 
things that our inspectors also noticed with it. And from the 
standpoint both of the company making decisions with respect to 
conformance to their license about operability as well as the 
NRC in its oversight with respect to operability. So it is 
something we look at. The design and quality is something we do 
look at.
    Senator Feinstein. Did you approve those steam generators? 
Not you, but did the Commission? Did the Commission----
    Mr. Burns. Well, I think my understanding is that the 
company, Southern California Edison, replaced the steam 
generators under provisions that allow for the exchange of 
equipment. And after that happened, and as you indicate, during 
some operation, they started finding anomalies consistent. And 
consistent with their license and licensing basis, they began 
to address that, identified that the quality was not there. 
Anomaly, as I say, we approve basically systems, and we approve 
the license and the conditions that they operate under.
    Senator Feinstein. Well, in one case I think there was a 
small--very small radioactive leak. This is why I am concerned 
about the underground SMRs. You put everything underground, it 
is pretty hard to get to it if you need to. And you can have 
equipment problems just as much as in a big reactor, it seems 
to me. Am I wrong?
    Mr. Burns. Well, again, what we license to is not that 
facilities will be perfect, that they are--will be perfect in 
every way, that we have to have--the notion of defense in 
depth, that thinking about if certain things go wrong how does 
the machine respond? How do the people who run it respond? How 
do we interact, interdict those potential problems?
    That is part of both the design philosophy and the approach 
both to the regulation and to oversight, because we do not 
license assuming, in effect, a perfect world. We assume that 
there may be things that go wrong, and if there are things that 
go wrong, how do you prevent and basically minimize the 
consequences of that in terms of designs. And that is--that 
carries through not only, I think, really from day one.
    Senator Feinstein. Okay. Nobody----
    Mr. Baran. I have a slightly more succinct version of that. 
I think we do not know yet because we do not have the 
application of what the specific design will be. But if we get 
an application next for a small modular reactor design, if it 
is going to be underground or if it is going to have 
characteristics that are different from any other reactor 
design, or even if it did not have characteristics different 
from other reactor designs, they are going to have to 
demonstrate to the NRC that that design is safe before we 
certify it.

                       SAN ONOFRE DECOMMISSIONING

    Senator Feinstein. Okay. The problem for me, and, again, 
just a simple problem, is that it is all out of sight. Now, I 
know there are technical ways of, I guess, bells ringing and 
that kind of thing, but it is all out of sight. And now, I 
mean, we have 2,200 megawatts going down. It is a huge amount 
of power. And as long as we are on it, Mr. Chairman, can you 
give us your take on where San Onofre is in the decommissioning 
process?
    Mr. Burns. Yes. The company has indicated what its plan is 
for decommissioning. It is going to a plan that over, I think, 
about a 20-year period, I think a little less than a 20-year 
period, they would--basically other than, as we discussed, the 
spent fuel pending removal to a continued or a consolidated 
storage site or repository. What would happen is they plan to 
take apart all the structures over that period.
    Senator Feinstein. They are going to remove the reactors.
    Mr. Burns. They are going to deconstruct the reactor 
buildings. And also, you may recall unit one, which was an 
early plant, is also on that site where they have done some of 
that work. Actually I think they have done a fair amount of 
that work, and then they would complete work that did not make 
sense to do until Units 2 and 3 were decommissioned. So they 
have communicated to the NRC its plans, and they have also made 
some plans in terms of the spent fuel storage on site. I think 
they have opted to use, in effect, instead of the stack that is 
above ground sort of an in-ground storage option, which they 
think has some advantages for them.
    Senator Feinstein. Well, so the only thing that will 
eventually be left for millenniums is the spent fuel.
    Mr. Burns. Well, again, that is assuming that there is 
never a repository built. I do not think that that is going to 
be the case, and you and Senator Alexander----
    Senator Feinstein. That is where we are going. That is 
where we are going. And to me, I mean, this is almost 
diabolical that you leave, you know, six million people in the 
area without the benefit of power, but the spent fuel is there. 
And, you know, I say this respectfully, but I think the 
industry should think about this. I just do not think it is 
right, and that is one of the reasons why I think we have to 
press on and get repositories and get spent fuel. And you have 
questions of what is happening at Hanford. You have got waste 
up in Northern California, and that is just sort of my 
neighborhood, let alone other places.
    And, you know, it reminds me of old mines. I mean, we have 
like 50,000 mine wells that are not covered in the State. 
People can mine and walk off and leave the mess. And I really 
feel that that spent fuel has to have a place to go, so maybe 
it can be early in the line, I do not know. I think this is the 
dilemma for the industry. I do not know how many rods there 
will be, but there are 4,000 of them in spent fuel pools now--
256,000 rods in spent fuel pools, as I understand it 
nationally. And I am told the prudent practice is to leave it 
in for five to seven years, and then move it to dry casks.
    And are you saying--I do not know, but are you saying in 
your rule that you can leave it forever in a spent fuel pool, 
or are you saying you should observe that five to seven years 
and move it to dry cask storage?
    Mr. Burns. Well, again, my understanding of the physical 
and the attributes of it is that you want it in a spent fuel 
pool for a certain number of years because the environment 
there assures against criticality and et cetera. Part of the 
reason utilities have moved to dry storage is you do not need 
the wet--in effect, the wet storage after that period of time. 
That is why you hear this term ``five to seven years.''
    Senator Feinstein. Five to seven years.
    Mr. Burns. Five to seven years. And my guess it is also, 
from their standpoint, and I think you understand that as well. 
If you are having to deal with a longer-term storage, it may be 
more economical for them to dry storage as well. But 
essentially what you want is for this first years after it 
comes out of the reactor, in effect, until it cools in terms of 
its radioactivity. You keep it in the wet pool, and then you 
can move it to dry storage.

                        DRY CASK STORAGE SAFETY

    Senator Feinstein. Well, let me ask you this. Is dry cask 
storage safer than spent fuel pool storage?
    Mr. Burns. I am not sure whether it is particularly safer. 
I think it has advantages over it. I think we have determined 
particularly--you know, particularly if you are looking at this 
window of time, you need to keep it in wet storage. I think 
there are advantages moving it to dry storage. It is, you know, 
fairly, I think, easily monitored. You know, you are concerned 
obviously with natural phenomena, but we have evaluated the 
equipment. We have evaluated the equipment against earthquake, 
you know, what happens in terms of the seismicity in a 
particular site against tornado missiles. In other words, you 
get a tornado moving through, things running out.
    So we evaluate the storage options against that. And as you 
say, it is an option many utilities have chosen to do because 
it is a safe option, and my guess is, from their standpoint, an 
economic option.

                       POTENTIAL TERRORIST THREAT

    Senator Feinstein. Well, let me ask you. Do you evaluate a 
potential terrorist attack on the facility?
    Mr. Burns. I believe we--I believe we have, and at least 
from the standpoint of what can you--what can you do. So my 
understanding is that we have done that, yes.
    Mr. Ostendorff. Yes. If I may, Senator, that is a very good 
question on terrorist attack. Certainly there are a couple of 
things. After 9/11, our predecessors on the Commission required 
an aircraft impact rule for new reactors, and it was called 
B.5.b firefighting explosion type mitigation strategies for 
existing reactors. That was new after 9/11.
    With respect to--on an ongoing basis, we have exercises to 
evaluate the ability of a nuclear power plant to withstand a 
terrorist attack. I participated as a commissioner just last 
May in a hostile action based scenario at Diablo Canyon to look 
at a terrorist activity. How could the onsite security forces 
counter this terrorist attack? So we have a fairly 
sophisticated program in that area. We are glad to provide 
other briefings to you.
    If I could very quickly, you had asked a question earlier. 
I do not think we fully answered your question about the Idaho 
situation for small modular reactors. The new-scale concept, 
which Chairman Burns talked about, which we may receive a 
license application in 2016, would be for a number--the concept 
would be 45 megawatt reactors, perhaps four of those clustered 
as one group of four reactors. These would be underground 
designed theoretically to replace coal plants that would be 
retired.
    The underground concept has advantages from a security 
standpoint from the avoidance of missile hazards. So I just 
wanted to make sure that we provide that information to you, 
and we can provide more.
    Senator Feinstein. Thank you. I appreciate that. Thank you 
very much. Thank you, Mr. Chairman.

                             YUCCA MOUNTAIN

    Senator Alexander. No, thank you, Senator Feinstein. Very 
interesting questions. Mr. Chairman, I think you have testified 
that you are doing everything the courts ordered you to do in 
terms of proceeding towards completing Yucca Mountain, correct?
    Mr. Burns. Correct.
    Senator Alexander. And is it true that if Yucca Mountain 
were open, we could take all of the casks, all of the used fuel 
out of California and Tennessee and everywhere else? We have 
the 78 sites, and it could all be contained in Yucca Mountain?
    Mr. Burns. As you alluded in your opening statement, Mr. 
Chairman, I am not sure if you took all the spent fuel 
currently--that currently exists that would be ready to be put 
in a repository, that it would all fit in the Yucca site. 
Frankly, I do not know the answer.
    Senator Alexander. A lot of it would.
    Mr. Burns. Well, yes.

                         NUCLEAR REACTOR SAFETY

    Senator Alexander. I have been told all of it would, but 
maybe a lot of it would or most of it would, but that is the 
obvious way to me to get rid of it. I mean, for 25 years that 
has been the law. We are told often, ``pay attention to 
science.'' Science has now told us it is safe. You are doing an 
environmental review. There are several other steps you need to 
take, but if we want to get this fuel off these sites, that is 
one way to do it.
    Now, let me ask Mr. Ostendorff a couple of questions. The 
Commission has held that used fuel can be safely stored on the 
sites where it is produced, correct?
    Mr. Ostendorff. Yes, sir.
    Senator Alexander. And they have said it is safe whether it 
is in pools or in dry storage.
    Mr. Ostendorff. That is correct. And if I could, Senator, 
last year--actually in 2013 our staff did a study on the spent 
fuel pool looking at resilience against earthquakes, looking at 
the experience in Japan, looking at what we understand about 
spent fuel pool structures in this country. And we determined 
that there is not a need from a safety standpoint to more 
quickly move fuel from spent fuel pools to the dry casks.
    Senator Alexander. But you are not saying that utilities 
should not move it.
    Mr. Ostendorff. No, sir.
    Senator Alexander. You are just saying you have asked the 
question whether it is safe or not, that based on scientific 
standards it is safe.
    Mr. Ostendorff. Yes, sir.
    Senator Alexander. Now, you have a lot of experience with 
reactors having served in the Navy. We have had Navy reactors 
for, what 60 years?
    Mr. Ostendorff. Since 1954.
    Senator Alexander. Yes. How many deaths have we ever had a 
result of the operation of a Navy reactor?
    Mr. Ostendorff. None.
    Senator Alexander. How many deaths have we ever had in the 
United States as a result of the operation of a commercial 
reactor?
    Mr. Ostendorff. None.
    Senator Alexander. How many people were hurt at Three Mile 
Island, which is the most celebrated nuclear accident we have 
had?
    Mr. Ostendorff. None.
    Senator Alexander. Does any other form of energy production 
in the United States have that sort of safety record?
    Mr. Ostendorff. I cannot speak to solar or wind, but I 
would say that with respect to oil, gas, coal, it is my 
understanding that nuclear has a better safety record.
    Senator Alexander. Yes. Golden eagles do not like the 
safety record of windmills. I know that.
    But the fact is that no form of energy production in the 
world really has a safety record that exceeds the production of 
nuclear power in the United States, and I think it is important 
that we emphasize that. And as far as finding a place to put 
the waste, I mean, the problem with that is not you. It is us.
    It is the politicians who are keeping Yucca Mountain shut, 
and it is the politicians who are not opening new consolidated 
repositories, as Senator Feinstein and I have proposed for the 
last 3 years. If Congress would act on that and the President 
would sign it, why I am sure that the first priority would be 
sites where plants are closed, such as those in California, and 
to move the stuff off there.
    So I think, we ought to look in the mirror when the time 
comes about--it is not the industry saying to us they would 
like to keep it there. They would like to get rid of it. The 
industry is collecting money--$35 billion from rate payers--and 
it is not being used for the purposes being collected. We've 
got electric bills all over the country that are too high. 
We've got concerns from Senators like Senator Feinstein about 
unused fuel in her State. But the obstacles here are the United 
States Congress and the President of the United States. That is 
us.
    So I think it is very important for us to----
    Senator Feinstein. It is not you, and it is not me.

                               FUKUSHIMA

    Senator Alexander. No, but it is some people we know, but 
we are working on that. Now, I have just a few more--I want to 
underscore that. And let me go to Fukushima. Fukushima was a 
terrible problem from a very simple cause. Mr. Ostendorff, the 
problem at Fukushima was a very simple problem, was it not? I 
mean, power failed, and there was no water to cool the reactor.
    Mr. Ostendorff. Yes, sir.
    Senator Alexander. That was it, right?
    Mr. Ostendorff. Caused by a very significant tsunami 
resulting from the earthquake.
    Senator Alexander. But the only problem----
    Senator Feinstein. Caused by siting them so close together, 
you know, where they were sited.
    Senator Alexander. But the bottom line is the only problem 
you need to solve is you need water to cool the reactor, and 
you need the power to pump the water. And I was at Watts Bar 2, 
which is being opened in Tennessee, and they are taking action 
based upon the rules that you have provided. They have got a 
variety of ways to have power to pump the water in the event of 
almost anything, and I do not think there is a terrorist 
anywhere that could get into that building that they have got 
that houses those redundant steps.
    So based on what I have seen so far, at least at that site, 
and what I have reviewed, you are taking steps to learn even 
from the Fukushima incident. You are focused on trying to make 
sure that all of our sites, you have got power to pump the 
water to cool the reactors. Is that correct?
    Mr. Ostendorff. Yes, sir, and 3 years ago, and Commissioner 
Svinicki joined me in this when we were working together 
because other commissioners had departed. But basically in 
early 2012, we approved orders to require mitigating strategies 
to deal exactly with the issues you are talking about: 
additional cables to run power, additional pumps, portable 
diesel generators, portable pumps, other ways of providing 
makeup water.

                              WATTS BAR II

    Senator Alexander. Now that I have wandered back to 
Tennessee a little bit, what is left to do before the Nuclear 
Regulatory Commission can approve the operating license in 
Watts Bar 2?
    Mr. Burns. Senator, we expect a report from our staff that 
would come this spring, April-May timeframe. I think the 
Tennessee Valley Authority has projected a June fuel load date. 
We would need to make a decision on the staff's final 
recommendation with respect to the licensing.
    Senator Alexander. But if the staff's final recommendation 
were positive, could the reactor start and power be generated 
during 2015?
    Mr. Burns. That is possible. That depends on their testing 
program, you know, their fuel loading and their testing 
program. And forgive me, Senator, I do not recall exactly what 
TVA's, you know, planning schedule is at, but I think it is 
towards the end of 2015.
    Senator Alexander. Do you have sufficient resources at the 
Commission to complete the licensing activities for Watts Bar 
II this year?
    Mr. Burns. Yes, we do.

           COLLEGIALITY AT THE NUCLEAR REGULATORY COMMISSION

    Senator Alexander. I have one last question. I used to be 
on another committee, which was the Energy and Public Works 
Committee. That was the last time I saw the whole Commission at 
once. Two of you were there, Commissioner Ostendorff, 
Commissioner Svinicki. It was a very unusual hearing because at 
the time, collegiality was not a word that was being used at 
the Nuclear Regulatory Commission. There was an enormous lack 
of it.
    Let me ask the two of you since you have been there for a 
while. What about collegiality at the Nuclear Regulatory 
Commission? We were concerned in the Senate a few years ago 
that the absence of that was causing operational problems. What 
is it like today?
    Mr. Ostendorff. I would add, Senator, that we had a very 
challenging hearing before unit colleagues in December of 2011. 
I would say that once we had a collegiality issue that was 
related to, from my personal view, to one individual who is no 
longer on the Commission. When that individual--when Allison 
Macfarlane came in as chairman in July of 2012, those issues 
went away. And I would say since that time period we have had 
an extraordinarily positive collegial relationship amongst us, 
and there is not any issues at all.
    Senator Alexander. Commissioner Svinicki, what do you 
think?
    Ms. Svinicki. Well, I would note much as we have seen a 
demonstration from the dais today that there is collegiality of 
a body, and then there is collegiality between individual 
members, I would say that even in some of the difficult periods 
on this Commission, there has been tremendous one-on-one 
collegiality. And I think the proof of that is in the fact that 
the Commission's work and the Agency's work, I think, did not 
suffer, and our important mission was always paramount amongst 
the Commission.
    And I think I credit also the Agency staff for not being 
distracted by issues that were occurring at the Agency level. 
At no time did I feel that our mission of protecting public 
health and safety was in any way compromised, but it is 
wonderful to have the colleagues that I have around me today. 
Thank you.
    Senator Alexander. Well, thank you. And, Mr. Chairman, I 
would say that when the Senate functions, which it occasionally 
does, it does so because of collegiality such as that exists 
between the Senator from California and me. It makes life a lot 
easier for everybody. And your functioning is essentially 
important to this country.
    I welcome you as chairman. Your background in France really 
should provide you with a good perspective of how that country 
operates nuclear power and lessons we might learn from there. 
And just as one Senator, I want to help create an environment 
in which you can succeed. I would like to encourage you to 
proceed with your review of the cumulatively piling up of 
regulations without any embarrassment because it happens to 
every single agency, and there should be a disciplined approach 
toward doing that.
    I hope that you will take a look at the importance to this 
country of the license extensions for reactors that want to go 
from 60 to 80 years. That is the easiest, least expensive, most 
important way to get carbon-free electricity from carbon-free 
emissions, at least during this bridge period of time while we 
decide what else we need to do. And I think it is appropriate 
that you think about reducing your budget since the large 
number of applications that might have been expected a few 
years ago is less than expected.
    I hope you will continue to be open to the small reactor 
application when it comes. And I think Senator Feinstein, I can 
speak for her on this I know. I am especially interested in the 
application from West Texas or from anywhere else like that 
because since--if you approve the application, that repository 
can go into operation and begin to receive used fuel from sites 
around the country. And if there were one or two of those, that 
could happen even before our pilot project passes and becomes 
law. If it does become law, which we hope it does, we hope you 
will help us implement it as rapidly as we can because we both 
want nuclear waste property stored in this country as we know 
you do.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein, do you have anything else you would like 
to add?
    Senator Feinstein. I do not, except thank you, lady and 
gentlemen, for being so game and answering these questions, and 
I hope you accept it as a positive challenge. So thank you very 
much for being here.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Stephen G. Burns
             Questions Submitted by Senator James Lankford
    Question. The rules governing the Commission allowed for a former 
Chairman to keep his fellow commissioners poorly informed and pursue a 
personal agenda without ever, technically, breaking laws or procedures. 
What has the NRC done, if anything, to prevent such an abuse in the 
future?
    Answer. The existing laws governing the Commission provide a 
framework for effective agency governance by a collegial Commission. 
Section 201 of the Energy Reorganization Act of 1974 provides that each 
member of the Commission shall have full access to all information 
related to the performance of his or her duties and responsibilities. 
Further, Section 2(c) of the Reorganization Plan No. 1 of 1980 provides 
that the Chairman is responsible ``for insuring that the Commission is 
fully and currently informed about matters within its functions.''
    The Commission's internal procedures have been updated in recent 
years and set forth the procedures governing the conduct of business by 
the Commission consistent with these legal requirements. The specific 
procedures may be changed or waived by a majority of the Commission, 
and questions regarding implementation and interpretation are decided 
by the Commission as a collegial body, consistent with existing law. 
The internal procedures are periodically reviewed by the Commission and 
approved by majority vote.
    Question. Senator Vitter and Representative Terry have proposed 
codifying organizational operation procedures for the Commission, which 
include explicitly making the Chairman responsible for keeping the 
other Commissioners fully informed ``about matters within the functions 
of the Commission''. If a majority of the other Commissioners determine 
the Chairman has not been acting appropriately, this legislation would 
provide a way to report that and allow Congress to evaluate whether a 
change in leadership is needed. Would such a policy safeguard against 
future abuses? If this type of policy is not needed, how can the 
American public and the regulated community be assured that one member 
of the Commission is not legally able to drive the agenda without 
informed consent of the other Commissioners?
    Answer. As discussed above, the law currently requires the Chairman 
and the Executive Director for Operations, through the Chairman, to 
keep the Commissioners fully and currently informed about matters 
within their functions. Further, each Commissioner is required to have 
full access to all information relating to the performance of his or 
her duties. In this context, the Chairman is also ``governed by the 
general policies of the Commission, and by such regulatory decisions, 
findings, and determinations  . . .  as the Commission may by law, 
including this Plan, be authorized to make.'' The internal Commission 
procedures reflect these provisions. In addition, the Consolidated and 
Further Continuing Appropriations Act, 2015 (Public Law 113-235) 
established a requirement that the NRC Chairman inform the Commission 
and the Congress should he or she begin performing functions under the 
emergency authority provided for in section 3 of Reorganization Plan 
No. 1 of 1980.
    Question. With regard to the power reactor fees, the NRC takes the 
amount of fees to be recovered and simply divides by the number of 
reactors. In light of the reductions to the number of reactors--four 
have gone offline in the past 2 years, with another one slated to go 
offline soon--has the Commission revisited how they collect fees?
    Answer. The agency has considered how fees are assessed to reactor 
licensees. The NRC calculates the 10 CFR Part 171 annual fee based upon 
the requirement of the Omnibus Budget Reconciliation Act of 1990 (OBRA-
90), to fairly and equitably collect fees in order to recover 
approximately 90 percent of the agency's budget authority. The budgeted 
resources for power reactors constitute approximately 86 percent of the 
NRC's overall recoverable fee budget. The current methodology is used, 
in part, to provide industry with a predictable annual fee cost while 
also implementing the agency's responsibility to equitably assess fees. 
Additionally, the NRC publishes its proposed fee rule annually, taking 
public comment before issuing its final rule.
    Question. Is the Commission concerned that with the competition of 
other relatively cheap power sources, such as natural gas, this rather 
arbitrary increase in fees is encouraging nuclear plants to close 
sooner than they otherwise would?
    Answer. While the Commission is aware of the economic pressures 
resulting from competition in the energy sector generally, the 
Commission's role as a regulator is to ensure that the Nation's nuclear 
plants operate safely, consistent with the agency's health and safety 
mission. The NRC formulates its budget based on estimates of the 
activities that will be required to license and regulate safe and 
secure use of nuclear materials during the year of execution. The 
agency is concerned with carrying out its mission in the most efficient 
way possible and is continually engaged in identifying how to fulfill 
that mission with the appropriate level of resources.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. As you know, the nuclear plant operator, NextEra, has 
applied to renew its operating license for the Seabrook Station in 
Seabrook, New Hampshire for an additional 20 years. Their current 
license expires in 2030, which means if approved, Seabrook will have a 
license to operate until 2050.
    Seabrook Station has, however, encountered concrete degradation 
issues due to alkali--silica reaction (ASR). Throughout the re-
application process NextEra has taken actions to understand and monitor 
the extent of the plant's concrete degradation; however, I have heard 
concerns from constituents about the testing being conducted to test 
the long-term impacts of ASR, and I want to make certain it is being 
conducted in a way that ensures precise results about the plant's 
structural integrity.
    For example, it is my understanding that NextEra is using a 
combined crack indexing (CCI) measurement as the primary criterion for 
assessing the progression of ASR. However, I have also heard that steel 
reinforcement bars embedded in the building structure may reduce the 
growth in the width of the cracks in the concrete. Moreover, in the 
August 9, 2013 inspection report, NRC noted inconsistencies found in 
tests at Seabrook between NextEra's CCI results and other measures of 
concrete expansion due to ASR.
    Given these variances in measurement, can you please explain NRC's 
determination process to allow CCI testing as opposed to any other, 
generally accepted methods of assessment to quantify the progression of 
ASR?
    Answer. In its license renewal application for Seabrook Station, 
NextEra has proposed combined crack indexing as a method for assessing 
the progression of alkali-silica reaction. However, the NRC is still 
reviewing this proposal.
    As part of the ongoing review, the staff issued requests for 
additional information noting that it is not clear how combined crack 
indexing accurately correlates cracking due to alkali-silica reaction 
to structural degradation of affected structures. The requests for 
additional information ask the licensee to ``(1) demonstrate the 
adequacy of the parameters [cracking] proposed to be monitored or 
inspected by the program to manage the effects of aging due to alkali-
silica reaction; and (2) clearly establish the link between the 
parameters that will be monitored and how monitoring these parameters 
will ensure adequate aging management such that the intended function 
will be maintained during the period of extended operation.'' The 
licensee is currently expected to respond to these requests in June 
2015. The staff will evaluate the responses against guidance and 
industry standards to ensure that the proposed monitoring program is 
adequate to detect alkali-silica reaction and to properly correlate 
alkali-silica reaction progression with structural degradation.
    Question. I also understand that NextEra has commissioned replica 
studies at the University of Texas in order to determine the long-term 
effects of ASR on the power plant walls. However, I have heard concerns 
that the concrete materials used in the study do not precisely mimic 
the environmental conditions of the Seacoast region or the materials 
used to build the Seabrook plant. Can you describe the Commission's 
involvement in the replica studies and what the NRC is doing to ensure 
the efficacy of the testing?
    Answer. The NRC staff continues to monitor NextEra's testing 
activities at the University of Texas as part of our oversight of 
Seabrook Station, including conducting multiple inspections of these 
activities. The inspections focused on how information gathered from 
NextEra's test program is considered for applicability to the current 
conclusions regarding alkali-silica reaction-affected structures at 
Seabrook Station. While NextEra chose to conduct a large-scale testing 
program at the University of Texas as a possible basis for developing 
future actions to address the alkali-silica reaction issue, the NRC has 
neither directed nor approved this test program. If the licensee 
determines that future test results provide a technical basis to 
resolve this non-conforming condition, the NRC would expect NextEra to 
provide the results to the agency for our review and approval. Any 
submittal by NextEra would need to demonstrate that the test program 
and results accurately reflect conditions at the Seabrook Station.
                                 ______
                                 
              Question Submitted to William C. Ostendorff
              Question Submitted by Senator James Lankford
    Question. Has anything materially changed regarding the volume and 
quality of communication between the Chairman's office and your own 
since 2010?
    Answer. Yes. Since Chairman Macfarlane's arrival in July 2012, the 
challenges we had as a Commission with the previous Chairman have gone 
away. We are operating in an independent, impartial, collegial, and 
professional manner and in accordance with the Commission's legal 
obligations. This environment has continued with the arrival of 
Commissioner Baran and Chairman Burns.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Thank you. The hearing is adjourned.
    Mr. Burns. Thank you.
    [Whereupon, at 4:24 p.m., Wednesday, March 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, MARCH 11, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:04 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Lankford, and Feinstein.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT LIEUTENANT GENERAL FRANK G. KLOTZ, U.S. AIR 
            FORCE (Retired), UNDER SECRETARY FOR 
            NUCLEAR SECURITY AND ADMINISTRATOR
ACCOMPANIED BY:
        DR. DONALD COOK, DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS
        ANNE HARRINGTON, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
            NONPROLIFERATION
        ADMIRAL JOHN RICHARDSON, UNITED STATES NAVY, DIRECTOR, NAVAL 
            NUCLEAR PROPULSION, DEPUTY ADMINISTRATOR FOR OFFICE OF 
            NAVAL REACTORS

              OPENING STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. The Subcommittee on Energy and Water 
will please come to order. This morning, we're having a hearing 
to review the President's fiscal 2016 budget request for the 
National Nuclear Security Administration.
    Senator Feinstein and I will each have an opening 
statement. I will then recognize each Senator who comes for up 
to five minutes for an opening statement, alternating between 
the majority and the minority in the order that they arrive. We 
will then turn to witnesses for their testimony. General Klotz 
will present testimony on behalf of the entire NNSA and we'll 
include the full written statements of all the witnesses in the 
record. Senators will then be recognized for five minutes each, 
alternating between the minority and majority in the order that 
they arrive.
    First, I would like to thank our witnesses for being here, 
and also Senator Feinstein, who I will be working with to draft 
the appropriations bill for funds for the NNSA. Our witnesses 
today include Lieutenant General Frank Klotz, Administrator of 
the NNSA, Dr. Donald Cook, Deputy Administrator for Defense 
Programs, Ms. Anne Harrington, Deputy Administrator for Defense 
Nuclear Nonproliferation, and Admiral John Richardson, Deputy 
Administrator for Naval Reactors.
    We're here today to review the President's fiscal year 2016 
budget request for NNSA, which is a semiautonomous agency 
within the Department of Energy that's responsible for managing 
our nuclear weapons stockpile, reducing global dangers posed by 
weapons of mass destruction, and providing the Navy with safe 
and effective nuclear propulsion. This is the subcommittee's 
third hearing this year on the President's budget request, and 
I look forward to hearing our witness testimony.
    The NNSA has an important national security mission, but it 
faces many challenges. That's why we need to do what we can 
to--what we were sent here to do, and that is to govern. 
Governing is about setting priorities, and we are going to have 
to make some hard decisions this year to make sure the highest 
priorities are funded. The President's 2016 budget request for 
defense spending is nearly $38 billion higher than what is 
allowed under the spending caps in the Budget Control Act. In 
fact, spending this year is consistent with the Budget Control 
Act fully funding, and NNSA's budget request alone would 
require almost the entire increase in defense spending for all 
defense programs, including the Department of Defense.
    We will work with Senator Cochran and Senator Mikulski to 
increase the subcommittee's defense spending allocation, but 
we're going to need your help to understand the NNSA's most 
urgent priorities, and that's why we're holding this hearing. I 
would like to focus my questions on three main areas, all with 
an eye toward setting priorities. First, keeping large 
construction projects on time and on budget. Senator Feinstein 
and I have worked pretty hard on that. Two, effectively 
maintaining our nuclear weapons stockpile. And three, properly 
supporting our nuclear Navy.
    The first one: keeping the large construction projects on 
time and budget. NNSA is responsible for three of the largest 
construction projects in the Federal Government: the uranium 
processing facility in Tennessee, the MO<INF>X</INF> fuel 
fabricating facility in South Carolina, and the plutonium 
facility in New Mexico. Combined, these projects could cost as 
much as $20 billion to build. Over the past 4 years, Senator 
Feinstein and I have worked hard with the NNSA to keep costs 
from skyrocketing and to make sure hard earned taxpayer dollars 
are spent wisely. We need to make sure these projects are on 
time and on budget.
    Senator Feinstein and I have focused much of our oversight 
on the uranium processing facility, because costs had increased 
every time we would get a status update. Three years ago, we 
began holding regular meetings with the NNSA administrator and 
his team. We said we wanted 90 percent design completed before 
we begin construction. We urge the NNSA to take aggressive 
steps to get costs under control.
    The administrator asked Thom Mason, the laboratory director 
for the Oak Ridge National Lab in Tennessee to have a Red Team 
to review the project. The result is that review may be a model 
for how to keep these kinds of projects on time and on budget. 
The Red Team's report included 17 recommendations, nearly all 
of which the NNSA has now adopted to keep the uranium facility 
within a $6.5 billion budget with completion by 2025.
    Based on these recommendations, the uranium facility will 
now consist of at least two buildings, one with high security, 
one with less security, with construction of these buildings to 
begin once their design is at 90 percent. As I understand it, 
NNSA recently completed a portion of the site preparation for 
this project under budget by $10 million. That is a good start, 
and I'm sure I will hear more about that in a few minutes, but 
there's a lot more work to do.
    I'm going to ask you more today about the uranium facility, 
particularly about your schedule for completing the design and 
when you anticipate construction can begin. I also want to ask 
you about how you are applying the lessons we learned from the 
Red Team review there to other big construction projects, and 
look forward to any updates that you may be able to provide.
    General Klotz, I know you're planning to go to Tennessee 
tomorrow to see the progress. I appreciate your hands on 
approach to making sure this project is delivered on time and 
on budget.
    Now on our nuclear weapons, another large portion of the 
budget request is the work NNSA is doing to maintain our 
nuclear weapons stockpile. I want to make sure we're spending 
those dollars effectively. The budget request includes $1.3 
billion to continue the four ongoing life extension programs 
which fix or replace components in our weapons system to make 
sure they are safe and reliable. These life extension programs 
are needed, but they are very expensive, and I'll ask you today 
whether you will be able to meet your production deadlines on 
time and on budget.
    And our Navy, Naval Reactors is responsible for all aspects 
of the nuclear reactors that power submarines and aircraft 
carriers. Naval Reactors is currently designing a new reactor 
core that will not need to be refueled during the life of the 
ship. This work will save taxpayers billions of dollars, 
because it won't have to build two extra submarines to make up 
for those that are not in service when they are not being 
refueled. The small nuclear reactors that Naval Reactors 
designs have had an impeccable safety record. For more than 60 
years, there has never been a reactor accident resulting in a 
death. Also, want to hear more about your plans for storing the 
Navy's used nuclear fuel.
    We talked a lot in our hearing last week with the Nuclear 
Regulatory Commission about Yucca Mountain storing used nuclear 
fuel from commercial reactors, and I would like to hear from 
you how this issue impacts your operations.
    With that, I would recognize Senator Feinstein for her 
statement.

                  STATEMENT OF SENATOR DIANE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman. And I 
don't need to say what a pleasure it is to work with you. I was 
listening to your opening statement and thinking about how 
parallel our concerns are, and the meetings that we have had in 
the last 3 years to try to see that the management of these 
projects is more efficient and effective. And I think now, with 
this new secretary, we are beginning to make some progress. And 
so I so appreciate your leadership and our partnership. It's 
very special.
    This is a big increase. It is $1.2 billion over enacted 
2015 levels. I just reached back and asked the staff, and asked 
the question, have they ever gotten an increase this big? And 
the answer was, well certainly not in the last 4 or 5 years. So 
I think this increase really portends some danger for the 
nuclear program.
    I was looking at the CBO report, which points that out. 
Now, this is the projected costs of the United States nuclear 
forces 2015 to 2024. But as you know, the increase just there 
is $348 billion, according to CBO, and that is an average of 
$35 billion a year. I think we have very bright people at this 
table, and in terms of what you say, I would really like to 
know, what are we going to do to handle this? And I know there 
are programs going on to handle it, so if you could put some of 
those out on the table that we could take a look at them, that 
would be very appreciated.
    NNSA is currently undertaking three multibillion-dollar 
projects to modernize nuclear weapons infrastructure and 
recycle nuclear weapons material for peaceful use. The chairman 
talked about them, UPF in Tennessee, CMRR in New Mexico, and 
MO<INF>X</INF> in South Carolina. These projects have all seen 
large increases in their estimated costs as well as schedule 
delays. In response, the NNSA has taken a step back to re-
examine capability needs and alternative approaches.
    For example, Los Alamos has developed an incremental 
smaller scale approach to modernizing plutonium production 
infrastructure, and the Secretary of Energy has rightly made 
improving project management, as the chairman stated, more 
broadly a focus of his tenure in the Department. I view these 
all as very positive steps, but a lot of uncertainty remains.
    Two of these projects, CMRR and UPF, are still in their 
initial phases. Even though CMRR will expand use of one 
building and reuse another, NNSA may also require the addition 
of several modules for plutonium production with an as yet 
unspecified cost and schedule. The cost and schedule for UPF 
are still being developed and are expected later next year.
    So I hope, Mr. Chairman, that we can have some meetings 
when these costs are known, so that we can take a look at them 
and see how we are going to handle them in the future years.
    In fiscal year 2015, $715 million was provided to these 
three projects. In fiscal year 2016, budget request increases 
by $215 million, for a total of $931 million. So if you add up 
the fact that smaller projects, or recapitalization efforts, 
totals $117 million and $362 million respectively, we get that 
$1.3 billion figure, and it's huge. The request for life 
extension programs is that $1.3 billion, a $226 million 
increase over 2015. Now, that is going to grow.
    Last week, the chairman of the Nuclear Weapons Council, 
Frank Kendall, testified before the Senate Armed Services 
Committee, and he said this. In 2021, we are going to start 
having a problem finding ways to afford these systems. And I 
think that is probably correct, and I think we have to come to 
grips with that, and as a team, hopefully, be able to make some 
decisions which can understand that we don't know where we are 
going to be financially at that time.
    Let me call attention to two specific issues. Despite a 
$1.2 billion increase for NNSA, the science function within the 
weapons activities account sees virtually no increase in the 
President's budget request. With the end of explosive testing 
of nuclear weapons, a science-based approach is the foundation 
of our stockpile stewardship activities. Even with the science 
function in this budget request, science and engineering are 
cut in favor of computing and advanced manufacturing, and I 
think we must maintain a robust science and engineering 
capability.
    Second, the defense nuclear nonproliferation account sees a 
modest increase over last year. This is positive. But at a 
comparable level, at $1.7 billion in 2016, nonproliferation 
funding is still down, from $1.9 billion in 2014 and its high 
of $2.3 billion in 2012. So I have always thought the 
nonproliferation program was very vital, and I see it's on a 
downward slope. The Megatons to Megawatts Program is just one 
example. Ten percent of all U.S. electricity until 2019 will be 
from former nuclear weapons. Also, NNSA has so far removed or 
confirmed the disposition of 5,207 kilograms of highly enriched 
uranium and plutonium around the world.
    Some in Congress and elsewhere want to use the current 
tension with Russia to walk away from the leadership role our 
country has taken with regard to reducing proliferation 
requests. I disagree with that decision. NNSA's 
nonproliferation program will play a critical role in securing 
materials around the world, helping with peaceful use of 
nuclear power in developing countries, and fostering and 
monitoring United States nuclear technology exports. In an 
increasingly complex world, efforts to reduce nuclear risks 
deserve funding and support.
    So Mr. Chairman, thank you for holding this hearing. I look 
forward to hearing General Klotz's statement and our 
conversation that we will have this morning. So thank you very 
much.
    Senator Alexander. Thank you, Senator Feinstein. And let me 
say, as I have said many times before, how much of a privilege 
it is just to work with you. It makes life a lot easier, when 
we are approaching big, difficult problems, to have a level of 
trust and an interest in good management.
    General Klotz, at this time, we will turn to you for your 
testimony on behalf of NNSA, and after that, we will have 
questions for you and the other witnesses. Welcome.

              SUMMARY OF LIEUTENANT GENERAL FRANK G. KLOTZ

    General Klotz. Chairman Alexander, Ranking Member 
Feinstein, thank you for the opportunity to present the 
President's fiscal year 2016 budget request for the Department 
of Energy's National Nuclear Security Administration.
    I'm pleased to be joined by, as you recognized, Dr. Don 
Cook, Ms. Anne Harrington, and Admiral John Richardson. We had 
provided a written statement, and I appreciate your direction 
that it be placed into the record.
    We certainly value this Committee's strong leadership in 
national security as well as its robust and abiding support for 
the mission and the people of the NNSA. Our budget request, 
which comprises more than 40 percent of DOE's budget, is $12.6 
billion. This is, as has been pointed out, an increase of $1.2 
billion, or about 10.2 percent over the fiscal 2015 and active 
level.
    This funding is extraordinarily important to NNSA's 
important and enduring missions, to maintain a safe, secure, 
and effective nuclear weapons stockpile without testing, to 
prevent, counter, and respond to the threat of nuclear 
proliferation and terrorism, and to support the capability of 
our nuclear powered Navy to project power and to protect 
American interests around the world.
    By supporting growth in all four of our appropriations 
accounts, this budget request represents a commitment by the 
Administration to NNSA's vital and enduring mission and NNSA's 
role in ensuring a strong national defense. This mission is 
accomplished through the hard work and innovative spirit of a 
very highly talented workforce, all of whom are committed to 
public service. To provide them the tools that they need to 
carry out their complex and challenging tasks, both now and in 
the future, we must continue to modernize our scientific, 
technical, and engineering capabilities and infrastructure. In 
doing so, we are mindful of our obligation to continually 
improve our business practices and to be responsible stewards 
of the resources that Congress and the American people have 
entrusted to us.
    To this end, NNSA continues to make progress on key 
surveillance and life extension programs, which directly 
support the President's direction to maintain a safe, secure, 
and effective nuclear arsenal, and funding at the 2016 budget 
request level will ensure that these key life extension program 
stay on track.
    For NNSA's important mission to reduce nuclear dangers 
across the world, the fiscal year 2016 budget request shifts 
funding for our counterterrorism and emergency response 
missions into the defense nuclear nonproliferation account in 
order to better align our funds across the spectrum of 
activities, which run from preventing, to countering, to 
responding to global nuclear dangers. Additionally, the 
nonproliferation programs have also been realigned into for 
business lines that better reflect the core competencies 
resident across that program in our labs and in our production 
facilities.
    And finally, the request for our Naval Reactors mission 
provides funding for three major initiatives, the Ohio-Class 
Reactor Plant System Development, the Land Based S8G Prototype 
Refueling Overhaul, and the Spent Fuel Handling 
Recapitalization Project in Idaho.
    For all these missions, NNSA will continue to drive 
improvements in the acquisition and project management 
practices and policies as well as ensuring Federal oversight 
across the enterprise. These highlights are just a hand full of 
the critical national security work that this budget funds. 
However, as you pointed out, the looming possibility of 
sequestration is a major threat to carrying out all of these 
missions. In developing the budget, NNSA was directed to 
request the funds that we need to accomplish the missions that 
we have been tasked to do, and this fiscal year 2016 budget 
request reflects this direction.
    Another round of sequester cuts would most certainly have a 
devastating impact on important programs and projects, 
including pushing them further out into the future or perhaps 
having to cancel some altogether. It would also have grave 
implications for the science, technology, and engineering work 
that is taking place at our laboratories and plans, work that 
underpins our nuclear security but also the broader national 
security.
    Again, Mr. Chairman, Ranking Member Feinstein, thank you 
for the opportunity to appear before you today. And we are 
looking forward to answering any questions that you may have.
    [The statement follows:]
        Prepared Statement of Lieutenant General Frank G. Klotz
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year 2016 Budget Request for the Department of Energy's (DOE) 
National Nuclear Security Administration (NNSA). We value this 
Committee's leadership in national security, as well as its strong and 
abiding support for the mission and people of the NNSA.
    The President's fiscal year 2016 Budget Request for NNSA, which 
comprises more than 40 percent of the DOE's budget, is $12.6 billion, 
up $1.2 billion or 10.2 percent over the fiscal year 2015 enacted 
level. The NNSA has a unique and special responsibility for maintaining 
a safe, secure, and effective nuclear weapons stockpile for as long as 
nuclear weapons exist; preventing, countering and responding to 
evolving and emerging threats of nuclear proliferation and terrorism; 
and, supporting the capability of our nuclear-powered Navy to project 
power and protect American and Allied interests around the world. By 
supporting growth in each of our four appropriations accounts, this 
budget request represents a strong endorsement of NNSA's vital and 
enduring mission, and is indicative of the Administration's unwavering 
commitment to a strong national defense.
    The NNSA's mission is accomplished through the hard work and 
innovative spirit of a highly talented workforce committed to public 
service. To provide them the tools they need to carry out their complex 
and challenging task, both now and in the future, we must continue to 
modernize our scientific, technical and engineering capabilities and 
infrastructure. In doing so, we are mindful of our obligation to 
continually improve our business practices and to be responsible 
stewards of the resources that Congress and the American people have 
entrusted to us. The NNSA took several significant steps toward this 
objective during the past year.
    NNSA's fiscal year 2016 Budget Request reflects the close working 
partnership between NNSA and the Department of Defense (DOD) in 
providing for our Nation's nuclear deterrence capabilities and 
modernizing the nuclear security enterprise. As in last year's Budget, 
DOD is carrying a separate account in its fiscal year 2016 Budget 
Request for the out years, fiscal year 2017 and beyond, which 
identifies funds for NNSA's Weapons Activities and Naval Reactors. We 
urge this Subcommittee's support for alignment of its appropriations 
process and national defense or ``050'' allocations, including the 
subcommittee 302(b) allocations, with the President's Budget. The 
requested allocation supports NNSA and DOD priorities.
    Tough decisions and trades in fiscal year 2016 have been made to 
meet military commitments and nuclear security priorities. If the 
request is not fully supported, modernization of our nuclear enterprise 
and implementation of our long-term stockpile sustainment strategy 
could be put at risk. The program we have proposed is highly integrated 
and interdependent across the stockpile management, science and 
infrastructure accounts.
    Apart from the need for national defense allocation alignment, the 
looming possibility of sequestration is a major threat to all NNSA 
missions. The NNSA fiscal year 2016 Budget Request exceeds the caps set 
on national security spending in the Budget Control Act (BCA); but is 
necessary to meet our national security commitments. Reduced funding 
levels will place these commitments at risk. We have made some tough 
resource decisions across the NNSA, but the Secretary of Energy and I 
believe that our enduring missions are too vital to the Nation's 
security to be further constrained by the current BCA spending caps.
    Details of the fiscal year 2016 President's Budget Request for the 
NNSA follow: Weapons Activities Appropriation
    The fiscal year 2016 Budget Request for the Weapons Activities 
account is $8.8 billion, an increase of $666.6 million or 8.1 percent 
over fiscal year 2015 enacted levels. It is comprised not only of the 
Defense Programs portfolio, which is responsible for all aspects of 
stockpile stewardship and management; but also the enterprise-wide 
infrastructure sustainment activities managed by our Office of Safety, 
Infrastructure and Operations, as well as our physical and 
cybersecurity activities. It should be noted that in this budget 
request we have moved NNSA's on-going emergency response and 
counterterrorism and counterproliferation capabilities out of the 
Weapons Activities account and into the Defense Nuclear 
Nonproliferation account. This action aligns activities for preventing, 
countering and responding to global nuclear threats into a single 
account.
                       maintaining the stockpile
    Last year, we again successfully used science-based stockpile 
stewardship to certify to the President that the American nuclear 
weapons stockpile remains safe, secure, and effective-without the need 
for underground nuclear testing. It is important to periodically remind 
ourselves that we have been able to do this every year largely due to 
the investments we have made and continue to make in state-of-the-art 
diagnostic tools, high performance computing platforms, and modern 
facilities staffed by extraordinarily talented scientists, engineers 
and technicians.
    For Directed Stockpile Work (DSW), the fiscal year 2016 request is 
$3.2 billion, a $494.7 million increase over fiscal year 2015 enacted 
levels, or about 18.4 percent. Approximately $133 million of this 
increase reflects a restructuring of the accounts when compared to the 
fiscal year 2015 budget request. These changes are discussed below.
    With respect to the major life extension programs (LEP), we have 
now passed the halfway mark in the production phase of the W76-1 LEP. 
This LEP, which directly supports the Navy, is now on track and on 
budget. Our fiscal year 2016 Request of $244.0 million will keep us on 
track to complete production in fiscal year 2019.
    We are also making significant progress in the engineering 
development phase of the B61-12 LEP. The B61 is a gravity bomb 
associated with Air Force long-range nuclear-capable bombers, as well 
as dual-capable fighter aircraft. Working with the Air Force, we 
successfully completed environmental flight tests on the F-15, F-16, 
and B-2 aircraft on or ahead of schedule. The B6112 LEP will enter 
Phase 6.4 Production Engineering in 2016; and, with the $643.3 million 
requested, we will remain on track to deliver the First Production Unit 
(FPU) in fiscal year 2020.
    Based on results from the ongoing surveillance of the nuclear 
weapons stockpile performed by NNSA's laboratories and plants, the 
Nuclear Weapons Council decided that it was prudent to expand the 
planned W88 Alteration (ALT) 370 to now include replacement of the 
conventional high explosive in the warhead. The budget request reflects 
this decision and includes $220.2 million to support the FPU in fiscal 
year 2020.
    The budget request also includes $195.0 million to support the 
Nuclear Weapons Council decision to accelerate by 2 years an LEP of the 
W80 to serve as the warhead for the Air Force's Long Range Stand-Off 
system (LRSO). FPU is now slated for 2025.
    This budget request also supports our goal of dismantling all 
weapons retired prior to fiscal year 2009 by fiscal year 2022. In fact, 
we have already dismantled more than 42 percent of these weapons in 38 
percent of the time allotted. This funding will ensure that we stay on 
track to meet our dismantlement commitment.
    Within DSW, the budget request also includes $415.0 million for a 
new ``Nuclear Materials Commodities'' subprogram to support the 
investment needed in nuclear materials to maintain the viability of the 
enduring stockpile. Included in this subprogram are Uranium 
Sustainment, Plutonium Sustainment, and Tritium Sustainment which are 
all crucial to sustain our stockpile, even as we move to lower levels 
in our nuclear stockpile. Since last year, we have created and 
empowered new program manager positions to oversee each of these 
nuclear materials programs. Also included within DSW, is a subprogram 
for Domestic Uranium Enrichment. Ensuring we have a domestic uranium 
enrichment capability for national security needs is particularly 
important in maintaining a domestic source of LEU to produce tritium 
and for research reactor conversion program and eventually to produce 
HEU for Naval Reactors fuel.
    Consistent with the Consolidated and Further Continuing 
Appropriations Act for fiscal year 2015, activities formerly carried 
out under Campaigns are now included under Research, Development, Test, 
and Evaluation (RDT&E). The funding request for RDT&E is about $1.8 
billion, essentially the same as the fiscal year 2015 enacted level. 
This includes $623.0 million for the Advanced Simulation and Computing 
(ASC) Program, an increase of $25.0 million for the Advanced Technology 
Development and Mitigation (ATDM) subprogram that supports high 
performance computing; $130.1 million for Advanced Manufacturing 
Development, an increase of $22.9 million. This funding will support 
work related to electronics-based arming, fusing, and firing, as well 
as other technologies that require significant technical effort to 
ensure production readiness for manufacturing technologies needed to 
replace sunset technologies. We continue to develop and mature additive 
manufacturing technologies that can provide significant cost avoidance 
by reducing costs to prototype and manufacture tooling and certain 
weapons components. These increases are largely offset by relatively 
small decreases in the Science (-$22.5 million for a total request of 
$389.6 million), Inertial Confinement Fusion Ignition and High Yield 
Program (-$10.4 million for a total request of $502.5 million), and 
Engineering (-$4.6 million for a total request of $131.4 million) 
Programs.
    The Inertial Confinement Fusion Ignition and High Yield program has 
spearheaded ongoing improvements in both management and operational 
efficiencies at NNSA's major high energy density (HED) facilities, 
including the National Ignition Facility (NIF) at Lawrence Livermore 
National Laboratory (LLNL). As a result of these improvements, LLNL has 
been able to increase the shot rate at NIF. NNSA recently completed a 
10-year HED Science Strategic Plan to guide work in this important 
field.
    Partnering with the DOE Office of Science, NNSA continues to make 
much needed investments in exascale computing. NNSA's ASC Program 
provides leading edge, high-end modeling and simulation capabilities to 
sustain and modernize the stockpile today and into the future. The 
fiscal year 2016 Request includes $64 million for the ASC's Advanced 
Technology Development and Mitigation subprogram to pursue long-term 
simulation and computing goals relevant to the exascale computing 
needed to support the broad national security missions of the NNSA. 
Both the NNSA and DOE's Office of Science continue to collaborate with 
the Office of Science providing $209 million towards the development of 
capable exascale systems.
    Defense Programs also supports the vitality of the broader National 
Security Enterprise. An important aspect of this is investing in 
Laboratory-, Site- and Plant-Directed Research and Development (LDRD). 
Independent reviews have consistently affirmed the importance of the 
program to the long-term vitality of the labs. LDRD provides basic 
research funding to foster innovation and to attract and retain young 
scientific and technical talent. Congressional support is essential to 
sustaining this essential national capability.
    Finally, another important accomplishment within Weapons Activities 
in 2014 was the renewal of the Mutual Defense Agreement with the United 
Kingdom. Since 1958, this enduring agreement has enabled mutually 
beneficial exchange of nuclear expertise between the United States and 
UK, contributing to a long and proud history of defense cooperation 
between our two Nations. In this case, the Administration and the 
Congress worked closely together to achieve a shared goal. We are truly 
grateful for your support.
            improving safety, operations and infrastructure
    In order to support all of these critical programmatic activities, 
we are making important strides in recapitalizing our aging 
infrastructure throughout the enterprise. In August 2014, DOE and NNSA 
formally dedicated the new National Security Campus (NSC) in Kansas 
City, Missouri. The former Kansas City Plant was relocated from the 
Bannister Federal Complex, a 70-year-old facility, to the NSC with half 
the footprint and a modern operating environment. The move was safely 
and securely completed 1 month ahead of schedule and $10 million under 
budget. The NSC manufactures or purchases 85 percent of the non-nuclear 
components that make up our nuclear weapons, and thus plays a major 
role in keeping the Nation's nuclear stockpile safe, secure and 
effective.
    The fiscal year 2016 request restructures many of the activities 
formerly conducted under the Readiness in Technical Base and Facilities 
(RTBF) into the Infrastructure and Safety program. This new program 
will maintain, operate and modernize the NNSA general purpose 
infrastructure in a safe, secure, and cost-effective manner. 
Infrastructure and Safety efforts are organized around five elements--
Operations of Facilities; Safety Operations; Maintenance; 
Recapitalization; and, Line Item Construction. Together, these elements 
provide a comprehensive approach to arresting the declining state of 
NNSA infrastructure. The fiscal year 2016 request for Infrastructure 
and Safety is $1.5 billion and reflects an increase of $79.4 million 
for comparable activities from the fiscal year 2015 enacted level. This 
funding will allow NNSA to modernize and upgrade aging infrastructure 
and address safety and programmatic risks.
    We are developing a 10-year strategic plan that identifies the 
activities NNSA is undertaking to arrest the declining state of NNSA 
infrastructure, reduce Deferred Maintenance (DM), and dispose of excess 
facilities. The major elements of the plan include improving 
infrastructure decisionmaking with implementation of new, risk-informed 
analytical methods to better evaluate the ability of an asset to 
support program core capabilities; improving program management tools 
through implementation of standardized and automated processes and 
systems for scope, cost, and schedule management; accelerating 
recapitalization and construction efforts to revitalize infrastructure 
and make better use of the resources by strategically procuring common 
systems and components used across the enterprise; and shrinking the 
NNSA footprint by deactivating and disposing of excess facilities, with 
increased focus on timely deactivation and on repurposing and reuse as 
a strategy to avoid new construction. Within this 10-year plan, the 
transferring of the old Kansas City Bannister Road facility to a 
private developer to repurpose the site for local community use will 
eliminate $250 million in DM. We recognize that these goals will not be 
met quickly, and that arresting the declining state of NNSA 
infrastructure will require steady commitment at all levels of the 
organization over many years. We believe that the tools and processes 
we are developing and implementing, along with sustained investment in 
our infrastructure, will set NNSA on the right path to ensuring a 
viable, safe, and effective nuclear security enterprise well into the 
future.
    The Infrastructure and Safety program addresses the needs of 
program specific infrastructure, primarily the Uranium Processing 
Facility (UPF) and the Chemistry and Metallurgy Research Replacement 
(CMRR) project. RTBF provides a defined level of readiness and 
capability through infrastructure investments and strategy development 
that are dedicated to special nuclear material processing and inventory 
management. The RTBF program accomplishes this mission by modernizing 
stockpile stewardship and management infrastructure through capability 
investments, strategic development, and line-item construction projects 
for the sustainment or enhancement of capabilities. The fiscal year 
2016 request is $1.1 billion, with a reduction of $1.4 billion, due to 
the transfer of select activities to Infrastructure and Safety. For 
comparability purposes, the fiscal year 2016 request for RTBF is 
increased more than 50 percent to support a new source of high-purity 
depleted uranium, to realign recapitalization of Defense Programs 
capabilities through the Capabilities Based Investments (CBI), and to 
increase funding for the UPF at Y-12 to $430.0 million and the CMRR 
Project at the Los Alamos National Laboratory (LANL) to $156.0 million.
    Last year, NNSA successfully executed one of the largest and most 
complex contract transitions in the history of the Department with the 
award of a contract to Consolidated Nuclear Security to operate and 
manage both the Pantex Plant and the Y-12 National Security Complex. 
The consolidated contract was written to require efficiencies and 
improved operations as a requirement for continued performance beyond 
the initial 5-year base period. This is a departure from other 
management and operating contracts where efficiencies and effectiveness 
are considered but are not mandatory.
    Our Office of Secure Transportation (OST) provides safe, secure 
movement of nuclear weapons, special nuclear material, and weapon 
components to meet projected DOE, DOD, and other customer requirements. 
It continues to modernize assets by extending the life of the 
Safeguards Transporter and is currently looking at options for the next 
generation transporter, the Mobile Guardian Transporter. To meet an 
increasing workload, OST is planning a small increase in the number of 
Federal agents.
    The primary mission of NNSA's Office of Defense Nuclear Security 
(DNS) and the Chief Security Officer is to develop and implement sound 
security programs to protect Special Nuclear Material (SNM), people, 
information, and facilities throughout the nuclear security enterprise. 
The NNSA's Defense Nuclear Security fiscal year 2016 request is $632.9 
million. The request manages risk among important competing needs even 
as NNSA continues to face the challenges associated with an aging 
physical security infrastructure that must be effectively addressed in 
the coming years. The request includes $13 million to initiate 
installation of Argus at the Device Assembly Facility at the Nevada 
National Security Site. Argus is the enterprise security system for 
Category 1 SNM facilities that integrates access control, intrusion 
detection, and video assessment of alarms to protect and control high-
consequence assets. DNS also has a prioritized list of smaller 
infrastructure upgrade projects it will execute as General Plant 
Projects within available O&M funding, for example, lighting systems 
supporting perimeter camera assessment, replacement and upgrades to 
Argus Field Processors, replacement of ported coax cables and buried 
cable electronics that will extend lifecycles and delay total system 
replacements. DNS initiated an Enterprise Vulnerability Assessment 
process across the enterprise with a focus on standardizing how 
vulnerability assessments are conducted and site protection strategies 
are formulated.
    The Information Technology and Cybersecurity fiscal year 2016 
request is $157.6 million, a decrease of $22.1 million or about 12.3 
percent from fiscal year 2015 enacted levels. The difference is 
attributed to a one-time investment in fiscal year 2015 in the 
Infrastructure Program to implement a more secure classified computing 
environment. All activities related to the one-time increase were 
completed. Information Technology and Cybersecurity supports the 
nuclear security enterprise. This work includes continuous monitoring 
and enterprise wireless and security technologies (i.e., identity, 
credential, and access management) to help meet security challenges. In 
fiscal year 2016, NNSA plans to complete the recapitalization of the 
Enterprise Secure Network, modernize the Cybersecurity infrastructure, 
implement the Identity Control and Access Management project at NNSA 
Headquarters and site elements, and implement and coordinate all 
Committee on National Security Systems and Public Key Infrastructure 
capabilities. In addition, we will leverage the NNSA Network Vision 
framework to increase the efficiency and cost-effectiveness of NNSA 
Information Technology (IT) services.
             defense nuclear nonproliferation appropriation
    In fiscal year 2016, we have realigned the NNSA programs that 
continue to support the President's Prague Agenda to address the threat 
of nuclear proliferation and terrorism into the Defense Nuclear 
Nonproliferation (DNN) appropriation. NNSA's activities work across the 
spectrum to prevent, counter and respond to the threat of nuclear and 
radiological proliferation and terrorism. We work to prevent the 
acquisition of nuclear or radiological materials, technology, and 
expertise; we actively counter efforts to develop the materials and 
scientific knowledge needed to construct a nuclear threat device; and 
we are poised to respond to terrorist acts by searching for and 
rendering safe any such devices.
    The Defense Nuclear Nonproliferation (DNN) account request is $1.9 
billion, an increase of $325 million or about 20.1 percent from fiscal 
year 2015 enacted levels. At first glance, this figure looks like a 
very big increase but the number actually reflects a reorganization of 
our budget to include the Nuclear Counterterrorism Incident Response 
(NCTIR) and the Counterterrorism and Counterproliferation (CTCP) 
Programs from the Weapons Activities account. For comparability 
purposes, the DNN account increase is $101.0 million or over 5 percent 
above fiscal year 2015 enacted levels. Additionally, we have combined 
the NCTIR and CTCP programs into a single budget program line to 
eliminate confusion about NNSA nuclear counterterrorism programs and 
activities. We also changed the NCTIR name to Nuclear Counterterrorism 
and Incident Response Program, reflecting this realignment. The DNN 
Appropriation will now support two enduring mission areas: (1) The 
Defense Nuclear Nonproliferation Program and (2) The Nuclear 
Counterterrorism and Incident Response Program. The Nuclear 
Nonproliferation Program is also restructuring to place more emphasis 
on capabilities as opposed to specific programs. This organizational 
restructuring is reflected in the DNN budget restructuring.
    To achieve all of these mission objectives, NNSA has restructured 
the budget request under the Defense Nuclear Nonproliferation account 
as follows:
  --Material Management and Minimization
  --Global Material Security
  --Nonproliferation and Arms Control
  --Defense Nuclear Nonproliferation R&D
  --Nonproliferation Construction
  --Nuclear Counterterrorism and Incident Response Program.
    Together, this restructuring aligns funding for preventing, 
countering, and responding to global nuclear dangers in one 
appropriation.
                        nonproliferation efforts
    The fiscal year 2016 request for the DNN Program, excluding NCTIR 
and Legacy Contractor Pensions, is $1.6 billion, an increase of $67.9 
million or about 4.4 percent above fiscal year 2015 enacted levels. 
This past year was a big year for our nonproliferation efforts. Our 
Defense Nuclear Nonproliferation organization was responsible for many 
of the significant deliverables at the third Nuclear Security Summit 
held in The Hague last spring. Of particular note, Japan announced at 
the Summit that it would work with us to remove and dispose of all 
highly-enriched uranium (HEU) and separated plutonium from its Fast 
Critical Assembly. NNSA is currently working with its counterparts in 
Japan to resolve technical and logistical issues to complete this 
effort in a timely manner.
    Also during the Summit, the United States joined 22 countries in 
signing up to a ``Gift Basket'' to secure all Category 1 radioactive 
sealed sources by 2016. In the United States, there are approximately 
465 buildings with Category 1 devices. Of these, NNSA has completed 
security enhancements at 300 and is currently involved in a targeted 
outreach campaign to engage the remaining 165 buildings by the end of 
spring 2015.
    And finally, NNSA partnered with five countries to remove 190 kg of 
HEU and plutonium from civilian facilities; which brings our cumulative 
total at the end of fiscal year 2014 to an impressive 5,207 kg; this is 
more than enough material for 200 nuclear weapons. While relations with 
Russia are severely strained, we anticipate that we will continue to 
cooperate in efforts to repatriate Russian-origin weapons-usable HEU 
material to Russia.
    The Material Management and Minimization (M3) program presents an 
integrated approach to addressing the persistent threat posed by 
nuclear materials through a full cycle of materials management and 
minimization efforts. Consistent with the priorities articulated in the 
National Security Strategy of the United States and the Nuclear Posture 
Review, the primary objective of the program is to achieve permanent 
threat reduction by minimizing and, when possible, eliminating weapons-
usable nuclear material around the world. This program includes 
elements of the former Global Threat Reduction Initiative (GTRI) and 
Fissile Materials Disposition Programs. The fiscal year 2016 request 
for this program is $311.6 million. For comparability purposes, the 
request reflects an increase of $38.7 million or about a 14.2 percent 
increase above the fiscal year 2015 enacted levels. The funding 
increases are primarily for the removal of HEU from miniature neutron 
source reactors in Africa as well as preparatory activities for future 
shipments from Europe and Japan, which will proceed with appropriate 
cost-sharing.
    The Global Material Security (GMS) program supports the President's 
nuclear and radiological security agenda and the Secretary's goal of 
enhancing nuclear security through nonproliferation. We work with 
partner countries to increase the security of vulnerable stockpiles of 
nuclear weapons, weapons-usable nuclear materials, and radiological 
materials, and to improve partner countries' abilities to deter, 
detect, and interdict illicit trafficking. Elements of the former GTRI 
program, International Material Protection and Cooperation (IMPC) 
program, and Nonproliferation and International Security (NIS) program 
are being combined in GMS, in order to better integrate capabilities 
required to support DNN's enduring mission. The fiscal year 2016 
request for this program is $426.8 million. For comparability purposes 
the request reflects a slight increase of $2.5 million above the fiscal 
year 2015 enacted levels. This increase will accelerate the protection 
of International Atomic Energy Agency Category 1 radiological sources 
in order to meet the 2014 Nuclear Security Summit commitment to secure 
these sources by 2016.
    The Nonproliferation and Arms Control (NPAC) program supports the 
President's nonproliferation agenda and NNSA efforts to prevent the 
proliferation or use of weapons of mass destruction by State and non-
State actors. To carry out the goals of this program, we work with the 
International Atomic Energy Agency (IAEA) and foreign partners to build 
global capacity to safeguard nuclear materials and prevent illicit 
transfers of dual-use materials, equipment, technology and expertise. 
We also work with our partners and the IAEA to develop technologies and 
approaches to verify and monitor current and future arms control 
treaties and agreements. This funding also supports statutorily 
mandated activities such as technical reviews of export licenses and 
interdiction cases, and technical support for the negotiation and 
implementation of civil nuclear cooperation agreements (123 
Agreements), as well as international export control outreach 
activities, and activities to support and improve the execution of the 
NPAC 10 CFR Part 810 application process. The fiscal year 2016 request 
for this program is $126.7 million, and reflects a slight increase of 
$0.8 million above the fiscal year 2015 enacted level.
    The Defense Nuclear Nonproliferation Research and Development (DNN 
R&D) program supports innovative, unilateral and multi-lateral 
technical capabilities to detect, identify, and characterize: (1) 
foreign nuclear weapons programs, (2) illicit diversion of special 
nuclear materials, and (3) nuclear detonations. To meet national and 
Departmental nuclear security requirements, DNN R&D leverages the 
unique facilities and scientific skills of the Department of Energy, 
academia, and industry to perform research, including counterterrorism-
related R&D. DNN R&D conducts technology demonstrations, and develops 
prototypes for integration into operational systems. The fiscal year 
2016 request for this program is $419.3 million, a $25.9 million 
increase or about 6.6 percent above fiscal year 2015 levels. Increased 
funding is requested for nuclear and energetic materials 
characterization experiments and development of advanced diagnostic 
equipment capabilities, for long-range nuclear detonation detection, 
and technical forensics research. This increase over fiscal year 2015 
levels is partially offset by a return to baseline funding for the 
Proliferation Detection subprogram after a one-time Congressional 
increase in fiscal year 2015 for test bed development and field 
experiments.
    Nonproliferation Construction consolidates construction costs for 
DNN projects previously contained within each program budget. 
Currently, the MOX Fuel Fabrication Facility (MFFF) is the only project 
in this program. The fiscal year 2016 request for MFFF is $345 million 
which is the same as the fiscal year 2015 enacted level. The National 
Defense Authorization Act for fiscal year 2015 and the Consolidated and 
Further Continuing Appropriations Act for fiscal year 2015 directed the 
Department to conduct additional analyses of the MFFF construction 
project. These analyses will include independent cost and schedule 
estimates, and examination of alternative approaches for disposition of 
the 34 metric tons of weapon- grade plutonium and their relationship to 
the Plutonium Management Disposition Agreement (PMDA). The Department 
has requested Aerospace Corporation, a federally funded research and 
development center, to perform these analyses. They will be completed 
during fiscal year 2015, and will inform a final decision on the path 
forward. The fiscal year 2016 request emphasizes that while the 
Department continues to evaluate disposition paths (including the MFFF) 
to determine the most responsible path forward, any viable alternative 
will require a significant amount of funds to implement.
            nuclear counterterrorism and emergency response
    The fiscal year 2016 Request consolidates counterterrorism and 
emergency response funding into a single Nuclear Counterterrorism and 
Incident Response line in the amount of $234.4 million.
    Within NCTIR, the Nuclear Counterterrorism Assessment program 
represents the primary scientific program to assess the threat of 
nuclear terrorism and develop technical countermeasures against it. The 
knowledge generated under this program ensures that NNSA's technical 
expertise on nuclear threat devices informs DOD and FBI emergency 
response capabilities. We have taken steps to address funding 
reductions to the nuclear counterterrorism activities. Over the last 2 
years these activities, formerly known as Counterterrorism and 
Counterproliferation within the Weapons Activities appropriation, have 
been funded at a level significantly below the requested amount--70 
percent of the Request in fiscal year 2014 and 60 percent in fiscal 
year 2015. The fiscal year 2016 request would dedicate $57.8M to 
Nuclear Counterterrorism Assessment in support of improvised nuclear 
device analysis. Additionally, the request includes funds within 
Defense Nuclear Nonproliferation R&D for materials characterization 
experiments and other research, which supports nuclear counterterrorism 
and incident response missions. Full funding of both lines will make it 
possible to continue NNSA's vital counterterrorism work at the national 
laboratories.
    NCTIR continues to work domestically and around the world to 
improve preparedness and emergency response capabilities. Its expert 
scientific teams and equipment provide a technically trained, rapid 
response to nuclear or radiological incidents worldwide. NCTIR assesses 
nuclear or radiological threats and leverages that knowledge to provide 
contingency planning and training to support national and international 
counterterrorism and incident response capabilities. In 2014, NNSA's 
emergency response teams deployed more than 100 times in support of law 
enforcement and for major public events, such as the Super Bowl, and 
conducted five large-scale field exercises with partners from the FBI, 
DOD, and FEMA In addition, they deployed over 70 times in support of 
DHS Domestic Nuclear Detection Office support to State and local first 
responders. Internationally, NNSA conducted 16 training courses to 
improve its foreign partners' emergency management capabilities and 
continued to work bilaterally with Israel, Vietnam, Cambodia, Thailand, 
Chile, China, Mexico, Argentina, Brazil, Taiwan, Canada, France, 
Jordan, the Nordic countries, Armenia and Kazakhstan. New programs were 
also started with Romania, Belarus and the Philippines. These 
initiatives represent our effort to create a truly global defense 
against the threat of nuclear terrorism.
    NCTIR will also continue the initiative to equip cities with 
stabilization equipment and training, to ensure a prompt and effective 
response to nuclear terror threats.
    NCTIR also executes the DOE's Emergency Management and Operations 
Support program that manages the Emergency Operations Centers, 
Emergency Communications Network, and Continuity Programs for all of 
DOE, including NNSA.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    During the past year, NNSA helped celebrate the 60th Anniversary of 
the USS NAUTILUS first getting underway on nuclear propulsion. The 
Naval Nuclear Propulsion program pioneered advances in nuclear reactor 
and warship design--such as improving reactor lifetimes, increasing 
submarine stealth, and reducing propulsion plant crewing. An example is 
the technology being developed by Naval Reactors that will enable the 
Ohio-Class Replacement submarine to be designed for a 40-plus year 
operational life without refueling, resulting in significant savings.
    During 2014, Naval Reactors continued its record of operational 
excellence by providing the technical expertise required to resolve 
emergent issues in the Nation's nuclear-powered Fleet, enabling the 
Fleet to steam more 2 million miles. Through the work of its laboratory 
and highly skilled personnel, Naval Reactors also advanced the Ohio-
Class Replacement and the S8G Prototype Refueling projects as well as 
initiating integrated testing of the lead A1B reactor plant for the 
next generation FORD-class aircraft carrier.
    It is generally not well-known that if anything goes wrong with a 
reactor on one of the Navy's nuclear carriers or submarines while they 
are at sea, Naval Reactors' cadre of experts provide around-the-clock 
technical support, and can often resolve the problem and prevent the 
ship from having to return to port to be checked out and repaired-- 
which would be quite costly and disruptive to the Navy's deployment 
schedules.
    The budget request for Naval Reactors is $1.4 billion, an increase 
of $141.6 million, about 11.5 percent from the fiscal year 2015 enacted 
level. The request includes the base funding required to safely 
maintain, operate and oversee the Navy's 83 nuclear-powered warships, 
constituting over 45 percent of the Navy's major combatants. The 
increase supports three high priority activities: $186.8 million to 
continue development of the advanced Ohio-Class Replacement reactor; 
$133 million to continue preparations for the refueling and overhaul of 
the Land-Based Prototype reactor plant; and $86 million to continue the 
design work of the Spent Fuel Handling Recapitalization Project started 
in fiscal year 2015. To this end, we would like to thank the 
Subcommittee's support for appropriating $70 million for Spent Fuel 
Handling Recapitalization Project in the fiscal year 2015 enacted 
budget. These activities are essential to maintaining a credible sea-
based strategic deterrent, to maintain the research and training 
capabilities of the Land-based Prototype, and to maintain the 
capability to safely inspect, store and package naval spent nuclear 
fuel.
            nnsa federal salaries and expenses appropriation
    NNSA Federal Salaries and Expenses (FSE) Request is $402.7 million, 
essentially equal to the rate of operations in fiscal year 2015, but 
8.9 percent above the fiscal year 2015 enacted level. The Request 
provides funding for 1,690 full-time equivalents (FTEs) and support 
expenses needed to meet mission requirements. We are actively engaged 
in hiring to that number in a thoughtful and strategic manner. I would 
note that the Request represents an increase of only $1.5 million from 
the fiscal year 2015 planned execution level of $401.2 million. This is 
due to the fact that the fiscal year 2015 enacted level was 
significantly below the request and we will need to use over $30 
million of planned carryover to sustain the currently projected 
operations of the NNSA Federal workforce. We built up that reserve 
through prudent planning and execution to enable us to pay for large 
one-time costs, such as the movement of much of our Federal workforce 
in Albuquerque into newer leased space. The increase includes a 1.3 
percent cost of living adjustment and benefits escalation, additional 
support to stand up the Office of Cost Estimation and Program 
Evaluation (CEPE) office in accordance with Section 3112 of the fiscal 
year 2014 National Defense Authorization Act (NDAA), and funding to 
improve financial systems integration within the nuclear security 
enterprise in accordance with Section 3128 of the fiscal year 2014 
NDAA.
    In fiscal year 2016, NNSA will continue its on-going efforts to 
plan strategically to meet current and future workforce needs by 
analyzing how evolving missions are affecting job requirements. 
Reshaping of the workforce over the next several years will be 
essential, including obtaining both the right staffing size and skill 
sets. NNSA will also continue to identify efficiencies, particularly in 
travel and support services, to provide a lean and efficient 
organization and to support the President's Executive Order ``Promoting 
Efficient Spending''.
                        management & performance
    To enhance our ability to carry out our mission and execute this 
budget request, we will continue to focus on improving our project 
management and cost estimating capabilities. In keeping with the 
Secretary of Energy's increased focus on Management and Performance, 
the NNSA is committed to manage its operations, contracts and costs in 
an effective and efficient manner. The NNSA's Office of Acquisition and 
Project Management (APM) is driving continued improvement in contract 
and project management practices. APM is leading the NNSA's effort to 
deliver results by instituting rigorous analyses of alternatives, 
providing clear lines of authority and accountability for Federal and 
contractor program and project management, and improving cost and 
schedule performance. NNSA participates in the Secretary's Project 
Management Risk Committee as a means to institutionalize and share best 
practices across the Department.
    We have used strategic partnerships with the National Laboratories 
to rethink some of our most challenging projects. As a result of the 
Red Team review of the UPF at the Y-12 National Security Complex, led 
by the director of the Oak Ridge National Laboratory, and a similar 
approach to the Chemistry and Metallurgy Research Replacement (CMRR) 
Facility capability at Los Alamos National Laboratory, we are 
developing a disciplined, modular approach for both sites that will 
remove risks early in the process, and establish a well-defined cost 
and schedule, both of which were lacking in earlier efforts. This 
process will be an important and recurring project management theme at 
the NNSA and across the Department of Energy.
    The CEPE was established in September 2014 pursuant to the fiscal 
year 2014 National Defense Authorization Act. This legislation 
recognized the effort to improve cost estimating that the NNSA had 
already started. The CEPE office is a prime example of actions taken to 
improve our cost estimation efforts. Forging a strong partnership with 
the Department of Defense (DOD) Office of Cost Assessment and Program 
Evaluation (CAPE), including joint training activities with CAPE, we 
have made good progress in establishing CEPE as an independent office. 
CEPE will provide independent cost estimating leadership, rigorous 
program analysis, and prudent fiscal guidance. Getting CEPE fully 
functional is a high priority for NNSA, and we will closely monitor its 
progress as it grows into its full potential over the next few years.
                               conclusion
    The NNSA executes vital missions to ensure nuclear security at home 
and abroad. We do this by delivering the technology, capabilities and 
infrastructure essential to a 21st century national security 
organization. Our workforce continues to rise to the challenge and 
deliver mission effective and cost efficient nuclear security solutions 
critical for the NNSA to succeed in today's fiscal climate.
    In closing, I would also like to mention that the President's 
Budget Request is just the first in a series of documents slated for 
release this spring. The most important of those yet to be released is 
the NNSA Strategic Plan, last updated in May 2011. The goal of this 
document is to provide a single integrated guidepost for NNSA's 
leaders, our partners at the labs and plants, and Congress and our 
external stakeholders. The new strategic plan will articulate a clear 
direction and mission to everyone--no matter their rank or position. 
Also to be released is the Congressionally-mandated Stockpile 
Stewardship Management Plan (SSMP) which details NNSA's multi-year plan 
for delivering a safe, secure and effective nuclear stockpile. And for 
the first time, we plan to release a companion plan to the SSMP, 
tentatively titled, ``Prevent, Counter and Respond'' to address our 
plans for nonproliferation, counterterrorism and emergency response 
programs. Finally, a report is being prepared for Congress in response 
to the Final Report from the Congressional Advisory Panel on the 
Governance of the Nuclear Security Enterprise, co-chaired by Norm 
Augustine and Admiral Rich Mies.
    Again, thank you for the opportunity to appear before you today.

                      URANIUM PROCESSING FACILITY

    Senator Alexander. Thank you, General Klotz. We will begin 
five-minute rounds of questions, and I'll begin.
    General, I would like to start with questions in this round 
devoted to the uranium facility, where you're going tomorrow. 
Am I correct that you're able to carry appropriated funds over 
from 1 year to the next?
    General Klotz. Yes, we are.
    Senator Alexander. On that facility. And one of the 
complaints we've sometimes had about inefficiency is that the 
jerky quality of the appropriations process sometimes cause 
wasted money, right?
    General Klotz. It does.
    Senator Alexander. So having a sustainable flow of dollars 
based upon a plan can help save money as well by speeding 
things up and avoiding the jerkiness of the process.
    General Klotz. You're absolutely right, Senator.
    Senator Alexander. The budget request for this year is $430 
million. What do you need that much money for this year?
    General Klotz. Well, in the coming year, we will use this 
funding to develop the detailed design and safety analysis for 
the three principal facilities which we will ultimately 
construct. That's a mechanical and electrical building, it's a 
salvage and accountability building, and it's the main process 
building. It will also allow us to initiate the last phase of 
some site preparation activities, including large-scale 
excavation and backfill, in order to make the site ready to 
start facility constructing activities in fiscal year 2017.
    Senator Alexander. So it's all design and site preparation, 
is that correct?
    General Klotz. Yes, sir.
    Senator Alexander. How----
    General Klotz. Excuse me, Senator. There will also be some 
long lead procurement things for specialty equipment, like the 
specialized glove boxes that are necessary to work with net 
radioactive materials. Those are very highly complex pieces of 
equipment that require long lead times, so we need to begin the 
process of procuring those.
    Senator Alexander. When will the design of these buildings 
be 90 percent complete?
    General Klotz. We expect, on the current schedule, for that 
to being during fiscal year 2017.
    Senator Alexander. And can you confirm that the designs of 
the uranium buildings will be 90 percent complete before the 
construction begins?
    General Klotz. Yes. For those three facilities, which are 
the nuclear facilities associated--for the uranium processing 
facility, we will be 90 percent complete before we begin 
construction in accordance with our own Department of Energy 
orders, 413.3B to be precise, that we follow very carefully.
    Senator Alexander. So 2017 would be the date, the estimated 
date, for 90 percent design completion.
    General Klotz. Yes, sir.
    Senator Alexander. And based on that date, will the 
buildings be completed on time to meet your commitment to be 
operational by 2025?
    General Klotz. Yes, sir. It's still our intent to be on 
track to have this work done, be out of building 9212, which, 
as you know, is the oldest facility that we have there, by 
2025, at a cap of $6.5 billion.
    Senator Alexander. Well, that was going to be my last 
question. Are you still on track to finish the facility under 
the $6.5 billion cost cap?
    General Klotz. Yes, sir, we are.
    Senator Alexander. Well, I thank you for that. And Senator 
Feinstein and I have been pretty aggressive the last 2 or 3 
years on that. And I appreciate the response of NNSA, its work, 
and that of the Red Team, because we basically have an 
agreement, as I understand it, that construction won't begin 
until we're 90 percent complete with design, and you said that 
is expected to be in 2017, that the buildings will be completed 
by 2025, and the budget cap is $6.5 billion or less.
    General Klotz. Yes, sir. But it's important that we 
continue to do some of the site preparation work that is 
already underway. In fact, one of the reasons for going to Oak 
Ridge tomorrow is to celebrate the completion of the first 
subproject that we had in terms of preparing the site for the 
construction of these three facilities. And in fact, we had 
budgeted $65 million to do some road work associated with the 
vehicles that will have to come in and out of the construction 
site. We have done some grading. We've done potable water 
lines. And as I said, we budgeted $65 million for that, and it 
came in significantly below that.
    Our next step in this process, which we are ready to begin 
immediately, is to do what we call site infrastructure and 
services subproject. Again, these are the things that any large 
construction project would have to do. For instance, we will 
need to put a concrete batch plant on the facility, and a very 
unique concrete batch plant, because this has to pour nuclear 
qualified concrete. As any construction project, we'll need to 
build construction support buildings to house the people who 
are doing work there, which will ultimately be 1,700 
construction people doing that. And we estimate that that will 
be a total of $78 million for a total project cost for this 
particular aspect of the work. And as I said, we're ready to 
start immediately, and we expect to have that completed in the 
spring of 2018.

                                 SAFETY

    Senator Alexander. Well, my time is up, but I'm going to 
ask this question, because it involves both Senator Feinstein 
and me. I celebrate any example of your coming in under budget. 
In multibillion-dollar projects, even $10 million is an 
encouraging sign to me. And I like the idea that there seems to 
be now clear accountability, someone's on the flagpole, for 
meeting the goals that we have. We use the example of the 
nuclear Navy. My staff reminded me that not only has the 
nuclear Navy not had a reactor accident resulting in a death, 
it hasn't had a reactor accident. Am I correct about that?
    Admiral Richardson. Yes, sir, that's true.
    Senator Alexander. Over 60 years. And a lot of that comes 
because Admiral Rickover, who I believe interviewed you as 
well, Mr. Richardson, is that----
    Admiral Richardson. Several times, Senator, yes, before I 
got it right.
    Senator Alexander. And he probably told you that, if you 
had a problem with a reactor, your career was over. Did he say 
something like that?
    Admiral Richardson. So that's a tenet of our program at 
every level. Yes, sir.
    Senator Alexander. So this accountability is important. So 
one question would be, we've had meetings, Senator Feinstein, 
with the accountability team at the uranium processing plant. I 
wanted to suggest that maybe a good schedule for that might be 
twice a year. We could do it more often, if you would like. And 
you might suggest to us when it would be useful, most useful to 
us and to you, to have just an informal meeting where we get an 
assurance that we're on time and on budget.
    Senator Feinstein. With the head of the project.
    Senator Alexander. With the head of the project. So will 
you think about that and suggest to us whether twice a year 
with the head of the project sounds about right? And if so, 
what times of the year would make the most sense?
    General Klotz. Yes, sir. And thank you so much for that 
offer, because we have really benefited from your strong 
leadership, your insight, and your counsel, as we've moved 
forward through this over the last couple of years. So we will 
work with your staff and find the time.
    I know you've got a very busy hearing schedule to finish. 
And we would like to get in sooner rather than later to do 
that. We're anxious to let you know the issues associated with 
this particular project, the successes as well as the 
challenges that lie before us. I think it's a good news story. 
As I said, we benefit from your counsel.
    Senator Alexander. Thank you. Senator Feinstein.
    Senator Feinstein. Thanks very much. I hope to cover two 
subjects in my 5 minutes. One is the hedge, and the second is a 
new nuclear cruise missile.

                       NUCLEAR WEAPONS STOCKPILE

    I wrote an op-ed which was in the Washington Post on 
December 3 of last year on the hedge, and I just want to read a 
small part from it.
    Of our stockpile of 4,804 weapons, only 1,600 are currently 
deployed, which means there are 3,204 backup weapons. We 
maintain this hedge in case of problems with the deployed 
weapons or if world events require additional deployments. 
Having reserve weapons may be smart policy, but maintaining two 
spares for each deployed weapon is excessive.
    I would like your reaction to that, anyone on the panel, 
and I would like your assessment of what could be saved if the 
hedge were cut in half.
    General Klotz. Let me, if I could Senator--thank you for 
the question--make a general statement, and then I'd like to 
pass it over to Dr. Cook, who has responsibility for all the 
weapons activities within NNSA, for a more refined answer than 
I'll be able to provide.
    The whole objective of the campaign of life extension 
programs we have for the existing weapons is not only to 
sustain their life, but in the process, we will reduce the 
number of weapons which we feel is prudent to have in terms of 
hedge capabilities. That's the case with both the weapons that 
will go on the sea launch, ballistic missiles, as well as the 
gravity weapons we have. So that's part of our overall 
strategy, that as we prepare these weapons to be extended 
another couple of decades beyond which their original design 
life is, we are looking to reduce the overall size of the 
stockpile, the hedge requirements, but also the amount of 
special nuclear material that makes up the entire stockpile. 
Don.
    Mr. Cook. Thank you very much for the question, Senator. 
It's important to realize that NNSA executes and NWC approved 
program, so they are partners in this. With regard to the 
hedge, it is, in fact, a technical hedge, as you described, and 
we are on a path to get reductions through appropriate 
modernization via life extensions. That will give us increased 
confidence that we can reduce the hedge. These decisions are 
made within the entity that we work with on the DOD side.
    To support what the administrator said, as a result of 
doing the W76 life extension, for example, by the time we 
conclude that, just a few years from now at the end of 2019, we 
will have reduced the number of W76s by a full factor of two. 
The 3 plus 2 strategy heads toward three ballistic systems, 
that's a reduction from four, and just two elements in the air 
carried leg, a modern gravity bomb, the B61 Mod 12, and the 
modern cruise missile, the W80-4.
    Again, as the administrator said on a few more details, 
when we complete the B61 Mod 12, and we'll complete that in 
fiscal 2020, the time right now is March 2020, we will again 
have reduced the number of bombs by a factor of two. We will 
have reduced the special nuclear material by a larger amount 
than that, because we set the stage for the retirement of the 
B83--1, the last megaton gravity bomb in the American arsenal. 
As a result then, we've reduced the amount of special nuclear 
material in the bomb leg, by more than 80 percent.
    So those are also key to having greater confidence in the 
ability of those systems to work. And as that is achieved, then 
the technical hedge will be reduced. As an example, we are 
ahead of by our dismantlement goals. We are able to take, as 
time goes on, more dismantlement work load beyond 2022, which 
is where we have it planned today.
    Senator Feinstein. I very much appreciate the fact, Dr. 
Cook, that you're looking at it.
    Mr. Chairman, I'd like to have a classified briefing on 
that subject, because I have some questions about it, and maybe 
you'd like to join me.
    Senator Alexander. Well, I would join you. I read your op-
ed, and those are very appropriate questions, important to our 
national security, and they cost a lot of money. And so I'd 
like to fully understand it, too, so why don't we schedule 
that?
    Senator Feinstein. That would be excellent. And include in 
it the B61 and the number of B61s we have.

                         NUCLEAR CRUISE MISSILE

    The next question is, why do we need a new nuclear cruise 
missile? It's a $186 million increase, I think, over the 2015 
level of $9 million, and the total cost runs $7 billion to $10 
billion, and I know of no compelling case. So if there is one, 
maybe you could relate it to us.
    General Klotz. Well, thank you, Senator. In the same Senate 
Armed Services Committee hearing that you referenced earlier, 
the one that The Nuclear Weapons Council Chairman, Frank 
Kendall, headed up, Admiral Cecil Haney, who is also the 
Commander of U.S. Strategic Command, made the case this way. 
The Air Force has had a cruise missile, the air-launched cruise 
missile, for some decades. That missile, the missile itself, 
not the warhead which we have responsibility for, but the 
missile itself, is starting to show the signs of age, and that 
is raising concerns about the long-term reliability of the 
missile. There are also some aging concerns associated with the 
support equipment that's associated----
    Senator Feinstein. Could I stop you just for a minute?
    General Klotz. Yes, ma'am.
    Senator Feinstein. How old is the missile when it begins to 
show age?
    General Klotz. I'd have to get back to you on the specific 
life.
    Senator Feinstein. If you would, I'd appreciate it.
    General Klotz. Yes, we'll get back.
    Senator Feinstein. Thank you.
    General Klotz. Yes, we will talk to our friends in the Air 
Force about that. The other issue that Admiral Haney expressed 
concern about was increasing sophistication of air defenses 
across the world and making sure that we have an air-launched 
cruise missile capability that can deal with the types of 
threats--and again, we can include that in our classified 
discussion later.
    We, at the NNSA, have a responsibility, obviously, for the 
warhead that would go on a new Air Force cruise missile, which 
they refer to as the Long-Range Standoff Capability System. So 
we have, this past year, made a selection that we would use a 
warhead from the family of warheads that the current air-
launched cruise missile uses. We are on a path to have that 
first production unit of that particular warhead ready in 2027.
    A decision was taken in the Nuclear Weapons Council, and 
subsequently at higher levels within the Executive Branch, that 
we ought to move the date for the first production unit of that 
warhead 2 years to the left, to 2025, based on what the 
military saw as a requirement for----
    Senator Feinstein. Is to the left, is that----
    General Klotz. I'm sorry, 2 years earlier.
    Senator Feinstein. Thank you.
    General Klotz. I apologize. And so that explains a 
significant portion of the increase in the money that we have 
requested for the warhead work, the life extension program that 
would support the Air Force's Long-Range Stand-off System.
    Mr. Cook. If I could follow up. Because of 2014 has elapsed 
and the first production unit is moved up 2 years, in fact, 
today, we are 3 years shorter within the first production unit. 
What we learned on the W76 and the B61 programs was that we had 
funded tech maturation later in the life extension, and it 
should have been done earlier. In fact, GAO (Government 
Accounting Office) did a report on the life extension programs, 
and they especially----
    Senator Feinstein. Can I stop you?
    Mr. Cook. Surely.
    Senator Feinstein. Tech maturation?
    Mr. Cook. I'm sorry. Technology maturation for the 
componentry and all the elements of the system really means 
that they are mature enough to put into a committed life 
extension program. In other words, we've resolved all the 
difficulties, and we can confidently, on both the cost 
estimates----
    Senator Feinstein. Are you saying that came earlier than 
you thought?
    Mr. Cook. No. We did it later in W76 and in the B61, and we 
paid for that through having to scramble later in the life 
extension program. When the General Accountability Office 
reviewed those two LEP's and the three plus two strategy and 
where we're going, they suggested that we fund technology 
maturation efforts as early as we could. And so, in fact, just 
as you've said, while we had $9 million in 2015 and we're in 
the first phase of a study to get the requirements right at 6/
1, in July of this year, we moved to the analysis of 
alternatives and conceptual development.
    Our earlier plan had been $28 million for 2027 first 
production unit, but because that was moved up 2 years, we 
requested an additional $167 million for a total of $195 
million.
    Senator Feinstein. Well, my number is wrong. I said $186 
million. It's $195 million?
    Mr. Cook. One hundred ninety-five million dollars, an 
increase from last year's FY NSP for year 2016 of $167 million.
    Senator Feinstein. Big jump. Thank you.
    Mr. Cook. Yes. Yes.
    Senator Feinstein. Thank you, Mr. Chairman.
    Senator Alexander. Sure. Thank you, Senator Feinstein. Very 
helpful. And we'll schedule that hearing. That would be helpful 
for both of us, I think.

                   NAVAL REACTORS--SPENT FUEL STORAGE

    Let me shift gears, Admiral Richardson. Let's talk a little 
bit about Naval reactors. We talked two weeks ago, the big 
thing for you in this budget is a new facility to inspect and 
package that used nuclear fuel that comes to Idaho from the 
reactors. That's a subject that Senator Feinstein and I have a 
lot of interest in, is basically, you bring the fuel to Idaho, 
and you need a facility to put it into dry cask storage, and 
then the dry casks are stored temporarily in Idaho until a 
repository is open to which they can be transferred, is that 
correct?
    Admiral Richardson. Yes, sir, Senator. That's a very 
important facility for our program, as you said, because we 
take all of our spent fuel from all of the submarines and 
carriers and send it to Idaho in containers. And at that 
facility, we have sort of a shipping and receiving element, 
where we take the fuel from the ships, we bring it into a pool 
for radiological reasons, and we do processing of those cores 
in the pool, and then eventually transition the spent reactor 
cores into dry storage, where we store them there----
    Senator Alexander. How long are the rods typically in the 
pool?
    Admiral Richardson. It's an interesting question, because 
we're really sort of making up for time now as we move material 
through the pool and into dry storage. But we've got an 
agreement with the State of Idaho to make that process and do 
that transition in less than 6 years, and that's an executable 
program for us.
    Senator Alexander. You mean the material arrives, and 
within 6 years, it's in a dry cask, is that what you're saying?
    Admiral Richardson. Exactly. Yes, sir. We're processing a 
lot of legacy fuel, but that's a good number in terms of the 
capability of the system.
    Senator Alexander. You also have an agreement with the 
State of Idaho to remove all those dry casks by 2035, is that 
right?
    Admiral Richardson. Yes, sir. Our agreement with the State 
of Idaho really has sort of two fundamental elements to it. One 
involves exactly what we just talked about, the throughput of 
the material through the pool and into dry storage, and we are 
committed to take that inventory that we have right now, the 
current inventory, and move all of that into dry storage by 
2023. And then for the course that we receive after that, we 
have that 6 year commitment to move them through the pool and 
into dry storage in 6 years. So we will have eliminated our 
backlog by 2023, and be on that 6-year thing.
    Senator Alexander. So step one is to get everything into 
dry storage within 6 years.
    Admiral Richardson. Yes, sir.
    Senator Alexander. But then step two is to get it all out 
of Idaho, right?
    Admiral Richardson. Yes, sir.
    Senator Alexander. When is that supposed to be?
    Admiral Richardson. The second element of our commitment 
involves shipment to an eventual repository.
    Senator Alexander. Yes, well, where are you going to take 
it?
    Admiral Richardson. Sir, that remains to be seen.
    Senator Alexander. Yes. I had not understood, the relative 
amount of material is smaller than I thought. I mean, compared 
to the amount of the number--Senator Feinstein, I think you 
might be interested in this, too. The material we have from our 
commercial reactors is quite a bit of material. Sometimes, it's 
described as nearly enough to fill up Yucca Mountain. But the 
amount of material that goes into dry casks from our reactors 
is relatively small space, is that--how would you describe 
that?
    Admiral Richardson. Yes, sir. We have about 30 tons of 
heavy metal in Idaho right now of that type of material. That 
represents about--well, you have 60 percent of that right now 
in dry storage. The rest of it is moving through, as I said. 
That's about 180 naval cores in dry storage, and those are 
loaded into 110 casks. Those casks are ready for shipping when 
a repository or interim storage facility is ready. But in 
total, we estimate that that total inventory is really less 
than 1/10 of 1 percent of the Nation spent fuel.
    Senator Alexander. Yes, so 110 casks right now.
    Admiral Richardson. Yes, sir.
    Senator Alexander. You still need a permanent repository to 
store your fuel.
    Admiral Richardson. Senator, in order to meet our current 
commitments with the State of Idaho, we have to be ready to be 
among the earliest shipments to go when that repository is 
ready, and then all of our spent fuel that arrives by 2026 has 
got to be out of the State by the year 2035.
    Senator Alexander. And your dry casks can go to the same 
kind of repository that a dry cask could from a commercial 
reactors used fuel, is that right?
    Admiral Richardson. Yes, sir.
    Senator Alexander. It could go to Yucca Mountain or to one 
of the repositories that we're envisioning through the 
legislation Senator Feinstein and I are working on.
    Admiral Richardson. Yes, sir. We stay very engaged in those 
conversations with the aim of making our casks ready to be 
received by that facility.
    Senator Alexander. If there were a private repository, not 
operated by the Department of Energy but licensed by the 
Nuclear Regulatory Commission, that was willing to take your 
used fuel, would it be appropriate to use such a repository for 
that?
    Admiral Richardson. Sir, if it had the appropriate 
certifications and licensing, that would be potentially an 
option.
    Senator Alexander. Yes, there's one license today, but it's 
not usable. That's in Utah. But in our hearing with the Nuclear 
Regulatory commissioners last week, we heard about a proposed 
application from West Texas which would be a privately operated 
repository. First, it would have to be licensed by Nuclear 
Regulatory Commission. But theoretically, if it's licensed by 
the NRC, you don't think of a reason why you could not ship 
your dry casks there.
    Admiral Richardson. Yes, sir. As long as it's appropriately 
certified, nothing comes to mind that would prevent us from 
using a facility like that. Again, we would be engaged in the 
details of that decision.
    Senator Alexander. Senator Feinstein, I don't know if 
you've heard him say, the Navy's dry casks in Idaho are about 
1/10 of 1 percent the size of the used fuel mass from the 
commercial reactors in the country. So it's not very much by 
space.
    Admiral Richardson. Yes, sir.
    Senator Alexander. Senator Feinstein and I see we're joined 
by the Senator from Oklahoma, and we'd be glad to put you in 
the rotation after Senator Feinstein if you'd like.
    Senator Feinstein. Thanks very much, Mr. Chairman. I wanted 
to spend a few minutes on the National Ignition Facility at 
Livermore.

                       NATIONAL IGNITION FACILITY

    On February 6, I sent the Secretary a letter on the use of 
plutonium at the National Ignition Facility, seeking assurance 
regarding the necessity for such experiments and the safety 
precautions for workers and the public. I received the response 
yesterday, and I would like to put that letter, dated March 9, 
from Secretary Moniz into the record, Mr. Chairman.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     

    Senator Feinstein. Thank you very much. Let me quote from 
the letter. Among the capabilities that the NIF brings to 
stockpile stewardship, which is its primary mission, is the 
ability to study materials compressed to extremely high 
pressures. No other platform can reach the pressures that the 
NIF can attain, and plutonium experiments in this regime are 
providing invaluable insights required to underpin the codes 
and models used to assess the performance and safety of our 
Nation's nuclear weapons stockpile.
    And then regarding the approval of these experiments, Dr. 
Donald Cook approved conducting plutonium experiments at the 
NIF after assessing myriad factors, including the technical 
benefits and technical risks, the risk assessment and risk 
management approach used by LLNL and the incremental costs 
associated with these experiments.
    Now, I asked a question about safety, and that is the use 
of plutonium in that specific facility. And what the next 
paragraph states is that workers have been trained and 
extensive reviews were conducted to verify that the staff 
procedures and safety systems were ready to proceed prior to 
the planned experiments. And then it goes on to say, the amount 
of plutonium used in these experiments is very small. In the 
highly unlikely event of an accidental release, exposure to an 
individual standing at the site boundary would be a small 
fraction, less than .005 percent of the dose that individuals 
would receive on a flight from San Francisco to Washington, and 
less than .03 percent of the dose that an individual would 
receive from a dental x-ray.
    So I take you at your statement with respect to the safety 
aspects of this. I have been concerned about Livermore being 
able to reach its purpose. It's a very expensive facility. And 
I wanted to spend a moment to see what you could tell me and 
the chairman and the Senator about the likelihood of these 
experiments being successful.
    Mr. Cook. Well, thank you for the question. It's very well 
stated. I appreciate your laying out the background that was in 
the exchange of letters on safety.
    On the front of how well NIF is being used, there was, 2 
years ago, an effort to broaden the base of the use of NIF 
comprehensively to the stockpile stewardship programs, that it 
was not solely devoted to an attempt at achieving ignition, and 
ignition and a drive toward it remains a core part of the 
program.
    But we had years of experiments built up with regard to 
materials and the physics of nuclear weapons at the highest 
pressure regimes, as you said, because that understanding is 
the core research development, understanding that we need to 
avoid ever having to return to underground testing. So for 
example, today, more than half of the experiments are devoted 
to a broad class of stockpile stewardship and less than half to 
ignition, but progress has been made on all fronts. If you have 
a second question, I'd be happy to entertain it.
    Senator Feinstein. Yes, a second question would be, you 
sort of moved over ignition pretty carefully and quickly, but 
my understanding is that the strategies in place, and I 
understand this is all pioneering work, that the strategies in 
place to achieve ignition simply didn't work. And when I talked 
to the people out there, what they said is they were going back 
to basics, and they were going to come up with another 
strategy. I gather that has not been possible, is that correct?
    Mr. Cook. I believe that you got correct information from 
the lab. And so what was done in the early years was testing 
and basically an empirical change of parameters to see whether 
ignition could be achieved in the very earliest years. That 
could not be achieved. So, in fact, the lab did what it's good 
at. It went back to basics, fundamental science, and found, as 
they knew and had learned, that the model predictions, the 
computations, were not reflective of reality. It isn't that 
they were wrong codes. It's that an insufficient amount of 
physics had been put in.
    When that was in, then there was a drive toward improvement 
of the conditions for an ignition. And in fact, Livermore did 
achieve the point where, in the fusion fuel in the center of a 
capsule, more fusion energy was produced than the thermal 
energy that actually went into the compression of the very 
spot. This is still short of ignition by quite a bit, almost a 
factor of 100 in the number of neutrons produced. But there is, 
in parallel with the other stewardship experiments, a solid 
commitment to ignition. Step-by-step progress is being made, 
and we get regular reports on that.
    Senator Feinstein. Just one thing. So you're telling me 
that there still is going to be an effort to achieve ignition.
    Mr. Cook. There is absolutely an effort to achieve ignition 
ongoing right now.
    Senator Feinstein. And that has not been dropped?
    Mr. Cook. No, it has not.
    Senator Feinstein. Okay. Thank you.
    Senator Alexander. Senator Lankford.

              GOVERNMENT ACCOUNTING OFFICE HIGH RISK LIST

    Senator Lankford. Thank you, Mr. Chairman. I appreciate you 
all being here. And I want to say what I know has already been 
said as well, thank you for the work that you do. You do quiet 
work that defends our Nation every day, and hardly anyone pays 
attention to you, because you're doing your work well. And so I 
appreciate what you're doing every day to be able to protect 
the Nation and for what you have done for a long time in that.
    Let me ask a couple of general questions on some things. I 
know you're very aware of the GAO high risk list. The issue on 
the high risk list has been cost estimates. You deal with very 
difficult processes here. But the challenge is, GAO has 
determined some of the projects that go all the way back to 
1997, like the Savannah River project, that have far exceeded 
the original estimates and the time here.
    The concern is initially two things. One is, we have to 
live and breathe based on cost estimates and what we think 
something is going to cost, and we have to know we have a 
reliable estimate coming to us. Second is, the GAO statement is 
a little disconcerting.
    They made this comment in their report. Since the project 
began in 1997, the estimated cost of the project has increased 
by more than $6.3 billion. The schedule has been delayed by 
about 15 years. They stated, we found that, among other things, 
NNSA had not analyzed the root causes of the construction cost 
increases to help identify lessons learned and to help address 
the agency's difficulty in completing projects within cost and 
on schedule. They also mentioned in another spot that there was 
a question that they had about the sense of urgency in setting 
timelines to get some things completed to even determine how 
this gets resolved.
    So my question is, for the future, we've got to get good 
estimates. I know you want to get good estimates. What is in 
process right now, and when will that be done to make sure that 
the lessons learned can be implemented?
    General Klotz. Now, thank you, Senator, for that question. 
And of course, one of the key objectives of Secretary Moniz and 
of the current leadership of NNSA is to increase our skills and 
our success in terms of doing the basics of large capital 
construction projects that begin with good cost estimates, a 
very rigorous process by which we identify the requirements 
that we actually need, and assessment of alternatives for 
satisfying those requirements.
    We started to have some success in a couple of areas. For 
the last 2 to 3 years, we have been off the GAO's list, high 
risk list, for projects under $750 million. And earlier we were 
discussing how a couple of those smaller projects have been 
delivered actually early and under cost, which tells us that 
the investment that we're making in terms of talent, expertise, 
and experience in the area of large project management is 
beginning to yield some results.
    We still have three projects that are on the high risk 
list, the GAO's high risk list, the uranium processing facility 
at Oak Ridge, the replacement for the chemical and 
metallurgical building in Los Alamos, and the MO<INF>X</INF> 
Fuel Fabrication Facility in Savannah River. On the first two, 
we have adopted a fundamentally different approach about how we 
are going to construct these projects that is a mix of 
repurposing existing facilities, changing the processes within 
those facilities, and whether we do it more efficiently, more 
effectively, and instead of building one big box building, 
segregating work by the security requirements as well as the 
safety or hazard requirements associated with that building.
    We're a little more constrained by what we can do, and were 
pursuing that in both of those, and I think with very promising 
potential. We're little more constrained on the MO<INF>X</INF> 
Fuel Fabrication Facility in Savannah River, because the 
outside of the building has essentially been constructed, so 
the freedom or design space that we have to affect that is 
constrained.
    Senator Lankford. So give me the top lesson learned here 
and the thing that's going to be fixed in the timeframe on 
that. So you mentioned several things there, as far as, it 
sounds like, changing the way you do your contracting on the 
smaller projects. Is that being implemented in the larger 
programs for the future? And then I have one other follow up 
question, if the Chairman will allow me another minute, as 
well.
    General Klotz. It is. Making sure that you have people who 
actually know about the art and science of large project 
construction, which were doing, hiring----
    Senator Lankford. Most of the issues due to changes as you 
went through it, or most of the issues were the initial 
contract didn't understand completely what they were about to 
do?
    General Klotz. I think most of it had to do with locking in 
a cost estimate before we had gotten to the 90 percent design 
level. There's a lot of pressure as soon as we conceive of our 
project to come up with a number. People want to know how much 
it's going to cost. I think we have to be very, very 
disciplined and make sure we have gone through that rigorous 
cost estimating, analysis of alternatives, early design to 
ensure that the cost estimate that we are planning on and that 
we are communicating with Congress is, in fact, a realistic 
one.
    Senator Lankford. Right. The request for funding for this 
next year's a little over 10 percent increase in funding, 
obviously exceeds the budget caps and all that conversation 
that's already happened somewhat here. The question that I have 
is, how much of that money is related to some of these cost 
overruns that we're now going to get on top of for some of 
these big projects and call them done, so were not going to 
have those same costs added, let's say, 5 years from now, so 
were still catching up to some of the bad estimates from 
before, and how much of them are just operational expenses?
    General Klotz. I would like to get back with you on the 
detail. I don't know that I've quite parsed it out that way. 
The request that we have this year is based on what our current 
estimates are, which we feel fairly confident about, more 
confident that we could have said we were 2 or 3 years ago in 
terms of the cost estimate.
    Senator Lankford. Right.
    General Klotz. And a lot of that depends, of course, on 
level and consistent funding, because as you move the costs out 
further, it will cost more.
    Senator Lankford. It costs more. I understand that.
    General Klotz. Yes, sir.
    Senator Lankford. But I'm just trying to figure out the 
breakdown here, how much of that is still catching up to bad 
estimates from before, and how much of that is we're ahead of 
it now, and our estimating better in new projects and new 
tasks?
    General Klotz. I'd like to ponder that question and get 
back to you on that.
    Senator Lankford. Thank you.
    General Klotz. Thanks.
    Senator Lankford. Mr. Chairman, I yield back. Thank you.
    Senator Alexander. Thank you, Senator Lankford. Senator 
Feinstein.

                             MO<INF>X</INF>

    Senator Feinstein. Thanks very much. I wanted to ask about 
the mixed oxide fuel fabrication facility. And I think both the 
chairman and I remain very concerned about the costs and the 
schedule of the MO<INF>X</INF> facility. Now, this started out 
costing $4 billion and being complete in 2016. It's now 
expected to cost as much as $13 billion and not be ready until 
the late 2020s. Now, we've been into this to a great extent I 
think. We know that this is a treaty obligation, that the 
Russians are building a fast reactor to deal with it and that 
they are further behind than we are, at least that's the 
information that I have. The goal of disposing of weapons grade 
plutonium is certainly worthy, but the cost is enormous.
    Last year when we did this, we saw there were no 
alternatives, and that's one of the reasons why we continue to 
fund it. So my question is this. And I guess Ms. Harrington, 
it's for you. Where is the Department in evaluating 
alternatives to MO<INF>X</INF>, or have you given up? General, 
whatever, you're the boss man.
    General Klotz. Let me go ahead and start, but I'd love to 
give Ms. Harrington an opportunity, because she lives with this 
every day. You're right. We are still, as an Administration, 
committed to the plutonium management and disposition 
agreement. This is an agreement, as you indicated, between us 
and Russia, each of us to dispose of 34 metric tons of weapons 
grade plutonium. This is a key objective that we have. And the 
approach that we have adopted was to pursue a production 
facility in Savannah River that would use this excess weapons 
grade plutonium, mix it with uranium to produce a fuel, mixed 
oxide, that could be burned in simple nuclear reactors. So 
we've started on that project.
    I recall my first hearing with this Congress was before 
this Committee the day we had released a report from the 
Department of Energy posted on the NNSA Web site that laid out 
five different potential options for what we could potentially 
pursue that needed to have greater fidelity and greater 
costing. At the time, the Administration had proposed the 
notion of putting the MO<INF>X</INF> Fuel Fabrication project 
into cold standby. The Congress had different views. We were 
instructed to continue construction for 2014. And in the fiscal 
year 2015 Appropriations Act, our request for $221 million was 
up to $345 million, and we were told to continue to construct 
through fiscal year 2015, which we are doing.
    So at the same time, the Congress asked us to do two 
reports by an external federally funded research and 
development corporation to give us and you independent cost 
estimates of various options. The first of those reports, which 
will identify two options, continuing with MO<INF>X</INF> Fuel 
Fabrication Facility construction, and the other one, which we 
call dilution and disposal, is due in mid-April. And I believe 
the federally funded research and development corporation that 
we have asked to do that is on track to do that. The second 
one, which will identify a broader range of options, is due in 
mid-September.
    So as we build the budget request for fiscal year 2017, we 
will continue the process of dialoguing with Congress on the 
way forward, and we will have greater fidelity in terms of the 
out year funding as it relates to MO<INF>X</INF>. Now, have I 
left anything out?
    Senator Feinstein. Before you leave, so is the commitment 
to stay with MO<INF>X</INF>?
    General Klotz. The commitment through this year, as 
required, is to continue construction with the MO<INF>X</INF> 
Fuel Fabrication Facility with the funds that were enacted in 
2015, and we're doing that. Construction continues to go on. 
The Secretary has been down there, along with members of the 
South Carolina congressional delegation. I've been down there 
twice. Our principal deputy assistant was down there yesterday. 
Our deputy secretary has been there. This is a project which is 
very, very high in our radar scope in terms of watching how it 
proceeds.
    Senator Feinstein. Can the $345 million be spent? What if 
you decide to do something else?
    General Klotz. Well, we can execute the $345 million. I 
will tell you what Secretary Moniz has said publicly. This is 
not optimal funding rate for construction of a large project 
like this, but there is meaningful work that is being done in 
terms of constructing this facility as we speak.
    Senator Feinstein. Thank you.
    Ms. Harrington. The only thing I would go back to, Senator, 
is the point you made that the up-and-down cycles of funding 
are very disruptive to these kinds of projects. They make them 
very difficult to manage. They make them almost impossible to 
plan in a rational way, which is why we chose the $345 million 
number. It would provide consistency across several years and 
predictability in terms of the scope of construction that could 
be achieved during that period. So I think there is a strong 
rationale for why we put that particular number in the budget.
    Senator Feinstein. It's just from my perspective. I don't 
want to see us look back on this as we have looked back on one 
other project and say, well $600 million has been wasted. So I 
think it's really a hard problem for you all.
    General Klotz. It is. And again, we're hoping that the 
external look, as required by and requested by Congress, will 
give us a more solid grounding in terms of the specific cost 
estimates associated with the various alternatives.
    Senator Feinstein. I hope so. Thank you. Thank you, Mr. 
Chairman.
    Senator Alexander. Thank you, Senator Feinstein. General, 
in the report, which is due April 16, do you plan to recommend 
the lowest cost solution?
    General Klotz. Again, Senator. I think we want to wait and 
see what the report says and then engage, as we have, in 
dialogue with members of Congress in terms of how best to 
proceed.
    Senator Alexander. Have you learned anything from the Red 
Team review of the uranium project that you can apply to the 
MO<INF>X</INF> and the plutonium project in Los Alamos? I know 
they are different sorts of projects, but any lessons there? 
Because the Red Team review seemed to be helpful and coming to 
the current much better management situation it seems that you 
have with the uranium project.
    General Klotz. Yes, sir. On one level, yes. One of the 
things that we did in response to the Red Team recommendations 
was to strengthen our oversight of both programs and projects 
within the NNSA and within the Department of Energy at large 
and establishing a program manager for not only uranium and 
plutonium and tritium, but also for the construction of--or for 
how we dispose of weapons grade plutonium.
    So we have stronger management oversight. But as I've 
suggested to the Senator from Oklahoma, there, the facility, 
the superstructure for the building, is essentially up. So some 
of the things that we have adopted from the Red Team report in 
terms of segregating work, dividing up hazard and the security 
criteria into different facilities with varying cost per square 
footage, are just not possible as far as the MO<INF>X</INF> 
Fuel Fabrication Facility at this stage in the project.
    Senator Alexander. One of the recommendations, I believe, 
in the Red Team review was that it be a continuous sort of 
review, that the Red Team not just go home, but every 6 months 
or every year, it would do the same kind of thing, because it's 
a big project, and there are bound to be surprises and changes 
and alterations. Am I right about that? Is that planned?
    General Klotz. That's right. In fact, we've already had our 
first review late last year in that, and we will run them at 
roughly 6-month intervals to do that. And indeed, we're doing 
that across NNSA on other projects, but also across the 
Department of Energy.
    One of the things that came out towards the end of last 
year was a directive from Secretary of Energy Moniz for large 
projects that there be a continuous process internally and that 
there be a periodic process independent of what goes on inside 
the Department of Energy or NNSA with experts to review and 
question, probe how we are proceeding on these large projects.
    Senator Alexander. Well, I have no other questions. I'm 
encouraged by that. I think the combination of the kind of 
accountability that Naval Reactors have for their reactors and 
this sort of continuous review, and an agreement with the 
Congress about a time schedule, a budget, and that we don't 
build until we have 90 percent of the design complete, I think 
the combination of all those things has made some good progress 
in terms of these big construction projects. And so, we'll 
continue with that.
    I don't have any other questions. Senator Lankford, do you 
have any other questions?

                        NUCLEAR NONPROLIFERATION

    Senator Lankford. I have one other quick question. It deals 
with the defense nuclear nonproliferation appropriation. The 
request obviously goes up significantly. That's the combining 
of several different programs behind the scenes on that. The 
question is, talk me through the several million dollars in the 
process of combining those two and why you think this will be 
more effective. So why does the cost justify it, basically?
    Ms. Harrington. Thank you for that question, Senator. We 
took a long time to look at this restructuring. When we look at 
the mission that we have to meet going forward and we project 
over the horizon, and we've been doing studies along this line 
for the past 2 plus years, trying to look at how the evolving 
threat environment affects our implementation of mission. The 
counterterrorism counter proliferation and the counterterrorism 
incident response programs formerly were in the weapons 
account, but they worked with the nuclear nonproliferation 
programs. That is the sweet spot for these programs to work 
together, because much of the drive behind the nonproliferation 
programs is, in fact, counterterrorism.
    So by pulling those programs out of the weapons account, it 
leaves Dr. Cook with a clear pathway toward managing the 
stockpile and focusing on that particular very important 
mission, and it leaves the defense nuclear nonproliferation 
appropriation covering the whole spectrum of prevent, counter, 
and respond, as the administrator mentioned earlier. You will 
hear this a lot from us, because this is a very important 
continuum for addressing the threats that we currently 
encounter in the world.
    So for us, we currently, already, co-plan, co-train, co-
execute with those offices. Pulling them together into one 
appropriation simply increases the opportunity for synergy, 
increases the opportunity for efficiencies, for joint planning, 
which is something that we have been encouraged to do.
    Senator Lankford. No. I understand that, and that's great. 
And the structure of it, you're right, make sense, and I'm sure 
it's one of those things for several years everyone has looked 
at and said, why are they over there, why are they doing that. 
Part of my question is, why is it $100 million to make that 
transition and that restructuring?
    Ms. Harrington. It simply moves the funding that used to be 
in the weapons account into the nonproliferation appropriation.
    Senator Lankford. And so it has $100 million decrease in 
the weapons account as well to be able to offset that? It looks 
like it's going up but going up in both areas. We are not 
seeing a decrease in one area and an increase in another.
    General Klotz. Well, it's largely a transfer out of one 
budget category into another budget category. But there is 
increase in the defense nuclear nonproliferation account. If 
you subtract out the money that was the transfer from 
counterterrorism and incident response, we still show about a 
4.4 percent increase in what one might call sort of core 
nuclear nonproliferation activities which span the range of 
trying to lock down special nuclear materials across the globe, 
reduce dependence of commercial activities and universities on 
highly enriched uranium, enhancing border crossings to prevent 
smuggling of special nuclear materials, that whole range of 
work continues. As Senator Feinstein noted in her opening match 
for marks, it's showing an increase.
    Senator Lankford. Incredibly valuable. I guess what I am 
trying to figure out is, what part would have had a request for 
increase before, regardless of where they're stationed, and 
what part is the relocation cost? That's what I'm trying to 
find out.
    General Klotz. It's just an accounting. It's an accounting 
shift from one part of the ledger to another part of the 
ledger. There may be some increases, and will get back to you 
with specific things that we're doing. In counterterrorism we 
have to work very closely with State and local responders on 
emergency communications, on training. There, quite frankly, is 
a high demand for NNSA, Department of Energy services, by other 
domestic agencies that might have to respond, God forbid, to a 
terrorist threat or incident in the United States. We do a lot 
of training with them. We do a lot of back-and-forth on 
particular types of equipment and capability that are necessary 
to do that.
    And we also do that, quite frankly, with foreign partners 
as well. As the interest in civil nuclear power goes up across 
the world, there are going to be more and more countries that 
have to deal with the safety and security issues associated 
with nuclear materials, and we have deep expertise and 
experience in this area that fits into this prevent, counter, 
and respond spectrum that Ms. Harrington mentioned.
    Senator Lankford. Right.
    Ms. Harrington. Senator, I do have all the precise numbers, 
the comparisons between 2015 and 2016. In the counterterrorism 
and incident response areas, very, very modest. It's about a 
$10 million increase over last year to account for a 
significant drop in the counterterrorism, counter proliferation 
budget that resulted from the Congressional action. We felt 
strongly about restoring part of that. Some of that is for work 
on standoff disablement. If, God forbid, we were ever to have 
to encounter a trafficked nuclear weapon or an improvised 
nuclear weapon, how could we safely manage it? That is the kind 
of research that this will restore.
    Senator Lankford. Thank you.
    Senator Alexander. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. Mr. 
Chairman, you began the hearing by asking Admiral Richardson 
about the 60 year safety record of the nuclear program of the 
Navy, of which we are all very proud, and he escaped any 
questions. So I don't want him to feel lonely or unappreciated 
or leave here.
    Senator Alexander. Ask him a few. Ask him a few.

                             NAVAL REACTORS

    Senator Feinstein. Okay. I will ask him a few. You mention 
in your statement, which I have read, about highlights of 
operations, that they include the nuclear powered aircraft 
carrier, the George Bush CVN 77, the only coalition strike 
option in the fight against ISIL militants, for 54 days 
executing 20 to 30 sorties each day. Can you talk a little bit 
about that, because this, to me, it's kind of present action, 
and I would be very interested in knowing how it went, what 
broke down, what was imprecise, what was very precise? Can you 
summarize it in an unclassified setting for us?
    Admiral Richardson. I'm sorry, ma'am, the details of the 
strikes themselves?
    Senator Feinstein. No, what you can say. If you did 20 to 
30 sorties a day, I assume those were strikes?
    Admiral Richardson. They were, ma'am. I would have to get 
back to but the details on that. Our contribution to that was 
really providing the technical support to keep the carrier on 
station. And so that's one of the primary functions of my 
technical support base is to support today's fleet operations, 
and so the response of that team to respond to really a 
continuous stream of technical requests and that sort of thing.
    Senator Feinstein. Talk about the continuous stream of 
technical requests with an ongoing mission of 20 to 30 sorties 
a day.
    Admiral Richardson. Right. And so, as you know, we are 
primarily focused on continuity of power. It's our desire to 
provide safe and effective reliable propulsion and power to the 
aircraft carrier. And so as they work through their day to day 
operations, technical issues come up. We respond to fleet 
requests for help. We get about 12 of those per day from the 
entire nuclear powered fleet. And so that is a major part of 
our business and a significant portion of our budget request.
    Some of the more significant accomplishments of that 
technical base just this year alone could be directly 
attributable to recovering literally 30 to 40 submarine and 
aircraft carrier years of operation, as they resolve technical 
issues, allowing those nuclear powered warships to continue to 
execute their operations in support of the Nation's interests 
around the world.
    And if that capability did not exist, very, very talented 
people supported by the appropriate facilities and equipment, 
we would have to potentially pull those submarines and aircraft 
carriers in and shut them down pending resolution. It's the 
responsiveness of our team that allows them to remain on 
station, to continue and to strike, or do whatever job they do.
    General Klotz. Could I add something to that, Senator.
    Senator Feinstein. Certainly.
    General Klotz. And I say this--
    Senator Feinstein. And if you would touch on the funding 
request, which is $1.375 billion, and that's an 11 percent 
increase of $136 million.
    General Klotz. Sure. And I say this as a retired career Air 
Force officer, that our Naval Reactors does extraordinarily 
important work in the day-to-day operation of the U.S. Navy. 
And one of the challenges that has happened over the last 
couple of years since I've been in this seat, is a significant 
reduction in the request of the Naval Reactors portion of the 
budget, largely what we might call infrastructure or the base.
    There's a lot of focus on the new reactor for the Ohio 
replacement submarine or the new reactor for an aircraft 
carrier, the research and development that they're doing. But 
often what gets overlooked is that day to day operation that 
allows the fleet to stay at sea rather than having to go back 
to a port and fix it. So the allocation is extraordinarily 
important so that we can continue to provide that kind of 
support to the U.S. Navy as it carries out its global mission.
    Admiral Richardson. Thank you, General. And so just to 
describe our budget request, a majority of that request goes to 
fund that technical support base at our labs and other 
operating sites, to support not only today's nuclear fleet as 
we have described, but also to operate the prototype reactors 
which have a dual function, a research and development 
function, that is the technical work that goes to de-risk the 
new reactor core that we are going to put in the replacement 
for the Ohio class, as well, the other purpose for those 
reactors is a training function, where we train about 3,000 
sailors, about 1,000 of those coming through our Department of 
Energy facility in New York each year, and so there is this 
continuous stream of operators to the fleet.
    So the majority of that base funding goes to support those 
people, really world-class technical base to get through the 
technical issues, as well as there is operating and maintenance 
of those prototype reactors, the spent fuel facility, Mr. 
Chairman, that we talked about earlier, just to maintain those 
facilities operating, dually required periodic and corrective 
maintenance to keep those facilities operating.
    And as the general said, in the past 5 years, those 
facilities have been appropriated to about $550 million less 
than the request, and we're trying to get back up on our plan 
to stop backlogging maintenance on those facilities. So those 
are the fundamental elements of our request in the base. And 
then, ma'am, I know you're very conversant on the three 
projects, the Ohio class replacement reactor, the refueling 
that the general mentioned, and then the spent fuel facility 
Idaho that we talked about earlier.
    Senator Feinstein. Thank you very much, Admiral. Appreciate 
it.
    Admiral Richardson. Yes, ma'am.
    Senator Alexander. Thanks, Senator Feinstein. I have no 
other questions. Senator Lankford, do you have other questions?
    Senator Lankford. No.
    Senator Alexander. Well, thank you very much for this. In 
summary, I'm encouraged based upon where we were 2 to 3 years 
ago in terms of the big projects. And I would like to continue 
to have our regular review of those things, so General Klotz, 
if you could suggest to us. I'd like to ask you to pick the 
times that make the most sense. I mean, if you're going to have 
a Red Team review every 6 months, or if there is a budget event 
coming, let's have the review--we don't want to make work. We 
like to have a review at a logical time where you have 
something to tell us and where we can ask questions. I'm 
guessing spring and fall are a couple of good times. But think 
about that, working with our staff, and then Senator Feinstein 
and I will be available to you.
    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
if they would like.

                          SUBCOMMITTEE RECESS

    Senator Alexander. This subcommittee requests all responses 
to questions for the record be provided within 30 days of 
receipt. Thank you for being here today. This subcommittee is 
adjourned.
    [Whereupon, at 10:30 a.m., Wednesday, March 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Cochran, Murkowski, Graham, 
Lankford, Feinstein, Murray, Udall, and Shaheen.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. ERNEST J. MONIZ, PH.D., SECRETARY
ACCOMPANIED BY FRANKLIN ORR, PH.D., UNDER SECRETARY FOR SCIENCE AND 
            ENERGY

              OPENING STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order. This afternoon we are 
having a hearing to review the President's fiscal year 2016 
budget request for the Department of Energy. Senator Feinstein 
and I will each have an opening statement. I will then 
recognize each senator for up to five minutes for an opening 
statement, alternating between the majority and the minority. 
And then we will turn to Secretary Moniz. Secretary Orr is here 
to answer questions relating to fusion science, not because 
Secretary Moniz does not know anything about it, but because he 
does. So under our brilliant rules, we do not get to ask him.
    I am going to make one adjustment if it is necessary. 
Senator Feinstein has an unavoidable conflict at about 3:15, 
and I want to make sure that, she as well as I get to hear 
Secretary Moniz's testimony, and that she gets to make her 
opening statement and to ask her questions. So I may have 
gotten out of order a little bit with the Senators, and I am 
sure Senator Murray will be fine with--well, Senator Feinstein 
has to leave at 3:15, and I wanted to give her a little--I want 
to make sure she gets the chance to ask her questions before 
she leaves.
    Our witnesses today include Dr. Moniz and Dr. Orr. We are 
here today to review the President's fiscal year 2016 budget 
request for the Department of Energy, an Agency with three 
critical missions: nuclear security, science and energy, and 
environmental management. This is the subcommittee's fourth and 
final hearing this year on the President's budget request, and 
I look forward to hearing what the Secretary has to say.
    The Department's budget request for 2016 is about $30.5 
billion. This is an increase of about $2.5 billion over the 
amount Congress appropriated last year. Governing is about 
setting priorities, and given our fiscal constraints, 
especially on non-defense spending, we are going to have to 
make some tough decisions this year to make sure the highest 
priorities are funded.
    The President's entire discretionary budget request this 
year exceeds the Budget Control Act's spending caps by about 
$74 billion. This is not realistic. In fact, if we were to 
fully fund just the Department of Energy's budget request of 
$30.5 billion, our subcommittee would need almost the entire 
increase available, about $3 billion, in both defense and non-
defense for fiscal year 2016 under the Budget Control Act 
spending caps.
    The real driver of our Federal debt is out of control 
mandatory spending on entitlement programs. I plan to work with 
our Republican majority, and I hope the President and Senate 
Democrats who share the same concerns, to make the tough 
choices so we can pass a real plan to fix the long-term debt, 
while supporting other important priorities like national 
defense, national labs, and medical research.
    That is why we are holding this hearing, to give the 
Secretary an opportunity to talk about the Department of 
Energy's most urgent priorities so Senator Feinstein and I and 
the other committee members can begin to put together our 
appropriations bill over the next several weeks.
    I am going to focus my attention on four areas: number one, 
doubling basic energy research; two, reducing Federal spending 
on mature technologies; three, leading the world in advanced 
scientific computing; and four, solving the stalemate over what 
to do with our country's nuclear waste. Just a few comments 
about each of those areas.
    I believe doubling basic energy research is one of the most 
important things we can do. It is hard to think of any 
important technological advance in the sciences--physics, and 
biology in any event--since World War II that has not involved 
at least some form of government-sponsored research, whether it 
is the development of unconventional gas or the work being done 
to develop small modular reactors. That is why it is so 
important to double the more than $5 billion the U.S. 
Department of Energy spends on basic energy research. That was 
the goal set out in the America COMPETES legislation which 
passed under President Bush with bipartisan support. That grew 
out of the Rising Above-the-Gathering Storm report. The goal 
was to double the Federal Government's investment in basic 
research.
    Two of the ways we have increased investment in basic 
research are, one, our national lab system and, two, ARPA-E, 
which Congress created as part of America COMPETES. The Office 
of Sciences manages 10 of the 17 Department of Energy national 
laboratories that are critical to our national competitiveness 
and our way of life. They are home to the world's largest 
collection of scientific user facilities operated by a single 
organization, used by more than 31,000 researchers each year.
    Since 2009, Congress has provided about $1 billion in 
appropriations for ARPA-E, which has resulted in more than 400 
projects. ARPA-E is successful because it stops funding 
projects that do not meet their research milestones, and 
funding is limited to 5 years.
    The next priority is Federal spending on mature technology. 
Washington has a bad habit of picking winners and losers and an 
addiction to wasteful subsidies, and we need to end those 
policies. The most conspicuous example of this is the wasteful 
wind subsidy, which costs taxpayers about $6 billion every year 
we extend it, enough to double basic energy research at the 
Department of Energy.
    President Obama's former Energy Secretary, Steven Chu, said 
in 2011 that wind energy is a mature technology. There is a 
place for limited, short-term subsidies to jump start 
technologies, and I have supported some of those. But it is 
long past time for wind to stand on its own in the market. The 
subsidy for big wind has been renewed nine times since 1992. It 
is so generous that wind producers can literally give their 
electricity away in some markets and still make a profit. That 
is called negative pricing, and it is distorting the market and 
undercutting other forms of clean, reliable energy, such as 
nuclear power.
    The third area is leading the world in advanced scientific 
computing. I got involved with super computing with Senator 
Bingaman when I first became a Senator. At his direction, I 
flew to Japan to see why they were first in the world and we 
were not. I am glad to say that we have been with the Obama 
Administration over the last several years. We see eye-to-eye 
on the importance of these fast super computers, and I am glad 
that because of a recent announcement, the Secretary was able 
to make in the budget request that he includes that we will be 
able to say that the world's fastest super computer would be, 
again, in the United States by 2017.
    Finally, I would like to discuss, and I will save most of 
my comments for questions. The 25-year-old stalemate about what 
we do about used fuel from nuclear reactors. I want to make 
sure we have a strong future in this country for nuclear power. 
It is essential, therefore, we have a permanent place to put 
used nuclear fuel. The Federal Government is responsible for 
disposing of that. It has failed in its responsibility even 
though the rate payers have deposited billions to pay for it. 
The government's failure to follow the law not only imperils 
the future of nuclear power, it also results in wasting 
billions of hard-earned taxpayer dollars.
    To help solve this stalemate, Senator Feinstein and I will 
again include a pilot program for nuclear waste storage in the 
Energy and Water Appropriations Bill as we have for the past 3 
years when she was the chairman. We have also introduced 
legislation yesterday with Senator Murkowski and Cantwell to 
create both temporary and permanent storage sites for nuclear 
waste. The new sites we are seeking to establish would not take 
the place of Yucca Mountain. We have more than enough used fuel 
to fill Yucca Mountain, but rather would complement it. Our 
legislation is consistent with the President's Blue Ribbon 
Commission on America's Nuclear Future. The Secretary served on 
that commission.
    I should note that Federal law designates one repository 
for our country's used nuclear fuel, Yucca Mountain. After 
years of delay, Yucca Mountain can and should be part of the 
solution to our nuclear waste stalemate. The regulatory 
commission, Nuclear Regulatory Commission, recently completed 
the safety evaluation report that said that Yucca ``met all of 
the safety requirements through the period of geologic 
stability.'' The Commission and the Environmental Protection 
Agency defined that period as one million years. So to continue 
to oppose Yucca Mountain because radiation concerns ignores 
science as well as the law.
    Secretary Moniz had an important announcement to make 
yesterday on used nuclear fuel. I appreciate, and I know 
Senator Feinstein appreciates, his putting a priority on the 
subject. We are going to need your help, Mr. Secretary, to set 
priorities and make tough funding decisions for the Department 
this year.
    With that, I would recognize Senator Feinstein for an 
opening statement.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    We're here today to review the President's fiscal year 2016 budget 
request for the Department of Energy, a Federal agency with three 
critical missions: nuclear security, science and energy, and 
environmental management.
    This is the subcommittee's fourth and final hearing this year on 
the President's budget request, and I look forward to hearing what 
Secretary Moniz has to say about the department's priorities.
    The Department of Energy's budget request for fiscal year 2016 is 
about $30.5 billion. This is an increase of about $2.5 billion over the 
amount Congress appropriated last year.
    Governing is about setting priorities, and given our current fiscal 
constraints--especially on non-defense spending--we are going to have 
to make some tough decisions this year to make sure the highest 
priorities are funded.
    The President's entire discretionary budget request this year 
exceeds the Budget Control Act spending caps by about $74 billion. This 
is not realistic.
    In fact, if we were to fully fund just the Department of Energy's 
budget request of $30.5 billion, our subcommittee would need almost the 
entire increase available--about $3 billion--in both defense and non-
defense for fiscal year 2016 under the Budget Control Act's spending 
caps.
    The real driver of our Federal debt is out-of-control mandatory 
spending on entitlement programs.
    I plan to work with our Republican majority--and, I hope, the 
President and Senate Democrats who share the same concerns--to make 
tough choices so we can pass a real plan to fix the debt while 
supporting other priorities like national defense and national labs and 
medical research.
    And that is why we are holding this hearing: to give Secretary 
Moniz an opportunity to talk about the Department of Energy's most 
urgent priorities, so Senator Feinstein and I can make informed 
decisions as we begin to put together the Energy and Water 
Appropriations bill over the next several weeks.
    Today, I'd like to focus my questions on four main areas, all with 
an eye toward setting priorities:
  1.  Doubling basic energy research;
  2.  Reducing Federal spending on mature technologies;
  3.  Leading the world in advanced scientific computing; and
  4.  Solving the stalemate over what to do with our country's nuclear 
        waste
                     doubling basic energy research
    Doubling basic energy research is one of the most important things 
we can do to unleash our free enterprise system to help provide the 
clean, cheap, reliable energy we need to power our 21st-century 
economy.
    It's hard to think of an important technological advance since 
World War II that has not involved at least some form of government-
sponsored research. Take, for example, our latest energy boom: natural 
gas.
    The development of unconventional gas was enabled in part by 3D 
mapping at Sandia National Lab in New Mexico and the Department of 
Energy's large-scale demonstration project. Then our free enterprise 
system, and our tradition of private ownership of mineral rights, 
capitalized on the basic energy research.
    Another example is the work being done to develop small modular 
reactors, which would allow nuclear power to be produced with less 
capital investment and to be accessible in more places.
    That's why it's so important that we work to double the more than 
$5 billion the U.S. Department of Energy spends on basic energy 
research. We set out on this goal with America COMPETES, legislation 
that was first passed under President Bush with overwhelming bipartisan 
support.
    America COMPETES grew out of the ``Rising Above the Gathering 
Storm'' report on American competitiveness, written by Norm Augustine. 
The goal was to double the Federal Government's investment in basic 
research, including math, the physical sciences and engineering.
    Two of the ways we have increased investment in basic energy 
research is through our national laboratory system and the Advanced 
Research Projects Agency-Energy (ARPA-E), which Congress created as 
part of America COMPETES to fund transformational energy technology 
projects.
    The Office of Science manages 10 of the 17 Department of Energy 
national laboratories, including Oak Ridge National Laboratory in 
Tennessee. These national laboratories are critical to our Nation's 
competitiveness and our way of life.
    The laboratories are also home to the world's largest collection of 
scientific user facilities operated by a single organization, used by 
more than 31,000 researchers each year.
    Since 2009 Congress has provided about $1 billion in appropriations 
for ARPA-E, which has resulted in more than 400 projects. ARPA-E is 
successful because it stops funding projects that don't meet their 
research milestones and funding is limited to 5 years.
            reducing federal spending on mature technologies
    That brings me to the next priority I'd like to discuss, which is 
to reduce Federal spending on mature technologies. Washington has a bad 
habit of picking winners and losers, and an addiction to wasteful 
subsidies of all kinds--we need to end these policies.
    The most conspicuous example of this addiction is the wasteful wind 
subsidy--which costs taxpayers about $6 billion every year we extend 
it, enough to double basic energy research at the Department of Energy.
    President Obama's former Energy Secretary, Stephen Chu, said in 
2011 that wind energy is a ``mature technology.''
    There is a place for limited, short-term subsidies to jumpstart new 
technologies, but it is long past time for wind to stand on its own in 
the marketplace.
    The subsidy for Big Wind has been renewed 9 times since 1992 and is 
so generous that in some markets, wind producers can literally give 
their electricity away and still make a profit.
    This is called ``negative pricing'' and it shows that the wind 
subsidy isn't just wasting money that could go toward other 
priorities--it's distorting the market and undercutting other forms of 
clean, reliable energy like nuclear power.
           leading the world in advanced scientific computing
    Supercomputing is critical to our economic competitiveness and a 
secure energy future.
    The United States faces a choice between falling further behind 
competitors like China, or advancing technology that can make the 
United States safer and more competitive in a global, 21st-century 
economy.
    In November of last year, I was glad to announce with you, 
Secretary Moniz, that by 2017 the world's fastest supercomputer would 
again be in the United States, and that it would again be at Oak Ridge 
National Laboratory.
    That computer will be called Summit, and it will help researchers 
better understand materials, nuclear power, and new energy 
breakthroughs. I am glad to have your support for this initiative, and 
I appreciate that the President's budget request includes funding to 
make Summit ready for users by 2018 and also for the next generation of 
supercomputers.
    Funding this next generation, known as exascale, is essential to 
U.S. national security, competitiveness in science and technology and 
to enable our free enterprise system to create the good-paying jobs of 
the future.
    Supercomputing has helped maintain our nuclear stockpile, allowed 
manufacturers to make better products and save money and even allowed 
scientists to map the human heart at one beat per second.
                  solving the nuclear waste stalemate
    I'd also like to discuss solving the 25-year-old stalemate about 
what to do with used fuel from our nuclear reactors, to ensure that 
nuclear power has a strong future in this country.
    Federal law makes the government responsible for disposing of used 
nuclear fuel. Yet the government has failed in this responsibility, 
even though ratepayers have deposited billions into the Nuclear Waste 
Fund to pay for it.
    The government's failure to follow the law not only imperils the 
future of nuclear power in our country, but it also results in wasting 
billions of hard-earned taxpayer dollars to settle lawsuits by 
utilities, who are stuck with the used fuel until the government takes 
it.
    To help solve this stalemate, Senator Feinstein and I will again 
include a pilot program for nuclear waste storage in the Energy and 
Water Appropriations bill, as we have for the past 3 years.
    We also introduced bipartisan legislation yesterday with Senator 
Lisa Murkowski and Senator Maria Cantwell to create both temporary and 
permanent storage sites for nuclear waste.
    The new sites we are seeking to establish would not take the place 
of Yucca Mountain--we have more than enough used fuel to fill Yucca 
Mountain to its legal capacity--but rather would complement it.
    Our legislation is consistent with the President's Blue Ribbon 
Commission on America's Nuclear Future, and is the result of many 
meetings with experts like Secretary Moniz, who served on the Blue 
Ribbon Commission.
    I should note that Federal law designates one repository for our 
country's used nuclear fuel, Yucca Mountain. After years of delay, I 
want to be clear: Yucca Mountain can and should be part of the solution 
to our nuclear waste stalemate.
    The Nuclear Regulatory Commission recently completed the Safety 
Evaluation Report that said Yucca Mountain met all of the safety 
requirements through ``the period of geologic stability.'' The 
commission and the Environmental Protection Agency define the ``period 
of geologic stability'' as 1 million years.
    To continue to oppose Yucca Mountain because of radiation concerns 
is to ignore science--as well as the law.
    Secretary Moniz, we are going to need your help to set priorities 
and make tough funding decisions for the department this year, and I 
look forward to your testimony.
    With that, I would recognize Senator Feinstein to make her opening 
statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman, and I 
agree with virtually all of your statement. And it is really a 
pleasure for me to work with you over these many years, and I 
think we have gotten some things done. I will put my written 
remarks in the record if I may. And I just want to say that I 
am delighted that we have finally introduced a waste policy act 
bill for our country, which has no waste policy that we know 
of, and which at the price of about $20 billion a year 
registers debt because we are unable to carry out our mission. 
And I understand we will owe about $20 billion by 2020. So this 
is a step along the way.
    And I want to point out that it is voluntary. If we have 
learned anything it is that these facilities have to have the 
approval of their community and their State. And so, the bill 
we have submitted essentially achieves that, and also has the 
Congress approving it as well. So it has been a long work in 
progress.
    We have had the pleasure of meeting with two Secretaries, 
Secretary Chu and Secretary Moniz, with the Blue Ribbon 
Commission, with virtually a number of other people. We have 
discussed among ourselves different mechanisms. And, the four 
of us have always come to agreement, and one more time we have 
come to agreement in a bill that has now been introduced. And 
hopefully Senator Murkowski will schedule it and have a 
hearing, and it can move ahead. I view that as a very important 
legislative endeavor.
    The rest of my--I would rather save my time for the 
questions if I may, and thank you very much.
    Senator Alexander. Thank you, Senator Feinstein. Here is 
how we will proceed. I will ask Senator Murray to her opening 
statement, and then we will go Secretary Moniz for his 
testimony. Then we will go to Senator Feinstein for her 
questions so that she has a chance to offer them before she 
needs to leave.
    Senator Feinstein. Thank you.
    Senator Alexander. Senator Murray.
    Senator Murray. Mr. Chairman, thank you. I will just save 
my time for questions.
    Senator Alexander. Thank you, Senator Murray. I might just 
say that I am a fortunate chairman because the ranking members 
that I work with are both here today, and I really appreciate 
my ability to work with both of these senators. They are 
direct. They are easy to work with. They state their positions, 
and they look for results. So it makes my work here much more 
useful.
    Secretary Moniz, welcome. We look forward to your 
testimony.

                SUMMARY STATEMENT OF DR. ERNEST J. MONIZ

    Secretary Moniz. Thank you, Mr. Chairman, and I might say 
that I enjoy working with all three of you as well. Ranking 
Member Feinstein, Senator Murray, I am pleased to be here to 
discuss our fiscal year 2016 budget request of $29.9 billion.
    As you know, the Department is entrusted with a diverse 
portfolio. It includes advancing the all-of-the-above energy 
strategy, providing a good part of the backbone of basic 
research in the physical sciences in this country, ensuring 
nuclear security, and cleaning up the Cold War environmental 
contamination. The request represents an increase, as you said, 
of $2 and a half billion, or nine percent, above the fiscal 
year 2015 appropriations level, and we feel supports a balanced 
portfolio within those mission areas.
    In funding for nuclear security activities, including NNSA 
and defense-related environmental cleanup, that totals almost 
$19 billion. Nearly 2/3 of our budget is in the defense line. 
The non-defense line--science, energy, and other activities--
about $10.9 billion.
    Let me just summarize a few highlights so that we can move 
on to our discussion. First, in science and energy, that fiscal 
year 2016 request is $5.3 billion for science, a 5 percent 
increase. Among other things, we are very committed to continue 
building and upgrading and operating our national research 
infrastructure to really stay at the cutting edge of light 
sources, super computer, neutron sources, and other large-scale 
facilities that we make available to the national community.
    As one highlight, just last month we completed--celebrated 
the completion ahead of schedule and within budget of the 
brightest light source in the world, the National Synchrotron 
Light Source II at Brookhaven, and we have a number of other 
upgrades at other places coming along. We have also 
commissioned major facilities at Jefferson Lab and at 
Princeton. We are now building a second generation light source 
at SLAC, and the rare isotope beam facility at Michigan State. 
So I just want to emphasize that it is a pattern of advancing 
these important facilities for our user community.
    The energy portfolio is about $5.38 billion in the 
proposal. Over the past year we have seen accomplishments 
across our all-of-the-above energy technology portfolio. We 
have actually--we have sequestered now over nine million metric 
tons of CO<INF>2</INF> in DOE-sponsored projects. Two 
cellulosic ethanol facilities that were partially supported by 
DOE grants and loan guarantees have begun operating. We issued 
last year 10 final appliance efficiency standards, which all 
together will reduce CO<INF>2</INF> emissions by over 435 
million metric tons and save consumers about $80 billion 
through 2030.
    Advanced manufacturing is a key priority, and the budget 
provides about $400 million to fully fund, and it is 5 years of 
funding, of two new clean energy manufacturing institutes while 
continuing funding for four institutes. Just last month we 
announced the Manufacturing Innovation Institute for Advanced 
Composites, which I think you are familiar with, Mr. Chairman. 
This technology has the potential to revolutionize advanced 
manufacturing with implications reaching from better wind 
turbines to more efficient vehicles.
    The budget increases our investments in sustainable 
transportation, including $40 billion for technologies to 
double freight truck efficiency by 2020. Also $253 million for 
advancing the Electric Vehicle Everywhere Initiative to promote 
that technology. In fossil energy, we will continue development 
of carbon capture utilization and storage for coal plants, and 
note this was done in concert with the new tax credits that are 
proposed in the Administration's Power Plus Initiative for 
carbon sequestration.
    I would like to highlight our proposed increase in ARPA-E, 
an increase of $45 million. We are now at the fifth anniversary 
of the first ARPA-E grants, and now we can start talking about 
the impressive successes in outcomes from that program, 
including moving technologies to the marketplace.
    And finally, the budget includes $63 million to initiate 
two new programs of grants to States, one on reliability 
planning and one on energy assurance planning. The forthcoming, 
and it is forthcoming, quadrennial energy review will provide 
supporting analyses for these initiatives.
    Let me then turn briefly to national nuclear security. The 
fiscal year 2016 budget allocates $11.6 billion to NNSA. The 
budget supports a key objective to sustain the successful two-
decade now Scientific Stockpile Stewardship Program to maintain 
a safe, secure, and effective nuclear weapon stockpile without 
testing. The budget also includes funding increases to 
modernize the stockpile through life extension programs and new 
investments in the supporting infrastructure.
    Last year in our nonproliferation programs, we removed or 
disposed of almost 200 kilograms of vulnerable nuclear 
materials out of six countries and expanded radiation detection 
systems worldwide to prevent illicit trafficking of nuclear and 
radiological materials. The budget includes $1.9 billion for 
the Nonproliferation Office. The budget also includes 
construction of the Mixed Oxide Project of Savannah River at 
the same funding level as Congress appropriated in fiscal year 
2015, while completing congressionally directed studies on 
plutonium disposition costs and alternatives.
    The budget also provides $1.4 billion for the Naval 
Reactors Program to continue development of the Advanced Ohio 
Class replacement reactor, support refueling of the land-based 
prototype reactor, and expand design work for the Spent Fuel 
Handling Recapitalization project.
    Finally, within our management and performance portfolio, 
the largest element by far is the Environmental Management 
Program. The fiscal year 2016 budget request is $5.8 billion, 
essentially equal to the fiscal year 2015 appropriation. We 
know significant challenges remain, but for perspective, DOE 
has cleaned up over 85 percent of sites and 90 percent of the 
land area.
    The fiscal year 2015 appropriation provided a large one-
time funding increase to implement the recovery plan for the 
Waste Isolation Pilot Plant. Bringing this facility back on 
line is a very high priority, and we believe we are on schedule 
to resume operations in about a year. The fiscal year 2015 
funding also enabled us to complete demolition of the K25 
Facility at Oakridge.
    The fiscal year 2016 budget allocates increased funding for 
a phased approach for the Hanford Waste Treatment Plant to 
begin vitrifying low activity waste early next decade. We will 
also operate the Integrated Waste Treatment Unit at Idaho, and 
complete construction of the Salt Waste Processing Facility at 
Savannah River. Finally, elsewhere within management and 
performance, we continue to strengthen cross-program 
coordination and to improve efficiency and effectiveness of 
mission support functions.
    That concludes my statement, and I look forward to our 
discussion. Excuse my voice.
    [The statement follows:]
               Prepared Statement of Hon. Ernest J. Moniz
    Chairmen Cochran and Alexander, Ranking Members Mikulski and 
Feinstein, and members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the Department of 
Energy's (DOE) budget request for fiscal year 2016. I appreciate the 
opportunity to discuss how the budget request advances the Department 
of Energy's missions.
advancing nuclear security, science & energy, and environmental cleanup
    DOE is entrusted with a broad and diverse portfolio across its 
three major mission areas of nuclear security, science and energy, and 
environmental management. The budget request for fiscal year 2016 for 
the Department of Energy is $29.9 billion, $2.5 billion above fiscal 
year 2015 enacted, to support our mission responsibilities and to 
continue improving our management and performance in support of those 
missions.
    For nuclear security, the budget includes $12.6 billion, an 
increase of $1.2 billion over the fiscal year 2015 enacted level, to 
support DOE's responsibilities of maintaining and modernizing, via life 
extension programs, the nuclear deterrent without testing; controlling 
and eliminating nuclear materials worldwide and providing nuclear and 
radiological emergency response capabilities in an age of global 
terrorism; and propelling our nuclear Navy.
    For science and energy, the budget includes $10.7 billion, an 
increase of $1.3 billion over the fiscal year 2015 enacted, to support 
DOE's missions of enabling the transition to a clean energy future with 
low-cost, all-of-the-above energy technologies; supporting a secure, 
modern, and resilient energy infrastructure; and providing the backbone 
for discovery and innovation, especially in the physical sciences, for 
America's research community.
    For environmental management, the budget includes $5.8 billion, to 
support DOE's responsibility of cleaning up from the Cold War legacy of 
nuclear weapons production.
    Approximately $18.9 billion, or 63 percent of the Department's 
budget request, is national security-related funding, including the 
nuclear security and most of the environmental management programs. The 
remaining 37 percent is for nondefense programs in energy, science, and 
other programs such as building capabilities to respond to energy 
disruptions, enhancing data collection and analysis in critical areas, 
and supporting obligations for international cooperation in clean 
energy and energy security.
 science: leading edge research and world class research infrastructure
    Starting with basic research, DOE's Office of Science is the 
largest Federal sponsor of basic research in the physical sciences, 
supporting 22,000 researchers at 17 National Laboratories and more than 
300 universities. Informed by the latest science advisory council 
reports and recommendations, the fiscal year 2016 budget request 
provides $5.34 billion for Science, $272 million above the fiscal year 
2015 enacted level, to continue to lead basic research in the physical 
sciences and develop and operate cutting-edge scientific user 
facilities while strengthening the connection between advances in 
fundamental science and technology innovation.
    One of the signature aspects of our basic science research program 
is the Department's support for the construction and operation of major 
user facilities at the national laboratories that serve over 31,000 
scientists and engineers each year on an open-access basis. We are 
committed to staying at the cutting edge of light sources, super 
computers, neutron sources, and other facilities essential to advancing 
our mission. In the last year, for example, we completed the brightest 
light source in the world, the National Synchrotron Light Source II at 
Brookhaven National Laboratory, ahead of schedule and on budget. We are 
at the commissioning phase of the 12 GeV Upgrade to the Continuous 
Electron Beam Accelerator Facility at the Thomas Jefferson National 
Accelerator Facility, and the National Spherical Torus Experiment at 
Princeton Plasma Physics Laboratory intends to begin research this 
summer after a significant upgrade.
    Looking forward in the fiscal year 2016 budget, we continue 
construction of critical, new user facilities while ensuring increased 
investment in national laboratory infrastructure renewal to help 
sustain America's scientific enterprise. The Request supports a major 
upgrade of the Linac Coherent Light Source at SLAC and construction of 
the Facility for Rare Isotope Beams at Michigan State University. In 
addition, the budget provides approximately $2 billion to fund 
operations of our 27 existing scientific user facilities.
    These facilities investments and research grants funded by the 
Office of Science will ensure that we continue to support discovery 
science, as well as science that underpins future energy and other 
technologies.
    For example, using the current Linac Coherent Light Source at SLAC, 
scientists last year mapped for the first time the structure of a 
protein within a living cell. This single example highlights the 
tremendous benefits of our national laboratories in a broad range of 
scientific and applied areas. In addition, the Office of Science 
supports research at hundreds of universities in all 50 States through 
competitive grants to advance our mission. For example, a university 
group recently developed a new class of polymer-based flexible 
electronics for solar cells and medical applications through DOE-funded 
research.
    High performance computing is a traditional area of strength and 
responsibility for the Department of Energy that has been an important 
component of U.S. leadership in science and technology more broadly. 
The fiscal year 2016 budget grows our investment significantly to $273 
million for a multi-year, joint Office of Science-National Nuclear 
Security Administration (NNSA) effort to achieve exascale computing--
computing platforms with 100 to 1000 times more computational power 
than today's systems. This effort requires researchers and industry to 
overcome a number of technical challenges, including energy and big 
data management, as part of our push to develop enabling capabilities 
for exascale computing. We recently announced the joint Collaboration 
of Oak Ridge, Argonne, and Lawrence Livermore (CORAL) to advance within 
an order of magnitude of the exascale target within a few years. In 
addition, the Office of Science is supporting the Computational Science 
Graduate Fellowship program to support training in advanced scientific 
computing. These investments will ensure continued U.S. leadership of 
this critical capability in a very competitive global environment.
    The budget provides funding at the fiscal year 2015 level for the 
U.S. contributions to the ITER project, a major international fusion 
facility currently under construction in France. ITER will be the 
world's first magnetic confinement long-pulse, high-power burning 
plasma experiment aimed at demonstrating the scientific and technical 
feasibility of fusion energy, and the request includes support for 
important critical-path items.
    We will continue in this budget to grow the Energy Frontier 
Research Center (EFRC) program by initiating five new centers and 
continuing support for existing Centers, for a total investment of $110 
million in fiscal year 2016. This EFRC program is our flagship 
investment in basic science that underpins future energy technologies.
    With our budget request, we support Fermilab operations at a total 
of $135 million for operations, which includes operations of the NOvA 
neutrino experiment. We are also investing $20 million to move forward 
planning and design for the Long Baseline Neutrino Facility at 
Fermilab. Last year, the particle physics community came forward with a 
visionary strategic plan for the High Energy Physics program, and our 
budget request responds to their recommendations, specifically by 
aiming to develop a strong international consortium for the next 
generation of neutrino physics experiments.
                                 energy
All-of-the-Above Energy Approach for a Clean Energy Economy
    Preparing for the clean energy economy in order to address climate 
change and energy security, principally through science and technology, 
is an essential focus of the Department of Energy. The President's 
Climate Action Plan is a guiding document for our efforts to mitigate 
climate change risks through clean energy technologies. The 
Administration remains committed to an all-of-the-above energy 
approach, and we believe that we need to enable technologies across all 
fuel sources to become competitors in a future clean energy 
marketplace.
    In the last year, we have seen important accomplishments across the 
Department's technology portfolio that highlight our all-of-the-above 
approach. We have geologically sequestered over 9 million metric tons 
of CO2 through DOE-supported projects. Two commercial-scale cellulosic 
ethanol facilities supported by DOE grants or loan guarantees have 
commenced operations. We have commissioned one of the world's largest 
battery storage systems at the Tehachapi Wind Energy Storage Project. 
We have issued ten final appliance energy efficiency standards in 
calendar year 2014, which altogether will help reduce carbon dioxide 
emissions by over 435 million metric tons through 2030. Standards 
enacted since 2009 are projected to avoid a cumulative total of 2.2 
billion metric tons of carbon emissions through 2030. The Office of 
Energy Efficiency and Renewable Energy (EERE) has achieved 70 percent 
of the SunShot goal of cost parity for utility scale solar energy.
    The Advanced Research Projects Agency--Energy's (ARPA-E) grant 
program has attracted more than $850 million in private follow-on 
funding to 34 ARPA-E projects, with 30 ARPA-E teams forming new 
companies.
    EERE has launched the Frontier Observatory for Research in 
Geothermal Energy (FORGE), a first-of-a-kind field laboratory to deploy 
enhanced geothermal energy systems, and we have seen battery technology 
improvements that are projected to reduce battery costs for electric 
vehicles by 40 percent. The Office of Nuclear Energy has successfully 
completed the first 5-year program at the Consortium for Advanced 
Simulation of Light Water Reactors (CASL) nuclear modeling Hub at Oak 
Ridge and has initiated a second award for design and licensing support 
of a small modular nuclear reactor with advanced safety features.
    Consistent with an all-of-the-above energy strategy, the DOE Loan 
Programs Office has issued loan guarantee solicitations for innovative 
technologies in four areas, including $4 billion for renewable energy 
and energy efficiency, $8 billion for fossil energy, $12 billion for 
nuclear energy, and $16 billion for advanced vehicle technology 
manufacturing.
    Projects that this program has supported include one of the world's 
largest wind farms; several of the world's largest solar generation and 
thermal energy storage systems; Tesla Motors; and more than a dozen new 
or retooled auto manufacturing plants. This program's accomplishments 
include issuing loan guarantees for projects that avoided more than 6.1 
million metric tons of carbon dioxide cumulatively in 2014, and for 
companies that produced more than 2.1 million fuel-efficient vehicles 
in 2014. We are moving aggressively in finding good projects to deploy 
innovative energy technologies using the remaining $40 billion in loan 
authority in the coming years.
    Together, these accomplishments illustrate how DOE's programs 
invest in an all-of-the-above spectrum of energy technologies, and the 
fiscal year 2016 budget request continues forward on that strategy with 
a $5.4 billion request for our applied energy programs.
    Advanced manufacturing will continue to be a major focus of our 
investments. We will continue to help support an American manufacturing 
renaissance. The fiscal year 2016 budget fully funds two new clean 
energy manufacturing innovation institutes and continues funding for 
four institutes, as part of the larger National Network for 
Manufacturing Innovation, including the advanced composites 
manufacturing institute in Tennessee the President announced in 
January. To support these institutes, the Request provides $196 million 
out of a total request of $404 million for EERE's Advanced 
Manufacturing program.
    In energy efficiency, the Request invests $264 million, an increase 
of $92 million, to develop and promote the adoption of technologies and 
practices that, when fully deployed, would reduce U.S. building-related 
energy use by 50 percent from the 2010 Annual Energy Outlook baseline. 
It also provides $228 million, $35 million above fiscal year 2015, to 
support competitively selected projects, training and technical 
assistance, and residential energy efficiency retrofits to 
approximately 33,000 low-income households nationwide.
    The FEMP budget includes $15 million for the Federal Energy 
Efficiency Fund which provides direct assistance to agencies for 
investing in priority energy projects for efficiency and renewables. By 
providing direct funding and leveraging cost sharing at other agencies, 
the fund creates greater opportunities to develop Federal projects that 
may not otherwise be implemented.
    The Request increases our investments in sustainable 
transportation, including $40 million for the SuperTruck II initiative 
to develop and demonstrate technologies to double class 8 freight truck 
efficiency by 2020 from a 2009 baseline. The Request also continues our 
focus on electric vehicles by investing $253 million in the EV 
Everywhere initiative, which aims to enable domestic production of 
plug-in vehicles that are as affordable and convenient as gasoline 
vehicles by 2022. By continuing to make progress in core component 
technologies such as the dramatic reductions we are seeing in battery 
and fuel cell costs, we are looking to achieve transformative 
performance improvements for electric vehicles in the marketplace.
    In biofuels, the budget continues our focus on drop-in fuels, which 
can take advantage of existing infrastructure, and we will provide $45 
million for the jointly funded USDA/DOD/DOE commercial scale 
biorefineries program to produce military specification drop-in fuels. 
We will also continue research and development efforts on supplying, 
formatting, and converting cellulosic and algae-based feedstocks to 
bio-based gasoline and diesel, with a $138 million investment in the 
fiscal year 2016 Request.
    The budget continues to support accelerated advances in renewable 
energy. The SunShot Initiative has helped accelerate the reduction in 
solar costs, and our request of $337 million, an increase of $104 
million, aims to continue progress to achieve cost parity without 
subsidies by 2020. For wind energy, the Request of $146 million, an 
increase of $39 million, includes funding for year 5 of a 6 fiscal-year 
Offshore Wind Advanced Technology Demonstration program supporting 
three offshore wind projects on track to begin operation in 2017. Our 
request of $96 million for geothermal energy, $41 million above fiscal 
year 2015, implements the FORGE, an experimental facility aimed to 
advance enhanced geothermal systems, and pursues new approaches to 
hydrothermal development with a special focus on collaborative efforts 
with the Office of Fossil Energy on subsurface science, technology and 
engineering.
    As we witness the transformation of our Nation's electric grid, the 
Department continues to drive electric grid modernization and 
resilience. In May 2014, with cost-share funding provided by the Office 
of Electricity Delivery and Energy Reliability (OE), Southern 
California Edison constructed and installed equipment for a prototype 8 
megawatt/32 megawatt-hour battery storage plant for wind integration at 
Tehachapi, CA. The Tehachapi Wind Energy Storage Project is positioned 
to demonstrate the effectiveness of lithium-ion battery and smart 
inverter technologies to improve grid performance and assist in the 
integration of variable energy resources. In addition, we continue 
improving the security of the Nation's energy infrastructure. Oak Ridge 
National Laboratory announced in January 2015 the licensing of its 
Hyperion software, which helps detect software that has been 
maliciously altered. Today, more than 20 new technologies that OE 
investments helped support are now being used to further advance the 
resilience of the Nation's energy delivery systems.
    In fossil energy, we will continue our across-the-board focus on 
carbon capture and sequestration and improving the environmental 
performance of natural gas development. In particular, the fiscal year 
2016 budget includes funding to conduct initial R&D towards 
demonstration of carbon capture and storage for natural gas plants. 
While natural gas is an important bridge fuel, natural gas, as well as 
coal, will need carbon capture and sequestration to compete in a future 
clean energy economy.
    And while the fiscal year 2016 budget does not request new 
authority in these areas, the Department has $8 billion in loan 
guarantee authority for advanced fossil technologies, as I mentioned 
earlier, and the Department will continue to work with prospective 
applicants. Through the President's budget request for the Treasury 
Department, the Administration is also proposing a new, $2 billion 
refundable investment tax credit, including support for the 
infrastructure for carbon capture and sequestration, as well as a 
sequestration credit for commercial carbon capture use and storage 
(CCUS) deployment to allow for enhanced oil recovery or injection into 
deep saline aquifers.
    In the area of nuclear energy, the Request includes $62.5 million 
to continue technical support for moving a small modular reactor to the 
Nuclear Regulatory Commission licensing stage by the end of 2016, as a 
step towards industry's demonstration of this important technology 
early in the next decade. The Request includes $326 million to support 
research and development on reactor aging issues, advanced reactor 
concepts, and the fuel cycle. This request continues to support R&D on 
nuclear fuel issues at the Idaho National Laboratory. It also supports 
research on accident tolerant fuels and includes funding to continue 
laying the groundwork for implementing the Administration's Strategy 
for the Management and Disposal of Used Nuclear Fuel and High-Level 
Radioactive Waste, including a consent-based approach to the siting of 
storage and disposal facilities for nuclear waste. The Request also 
focuses resources on maintaining operational readiness at the Idaho 
National Laboratory, including $23.2 million for major power 
distribution infrastructure refurbishments and $11.7 million for 
critical security infrastructure investments.
    The Request includes $325 million for ARPA-E, an increase of $45 
million from fiscal year 2015, to continue to grow this important 
program. The program, which received its first appropriation in 2009, 
is now showing impressive results. It has over 400 projects to date, 
and the first group of completed projects has led to 30 new companies, 
of which five have been acquired by large strategic investors. 
Altogether, 34 ARPA-E projects have attracted over $850 million in 
follow-on funding.
    Through ARPA-E, we will continue to invest in early-stage 
innovation with the potential to lead to transformational energy 
technologies.
    For the loan programs, while the Request does not propose new 
authority for the Title 17 or Advanced Technology Vehicles 
Manufacturing loan programs, the fiscal year 2016 budget does include 
$9 million for credit subsidy to support a new loan guarantee 
solicitation for new clean energy projects on Tribal Lands.
    In addition to the new loan program, the Request provides $20 
million for the Office of Indian Energy Policy and Programs, an 
increase of $4 million, for its technical and financial assistance 
programs, with increased emphasis on remote communities and the 
National Strategy for the Arctic Region.
    The Department's final fiscal year 2015 budget supported a new 
workforce development effort for graduate and post-doctoral training in 
three areas of specific mission need for the Department: high 
performance computing in the Office of Science, advanced manufacturing 
in the Office of Energy Efficiency and Renewable Energy, and subsurface 
topics and project management in the Office of Environmental 
Management. These DOE traineeships are modeled in part after other 
Federal programs for university-led graduate traineeships and include 
components that are uniquely focused on DOE mission workforce training 
needs. Our fiscal year 2016 budget request proposes to add a fourth 
traineeship on radiochemistry, supported by the Office of Nuclear 
Energy, where we see a specific mission need.
Transforming Energy Systems, Investing in Resilient Energy 
        Infrastructure
    In addition to the clean energy investments I just discussed, our 
Nation's energy infrastructure is an area that needs--and is now 
getting--more attention.
    We have had several recent accomplishments relating to our energy 
infrastructure. Following the aftermath of Superstorm Sandy, the Office 
of Electricity Delivery and Energy Reliability committed $500,000, 
along with EERE, totaling $1 million for Sandia National Laboratories 
to provide technical assistance to New Jersey Transit and the Board of 
Public Utilities to assess NJ Transit's energy needs and help develop a 
conceptual design of an advanced microgrid system that will avoid 
disruptions and make it easier to get the power back on after a major 
disaster.
    Led by our Office of Energy Policy and Systems Analysis, we have 
also completed a nationwide public stakeholder process and analytical 
work in support of the upcoming release of the first-ever Quadrennial 
Energy Review (QER) of U.S. energy infrastructures.
    The QER is a 4-year interagency process, with the first year 
focusing on energy infrastructure--the transmission, storage, and 
delivery of energy. We expect the first QER installment to be released 
soon, and many of you may be interested in that document for its 
systematic analysis of the breadth of challenges with our current 
energy infrastructure. The QER will also include recommendations to 
drive future program directions.
    The electricity grid underpins many other infrastructures, and the 
fiscal year 2016 budget Request includes $356 million, an increase of 
$160 million, for a major crosscutting initiative led by the Office of 
Electricity Delivery and Energy Reliability to focus on the 
modernization of the electricity grid. This initiative invests in 
technology development, enhanced security, and modeling to enable the 
electricity grid of the future. This initiative includes $10 million 
for R&D to improve resilience of large-scale electricity transformers 
and $14.5 million to transition to an integrated system at the 
distribution level and develop a platform for market-based control 
signals. In addition, the Request establishes a virtual collaborative 
environment for conducting real-time advanced digital forensics 
cybersecurity analysis, which can be used to analyze untested and 
untrusted code, programs, and websites without allowing the software to 
harm the host device.
    The Request includes $15 million to develop advanced technologies 
to detect and mitigate methane emissions from natural gas transmission, 
distribution, and storage facilities, and $10 million to improve 
methane leakage measurements.
    We will focus new attention on State grants for energy assurance 
and reliability, recognizing that many authorities and actions in this 
area depend upon the States. The fiscal year 2016 Request includes 
$35.5 million to provide grants to State, tribal, and local governments 
to update energy assurance plans to address infrastructure resilience, 
as well as $27.5 million that is part of the Grid Modernization 
crosscutting initiative to provide competitive grants to States and 
multi-State entities to address electricity reliability.
    Finally, while we move toward implementation of recommendations on 
the first installment of the QER on infrastructure, DOE will move 
forward on future installments of the 4-year QER. The budget includes 
$35 million for the Office of Energy Policy and Systems Analysis to 
provide integrated energy systems analysis and follow-on QER support 
activities.
    In addition to the longstanding major mission areas of nuclear 
security, science and energy, and environmental cleanup, emergency 
response is an important mission for the Department. While we have had 
an ongoing responsibility for nuclear and radiological incident 
response, the Department has intensified its efforts for energy 
infrastructure emergency response, working with FEMA. Our budget 
proposes an increase from $6 million to $14 million for Infrastructure 
Security and Energy Restoration, the lead program for these responses. 
While the budget for this emerging responsibility is relatively small, 
it is an increasingly important focus.
Enhancing Collective Energy Security
    The Department's work in energy security is modest in budget 
requirements but greatly important for the Nation. Particularly given 
the events in Europe and Ukraine, we have an increased global focus on 
collective energy security--energy security for the United States and 
its allies.
    In the last year, we worked with the G-7 and the European 
Commission to achieve a G-7 Leaders Agreement on a new collective 
energy security framework. Led by our Office of International Affairs, 
we also worked directly with Ukraine to provided technical support in 
developing its first ever energy emergency management plan, especially 
for the winter. In December, we also signed a Memorandum of 
Understanding with Canada and Mexico to initiate improved coordination 
of North American energy data. Led by DOE's Energy Information 
Administration (EIA), this will help us develop stronger active 
collaboration moving forward.
    To continue on this progress for collective energy security, the 
fiscal year 2016 budget request includes $24 million for the Office of 
International Affairs. While the funding level is not large compared 
with other parts of the Department, the Office of International Affairs 
is taking on increased responsibility, as I just highlighted, and 
funding at this level is needed to fulfill its important mission and 
strengthen international energy technology, information and analytical 
collaborations.
    Similarly, the budget increases investment in the EIA to $131 
million, in order to fill gaps in current energy data, including 
transportation of oil by rail and integrating energy data with Canada 
and Mexico. The EIA recently initiated a data reporting program on oil 
and natural gas production trends by region, and the requested increase 
is needed to continue with this and other improvements in our data 
collection, analysis, and reporting.
    Last year, the Department also completed a 5 million barrel test 
sale for the Strategic Petroleum Reserve (SPR) to look at 
infrastructure challenges resulting in large part from pipelines now 
flowing in opposite directions from when the SPR was originally 
established. Through the test sale, we found challenges confronting the 
SPR's distribution system, and the fiscal year 2016 budget proposes an 
increase of $57 million above fiscal year 2015 for the SPR to begin 
addressing the operational readiness issues found through the test sale 
to enhance distribution flexibility and reliability and to begin to 
address the existing backlog of deferred maintenance projects.
Strategic Partnerships with National Laboratories to Advance DOE 
        Missions
    The Department is continuing its focus on building the strategic 
partnership with the National Laboratories. DOE is a science and 
technology agency, and our efforts across all of our mission areas are 
heavily grounded in science and technology. The National Labs are a 
major core asset in executing our missions, and strengthening our 
partnerships is critical to our success.
    We are doing that in a variety of ways. For example, DOE is 
engaging the laboratories very early on in our program planning. The 
National Laboratories Ideas Summit helped shape fiscal year 2016 budget 
initiatives and was instrumental in forming a special consortium of 14 
National Laboratories arranged to implement the crosscutting grid 
modernization research.
    We also have begun using the National Laboratories' expertise in 
science and technologies in some of our major challenges outside of the 
science and energy arena. When faced with what looked like major 
problems with the cost and schedule of the Uranium Processing Facility 
(UPF) at the Y-12 National Security Complex in Oak Ridge, or the major 
problem we had at the Waste Isolation Pilot Plant (WIPP), we engaged 
Laboratory leadership to help reformulate our approach to those issues. 
In those two examples, Oak Ridge National Laboratory led the Red Team 
review and restructuring of UPF, and the Savannah River National 
Laboratory led the forensics effort to investigate the cause of the 
failure of the waste canister at WIPP.
    The Laboratory Operations Board (LOB), a body that we put in place 
in 2013, performed the first-ever uniform assessment of general purpose 
infrastructure at all Laboratories and NNSA plants. That has led to 
identifying over $100 million in the fiscal year 2016 budget in new 
investments for priority general purpose infrastructure projects guided 
by LOB assessments, while also avoiding an increase in deferred 
maintenance.
    Finally, we have developed new strategies to strengthen 
institutional capability of the National Laboratory system based on 
advice from the Secretary of Energy Advisory Board (SEAB).
Enhancing Impact: Crosscutting Initiatives in Key Technology Areas
    The fiscal year 2016 budget expands the crosscutting initiatives 
introduced in the fiscal year 2015 budget designed to advance key 
technology areas that have multiple energy resource applications. Each 
crosscut reflects an integrated plan of work to optimize programmatic 
objectives by efficiently allocating resources. Through deliberate and 
enterprise-wide planning and coordination of these research efforts, 
the crosscutting initiatives will help bolster DOE's efforts to 
institutionalize enhanced program management and coordination across 
program offices, while accelerating progress on key national 
priorities.
    The programs and budgets within the three mission areas include 
over $1.2 billion in crosscutting R&D across six initiatives focusing 
on: electricity grid modernization, subsurface technology and 
engineering, supercritical carbon dioxide technology, energy-water 
nexus, exascale computing, and cybersecurity. These initiatives are the 
product of a concerted coordination effort among all three DOE Under 
Secretariats and program offices across the Department in close 
collaboration with the National Laboratories.
    The fiscal year 2016 budget continues to build on the five 
crosscutting initiatives established in fiscal year 2015. The Exascale 
Computing initiative invests to make progress toward a thousand-fold 
improvement over current high performance computers. Grid Modernization 
supports technology development, enhanced security, and stakeholder 
support to enable evolution to the grid of the future. The Subsurface 
Engineering initiative invests in new wellbore systems, seismic 
research, and other areas supporting a wide variety of energy sources. 
The Supercritical Carbon Dioxide initiative establishes a 10 MWe-scale 
pilot Supercritical Transformational Electric Power facility aiming to 
increase the efficiency of power generation, and the Cybersecurity 
crosscutting initiative strengthens cybersecurity across DOE's Federal 
and laboratory sites, and improves cybersecurity for the Nation's 
electric, oil, and gas sectors.
    The fiscal year 2016 budget also proposes one new crosscutting 
initiative, the Energy-Water Nexus. This initiative recognizes that the 
Nation's energy system uses large quantities of water, and the Nation's 
water system uses large quantities of energy, and that DOE's 
coordinated science and technology efforts can contribute to the 
Nation's transition to more resilient energy-water systems.
                            nuclear security
    The fiscal year 2016 budget request provides $12.6 billion for the 
NNSA, an increase of $1.2 billion over fiscal year 2015, to carry out 
our missions for the nuclear deterrent, nuclear nonproliferation 
programs, and propulsion for the nuclear Navy.
Effective Stewardship of the Nuclear Deterrent
    The Request includes $8.8 billion for Weapons Activities, $667 
million above fiscal year 2015, to maintain a safe and effective 
nuclear deterrent while continuing to reduce the size of the active 
stockpile.
    In pursuit of this mission, we have recently achieved a number of 
major accomplishments. We have, first and foremost, had another year of 
science-based certification of the stockpile as safe, secure, and 
effective without nuclear testing. It is important to remember the 
remarkable story that a science research program has enabled the 
paradigm to shift since nuclear testing ceased to allow us to 
consistently certify the stockpile as safe and reliable without 
testing, even as it shrinks.
    In the major life extension programs, we have now passed the 
halfway mark in Life Extension Program (LEP) for the W76-1 warheads for 
the Navy, and our fiscal year 2016 budget request of $244 million will 
keep us on track to complete the program in 2019. We have conducted 
successful first integration testing of the B61-12 LEP for the Air 
Force on or ahead of schedule, and the Request of $643 million supports 
delivery of the First Production Unit in 2020. By the end of fiscal 
year 2024, completion of the B61-12 LEP will shrink the number of 
active and inactive weapons, reduce the mass of nuclear material used 
in these weapons, and allow us to retire the B83, the last U.S. megaton 
class weapon. Our Request of $220 million for the W88 ALT 370 supports 
delivery of the First Production Unit with conventional high explosives 
refresh by fiscal year 2020.
    This budget supports the Nuclear Weapons Council decision to 
accelerate a new cruise missile capability, and the selection of the 
W80 as the warhead for the Air Force's Long Range Stand-Off system 
(LRSO). The fiscal year 2016 budget request includes $195 million to 
accelerate the program by 2 years, to be completed in 2025, in order to 
meet military requirements.
    We have begun operations in the new Kansas City Responsive 
Infrastructure Manufacturing and Sourcing (KCRIMS) facility with half 
the footprint and an improved operating environment compared to the old 
environment. And at the National Ignition Facility, we have 
significantly increased the shot rate and achieved impressive advances 
in experimental results in closer alignment with modeling predictions.
    As I mentioned earlier, we have used strategic partnerships with 
the National Laboratories to rethink some of our challenging projects. 
As a result of the Red Team review of the Uranium Processing Facility 
at the Y-12 National Security Complex in Oak Ridge, led by the Director 
of the Oak Ridge National Laboratory, and a similar review of the 
Chemistry and Metallurgical Research Replacement Facility (CMRR) 
capability at Los Alamos National Laboratory, we are developing a 
disciplined modular approach for both sites that will remove risks 
early in the process and build to a more rigorous budget and schedule. 
This rigorous process will be an important and recurring project 
management theme at the NNSA and across the Department of Energy--in 
particular, at the Office of Environmental Management.
Controlling and Eliminating Nuclear Materials Worldwide
    The fiscal year 2016 budget request includes $1.9 billion for 
Defense Nuclear Nonproliferation, $325 million above fiscal year 2015, 
to continue the critical missions of securing or eliminating nuclear 
and radiological materials worldwide, countering illicit trafficking of 
these materials, preventing the proliferation of nuclear weapon 
technologies and expertise, and ensuring that the U.S. remains ready to 
respond to high consequence nuclear and radiological incidents at home 
or abroad, and applying technical and policy solutions to solve 
nonproliferation and arms control challenges around the world. The 
Request is a $101 million, or 5 percent, increase from the comparable 
fiscal year 2015 enacted level after adjusting for a budget structure 
change moving counterterrorism efforts from the Weapons Activities 
appropriation to the Defense Nuclear Nonproliferation appropriation.
    We have completed the removal or disposal of a total of 190 
kilograms of vulnerable nuclear material, through bilateral agreements, 
and trilateral agreements with Russia and countries with material of 
Russian origin. Despite a difficult relationship at the moment, we are 
continuing to work with Russia to repatriate weapons-usable material to 
the United States or Russia.
    In 2014, we obtained a pledge from Japan at the 2014 Nuclear 
Security Summit in The Hague to remove and dispose of all highly-
enriched uranium and separated plutonium from the Fast Critical 
Assembly in Japan. We also helped prevent the illicit trafficking of 
nuclear and radiological materials, technology and expertise by 
installing 37 fixed and 22 mobile radiation detection systems 
worldwide.
    The fiscal year 2016 budget request reorganizes the Defense Nuclear 
Nonproliferation program into four business lines: Global Material 
Security; Materials Management and Minimization; Nonproliferation and 
Arms Control; and Nonproliferation Research and Development. We have 
also strengthened Counterterrorism and Emergency Response by 
consolidating these efforts with Nuclear Nonproliferation programs in 
one account. Together, these reorganizations create a clearer set of 
business lines for the nonproliferation programs and represent the full 
continuum of our nonproliferation efforts as we prevent, counter, and 
respond to global threats.
    In fiscal year 2015, the Congress appropriated $345 million to 
continue construction of the mixed-oxide (MOX) project at Savannah 
River. The fiscal year 2016 budget includes $345 million, which is the 
current services projection from the fiscal year 2015 enacted level, 
while we complete congressionally-directed studies on plutonium 
disposition costs and alternatives.
Advancing Navy Nuclear Propulsion
    The fiscal year 2016 budget request includes $1.4 billion for Naval 
Reactors, $142 million above fiscal year 2015, to support the Navy 
fleet and maintain progress on current efforts to refuel the land-based 
research and training reactor. The Request increases funding for Naval 
Reactor's core objective of ensuring the safe and reliable operation of 
the Nation's nuclear fleet (73 submarines and 10 aircraft carriers), 
constituting over 40 percent of the Navy's major combatants.
    The Naval Reactors programs achieved some significant 
accomplishments this year. In 2014, we began integrated testing of the 
lead A1B reactor plant of the next-generation FORD-class aircraft 
carrier and provided technical resolution support for the nuclear fleet 
which steamed over 2 million miles.
    The fiscal year 2016 budget provides $187 million to continue 
development of the advanced Ohio-Class Replacement Reactor, and $133 
million to initiate refueling of the Land-based Prototype reactor. We 
also provide $86 million to continue construction of the Spent Fuel 
Handling Recapitalization Project.
            cleaning up the cold war nuclear weapons legacy
    The fiscal year 2016 budget request includes $5.8 billion for 
Environmental Management, $43 million below the fiscal year 2015 
enacted level, to position DOE to meet the Nation's Manhattan Project 
and Cold War legacy responsibilities. DOE is responsible for the 
cleanup of millions of gallons of liquid radioactive waste, thousands 
of tons of used nuclear fuel and special nuclear material, disposition 
of large volumes of transuranic and mixed/low-level waste, huge 
quantities of contaminated soil and water, and deactivation and 
decommissioning of thousands of excess facilities.
    I will discuss in a moment the difficult challenges we face with 
some of our remaining Environmental Management projects. But I would 
like to start by pointing out that when the program started, there were 
107 sites to be closed, and we have cleaned up all but 16 sites. To be 
sure, the remaining sites are not the simplest to remediate; however, 
we started with over 3,000 square miles to remediate, and we're down to 
only 300 square miles. And so, by some metrics, we have cleaned 90 
percent of our total footprint. However, it will be decades before we 
finish the most difficult remaining sites.
    Though we are down to some of the most difficult sites, progress is 
steady. Last year, we completed demolition of the K-25 facility at Oak 
Ridge, the largest demolition project DOE has ever undertaken. We have 
converted 15 million pounds of liquid waste into solid glass at the 
Defense Waste Processing Facility at Savannah River, enabling closure 
of six high level waste storage tanks.
    We have put forward and are beginning to implement an alternative 
phased approach to completing the Hanford Waste Treatment Plant (WTP). 
We have cleaned up 479 square miles of the 586 square mile area at 
Hanford, including 90 percent of the River Corridor.
    Going forward in fiscal year 2016, recovery of the Waste Isolation 
Pilot Plant in New Mexico is one of our high priorities. The fiscal 
year 2016 budget includes $248 million to implement the WIPP recovery 
plan, leading to initial resumption of waste emplacement in the first 
quarter of calendar year 2016. The fiscal year 2016 budget will also 
support continued operations of the Integrated Waste Treatment Unit at 
Idaho and work towards closing the tanks.
    With $1.4 billion for the Office of River Protection, we will move 
forward on our phased approach to begin vitrifying low activity waste 
early next decade. The budget moves forward with construction of the 
Low Activity Waste (LAW) facility at the Hanford Waste Treatment Plant, 
including design of a new pretreatment system required for our phased 
approach. We will also continue technical issue resolution at the site, 
and we will bring the Plutonium Finishing Plant (PFP) at Hanford, once 
the highest risk nuclear facility at Hanford, down to slab-on-grade by 
the end of fiscal year 2016.
    Finally, we will continue construction and prepare for 
commissioning of the Salt Waste Processing Facility at Savannah River, 
which is on schedule to complete construction by December 2016.
   management and performance: improving efficiency and effectiveness
    Building on the Department's fiscal year 2015 emphasis on 
management and performance, the fiscal year 2016 budget moves forward 
on initiatives that continue to identify and institutionalize 
improvements across the DOE enterprise.
    In the Department's efforts to improve management and performance, 
we have adopted project management reforms, including strengthening the 
Energy Systems Acquisition Advisory Board (ESAAB) from an ad hoc 
process into an institutionalized regular process for situational 
awareness on project progress and issues, as they arise. ESAAB will be 
supported directly by a Project Management Risk Committee, which brings 
together DOE experts for a continuous look at the risk profile of major 
projects and issues. We have also taken steps to improve the project 
peer review process and institutionalize other project management 
reforms.
    We have also continually worked to improve management, increase 
efficiency, and support diversity on a number of fronts. We have 
recruited 30 high-level Ambassadors from industry, academia, and 
nonprofits to increase participation of minorities in energy. We have 
resolved hiring issues at the Bonneville Power Administration, 
providing additional Human Resources training and restoring hiring 
authority. The Department's management and operating contractors have 
reduced pension plan liability by $100 million through lump sum 
buyouts. Our management and operating contractors have also established 
Health Reimbursement Accounts at 13 sites for their medical-eligible 
retirees, reducing long term financial statement liability by $2.8 
billion.
    Going forward, the budget includes $25 million for the Office of 
the Human Capital Officer to implement a new Human Resources service 
delivery model to streamline our HR model and eventually consolidate 17 
current service centers to five key delivery centers. We will also 
implement a new Energy Jobs Council to improve calculation of energy 
jobs data and strengthen technical support for State workforce 
development programs. We will also continue to strengthen Departmental 
cybersecurity programs, part of the Cybersecurity crosscutting 
initiative, through an enterprise-wide cyber council established in 
2013 for securing personal data, our nuclear security data, and the 
privately-owned energy infrastructure.
  advancing the president's vision: implementing doe's strategic plan
    In conclusion, we have much to do to advance the President's vision 
and implement DOE's Strategic Plan.
    We will continue implementing the President's Climate Action Plan, 
to reduce emissions at home and around the globe.
    We remain committed to our all-of-the-above energy strategy, to 
encourage innovation, create jobs, enable economic growth, and 
contribute to domestic manufacturing and net exports.
    We must maintain leadership in basic research in the physical 
sciences--and increasingly in the life sciences, develop the next 
generation of computation technology, and develop and maintain world-
class scientific user facilities.
    We will continue to maintain a safe, secure, and effective nuclear 
weapons stockpile in the absence of testing, and manage the 
infrastructure needed to meet national security requirements.
    We must continue to reduce the global nuclear terrorism threat 
through measures to identify, control, and eliminate nuclear weapons 
worldwide.
    We will address the legal and moral imperative of cleaning up 
legacy waste to protect human health and the environment.
    We will strengthen DOE and its national missions through cross-
cutting initiatives that leverage the science, technology, and 
engineering capabilities across programs and National Laboratory 
partners.
    And we will continually improve DOE effectiveness and efficiency 
through project management reform and constant attention to maintaining 
a safe and secure workplace.
    Thank you, and I would be pleased to answer your questions.

    Senator Alexander. Thank you, Mr. Secretary. While you 
recover there, I will say to Senators Lankford and Cochran, we 
are going to call on Senator Feinstein first and give her an 
opportunity to ask her questions since she has an Intelligence 
Committee-related commitment and will leave early. Senator 
Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
very much appreciate this privilege. I wanted to--oh, good. 
Just a word to the distinguished chairman of the Energy 
Committee, both Senator Alexander and I mentioned that we had 
completed our joint effort at a nuclear waste policy act, and 
have worked with you and two former Democratic members, or 
ranking members, or chairs--Senator Bingaman and Senator Wyden, 
Senator Landrieu, and now Senator Cantwell. Senator Cantwell 
has gone on the bill, and my understanding is that our chairman 
has introduced it this morning on behalf of the four of us, and 
we are hopeful that you will see fit to have an early hearing 
so that we can possibly develop a nuclear waste policy for our 
country.

            INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR

    Senator Feinstein. Well, thank you. Thank you very much, 
Madam Senator.
    I wanted to ask a question about--here we go--ITER. It is 
behind schedule and over budget. In 2005, DOE's preliminary 
cost estimate for United States contributions to ITER was 
$1.122 billion, with completion in 2013. The current estimate 
is $4.1 billion with completion in 2034 and '35. As we all 
know, an independent cost review found that the costs could be 
as high as $6.5 billion, and the date could slip further.
    We discussed this at our last--during our last bill, and I 
think both the chairman and I, we are seeing little benefit 
from our participation in ITER. I do not believe that fusion 
will be developed during my lifetime, and perhaps not the 
lifetime of the younger members of this body. And it is 
building a facility in another country that we may never see 
benefits from. So I have some question about continuing this, 
and particularly continuing it at the amount that it is 
budgeted to be.
    Dr. Orr or Secretary Moniz, I would love to have your 
reaction and comment to those statements.
    Secretary Moniz. I will have to defer to Secretary Orr, I 
am afraid.
    Mr. Orr. So, yes, it is my job to try to answer a 
complicated question. The numbers you saw, of course, are 
correct as we know them. The project has encountered some 
serious delays, and there have been some management issues 
raised as well. The current state of play is that there is a 
new director-general who has been named, Bernard Bigot. He was 
confirmed in early March. He has put together a plan that 
would, if accepted fully by all the members, correct the 
management issues that have been raised in the external 
reviews. We think that the plan includes the right elements, 
but obviously there is work to be done to implement that. The 
next steps include building a realistic timeline for completion 
of the project and a realistic budget. And we will, of course, 
be watching very carefully as all of that develops.
    As you know, we are committed to 9 percent of the project 
costs, and the spending proposed for next year is consistent 
with what we think the rate that the project can absorb that 
funding. And I would also note that about 80 percent of that 
funding that we commit actually goes to make the parts, the 
equipment that we are committed to supply to the project, and 
so, therefore, it is actually spent in this country.
    Senator Feinstein. Well, it sounds to me like we have spent 
a billion--$1.22 billion just now in getting ready to get a 
project put together.
    Mr. Orr. Yes, it is fair to say, I think, that the design 
of the project in the early stages was not far along as it 
needed to be to provide realistic cost estimates, and that is 
being corrected now. That work has actually--the design work 
has gone on, but now, of course, they have to implement it.

                     DEPARTMENT STAFF PARTICIPATION

    Senator Feinstein. Yes, I guess this is a problem that I 
certainly have is that you spend a billion, $1.22, and you do 
not really have a project yet. My conclusion is, Mr. Chairman, 
we ought to take another look at it, but I will move along.
    The GAO has been working with DOE staff to review current 
practices and share advice and best practices based on their 
experience. GAO reports that in several instances, DOE staff 
have been unresponsive or unhelpful. The GAO noted that 
regarding reports on cost estimating and analysis of project 
alternatives--here is a quote--``DOE's unspecified open-ended 
date for responding to many of these recommendations may have 
indicated a lack of urgency or concern about the need to 
implement these recommendations.''
    Mr. Secretary, can you instill a sense of urgency in your 
staff to change the management culture and move it to 
participating in this in an active way?
    Secretary Moniz. I will certainly look into this. We have 
made a point, in fact, of trying to speed up our responses. I 
hope those of you here in Congress have noticed that the 
responses have been--the time lag for response has been 
decreased dramatically. We have done that with the DNFSB. I 
will now look into the GAO as well.

                      AMERICAN CENTRIFUGE PROJECT

    Senator Feinstein. Okay. And the last question is about the 
American Centrifuge Project, and I do not like to ask this, but 
I am going to. It was recently announced that Dan Poneman will 
become the new CEO of Centrus, the company formerly known as 
USEC. He served as Deputy Secretary of Energy from 2009 to 
2014, serving under both Secretary Chu and yourself. He was 
heavily involved in decisions to keep USEC afloat, particularly 
when that is just what was being done. It was not meeting its 
goals or timetables as I understand it.
    I understand that there are restrictions on Mr. Poneman 
relative to his contact with DOE for the balance of this 
Administration, but this seems to ignore his potential 
influence with career bureaucrats. And I am really less 
concerned about the optics for Mr. Poneman than I am the 
Department's. And given Mr. Poneman's direct role at DOE in 
advancing USEC, how can anyone fully trust a DOE or contractor 
decision which benefits Centrus?
    Secretary Moniz. Well, I can assure you, first of all, that 
we did make sure that Mr. Poneman had a refresher course on the 
restrictions. We have also made sure to distribute those 
guidelines to those in the Department. We will certainly try to 
adhere absolutely to that wall as called for in those 
restrictions. We will be having to make--as you infer, we will 
be having to make some difficult decisions going forward. You 
mentioned the ACP, for example. That is an area combining our 
enrichment and tritium studies. We will be coming back to the 
Congress soon, and that will cause implications for what is the 
future of that project. But I can assure you that we will be 
having no content----
    Senator Feinstein. Is USEC able to perform adequately at 
this point?
    Secretary Moniz. Well, I cannot get into the company's 
because I do not know the company's overall posture. But I 
would say on the ACP, as you know, we took that away from them 
and actually through Oak Ridge we are managing this project. 
But in the meantime, the former USEC employees who ran those 
machines are the ones that we need to hire to keep the machines 
running until we make a decision.
    Senator Feinstein. Thank you. Thank you, Mr. Chairman.

                       SPENT NUCLEAR FUEL STORAGE

    Senator Alexander. Thank you, Senator Feinstein. I will now 
continue a round of questioning, and I will take five minutes, 
and then go to Senator Murray, and then we will continue.
    Mr. Secretary, I want to focus during this time on used 
nuclear fuel. We have got Senator Murkowski here, who is the 
chairman of the Energy Committee. Senator Feinstein is still 
here. Senator Murray I know is interested in used nuclear fuel 
because of the Hanford situation. Federal law says Yucca is--I 
am going to ask you a large question and then just ask you to--
and then I am going to listen.
    Yucca is the current repository. I fully support the 
current licensing process, but Yucca's legal capacity is 70,000 
metric tons of used fuel. We have already more than that, so we 
have more than enough used fuel sitting safely at sites around 
the country, more than enough to fill up Yucca Mountain. So the 
conclusion we have come to is that whether you are for or 
against Yucca Mountain--I am for it--we need new repositories.
    We also have a small amount of used nuclear fuel from the 
Navy reactors and submarines, and we have canisters of high-
level waste from the Manhattan Project. And you made an 
announcement yesterday about defense and commercial fuel, which 
is relevant to this. So it is clear we need new and temporary 
and permanent storage sites.
    So in addition to Yucca Mountain, we have the idea of the 
pilot program, which comes from the Commission on which you 
serve. Senator Feinstein and I will include that in the Energy 
and Water bill. There is the legislation that we introduced 
yesterday together for a long-term solution, also based in 
large part upon the President Commission's recommendations. 
That is two.
    Another option that may be available is a private 
consolidated storage site like the one recently proposed by a 
group from West Texas, who have indicated their interest in 
filing with the Nuclear Regulatory Commission for an 
application. What they have said is that they might build a 
private site in units of 10,000, maybe 5,000 tons, but up to 
40,000. So the site would be able to hold about half as much as 
Yucca Mountain could if it were open. There is $36 billion of 
money we have collected from electric bills of Americans to pay 
for all of this. The Department of Education is supposed to be 
taking titles.
    So I am trying to get in my mind of these various proposals 
which one is likely to come on first. I know Senator Feinstein, 
for example, would like to get used fuel out of California from 
closed plants to somewhere else. There are seven other sites 
like that around the country.
    So here are my questions. How realistic is the possibility 
of an additional private repository? Do you think the Nuclear 
Regulatory Commission needs any authority to license private 
sites like the one proposed in Texas? Would you need any new 
authority for the Department of Energy to be able to store used 
fuel at a private facility assuming you are taking title and 
storing it there? And will you work with the subcommittee to 
give us technical advice on whatever we might do in the 
appropriations bill that would keep this option on track if it 
is a real option?
    Secretary Moniz. Thank you, Mr. Chairman. First of all, I 
completely agree with the inference that you made that we need 
a comprehensive approach to both spent fuel and to defense 
fuel, and we need to look at storage facilities, repositories, 
and in the context of yesterday's announcement on defense 
waste, potentially even other geological disposal pathways.
    In terms of the timing, I think it is pretty clear, and the 
Administration policy document of January 2013 reinforces the 
Blue Ribbon Commission report. And I think your legislation 
that moves towards a pilot scale storage facility is probably 
the thing that we could bring on the fastest, 6 to 8 years 
perhaps. Now, we had always been envisioning that in the 
context of a Federal facility that the Blue Ribbon Commission 
did and Administration policy did. I think this new dynamic by 
the announcement out of Texas that you referred to is extremely 
interesting, and we want--first of all, we want to learn about 
that.
    With regard to authorities, I think I am not in the best 
position to talk about NRC, although NRC has worked in some 
similar areas before. But with regard to our own authorities, I 
would say that I do not quite know yet what those authorities 
would be, but I can certainly imagine that, especially for a 
private sector facility, that a certain clarification that 
might come out of the legislative process could be quite 
desirable. And we are certainly happy to work as often as you 
would like in terms of discussing the technical aspects of 
this.
    Senator Alexander. Well, thank you for that. My time is up, 
but we would, I think speaking for Senator Feinstein and 
myself--and I will let Senator Murkowski speak for herself--we 
would be interested in working on that in the next 3 or 4 weeks 
to see, (A) what might appropriately be included in the 
appropriations bill, if anything; and (B) what might need to 
come before Senator Murkowski's committee with the whole 
objective, if it is--it sounds to me like you believe the 
private facility could be a realistic option. Then given our 
desire to find a place to put used nuclear fuel, we need to 
know what else do we need to do to put you in a position to 
move that option along.
    Secretary Moniz. Yes.
    Senator Alexander. Senator Murray.

                            HANFORD RICHLAND

    Senator Murray. Well, thank you very much, Mr. Chairman. 
Secretary Moniz, in your testimony you said that it will be 
decades before DOE finishes cleanup at most of our difficult 
nuclear waste sites. The prospect of another 20, or 30, or 40 
years passing before the Federal Government completes this 
critical work at the Hanford site in Central Washington and 
other sites throughout the Nation is pretty unacceptable.
    And it strikes me that year after year Congress receives 
budget requests that fail to meet the necessary investments to 
fulfill the Federal Government's legal and moral obligations 
here. And I am really concerned that the Administration has 
once again cut Hanford Richland Operations by nearly $100 
million just like last year. Tell us how the Administration is 
going to meet its legal commitments under the Tri-Party 
Agreement at this significantly reduced funding level.
    Secretary Moniz. Thank you, Senator. First, of course, I 
would like to talk about the entire Hanford site where we have 
a net $100 million increase in the budget, but admittedly 
Richland is down $100 million, and essentially the WTP is up 
for us to move that forward.
    On the Richland side, I would note that we have made 
considerable progress opening up a good portion of the river 
corridor and with the budget as proposed. And the EM budget 
proposal is $200 million above last year's proposal to the 
Congress, but about equal in appropriation. But going back to 
Richland, we will still--I believe we are going to finish the 
plutonium finishing plant down at this lab. But we will 
continue to clean up the groundwater in the central plateau. We 
will continue to make progress along the corridor. So I think 
it is a strong program. Obviously the best, you know, 
optimizing within our overall program.
    Senator Murray. Well, I appreciate that, but there are 
several high-risk projects close to the city of Richland, close 
to the Columbia River, and Energy Northwest that remain. I am 
really concerned the fiscal year 2016 budget request would 
hamper this cleanup. And in the case of the 324 building and 
the 61810 burial grounds, they would be stopped, or mothballed, 
or kicked down the road. Those are projects that are well 
underway, and we have spent $209 million on them combined. And 
it seems to me that DOE is now trying to pull the plug on them, 
which creates a safety risk, a cleanup delay, cost increases, 
and missing those Tri-Party Agreement milestones.
    The budget request that you gave cites technical challenges 
when rationalizing the cuts to those projects, but no one has 
been able to pinpoint for me what these technical challenges 
are. So what is holding you back from continuing to make 
progress on those projects?
    Secretary Moniz. What I would suggest is maybe the best 
thing is if we come in and talk with you or your staff as you 
prefer and try to work through the whole program.
    Senator Murray. Well, I mean, our subcommittee fought to 
provide $45 million in additional funding for those projects 
last year. And why has DOE not used that money to forward these 
really critical projects.
    Secretary Moniz. Again, let me look into in more detail, 
Senator, and get back to you, and see what we can do to advance 
those.
    Senator Murray. Well, I would like that part of the public 
record as well, so I think it is really important for this 
committee to understand it. And I would hope that we can answer 
in writing as well so that we can have that as part of the 
record.
    Secretary Moniz. We would be happy to. Thank you.

                             YUCCA MOUNTAIN

    Senator Murray. Okay. And let me just mention one final 
issue. The Nuclear Regulatory Commission completed its Safety 
Evaluation Report earlier this year and found that it would be 
safe to operate Yucca Mountain as its nuclear waste repository, 
confirming what more than 30 years of independent studies have 
found. While the fiscal year 2016 requests no funding to 
restart the adjudication process with the Atomic Safety and 
Licensing Board Panel, should Congress provide such funding, I 
really urge you, Mr. Secretary, to follow the congressional 
intent as directed in the Nuclear Waste Policy Act and defend 
DOE's Yucca Mountain license application as an active, engaged 
participate in those proceedings.
    Secretary Moniz. Do you want a response or not?
    Senator Murray. I am hoping you just nodded.
    Secretary Moniz. Sorry.
    Senator Murray. I hope you just nodded. Thank you, Mr. 
Chairman.
    Secretary Moniz. May I just note, Senator, that we do have 
about $17 million of unobligated carryover funds and additional 
obligated carryover funds. So right now, we have no request 
from the NRC, and we think that in a contingency we have the 
funds to cover any work that would be needed.
    Senator Murray. Okay. Thank you very much, Mr. Chairman.
    Senator Alexander. Thank you, Senator Murray. Senator 
Lankford.

                     LIQUEFIED NATURAL GAS EXPORTS

    Senator Lankford. Thank you, Mr. Chairman. Good afternoon, 
gentlemen. Questions about the LNG (liquefied natural gas) 
exports. I know that DOE has a new process on that working with 
FERC (Federal Energy Regulatory Commission), now putting FERC 
first in line and all that. I want to know how that is going at 
this point, and if any additional legislation is needed to help 
expedite the process and to make sure that is a consistent 
process?
    Secretary Moniz. Thank you, Senator. Let me first say that 
I would not phrase as it having put FERC first in line in the 
sense that FERC was always in the line in terms of needing to 
do the EIS. What we did is to say that when projects are ready, 
which is being interpreted as having gone through the EIS 
process, that we will then have enough information for our 
public interest determination, and then we will act.
    Senator Lankford. Right. So how is that going?
    Secretary Moniz. On our side it is going quite well. In the 
last turnaround from the EIS at FERC, we responded literally 
within a day actually. So I think once that information is 
available on environmental impact, I think we are being pretty 
expeditious.
    Senator Lankford. Is there a need for additional 
legislation to put timelines on some of the permitting at this 
point, or where do you stand on that?
    Secretary Moniz. Well, as we have said consistently, I 
think we are executing very expeditiously. I understand that 
Congress has some desire to provide some certainty over some 
years, and with reasonable timing we could work with that. But 
I think we are already responding quite well.

                          AGENCY DUPLICATIONS

    Senator Lankford. Just the geopolitical issues that we face 
right now with the export of LNG, you are extremely aware of as 
well, and some sort of certainty to our allies and other 
individuals that are interested in picking up that fuel is 
extremely important right now based on a lot of our 
negotiations.
    Let me ask a couple of things on some agency duplications 
and just how you manage these and how they work together. I 
want to note the lanes of this. DOE has an Office of 
International Affairs. The State Department has a Bureau of 
Energy Resources. The DOE has the Indian Energy Policy and 
Program Division. The Bureau of Indian Affairs has a Division 
of Energy and Mineral Development. How is that going as far as 
making sure that we have clear lanes of responsibility so we do 
not have overlap and duplication? Obviously we have--both those 
things we are interested in as a committee, but we do not want 
to fund them twice basically. There are other examples I can 
bring to bear as well. How do you manage that overlap of 
programmatic definitions and cooperation where you need it?
    Secretary Moniz. Yes. First of all, obviously number one is 
we do have strong coordination. For example, the head of our 
International Office and the head of the State DNR typically 
meet once a----
    Senator Lankford. Are those unique lanes of responsibility 
or do you feel like they are overlap?
    Secretary Moniz [continuing]. And then clearly having 
different lanes of responsibility. Much of our responsibility 
ends up being driven by our underlying technical energy 
technology expertise. So, for example, if one takes China, 
there we have the clean energy research center we put in some 
funds, China matches, industry matches all of that. Our funds 
are spent on American scientists and engineers. It is a very 
technology driven program. That would be a DOE activity as 
opposed to some of the more, let us call it, geopolitical 
responsibilities at State.

                           CELLULOSIC ETHANOL

    Senator Lankford. Okay. Let me ask you about a couple of 
other grants that are sitting out there. You had mentioned 
cellulosic and some of the advances in cellulosic ethanol. Did 
you mention that there are a couple of companies that are 
coming on board that are producing at this point that you are 
doing grants for, or is it some of the research and 
development?
    Secretary Moniz. It is certainly R&D as well, but, no, we 
also provided some grants to do some cost sharing to get 
commercial scale activities going. In fact, in the last year 
one in Iowa and one in Kansas will be producing about 25 
million gallons of cellulosic.
    Senator Lankford. Did we have grant money involved in the 
QER facility in Mississippi that went bankrupt last year? The 
largest cellulosic producer in the country closed in November 
of 2014 after multiple years of trying to make the technology 
work. What I am trying to figure out is if we are doing new 
grants to new cellulosic companies, have we learned the lesson 
of the cellulosic companies that already started, could not 
make it go, and closed?
    Secretary Moniz. Well, in general, I think we are having 
very, very rigorous processes in our portfolio management, 
strong risk management approaches. And I think our portfolios 
are performing well overall.
    Senator Lankford. Sure, I understand that. Do you know if 
we had Federal dollars involved in the QER facility?
    Secretary Moniz. I do not know that. We could respond for 
the record.
    Senator Lankford. It was the largest producer of cellulosic 
ethanol in the country when it closed. Obviously we are 
producing under a million gallons total in the entire country, 
and it was the largest of those.
    Secretary Moniz. Okay. We will look at that. Thank you.
    Senator Lankford. Okay, thank you. I will yield back.
    Senator Alexander. Senator Udall is next. While Senator 
Feinstein is still here, I am going to ask Senator Murkowski as 
chairman of the authorizing committee if she has anything she 
wants to say before Senator Feinstein leaves, or if you have to 
leave early. I want to make sure you have a chance to ask your 
questions.
    Senator Murkowski. Well, I do not want to preempt my 
colleague on the other side, but I do want to make the 
commitment to you, Mr. Chairman, and to your ranking member on 
this subcommittee that as we move forward with this legislation 
that we have worked so cooperatively on, that I really do hope 
that we have full cooperation and participation from the 
Secretary and from his team in identifying how we can truly 
move this forward. So if it is something where we need to 
understand a little bit more about what this private entity may 
offer and what needs to be done to facilitate that, if that is 
the best way to go. Know that I, too, am interested in 
advancing legislation that will begin to make a difference as 
we deal with our nuclear waste.
    So I do not have a specific question to the Secretary 
because quite honestly, Mr. Chairman, mine would have just 
mirrored yours exactly in terms of now that we have this 
legislation out there, what is the best way to proceed from the 
Secretary's perspective. So I got that answer from him.
    Senator Alexander. Well, thank you, and we will come back 
to you then.
    Senator Feinstein. May I add one thing?
    Senator Alexander. Sure, of course.
    Senator Feinstein. Is it necessary for anything for him to 
proceed? Could he unilaterally approve a Texas facility I think 
is a question worth asking.
    Senator Murkowski. Yes.
    Senator Alexander. Well, the application will be before the 
Nuclear Regulatory Commission----
    Secretary Moniz. NRC.
    Senator Feinstein. But who would make the application?
    Senator Alexander. They would make the application, but 
there are some--but, Senator Feinstein, there are some 
questions that probably need to be understood and resolved 
about--I think the NRC is ready to act on an application should 
it receive it. I think there are some questions that need to be 
resolved about whether the Department of Education is prepared 
and whether there are some things that we need to do make sure 
that they might be able to do it in a more rapid way. Is that a 
fair way to say it?
    Secretary Moniz. Yes, I think it is, Mr. Chairman, and I 
would add to that that part of it will depend upon things that 
I just do not know.
    Senator Alexander. Right.
    Secretary Moniz. For example, what would be the business 
model, and that might influence what kind of authorizations are 
required.
    Senator Alexander. Okay. Well, we will go to Senator Udall, 
and then we will come back to you, Senator Murkowski. If you 
have to leave, let us know, and we will work you in.
    Senator Murkowski. If I can go after Senator Udall, that is 
perfect. Thank you.
    Senator Alexander. Okay. Is that all right, Senator 
Cochran? Thank you, Senator. I feel like a ringmaster here. 
Thank you, Tom, for your patience, and we will go to Senator 
Udall, then Senator Murkowski, and then Senator Cochran if that 
is all right with Senator Cochran. Senator Udall.

                      WASTE ISOLATION PILOT PLANT

    Senator Udall. Thank you, Chairman Alexander. You are the 
ringmaster, and you are doing a very good job of it, and that 
is great. Secretary Moniz, wonderful to have you here and Dr. 
Orr, and appreciate very much your staff and how they have been 
working to ensure positive discussions with the State of New 
Mexico on the State's fines for the accident that occurred at 
the Waste Isolation Pilot Project (WIPP), and that Los Alamos 
was involved in. And I am hopeful that those discussions are 
going well.
    But I just want to reiterate my view that the State of New 
Mexico has a regulatory role, and I think you understand this 
very well. This was something I fought hard for as New Mexico's 
attorney general. We actually won a lawsuit against the 
Department of Energy at the time. So I just want to take this 
opportunity to remind you as discussions continue, that this is 
a unique situation. You are dealing with the only State in the 
Union that has ever accepted a nuclear waste facility, and I am 
hopeful that a constructive dialogue over the State of New 
Mexico's fines for the Department can continue along that line.
    Now, can you talk to us a little bit about working 
constructively to make sure this happens rather than heading 
into a litigation track, which could take many, many years I 
think, and are you committed to working with us to try to get 
that situation resolved?
    Secretary Moniz. Thank you, Senator, and I appreciate your 
interest and support in this area to the extent possible. Let 
me say that, yes, we very much would like to be able to resolve 
this with the governor, with the New Mexico Environmental 
Department, the discussions. Obviously I cannot go into the 
details here since they are part of a resolution pathway we 
hope, but we are very committed, and we are very encouraged 
that the discussions are going on at a very professional level. 
And I am hopeful we will be able to resolve this to the benefit 
of all the citizens of New Mexico and the Department.
    Senator Udall. Yes. No, that would be great. And as you 
know, the Accident Investigation Board report is expected to be 
released soon. Do you have any idea when that would be released 
on the accident?
    Secretary Moniz. I believe we are in the weeks time scale, 
I believe. I can go check on that. The technical evaluation was 
already presented to me.
    Senator Udall. Okay, good. And as you know, that 
contamination with the facility has been shut down. And so, I 
think it is very important that we see it be reopened safely, 
and I underline the ``safely.'' And so, I am hoping that we 
take that cautious approach to make sure that workers are not 
at risk. And will you commit to ensuring DOE does not repeat 
these mistakes again and expose workers to unsafe situations as 
well as radioactivity?
    Secretary Moniz. Well, I can assure you that we are doing 
all that we can in that dimension. First of all, at the very 
beginning, frankly I insisted that we not set schedules before 
we understood what the issues were for safety because otherwise 
safety could be compromised. Now we feel comfortable in terms 
of how the actions are going. We have a plan in terms of 
sealing off the two panels, and we have a plan for looking at 
all the other barrels that have some of the elements that have 
been identified as the cause of the thermal reaction. So we 
need to keep going as fast as we can to make sure that all of 
those other barrels are safe. Every indication is they are. We 
have done a lot of work on them already in terms of putting 
into safe conditions.

                                  B-61

    Senator Udall. Yes, and thank you for that work. And just a 
final question here on the B-61. I know you have made that a 
priority in the budget, but do you worry that the threat of 
sequestration might hurt our modernization in terms of the 
stockpile in the nuclear enterprise?
    Secretary Moniz. Absolutely, and, in fact, DOD and DOE, for 
our different but complementary responsibilities for nuclear 
security, have both said that sequestration caps will make it 
very, very difficult. Frankly, if the budget that we have 
requested in concert with the DOD and the Nuclear Weapons 
Council is reduced substantially, I think there is no doubt 
that we will have to work with DOD to push out military 
capabilities that they very much want.
    In fact, in this budget, the B-61, we would try to probably 
hold that, but then the cruise missile, for example, would 
almost certainly have to get pushed out substantially, as we 
have already pushed out other parts of the stockpile 
refurbishment.
    Senator Udall. Thank you very much. Thank you, Chairman 
Alexander. Thank you, Secretary.
    Secretary Moniz. Thank you.
    Senator Alexander. Thank you, Senator Udall. Senator 
Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. And, Secretary, 
welcome before the committee.
    Secretary Moniz. Thank you.
    Senator Murkowski. I feel like I have got a second bite at 
the apple because you were before the Energy Committee not too 
many weeks ago, and I did have an opportunity to ask questions. 
I would ask you, I did submit a series of questions for the 
record. We still have not received responses on that, so if you 
could have someone to check on the status.
    Secretary Moniz. I will check.
    Senator Murkowski. And we had also hoped to have a hearing 
actually tomorrow, Thursday, on the QER and the release of 
that. And we had hoped--we figured that we were going to be 
setting this well enough in advance, so we have rescheduled 
that for the 28th of April. Are we going to be good with our 
timing so that you think we can proceed with that? We will have 
had a chance to look at that QER that is going to be before the 
Congress.
    Secretary Moniz. I think we will be good with that.
    Senator Murkowski. Okay, good.
    Secretary Moniz. You will have time to review it in advance 
as well.
    Senator Murkowski. Well, we are looking for it with great 
anticipation----
    Secretary Moniz. Thank you.

                          ARCTIC ENERGY SUMMIT

    Senator Murkowski [continued]. As you and I have discussed. 
We are hopeful that there will be a useful framework as we work 
on our energy legislation, so we will look forward to that. At 
the Energy Committee hearing, I did ask you about the Arctic 
priorities contained within the Energy Department's budget, and 
I am continuing to advocate on these issues that you know I 
believe have great significance and priority.
    We have an Arctic Energy Summit that is to be scheduled. It 
is scheduled already. It is going to be in Fairbanks from 
September 28th through the 30th. I do not know if you or your 
staff have been notified of this, but as I have invited you to 
Alaska to review our renewable energy resources, I would also 
invite you to attend that summit or perhaps a designee if that 
would be appropriate. I think it will be timely, and, again, an 
issue that you have and I have discussion on.
    Secretary Moniz. I will certainly look into my schedule, 
but certainly I can assure you we will have senior 
representation.

                             NATIONAL LABS

    Senator Murkowski. Great, I appreciate that. Let me move to 
our national labs. In recent weeks we have seen both this 
congressionally directed commission to review the effectiveness 
of our national energy labs as well as the Task Force on 
National Labs highlight the level of bureaucracy that exists 
between the Department and the labs. That is something that I 
think most of us realize we did not need a report or a 
Commission to determine that. We know that it is an issue.
    Where do we go from here with that? What do we do with 
these latest recommendations to ensure that we do have just a 
greater connect or synchronization here?
    Secretary Moniz. Well, I think we are making progress, and 
I think that was acknowledged in the reports, but there is more 
to do. I think the major overarching critique is that the 
system has become too transactional as opposed to kind of 
outcome oriented. And we have--frankly from day one I created 
the Laboratory Policy Council and the Laboratory Operations 
Board to address these issues, the bringing of--I would say 
kind of restoring a more strategic relationship between the 
Department and the labs. And I think we are getting some 
traction, but we have to keep at it and sustain it. That is on 
the strategic plane.
    But then one comes to the operational level, we have two 
task forces, one working and one just about to be charged, 
which address these transactional issues. So one is a task 
force headed by the head of the Office of Science looking at 
what are the streamlining actions we can take on the M&O 
contracting approach, and they will be reporting reasonably 
soon. And our management and procurement people are all 
involved in that, and so I am hoping for some interesting steps 
that we can take quickly.
    But then we are about to form another group, which is more 
the ``revolutionary group,'' which is going to take one 
particular site, which has some simplicities in its management 
structures, governance structure, with regard to some of the 
other laboratories. And at least in that case look to do a 
pilot program for perhaps tweaking the very structure of the 
M&O contract to help get around some of those transactional 
issues.
    Senator Murkowski. Well, it has long been a problem, so I 
hope that this revolutionary approach pans out.
    Secretary Moniz. That was in quotes.

     ADVANCED TECHNOLOGY VEHICLES MANUFACTURING DIRECT LOAN PROGRAM

    Senator Murkowski. I understood it, and I put it in quotes 
as well. I want you to notice. Very briefly on this last 
question. This is the 48th consecutive month that the ATVM 
Direct Loan Program has been unable or unwilling to finalize a 
new direct loan for an auto maker or a component supplier. So 
it really begs the question in terms of why we would continue 
to have this program on the books, why we would continue to 
have taxpayer support there.
    I have been critical of this program I think you know, and 
have questioned the need and the justification for a direct 
loan program for auto makers and these component suppliers. So 
know that this is something that I am looking at. I do not know 
how many applications you actually have that have been 
submitted to DOE, and whether or not you are even considering 
making a yes/no decision coming up. But you look at that 
program in 48 months, and there has not been a loan made. It 
does cause you to question why we are engaged in this.
    Secretary Moniz. I certainly understand the question. Let 
me just say that I think we have restructured not only the 
ATVM, but the loan programs as a whole. And on the ATVM 
Program, I think it was about a year ago when I and Peter 
Davidson went out to make it clear that for one thing, 
component suppliers were certainly eligible as they face 
retooling challenges for the highly efficient vehicles that we 
need by 2025. And secondly, that the program--that ATVM Program 
had some problems in terms of its dealing with the applicants. 
I believe we have cleaned that up, and we are getting a lot of 
interest. We have an interesting proposal stream, and I think 
you will see some outputs pretty soon.
    Senator Murkowski. Well, Mr. Chairman, thank you for 
allowing me a little extra time. I want to note we have a group 
of young Alaskans that are part of the Close Up Program that 
have been watching this. I told them that while nuclear waste 
is not necessarily something that we are worried about in 
Alaska right now, these are national problems, these are 
national issues, and these kids are getting a firsthand look at 
it.
    Senator Alexander. Well, and they are getting a chance to 
see the chairman of the Senate's Energy Committee, which is 
very important to Alaska, who is also a member of this 
committee. So we welcome them. We are glad they are here. Thank 
you, Senator Murkowski.
    Senator Murkowski. Thank you, sir.
    Senator Alexander. And thanks to Senator Cochran, who is 
chairman of our whole committee, for deferring to other 
Senators. And we will call on him now, then we will go to 
Senator Shaheen.

                           SPENT FUEL STORAGE

    Senator Cochran. Thank you, Mr. Chairman. Mr. Secretary, I 
was looking through the notes that I have been given by my 
staff before the hearing, and we had been advised that there 
was serious consideration given to placing in some Mississippi 
reservoirs a repository for nuclear waste. Those who are 
worried about that from a public safety point of view are 
opposed to even, you know, talking about it, much less seeing 
it happen because of fears, the fears of the unknown in large 
part, but there may be reasons why they are justified. Could 
you give us a status report here or submitted for the record, 
whatever your choice is? I would like to know something about 
the status now, and maybe something a little more elaborate to 
put in the record.
    Secretary Moniz. Okay. Thank you, Mr. Chairman. First of 
all, I was aware--I think it was about a year ago when some 
Mississippi community expressed in a storage facility and 
others expressed lack of interest. But more generally, in our 
fiscal year 2016 budget request we have about $30 million 
requested to start a consent-based process to reach out to 
communities, and States, and regions to see about potential 
interest or interest in potentially hosting a storage facility, 
above ground storage if you like, or potentially a repository.
    So we will be--let me be very clear. We do not have the 
authority to actually implement, to build a storage facility 
without congressional action, but we can move on these early 
stages and deal with communities, provide information, and see 
if they would like to then be a part of a process going 
forward.
    Senator Cochran. Have you developed any sort of schedule in 
terms of when you expect to make a decision as to what you 
would recommend?
    Secretary Moniz. No, I am afraid that is probably too 
unclear at the moment, but we would like to move out in this 
calendar year for sure with this outreach to communities. It is 
not only about storage and repositories. It is also about 
transportation issues, et cetera. So we would really like to 
start laying the groundwork for what will be a set of consent-
based facilities for managing nuclear waste.
    Senator Cochran. Is there contained in the budget request 
that has been submitted by the Department any request for 
funding for anything, any activities?
    Secretary Moniz. Well, the $30 million that I just 
mentioned just for this kind of initial planning and reaching 
out to communities. So that is the near term thing, and we 
envision having some town hall meetings, et cetera.
    Senator Cochran. Thank you.
    Secretary Moniz. Yes.
    Senator Alexander. Thank you, Senator Cochran. Senator 
Shaheen.

                            THERMAL BIOMASS

    Senator Shaheen. Thank you, Mr. Chairman, and thank you, 
Secretary Moniz and Dr. Orr for being here this afternoon, and 
for your service to the country. Secretary Moniz, I read with 
great interest the President's recent executive order planning 
for Federal sustainability in the next decade. I was pleased to 
see that it recognizes thermal power as one of the ways in 
which the Federal Government can address its energy needs. And 
as I know you know, because you are from the northeast, we use 
a great deal of home heating oil in the northeast. New 
Hampshire has the second highest percentage of homes using home 
heating oil. And one of the exciting things about thermal 
biomass is that it offers an alternative for homes and 
businesses in New Hampshire, and also contributes to our timber 
economy in the State.
    And I have had a chance to visit the White Mountain 
National Forest supervisor's office in Campton, New Hampshire 
where they have installed a 90 percent efficient gasification 
pellet boiler system. That has been very beneficial to them. 
And so, I wonder if you could talk a little bit about the 
potential that you see in thermal biomass and what the role of 
DOE can be in promoting that or encouraging its use, not just 
across the Federal Government, but in other ways that are 
beneficial to homeowners like in New Hampshire.
    Secretary Moniz. Thank you. Well, thermal biomass, of 
course, it tends to be regional in terms of its attractiveness.
    Senator Shaheen. Right.
    Secretary Moniz. And certainly in New England there is a 
long history of doing it in industry--the paper industry, et 
cetera, forestry. Then there is a second dimension comes in to 
co-firing, for example, in parts of the country with, for 
example, coal plants. One way of addressing CO<INF>2</INF> 
emissions is by co-firing. In fact, some even would say that 
with enough biomass co-firing and capture, one could even have 
negative CO<INF>2</INF> emissions. So that is a very 
interesting development.
    And then as you refer to the developments in terms of 
pellets in pellet stoves is also something that actually has a 
non-trivial potential if it were fully exploited. But these are 
all interesting areas with----
    Senator Shaheen. What do you mean by a non-trivial 
potential?
    Secretary Moniz. Well, I think in the sense of 
participating--I mean, producing essentially heat, oil, 
electricity at a significant level, not 50 percent of 
electricity or heat, but not, .5 percent either. So somewhere 
in between.
    Senator Shaheen. And can you talk about the role of the 
Department of Energy in encouraging, looking at the use of 
thermal biomass throughout the Federal Government and what kind 
of an alternative it might provide, and what other 
opportunities there are for DOE to help educate people about 
those opportunities?
    Secretary Moniz. I think there are some programs that have 
gone on in terms of also helping support pilot semi-commercial 
scale projects, especially with wood biomass. But I have to say 
perhaps we should go back and look at the question, whether we 
need to take a more coherent view of that, and carry out some 
of the educational activities that you said. I do not know, 
Lin, if you want to add anything.
    Mr. Orr. I do not have anything to add.
    Secretary Moniz. Okay, thank you. We will do that.

                    SMART MANUFACTURING TECHNOLOGIES

    Senator Shaheen. That would be great. I would encourage you 
to do that. I know that there is legislation that has 
authorized but has never been appropriated money to encourage 
some districting through biomass. So let me now switch to smart 
manufacturing, again manufacturing, and the re-emergence of a 
strong manufacturing based in this country is very critical to 
our economy. And one of the concepts that seems to be most 
promising to encourage manufacturing is the concept of smart 
manufacturing, the encouragement of new technologies to help 
with that.
    Can you discuss what the potential is for deploying smart 
manufacturing technologies and what DOE's role might be in 
that?
    Secretary Moniz. Certainly. The smart manufacturing is one 
of a number of kind of enablers of a next generation of 
manufacturing. Certainly one of the--in terms of DOE, a 
specific initiative is that of establishing these national 
manufacturing initiatives. And we have done so while we worked 
with DOD to establish a pilot in Ohio for 3-D printing. But, 
again, for example, our Oak Ridge Laboratory, for the chairman, 
he knows very well. Our Oak Ridge laboratory, for example, 
working with a small, private company printed the first car 
using that technology. We then established another one on wide 
band gap semi-conductors, another on composite materials. And 
now we are in the process of running a competition for one on 
smart manufacturing, integration of sensors, controls, real 
time modeling, et cetera. And we think these kinds of 
technologies, if we propagate them, and that is why these 
institutes are really alliances of a number of academic 
institutions and companies that we have to get this technology 
out, not only to the very biggest companies, but to the mid-
size companies so that they can compete.
    Senator Shaheen. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Senator Alexander. Thank you, Senator Shaheen. Senator 
Graham.
    Senator Graham. Thank you, Mr. Chairman. Mr. Secretary, 
thank you for your service. From my two cents worth, I think 
you are doing a very good job.
    Secretary Moniz. Thank you.

                             SEQUESTRATION

    Senator Graham. I hope that does not hurt you with the 
White House. But in 30 seconds--you may have already done 
this--can you tell us what sequestration will do to your 
Department if we do not find a replacement for these cuts?
    Secretary Moniz. Yes, sequestration would be very, very 
harmful. I think we would see a repeat of what we saw a few 
years ago. And earlier we discussed it particularly in terms of 
on the defense side, that our Stockpile Stewards Plan simply 
could not be executed to meet military capabilities on the 
schedule as desired.
    On our civilian side as well, I should say, because it was 
also said earlier that we are way under investing in clean 
energy technology. So it is on both sides, certainly on the 
stockpile side, that we have discussed before. It blows the 
schedule.
    Senator Graham. And the bottom line is that our nuclear 
deterrent would be compromised.
    Secretary Moniz. Yes. We could not meet the dates that DOD 
is looking at to meet their military requirements.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Senator Graham. I am not so sure that is a message we want 
to send any potential enemy of the country. My favorite topic, 
and I am sure yours, MO<INF>X</INF> (Mixed Oxide Fuel 
Fabrication Facility). So just for the record, the 
MO<INF>X</INF> Program is an agreement between Russia and the 
United States to dispose of 34 metric tons of weapons grade 
plutonium. It started back in the 90s, right?
    Secretary Moniz. Each.
    Senator Graham. Yes.
    Secretary Moniz. Yes.
    Senator Graham. That is equivalent to 17,000 warheads 
someone told me. Is that about right?
    Secretary Moniz. Yes.
    Senator Graham. That is a lot of weapons material. And the 
goal is to take that off the market forever and turn it into 
commercial grade fuel here, the MO<INF>X</INF> Program.
    Secretary Moniz. Correct.
    Senator Graham. Take a sword and turning into a plowshare.
    Secretary Moniz. Correct.
    Senator Graham. In 2010, we signed an amendment to the 
agreement with the Russians where we pledged to use 
MO<INF>X</INF> as the disposition path.
    Secretary Moniz. Correct.
    Senator Graham. Taking weapons grade plutonium, blending it 
down to create commercial grade fuel that would supply our 
reactors. So at the end of the day we are about 60 percent 
complete, is that right?
    Secretary Moniz. On the MO<INF>X</INF> fabrication 
facility. There are other facilities as well.
    Senator Graham. Yes.
    Secretary Moniz. Right.
    Senator Graham. Okay. So we have had a funding problem. I 
want to reduce costs. There are some studies being done as an 
alternative to MO<INF>X</INF>. When can we expect those studies 
to be submitted to the committee or to the Congress?
    Secretary Moniz. Well, the first study is due April 15th, 
and we are hoping to meet that date.

                      THE FUTURE OF NUCLEAR POWER

    Senator Graham. Okay, thank you. And I just want to thank 
you for helping us the best you can to lower costs. But as the 
Chairman knows, this is a very big deal for South Carolina. We 
have agreed to be a partner with the Federal Government, to be 
the site that would accept the 34 metric tons of weapons-grade 
plutonium, and build and utilize the technology that would turn 
it from a sword to a plowshare.
    I do appreciate the President's budget this year. It is 
better than last, and I know we have got some out-year costs 
that we have got to deal with, so I really appreciate your 
effort to work with us. And I do not believe there is a viable 
alternative that is cheaper or practical, so thank you very, 
very much.
    In terms of the future of nuclear power in this country, 
how would you evaluate the future of nuclear power in this 
country, and particularly on the waste side dealing with 
nuclear waste? What do you see happening in the coming years?
    Secretary Moniz. Well, with regard to the future of nuclear 
power plants, first of all, I would just mention I think it is 
very important how the plants in Georgia and South Carolina end 
up coming in--with regard to budget and schedule, there have 
been some problems, but we will see how that ends up. Another 
direction, small modular reactors could be very interesting as 
well on the----
    Senator Graham. Are you open-minded to that concept of 
small modular reactors?
    Secretary Moniz. Absolutely.
    Senator Graham. Yes, it makes perfect sense.
    Secretary Moniz. I am very enthusiastic that we find out 
what the cost is, et cetera. They have very attractive 
features.
    Senator Graham. I agree.
    Secretary Moniz. On the waste side, well, we discussed it a 
little bit earlier, and I would say that we think we have to 
move out on three fronts. It used to be two perhaps, and 
yesterday it became three. The one is we should be moving 
towards interim storage, and especially a pilot project, as 
soon as we can. We discussed earlier that may have the flavor 
now of being a private as opposed to Federal. We are open to 
discussion on that.
    We are continuing to push for the science based on ultimate 
geologies. We will need probably multiple repositories 
eventually for civilian spent fuel, especially if the fleet 
grows.
    Senator Graham. And would you encourage it to grow? Would 
we be smart as a Nation to increase our nuclear power 
production capabilities?
    Secretary Moniz. Well, as you know, I am very committed to 
a low carbon future. And today, of course, nuclear----
    Senator Graham. You cannot get there without nuclear.
    Secretary Moniz. Nuclear is the biggest contributor today. 
And, of course, if we do not have nuclear in the future, it 
certainly makes it a lot harder to get there. And finally as we 
announced yesterday, the President has authorized us to start 
planning for a separate disposal track for defense waste, which 
we think is a very, very good move for a whole variety of 
reasons.
    And I might just add in pursuing that, clearly a small 
repository would be needed, but there may even be alternative 
geological pathways, like the bore holes, so it gives us more 
flexibility. And I think the whole system will move ahead 
sooner in this approach.
    Senator Graham. Well, thank you for your service. Dr. Orr, 
thank you for your contributions to our country. And I look 
forward to working with the Department. I think you are doing a 
good job, and we have got some challenges, but I look forward 
to working with you and the committee.
    Secretary Moniz. Thank you.

                    NUCLEAR REACTOR LICENSE RENEWAL

    Senator Alexander. Thank you, Senator Graham. Dr. Moniz, I 
know you have somewhere to go. I will ask a few more questions 
of you. Following up on Senator Graham's comment, are you 
concerned--the Center for Strategic and International Studies 
reported that perhaps as many as 25 of our 99 reactors might 
close by 2020. And in talking with utility executives, I am a 
little surprised that a number of them are not planning at the 
moment on asking for renewal of their licenses from 60 to 80 
years. How many reactors do you think we will have in the 
United States 10 years from now?
    Secretary Moniz. Well, I think--I do not want to speculate 
on the number. I think that CSIS number is probably rather on 
the high side. But we do know that there are certainly another 
handful or so at risk over these next years, depending on the 
outcome of various regulatory structures, et cetera.
    This question of 60 versus 80 years, I would just note that 
if reactors go to 60 years, let us just say 60 years, then the 
large wave of retirements would be starting around 2030. That 
next decade would see a lot of retirements. And that is why if 
you run that movie back and ask about capital planning 
decisions, et cetera, at utilities, et cetera, having options 
understood in that 2025 or so timeframe is really critical. And 
that applies to the experience with building Gen 3 plus large 
plants. It also applies to the small modular reactors, and that 
is why our program on the SMRs has been really geared to trying 
to get something operating in the first half of the next decade 
so that it is there in time for this critical decision period 
potentially.

                         SMALL NUCLEAR REACTORS

    Senator Alexander. Well, I will give you credit for being a 
consistent supporter of the small reactor research and support 
for certification and licensing activities, even though we have 
been disappointed with one of the grants, which was not your 
fault. The Department has selected new scale power for the 
Second Technical Support Award Program, and your budget 
supports that. Are you at a point yet where some of the money 
this next year would be used to help pick a site? Do you know a 
site yet for the new scale project?
    Secretary Moniz. No, we do not, but I believe they have 
announced the intent to file at NRC at the end of next year.
    Senator Alexander. So what will happen in the next year? 
What is the status of the Small Reactor Program? Where are we?
    Secretary Moniz. Well, the status is for them to complete 
all of the design engineering work to the place where they can 
apply to NRC. Being a light water-based reactor, we hope that 
that could then go, which is where NRC, of course, has immense 
experience, we hope that that could go reasonably quickly and 
still hit something like a deployment date of, you know, 2022, 
2023.
    Senator Alexander. Are small reactors an option you think 
will be important for the United States as it seeks to provide 
more carbon-free base load electricity generation?
    Secretary Moniz. It certainly could be. I think it is going 
to depend upon the cost performance. But if the cost 
performance is good, I see significant potential because it 
certainly makes a much more attractive financing approach.

                                  WIND

    Senator Alexander. There are a variety of obstacles to 
nuclear plants. The cost of regulation is one. The low cost of 
natural gas is another. A third, according to some of the 
utilities, is the big wind production tax credit in markets 
which are not regulated. In some markets, the production tax 
credit now in its 22nd or 23rd year is so rich for the 
developers that they can actually pay the utility to take their 
electricity so the developers still make a profit. And this has 
the effect, according to the utilities, of what they call 
negative pricing, and it is one more pressure--it undermines 
their ability to operate other kinds of base load activities 
like coal or nuclear power.
    So the bottom line of that is one contributing aspect in 
some markets of the difficulty of economically operating a 
nuclear plant, much less building a new one, is the high 
subsidy for wind, allowing it to undercut nuclear. Secretary 
Chu in 2011 in response to my question said that wind was a 
mature technology. It costs us about $6 billion a year every 
time we renew that big production tax credit. I would like to 
be spending the $6 billion on energy research instead of a 
subsidy that 22 years ago jump started technology. Usually we 
measure maturity in terms of age.
    If Secretary Chu, a Nobel Prize winning scientist, said a 
few years ago that wind power is a mature technology, would you 
not agree that today it must be an even more mature technology?
    Secretary Moniz. I do not follow the logic.
    Senator Alexander. Well, if I am older than you are, and we 
go 3 more years, am I not likely to be mature if I am older? If 
wind was mature in 2011----
    Secretary Moniz. The clock runs, I agree.
    Senator Alexander. If wind was mature in 2011, is it not 
even more mature today?
    Secretary Moniz. But I would just note that--okay. I do not 
know exactly what Secretary Chu was--how he was referring to--
--
    Senator Alexander. I asked him the question is it a mature 
technology. He said yes. That was 2011. Do you think it is a 
mature technology?
    Secretary Moniz. Well, I would say the technology continues 
to evolve in very important ways. It certainly is not at its 
asymptotic performance, if you like. The continued increase in 
turbine size and blade size, et cetera, the ability to work at 
lower wind speeds, these are all critical developments that are 
still going on.
    Senator Alexander. Well, in 22 years, should wind not be 
standing on its own, especially if it is undercutting nuclear 
power? I mean, wind is 4 percent of our electricity after 
billions of dollars. Nuclear is 20 percent, but 60 percent of 
our carbon-free electricity. Why would we want to have any sort 
of policy that would undercut our ability to produce carbon-
free electricity that is base load, like wind, like nuclear?
    Secretary Moniz. Again, I would say the Administration 
clearly supports the PTC, and the tax credit also helps 
incentivize not just the deployment of the same technologies, 
but of these evolving technologies that are very important in 
terms of efficiency, costs, and being able to work in a greater 
variety of wind speeds, for example.
    Senator Alexander. If you had $6 billion, would you rather 
spend it each year on subsidizing a 22-year-old mature 
technology or $6 billion of energy research?
    Secretary Moniz. I think I would have to think about that.

                       MERCURY TREATMENT FACILITY

    Senator Alexander. I hope you and the Administration will. 
Let me switch to a more local concern since I have got you 
captured here all by myself. Mercury containment is the highest 
environmental priority in and around Oak Ridge in Tennessee due 
to releases into the East Fort Poplar Creek, which runs through 
the City of Oak Ridge. You have been attentive to that, and I 
want to thank you for that. It is very important as we move 
from concern about radiation, which is not completely gone, but 
to begin to pay attention to the mercury contamination.
    I believe your budget request includes some funding to 
begin testing technologies to stabilize the mercury in the 
soil. We are going to need to build a new mercury treatment 
facility, which will be able to capture a majority of the 
mercury before it can escape into the environment. When does 
the Department project that the mercury treatment facility will 
be started and completed?
    Secretary Moniz. I had the impression it was in the next 
couple of years, but I will have to get back to you on that, 
Mr. Chairman.
    Senator Alexander. Could you get back to me on that?
    Secretary Moniz. Yes.
    Senator Alexander. That is the most important new priority.
    Secretary Moniz. I am sorry, I misspoke. 2022 is apparently 
the target date.
    Senator Alexander. For?
    Secretary Moniz. For completion and operation.
    Senator Alexander. 2022 is the target date for completion 
of the mercury treatment facility. Has it started yet?
    Secretary Moniz. I think it is going to start next year. It 
is in the project engineering phase right now.
    Senator Alexander. Design phase?
    Secretary Moniz. Design phase, yes. Yes.
    Senator Alexander. Thank you for that information. There is 
a big increase in the Department's budget request for cleanup. 
There is a big increase in the Department's request, but there 
is a decrease in the request for cleanup. In Oak Ridge, funding 
is down $65 million. Do you suspect that that is likely to 
produce layoffs of workers who are involved in the cleanup, and 
if it were to do that, would you not agree that it is wasteful 
and inefficient to have to lay people off and then rehire them 
again?
    Secretary Moniz. Well, I do not know all the specifics, but 
I know that certainly part of it is in things like the funding 
requirements for, you know, contract and post-retirement issues 
in terms of what is the contribution there. But certainly we 
would not like to see any significant force reduction, but I 
will have to look in more detail at the analysis of that.

                        EXASCALE SUPER COMPUTING

    Senator Alexander. Would you take a look at that cleanup? 
That is extremely important to us. Moving on to another--an 
area where the Administration and the Congress have seen eye-
to-eye is in Exascale super computing, and I want to thank you 
for the priority you placed on that. Give me a little update on 
this super computer we call Exascale. What is the first step 
toward developing it, and how much do you estimate it will 
cost, and when can we expect it will be billed?
    Secretary Moniz. First of all, let me note that there is an 
intermediate step towards Exascale, which is the so-called 
CORAL computing initiative. In fact, Oak Ridge will be the 
first site for that. That will get up into probably the $150 
petaflop region, and that would be in 2017, 2018 timeframe.
    Senator Alexander. This was the announcement you made just 
recently.
    Secretary Moniz. About a month ago or so. Yes, that is 
right. And Oak Ridge, Livermore, and Argonne are the three in 
that CORAL initiative. The Exascale target date is maybe 8 
years from now or so. A lot of work to do. The estimated 
cumulative costs will be $2 to $3 billion. We actually have a 
report from my Secretary of Energy Advisory Board, which we 
will be happy to supply to you, which is an analysis of this, 
and that is kind of the scale. And I think this year it is $325 
million or so, and times eight or 10, you get into that region. 
So it is a major effort.
    I should emphasize that going to this scale, it is not 
about the flops. It is about just managing huge data, so this 
is really big data to be managed. There are energy management 
issues. We have got to reduce the energy consumption by a 
significant factor to make this practical. Many, many 
challenges, but I think we have got to be out there in front.
    Senator Alexander. Well, I believe you said it is not just 
who has the biggest computer. It is also who has the personnel 
to operate such.
    Secretary Moniz. Right, because how you operate the 
computer is very, very challenging.

                       SPALLATION NEUTRON SOURCE

    Senator Alexander. Moving on the Spallation Neutron Source 
at Oak Ridge, it is a one of a kind tool to discover how 
materials and biology work. It is the world's most powerful 
pulse neutron scattering facility. There are plans for a second 
target station at the Spallation Neutron Source. When does the 
Department plan to begin work on the second target station, and 
how much funding could be used this year to begin work on such 
a facility?
    Secretary Moniz. The Spallation Neutron Source, first of 
all, I just want to reinforce what you said. I mean, it is a 
real gem and a very, very critical facility for our science. 
There have been some issues, as you probably know, with the 
current target station, but I think we are confident that those 
issues will get resolved.
    The second station, which I think would be more oriented 
towards coal neutrons, is in the queue, but it has to be 
prioritized now among other BES projects. So I have no fixed 
date that I know of.

                               CLEAN LINE

    Senator Alexander. One other question on wind. There is an 
outfit called the Clean Line Energy Wind Project trying to sell 
wind from Oklahoma to the Tennessee Valley Authority. TVA has 
projected that by 2020, it will be about 40 nuclear, so that is 
completely clean. About 10 percent hydro. That is completely 
clean. That is 50 percent. Its new plants are natural gas. That 
is pretty clean, much less emissions. TVA has got an emphasis 
on efficiency.
    Why does it make sense to buy from 700 miles away when you 
can operate nuclear plants, clean up coal plants and gas 
plants, and use hydro power? Is that not an example of carrying 
things too far? And I know that at least one State, Arkansas, 
has objected to the project. Does the Department plan to 
override Arkansas's objection, and will you allow eminent 
domain authority to be used for new transmission lines, which 
will have to be stretched, I guess, from Oklahoma to Tennessee 
to bring that wind power to the TVA?
    Secretary Moniz. Well, that is the question of the Section 
1222 authorities in terms of interstate transmission lines. 
That project is now in the EIS phase, so we have to see what 
the environmental impact statement is, and then move forward to 
a decision. As you say, yes, it will cross Arkansas from 
Oklahoma to Tennessee.

                         BASIC ENERGY RESEARCH

    Senator Alexander. My last question is one in an area where 
we agree. The Administration and the Congress over the last few 
years have agreed on the importance of basic science funding. 
The Congress enacted the America COMPETES legislation a few 
years ago with strong bipartisan support, and President Bush's 
support. President Obama has continued that. We have talked 
about ARPA-E, which came out of the America COMPETES 
recommendation. I have said in statement I would like to double 
energy research. I have said a good place to get it would be to 
take it away from the wind tax credit. But do you have any 
comment to make, and the last question I will have for you, 
about the importance of increasing basic science funding for 
energy research in the United States and the advantages of it 
to our country's future?
    Secretary Moniz. Well, I certainly agree with you 
completely that; (A) it is critical, and (B) we are under-
funding the American Energy Innovation Council already several 
years ago. That is the council composed of a bunch of rather 
recognizable CEOs, not directly in the energy business, that 
made that point. They actually suggested a factor of three 
rather than a factor of two in terms of the funding. That has 
been repeated by others, by PCAST. There is actually some 
simple arithmetic that tells you that this is kind of the scale 
that we should be thinking about.
    So I think the outcomes of that would be enormous. I think 
I have every reason to believe that we have a lot of additional 
creative and innovative capability in our country to fruitfully 
use that kind of funding, as you said, the doubling perhaps of 
energy. I think it would be a leader, taking us into a low 
carbon future with technology costs just continuing to drop, 
drop, drop, coming down. It would give us great export 
potential. I think it is just a winner across the board. I 
totally agree with you.
    Senator Alexander. Well, Dr. Moniz, Dr. Orr, thank you both 
for coming. I would say, Dr. Moniz, I want to thank you for 
yourself in the Cabinet. That is not always an easy job, but 
you come to it very well prepared because of your previous 
service in Washington and your experience at MIT. And I think 
both of us--those of us on the Democratic and Republican side 
here--both appreciate your skill and the fact that you work 
hard to stay in touch in with Congress. So we will look forward 
to working with you in most areas to help create an environment 
where you can succeed, and we will look for your help on a 
whole variety of issues that we have discussed today, including 
technical advice on nuclear waste, which, as you can see, now 
has a pretty good head of steam----
    Secretary Moniz. It sure does.
    Senator Alexander [continuing]. On this committee and the 
authorizing committee, so we need to take advantage of that 
opportunity. So thank you for being here.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time if they would like. The subcommittee requests 
all responses to questions for the record be responded--be 
provided within 30 days of receipt.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Question Submitted by Senator Lindsey Graham
    Question. I applaud the Department of Energy's (DOE) work on the 
Grid Modernization Initiative, a critically important task for our 
Nation's security and economic strength. As such, Congress has 
previously funded the development of an industry-scale electric grid 
test bed. While I believe there is a continued need for such a facility 
to test additions to our electric grid and keep the grid secure, it 
seems prudent to examine whether such a facility already exists. Do you 
know of existing grid facilities that could serve in this capacity?
    If such a facility does already exist, would the Department 
continue to require the development of a new facility? If so, what is 
the justification for duplicating limited Federal resources instead of 
partnering with existing facilities?
    Separate from building a new facility, how does the Department plan 
to approach partnerships with any such facility for the testing and 
development of electric grid security going forward?
    Answer. The Grid Modernization Initiative (GMI) is working to 
coordinate resources across the national laboratory complex and the 
Nation. A consortium of national laboratories is proposing an 
integrated network of test facilities across the laboratories, with 
connections to university and industry test facilities to perform 
coordinated testing that links testing assets across the Nation. The 
GMI is not proposing construction of new facilities. Rather, this 
effort reduces duplication, takes advantage of existing capabilities, 
and ensures that our resources are directed in coordination toward the 
multiple issues surrounding grid modernization. These issues include 
advanced control systems performance and protection, cybersecurity, 
resilience to natural disasters, new models and design platforms, and 
device integration and testing.
    Congress has funded (directly and indirectly) several facilities 
across the DOE complex targeted at grid modernization activities. These 
include:
  --The Savannah River National Laboratory (SRNL) partnership with 
        Clemson, Duke Energy, and others.
  --The Energy System Integration Facility (ESIF) at the National 
        Renewable Energy Laboratory (NREL) for system testing of 
        renewable and energy efficiency technologies.
  --Pacific Northwest National Laboratory's (PNNL) Energy 
        Infrastructure Operations Center and Electricity Infrastructure 
        Cybersecurity and Resilience Center for grid operations tools 
        development and cyber security research and response support.
  --Idaho National Laboratory's (INL) extensive hardware testing and 
        distribution feeder test loop for supervisory control and data 
        acquisition (SCADA) testing and evaluation for security issues.
  --Oak Ridge National Laboratory's (ORNL) extensive transmission cable 
        testing, power electronics testing labs, and the CURENT Center 
        for grid control research.
    Universities and utilities expected to be linked into the national 
laboratory testing network include Southern California Edison, Pacific 
Gas and Electric, American Electric Power, Bonneville Power 
Administration, Tennessee Valley Authority, Clemson, Florida State, 
North Carolina State, Washington State, Arizona State, and others.
    One goal of the GMI is to leverage these existing capabilities and 
link sites to expand overall capabilities to avoid duplication across 
the Nation.
    To that end, rather than duplicating existing test bed 
capabilities, four national laboratories (PNNL, NREL, INL, and ORNL) 
have been coordinating the testing of advanced distribution circuits. 
DOE and other organizations, including the Electric Power Research 
Institute, the Smart Grid Interoperability Panel, and the National 
Institute of Standards and Technology (NIST), are considering 
techniques that expand the virtual connection of these distributed 
testing environments. In that way for example, renewable energy 
generation assets at NREL could feed realistic signatures and behavior 
to a control system test bed at PNNL, and cyber security threats could 
be introduced to both systems under test from a third test bed resource 
in Texas.
    Newer capabilities at SRNL and NREL can test integrated 
distribution systems up to 10MW in size, creating unique opportunity 
for system simulation.
    Robust information sharing and the resulting improvement in 
situational awareness have always been a key goal in the energy 
sector's Roadmap to Achieve Energy Delivery Systems Cybersecurity.\1\ 
Several milestones are focused on tools and capabilities that will 
expedite the discovery, analysis, reporting, sharing, and mitigation of 
cyber threats. These milestones were identified by industry with 
concurrence from DOE and the Department of Homeland Security (DHS).
---------------------------------------------------------------------------
    \1\ Http://www.energy.gov/sites/prod/files/
Energy%20Delivery%20Systems%20Cybersecurity%20
Roadmap_finalweb.pdf.
---------------------------------------------------------------------------
    Achieving information sharing and communication is the first of six 
goals identified in DOE's Energy Sector Specific Plan as part of the 
National Infrastructure Protection Plan: establish robust situational 
awareness within the energy sector through timely, reliable, and secure 
information exchange among trusted public and private sector security 
partners.
    We envision a robust, resilient energy infrastructure in which 
business and service continuity is maintained through secure and 
reliable information sharing, effective risk management programs, 
coordinated response capabilities, and trusted relationships between 
public and private partners at all levels of industry and government.
    In its role as the Sector Specific Agency for Energy, DOE works 
collaboratively with two energy Sector Coordinating Councils (SCCs), 
one for electricity and one for oil and natural gas, and a Government 
Coordinating Council with members from all levels of government 
concerned with energy security. These coordinating councils represent 
nearly all members of the energy community and are committed to working 
closely with DOE and other government energy sector partners.
    DOE works closely with the DHS's National Infrastructure 
Coordinating Center and National Cybersecurity Communications and 
Integration Center to enhance the efficient and effectiveness of the 
Government's work to secure the energy sector.
    A centerpiece of DOE's efforts in information sharing is the 
Cybersecurity Risk Information Sharing Program (CRISP), which was 
tested in 2013 and 2014 and is now expanding in partnership with the 
North American Electric Reliability Corporation (NERC) and the 
Electricity Sector Information Sharing and Analysis Center (ES-ISAC). 
This activity is rapidly expanding grid operator engagement in 
information sharing both across industry and with appropriate Federal 
entities. The ES-ISAC establishes situational awareness, incident 
management, coordination, and communication capabilities within the 
electricity sector through timely, reliable, and secure information 
exchange. The ES-ISAC, in collaboration with DOE and the Electricity 
SCC, serves as the primary security communications channel for the 
electricity sector and enhances the ability of the sector to prepare 
for and respond to cyber and physical threats, vulnerabilities, and 
incidents.
    Recent natural disasters have underscored the importance of having 
a resilient oil and natural gas infrastructure and effective ways for 
industry and government to communicate to address energy supply 
disruptions. To this end, in 2013 I asked the National Petroleum 
Council to give their advice through a study on Emergency Preparedness 
for Natural Disasters. This study resulted in seven recommendations, 
including leveraging the Energy Information Administration's (EIA) 
subject matter expertise within the DOE Emergency Response Team to 
improve supply chain situational assessments and recommending DOE and 
States establish routine education and training programs for key 
government emergency response positions. This report was delivered in 
December 2014 and the recommendations are currently being implemented.
    I stand ready to work with all Members to develop practical 
solutions to address and respond to energy infrastructure security 
issues.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Secretary Moniz, during the hearing I raised concerns 
with the fiscal year 2016 Budget Request for Richland Operations at 
Hanford, with a specific focus on the 324 Building and 618-10 and 11 
burial ground projects. These cleanup projects are well underway and 
are high risk projects located close to the City of Richland, Columbia 
River, and Energy Northwest facility. As of January 2015, the 
Department of Energy (DOE) has spent $61 million on the 324 Building 
and this project is on track for completion of Phase 2 this summer. DOE 
has spent $148 million on the 618-10 burial ground, which has resulted 
in completing 75 percent of the trench cleanup and completing all 
design preparations for cleanup of the vertical pipe units. And $8 
million has been spent on the 618-11 burial ground.
    I am disappointed that you were unable to explain the 
Administration's proposed $97.2 million cut to the Richland Operations 
budget, which would predominately come out of the River Corridor and 
Other Cleanup Operations account through which these three projects are 
funded. And I must point out that you failed to answer similar 
questions on these cleanup projects posed by my colleagues Senator 
Cantwell, Congressman Newhouse, and Congresswoman Herrera Beutler. 
Slowing or halting work on these projects poses a safety risk, delays 
cleanup, increases costs, and results in missing Tri-Party Agreement 
milestones.
    The fiscal year 2016 Budget Request cites technical challenges when 
rationalizing the cuts to the 324 Building and 618-10 and 11 burial 
grounds, however, no one has been able to pin-point for me what these 
technical challenges are. Secretary Moniz, I again ask you to provide 
me with an explanation as to what these technical challenges are and 
what is holding you back from continuing to make progress on these 
critical cleanup projects.
    Answer. Completing cleanup at the Richland Operations Office is a 
priority for the Department. There has been tremendous progress at 
Richland, and our fiscal year 2016 budget request focuses on continuing 
to make progress. Between now and the end of fiscal year 2016, we plan 
to complete the design and mockup to ensure we know how to safely clean 
up the 324 building, and complete trench work at the 618-10 burial 
ground.
    At 618-10, the technology to remediate vertical pipe units (VPU's) 
has been successfully tested, but has not yet been deployed on actual 
waste. DOE-RL believes this technology will be successful, but we must 
increase our confidence that the technology will be successful when 
used on actual waste.
    Much of the waste in 618-11 is in a similar configuration; however, 
618-11 also includes waste contained in caissons, which are underground 
concrete vaults. The technology to remediate waste in caissons has not 
been designed, tested or deployed. Additionally, 618-11 is adjacent to 
an operating commercial nuclear power plant, and will require 
additional controls to ensure the safety of plant workers.
    Remediation of the highly radioactive soils under the 324 building 
presents a number of technical challenges, including designing and 
testing equipment to remotely excavate the extremely high dose rate 
soils from under the building. The high dose presented by this waste 
site will also affect any electronic equipment used in the process.
    We share a similar goal of focusing on high-risk cleanup projects, 
such as the Plutonium Finishing Plant and addressing the sludge in the 
K Basin, while addressing technical challenges in other cleanup work.
    Question. Secretary Moniz, the fiscal year 2015 Consolidated and 
Further Continuing Appropriations Act provided $45 million in 
additional funding for the River Corridor and Other Cleanup Operations 
account. This is additional funding that I fought to secure for DOE and 
was designated for use by Richland Operations for the 324 Building and 
618-10 and 11 burial grounds. Report language included in the Senate 
Subcommittee mark for the fiscal year 2015 Energy and Water Development 
Appropriations bill stated ``additional funding is provided for work 
related to . . . cleanup of remaining 300 area waste sites,'' which 
includes projects like the 324 Building and 618-10 and 11 burial 
grounds. Furthermore, during consideration of the fiscal year 2015 
Energy and Water Development Appropriations bill on the House floor 
Chairman Simpson and Congressman Hastings clearly indicated that 
additional funding included in the bill was intended for cleanup along 
the Columbia River and for the River Corridor Closure project, which 
again specifically includes the 324 Building and 618-10 and 11 burial 
grounds.
    It is my understanding that to date, DOE has not allocated the $45 
million in funding towards these cleanup projects. Secretary Moniz, why 
hasn't DOE used this funding to push forward on this critical cleanup 
work? Furthermore, I ask that you provide in writing a detailed 
explanation of how DOE intends to spend these funds in fiscal year 
2015.
    Answer. All funds have been allotted to the Richland Operations 
Office (RL), and the funds provided for fiscal year 2015 activities 
have been obligated to contracts consistent with the report language. 
RL has worked with the River Corridor Remediation Contractor to refine 
work planning for the remainder of fiscal year 2015 and fiscal year 
2016. In fiscal year 2015, funding will enable RL to show progress in 
the following areas:
  --Continued remediation of the 618-10 burial ground, including drum 
        excavation in the trenches and installation of the Vertical 
        Pipe Unit (VPU) over-casings.
  --Completion of the design for the remediation of the 300-296 waste 
        site under the 324 Building.
  --Initiation of construction of mockup facility for remediation 
        efforts associated with the 300-296 waste site.
  --Completion of disposition of 300 Area Surplus Facilities, excluding 
        the 324 Building.
  --Completion of backfill of three deep-chromium contaminated waste 
        sites in the 100-D Area.
  --Continued remediation of the balance of 100/300 Area waste sites to 
        include backfill and re-vegetation
  --Continued operation and maintenance of Environmental Restoration 
        Disposal Facility (ERDF).
    Question. Secretary Moniz, I appreciate the commitment DOE has 
shown over the past year to protecting the Hanford workforce and 
addressing the risks associated with chemical vapors in the tank farms. 
We owe the men and women who work at Hanford the highest safety 
standards.
    On February 10, 2015, DOE released an implementation plan for the 
``Hanford Tank Vapor Assessment Report'' (Report). The implementation 
plan is a formal phased approach to addressing potential chemical vapor 
exposures and the 47 recommendations within the Report. It is my 
understanding that $20 million was committed in fiscal year 2015 
funding and that the fiscal year 2016 Budget Request includes $41 
million to support Phase 1 of the implementation plan, which would 
complete 30 of the 47 recommendations in the Report. Phase 2 would 
begin in fiscal year 2017, and specific actions would be determined by 
what is learned in Phase 1.
    Secretary Moniz, I commend the actions DOE has already taken and 
urge you to ensure that DOE does not stop its work upon the completion 
of Phase 1 of the implementation plan. In addition, I ask that you 
continue to make funding the implementation plan a priority as you 
develop the fiscal year 2017 Budget Request and renew my request that 
you add a specific line item into the fiscal year 2017 Budget Request 
for this purpose.
    The completion of the ``Hanford Tank Vapor Assessment Report'' 
resulted in immediate changes by DOE's contractor in November 2014 to 
increase protective equipment requirements for the tank farms. Since 
then, employees must wear supplied-air respirators when work is 
conducted in the single shell tank farms and under circumstances where 
chemical vapors are anticipated or known to occur in the double shell 
tank farms. Since these requirements have been in place, DOE has been 
successful in reducing chemical vapor exposures for employees. However, 
on April 2, 2015, five employees working in a double shell tank farm 
experienced chemical vapor related smells and three of the five 
experienced symptoms. It is my understanding that the employees were 
not in supplied-air respirators because the double shell tank farm had 
an active ventilation system and no waste disturbing activity was 
occurring.
    Secretary Moniz, given this most recent chemical vapor experience 
in a double shell tank farm I encourage DOE to reevaluate the supplied-
air respirator requirements established in November 2014 and determine 
whether mandatory supplied-air should be extended to double shell tank 
farms.
    Each year DOE works with the Small Business Administration (SBA) to 
establish small business prime contracting goals for the fiscal year. 
Section 318 of the fiscal year 2014 Consolidated Appropriations Act 
made changes to allow DOE to count first tier subcontracts awarded by 
Management and Operating contractors to small businesses toward this 
annual small business contracting goal.
    Secretary Moniz, has the Department used this new tool in setting 
its small business prime contracting goals with SBA? If not, has SBA 
prevented Section 318 from being implemented? Furthermore, I ask that 
you provide in writing the small business prime contracting goal DOE 
and SBA set for fiscal year 2014, fiscal year 2015, and fiscal year 
2016.
    Answer. This authority has not yet been used in setting the 
Department's small business prime contracting goal. As this is a 
monumental change to the small business contracting goaling process, 
DOE continues to work with SBA to implement the new law. Section 318 of 
the fiscal year 2014 Consolidated Appropriations Act came into effect 
through Public Law 113-76 on January 17, 2014. Subsequently, the 
Department of Energy (DOE) recommended to the Small Business 
Administration (SBA) that the DOE fiscal year 2014 small business goal 
be adjusted upward to take into consideration the first-tier small 
business subcontracts awarded by DOE's Management and Operating (M&O) 
contractors, as reflected in statute.
    In fiscal year 2014, SBA did not account for DOE's M&O contractors 
in the way the statute intended. SBA has indicated that implementation 
of this statute is complicated by the data systems used across the 
Federal Government to collect information about subcontracts; the level 
and type of data collected about subcontracts is not as detailed as 
what is collected for prime contracts. DOE, SBA, and the Office of 
Federal Procurement Policy (OFPP) in the Office of Management and 
Budget collaborated to develop a plan to implement Section 318 in 
fiscal year 2015. The plan will enable DOE to receive prime contracting 
credit for its first tier small business subcontracts awarded by DOE's 
M&O contractors while addressing SBA's concerns regarding DOE's 
subcontract data quality and transparency. DOE expects to receive the 
fiscal year 2016 small business goaling letter in the first quarter of 
fiscal year 2016. The small business prime contract goal for DOE was 
6.59 percent for fiscal year 2014 and 6 percent for fiscal year 2015.
    Question. While I support Section 318, I remain concerned it will 
not cover first tier subcontracts awarded by prime contractors working 
on nuclear waste cleanup. In my home State of Washington, the prime 
contractors at the Hanford site are committed to working with small 
businesses. All of these prime contractors have small business 
subcontracting goals ranging from 49 to 65 percent and all of them are 
meeting these goals. Unfortunately, these first tier subcontracts are 
not counted by DOE or SBA towards the prime contracting goals. 
Secretary Moniz, I ask that you continue to work with me and SBA to 
ensure prime contractors working on nuclear waste cleanup receive 
proper recognition and consideration for their extensive work with 
small businesses.
    Answer. The Hanford prime contracts are not M&O contracts, which 
are a DOE-specific type of contract used for long-term continuing 
mission accomplishment, as opposed to the cleanup work performed under 
the Hanford contracts that is aimed at completion of the cleanup. The 
Hanford prime contractors thus are not covered by Section 318 of the 
fiscal year 2014 Consolidated Appropriations Act. The Hanford prime 
contractors' small business subcontracts are taken into account in the 
overall evaluation of DOE's support to small business because they will 
continue to be counted toward the DOE's subcontract goal.
    Question. Secretary Moniz, I understand that several major prime 
contracts within the Office of Environmental Management are due for re-
competition or extension in the next few years. This includes the 
following contracts at the Hanford site: River Corridor Closure 
contract held by Washington Closure Hanford, the Plateau Remediation 
Contract held by CH2M Hill Plateau Remediation Company, and the Tank 
Farm Contract held by Washington River Protection Solutions. Knowing 
the complexity of these cleanup projects and accompanying contracts, 
what steps is DOE taking to prepare for such a sharp increase in 
contract re-competitions, to ensure qualified contractors submit 
proposals to DOE for consideration, and to minimize disruption in 
cleanup work and to local communities?
    Answer. On average, the acquisition process for large cleanup 
contracts begins at least 2 years ahead of the date individual 
contracts must be awarded. A key part of that acquisition planning and 
process is early outreach to determine if industry is well positioned 
to meet potential mission needs at particular sites and to encourage 
qualified contractors to participate. Activities include industry days 
and site tours that provide opportunities to see the location where 
work will be performed and an ability to interface with potential 
teaming members, and quarterly outreach sessions open to any industry 
participants. EM will continue to work closely with sites and affected 
communities as these procurements progress.
    Question. Secretary Moniz, as you are aware, the Office of 
Environmental Management has been without a confirmed Assistant 
Secretary for almost 4 years. The Administration's nominee, Dr. Monica 
Regalbuto, was approved by the Senate Committee on Energy and Natural 
Resources on June 18, 2014 and by the Senate Armed Services Committee 
on June 24, 2014 but the full Senate was unable to vote on her 
confirmation before the end of the 113th Congress. With Dr. Regalbuto's 
nomination being resubmitted to the Senate for consideration, Secretary 
Moniz, I urge you to aggressively push her nomination forward with the 
two committees of jurisdiction and Majority Leader McConnell.
    National scientific user facilities like the Environmental 
Molecular Sciences Laboratory and Atmospheric Radiation Measurement 
User Facility located at the Pacific Northwest National Laboratory in 
Washington State play a central role in the U.S. research ecosystem by 
providing scientists access to unique instruments, expertise, and 
facilities. Each year approximately 750 scientists use the 
Environmental Molecular Sciences Laboratory, while the Atmospheric 
Radiation Measurement User Facility supports 900 users. As State and 
Federal budgets endure continued downward pressure in the coming years, 
the importance of user facilities will continue to grow as they are 
shared resources available to the entire scientific community.
    I am concerned that the fiscal year 2016 Budget Request proposes a 
$2 million cut to the Environmental Molecular Sciences Laboratory and 
an additional $2 million cut to the Atmospheric Radiation Measurement 
User Facility. Secretary Moniz, while these cuts seem small they could 
have significant impacts to the availability of equipment and the 
number of users that can take advantage of these important resources. 
How does the fiscal year 2016 Budget Request continue to ensure that 
scientific user facilities have the funding they need to serve the 
scientific community and maintain U.S. global leadership in scientific 
innovation?
    Answer. The President's fiscal year 2016 Budget Request supports a 
balance of substantial investments in the Office of Science's research 
programs, the operations of its existing 27 scientific user facilities, 
and the construction of several new user facilities and major upgrades 
to existing facilities. These user facilities are a major component of 
our national research infrastructure, and were used by more than 32,000 
users spanning more than 2,300 institutions in fiscal year 2014. Nearly 
1,000 users affiliated with Washington State institutions used the 
Office of Science user facilities in fiscal year 2014.
    In formulating its budgets annually, the Office of Science 
considers the long-range--5-to-10 year strategic planning processes, 
aimed at identifying scientific leadership directions that demand 
suites of instrumentation that are generally unavailable elsewhere. The 
planning also evaluates facility construction needs, facility 
efficiencies, and operations strategies in a variety of budget 
scenarios. In fiscal year 2016, Environmental Molecular Sciences 
Laboratory (EMSL) will address a more focused set of science challenges 
that respond to needs of DOE biological and environmental research; 
thus, research activity (and associated instrumentation) outside this 
scope will be sunsetted and priority given to utilization of unique 
observing technologies, such as the High Resolution Mass Accuracy 
Capability (newly available in fiscal year 2016) and new capabilities 
in the Radiological Annex and Quiet wing. In addition to supporting 
EMSL at the level necessary to tackle identified biological and 
environmental needs, we believe that the fiscal year 2016 Request 
provides the resources for the Office of Science to successfully 
deliver our highest priority investments in new and upgraded user 
facilities while continuing to advance today's mission-driven research 
objectives through our existing facilities.
    Question. The Department of Energy, through the Bonneville Power 
Administration (BPA), plays an important role implementing the Columbia 
River Treaty as a member of the U.S. Entity. Together with the U.S. 
Army Corps of Engineers Northwest Division, BPA engaged in a multi-year 
process with domestic stakeholders throughout the Pacific Northwest to 
reach a regional consensus to modernize the Columbia River Treaty. The 
``Regional Recommendation for the Future of the Columbia River Treaty 
after 2024'' was presented to the Administration and U.S. Department of 
State in December 2013. Since then DOE, the Army Corps, and several 
other Federal agencies have been participating in an Interagency Policy 
Committee (IPC) process to determine the parameters for negotiations 
with Canada based on the Regional Recommendation. Secretary Moniz, as a 
participant in the IPC process, can you share the timeline for 
formulating a consensus among the Federal partners on these parameters? 
Furthermore, are there any specific issues preventing the Federal 
partners from reaching consensus, completing the IPC process, and 
beginning negotiations with Canada in 2015?
    Answer. The Department of Energy shares your interest in the 
Columbia River Treaty review. The Regional Recommendation for the 
Future of the Columbia River Treaty after 2024 was negotiated by many 
sovereigns and stakeholders over many years, and reflects a balance of 
interests that the Department supports. My staff is working with the 
U.S. Department of State, which has been designated as the lead agency 
to coordinate and oversee the Federal interagency review process, to 
assure that this significant Pacific Northwest matter is moving forward 
and taking into consideration regional recommendations.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. Without the economy-wide investments in energy efficiency 
made since 1973, it is estimated that today's economy would require 60 
percent more energy that we currently consume. In fact, savings from 
energy efficiency improvements over the last 40 years have reduced our 
national energy bill by about $700 million. Many of these improvements 
would not have been possible without the research, technical support 
and market integration efforts from the energy efficiency programs at 
DOE.
    Still, there are large, cost-effective opportunities to increase 
energy efficiency much further, which will cut energy bills, reduce 
pollution and encourage economic growth. However, a variety of market 
failures and market barriers contribute to keeping us from fully 
realizing our energy efficiency potential. This includes: (1) Imperfect 
information about available technologies in the marketplace and (2) 
Split incentives like landlord-tenant relationships where a building 
owner makes decisions about efficiency investments, but because she 
doesn't pay the utility bill, there is no incentive to purchase more 
efficient and cost-effective appliances.
    DOE plays a vital role in helping leverage market forces and 
overcoming these barriers. Can you discuss initiatives within EERE that 
help with overcoming these types of market barriers when it comes to 
achieving more national energy efficiency gains?
    Answer. The Department of Energy plays an important role in helping 
to reduce market barriers to the adoption of new technologies that are 
market ready--such as a lack of reliable information and workforce 
training gaps--through activities that include providing best practice 
information, stakeholder outreach, sustaining and enhancing the clean 
energy workforce, and providing reliable, objective data.
    Select examples of activities within EERE that help with overcoming 
market barriers include but are not limited to:
  --Advanced Manufacturing Office. Combined heat and power (CHP) is a 
        proven approach to generate on-site electric power and useful 
        thermal energy efficiently from a single fuel source. Through 
        its Industrial Technical Assistance subprogram, the Advanced 
        Manufacturing Office (AMO) supports Combined Heat and Power 
        Technical Assistance Partnerships (CHP TAPs), which promote and 
        assist in transforming the market for CHP, waste heat to power, 
        and district energy with CHP technologies and concepts 
        throughout the U.S. Advanced Manufacturing's CHP efforts 
        support Executive Order 13624, which sets a national goal of 
        deploying 40 gigawatts of new, cost-effective industrial CHP in 
        the United States by the end of 2020. Through these 
        partnerships, the Department supports deployment of these 
        energy efficient technologies through a variety of services, 
        such as education and outreach that provide information on the 
        benefits and applications of CHP to State and local policy 
        makers, regulators, energy end-users, trade associations, and 
        others; and technical assistance to energy end-users and others 
        to help them consider whether CHP is a viable technical and 
        economic opportunity.
  --Building Technologies Office. The Building Technologies Office 
        (BTO) pursues solutions identification and technology-to-market 
        initiatives through its Commercial Buildings Integration (CBI) 
        and Residential Buildings Integration (RBI) subprograms to help 
        reduce market barriers to widespread adoption of cost-effective 
        advanced building energy efficiency technologies and solutions. 
        Existing market barriers include high first cost, fragmented 
        market segments, lack of uniform data and data formats, and 
        insufficient availability of objective consumer information. 
        These contribute to the building trades' slow acceptance and 
        adoption of new technologies and practices. The CBI and RBI 
        subprograms' approach to reducing these barriers includes 
        partnerships with stakeholders to develop and share validated 
        data and best practices, improvement of building design and 
        audit tools, and the creation of reliable efficiency benchmarks 
        and databases to facilitate energy efficiency financing and to 
        define efficiency's value-add to consumers. The CBI and RBI 
        subprograms' efforts focus on developing, demonstrating, and 
        releasing a suite of cost-effective technologies, 
        specifications, tools, and solutions, as well as analyzing 
        their ability to deliver the intended energy savings.
  --Federal Energy Management Program. Performance contracting includes 
        both Energy Savings Performance Contracts (ESPCs) and Utility 
        Energy Service Contracts (UESC). ESPCs and UESCs allow the 
        Government to engage a third-party private sector energy 
        company to invest in needed energy projects and pay for the 
        investment through the energy, water, and operations and 
        maintenance (O&M) savings achieved over the life of the 
        contract. Federal ESPC and UESC projects can include energy and 
        water-efficiency improvements, renewable energy technologies, 
        renewable alternative fuel (biomass/landfill), combined heat 
        and power, advanced metering, and power management. These 
        projects must improve site or system-wide energy efficiency and 
        be life-cycle cost effective in order to guarantee the savings 
        needed to pay for the project. Using performance contracts also 
        provides agencies with access to private-sector expertise in 
        energy efficiency, renewable energy, water conservation, and 
        emissions reductions and can provide a mechanism for smart 
        project management that ensures building efficiency 
        improvements and new equipment without upfront capital costs.
  --Weatherization and Intergovernmental Programs. States face several 
        barriers in retrofitting their existing buildings to make them 
        more energy efficient, including the lack of requisite data to 
        track energy use in their buildings (imperfect information). 
        DOE's State Energy Program (SEP) has offered several 
        competitively awarded funding opportunities aimed at helping 
        States address market failures and market barriers, such as the 
        deployment of data management programs, promoting information 
        sharing to further the use of innovative financing mechanisms 
        such as energy savings performance contracting, and outreach 
        programs to decision makers. Since 2012, SEP has made 56 
        Competitive awards to 30 States in many of these areas, 
        developing model solutions, policies and programs that can be 
        replicated by other States and local government agencies.
    Question. Can you discuss how EERE uses the Building Technologies 
Program and Advanced Manufacturing Office (AMO) to help deploy 
technologies once R&D in their respective economic sectors becomes 
proven and ready for market?
    Answer. The Department plays an important role in helping reduce 
market barriers to the adoption of new technologies that are market 
ready through activities that include providing best practice 
information, stakeholder outreach, and providing reliable, objective 
data.
Advanced Manufacturing
  --The Advanced Manufacturing Office (AMO) orients activities in each 
        of its three subprograms to align with this investment 
        strategy. In the Advanced Manufacturing R&D Projects 
        subprogram, AMO takes into account down-stream R&D challenges 
        to better facilitate the ultimate transition of various 
        technologies into domestic industrial production facilities. 
        Facilities supported under the Advanced Manufacturing R&D 
        Facilities subprogram, such as Clean Energy Manufacturing 
        Innovation Institutes, are designed to both accelerate the 
        development and the implementation of cutting-edge energy 
        efficiency technologies applicable to energy-intensive and 
        energy-dependent industries and materials and technologies 
        broadly applicable to the manufacturing of clean energy 
        products. In addition, the AMO Industrial Technical Assistance 
        subprogram helps manufacturers utilize energy-saving, market-
        ready technologies, such as combined heat and power, through 
        various activities, including market assessments, outreach and 
        information dissemination, and technical assistance.
Commercial Buildings Market Deployment
  --The Building Technologies Office (BTO) has developed a model for 
        spurring market uptake of new technology through its High 
        Impact Technology (HIT) Initiative. The HIT is designed to 
        promote the voluntary uptake of emerging, cost-effective 
        energy-saving building technologies through partnerships with 
        the commercial buildings industry via the Better Buildings 
        Alliance, Federal leaders, regional non-profits, utilities, and 
        efficiency organizations. HIT technologies are high potential 
        technologies identified by DOE through scoring criteria based 
        on national energy saving potential, cost, technology 
        readiness, stakeholder interest, and help achieve the 
        Commercial Building Integration's (CBI) goals to promote 
        adoption and market uptake of energy efficiency technologies in 
        the commercial building sector. From there, CBI then designs 
        and conducts strategic deployment, dissemination and technical 
        assistance activities using stakeholder input regarding the 
        largest, most persistent barriers to adoption and can include 
        partnering with manufacturers to innovate based on demonstrated 
        industry demand, field testing, development of guides on how to 
        use or select of high-performing technologies, or cost-shared 
        technical assistance.

    One example is the Lighting Energy Efficiency in Parking (LEEP) 
        Campaign, which BTO launched in 2012, building on several years 
        of BTO technology research, development, and demonstration and 
        the development of tools to drive high-efficiency lighting and 
        controls into the market. More than 100 organizations have 
        joined the campaign, and, with technical assistance from BTO, 
        have installed high-efficiency lighting or controls in over 445 
        million square feet of parking space. BTO's efforts to engage 
        market leaders to demonstrate high-efficiency lighting in 
        parking lots and structures has created momentum for further 
        market adoption.
Residential Buildings Market Deployment
  --BTO's Building America Program advances technology deployment 
        through applied demonstration projects that cost-effectively 
        integrate innovative technologies and construction practices 
        into new and existing residential buildings systems, working 
        directly with builders and home improvement contractors. 
        Currently, the Building America Program is focusing on highly 
        efficient wall systems that minimize the transport of heat, low 
        load cooling equipment that effectively dehumidifies the home, 
        and proper ventilation levels for efficient homes. Building 
        America works directly with builders and contractors in the 
        market place to demonstrate the market viability of these 
        technologies. In addition, these innovative technologies and 
        building practices are highlighted in BTO's Building America 
        Solution Center, a web-based information source for these 
        technologies that contractors can access from the field.

    BTO also deploys these innovations into the new homes market 
        through the DOE Zero Energy Ready Home Program, a voluntary 
        partnership program for builders, architects, utilities, energy 
        efficiency programs, lenders, and more. The DOE Zero Energy 
        Ready Home label signifies a whole new level of home 
        performance, with rigorous requirements that ensure outstanding 
        levels of energy savings, comfort, health, and durability. BTO 
        also works with EPA's ENERGY STAR New Homes Program to bring 
        these technologies to the marketplace. Many innovations 
        demonstrated by Building America have been included in codes 
        over the years.

    Within the existing homes market, the Better Buildings Residential 
        Program (BBR) works with State and local energy efficiency 
        program partners to deploy proven whole-house and staged 
        upgrade solutions into our Nation's communities. Through the 
        Home Performance with ENERGY STAR Program and the Better 
        Buildings Residential Network, BTO utilizes market partnerships 
        and network effects to increase the deployment of energy 
        efficient, building science-based home performance improvement 
        opportunities among builders, contractors, and homeowners. Home 
        Performance with ENERGY STAR (HPwES) is a public-private 
        voluntary partnership which works with program partners to 
        promote and implement whole-house upgrade solutions for 
        improved, energy-efficient homes. The Better Buildings 
        Residential Network connects energy efficiency programs, 
        contractors, financial institutions, State and local 
        governments, nonprofits, and utilities to share best practices 
        and learn from one another.
    Question. Another important component of DOE's work is ensuring 
that relevant stakeholders in the business and advocacy communities 
have the opportunity to engage with EERE to identify the right types of 
R&D that DOE should be focusing on.
    What processes are in place to ensure that the Building 
Technologies and the Advanced Manufacturing Offices effectively target 
and fund the type of technology research needed and wanted in the 
private sector?
    Answer. The Advanced Manufacturing Office (AMO) funds technologies 
and processes that enable energy cost reduction and efficiency for the 
Nation's most energy-intensive and energy-dependent industries, and 
funds materials and enabling technologies with cross-cutting impact for 
cost reduction and performance improvement broadly applicable to the 
manufacturing of clean energy products. The Program identifies topical 
thrusts within each of these two categories and uses them as organizing 
priorities for existing and proposed technical work.
    These thrusts are identified through extensive consultation with 
private sector firms, non-profit, university and National Laboratory 
partners through various forums, including technology analyses, 
workshops, and by soliciting input from stakeholders through requests 
for information prior to planning of the funding opportunity 
announcements. Funded topics will be selected based on the 
consideration of potential energy, environmental, and economic impacts, 
as well as overall relevance to the private sector, including a topic's 
additionality relative to existing public and private sector 
investments, degree of technical uncertainty and risk associated with a 
topic which limit potential private sector investment, whether 
investment in a topic can be a catalyzing influence, and the 
opportunity for long term impact of that topic on domestic 
manufacturing.
    Similarly, input from industry stakeholders is a critical component 
of the Building Technology Office's (BTO) multi-year R&D and market 
transformation strategy. BTO primarily seeks industry input through 
three methods: Requests for Information (RFIs), which are delivered to 
over 25,000 building energy efficiency stakeholders; Technology R&D 
Roadmap Workshops; and events such as BTO's Annual Peer Review and 
Merit Review, where independent experts provide robust, documented 
feedback on BTO lab and FOA projects' alignment with our mission and 
goals. Each major technology area that BTO works in--lighting, HVAC, 
windows and building envelope, sensors and controls (in development)--
has a roadmap that guides and prioritizes our research over the coming 
years. These roadmaps are developed with considerable input from 
scientists, engineers, academia, and industry experts. Typically, we 
invite these industry stakeholders to an all-day workshop that informs 
the development of the roadmap, and will then seek their review 
throughout its development. Similarly, the High Impact Technology 
Catalyst, mentioned in response to Question #2, issues an RFI every 
year to seek input from technology providers and technology end-users 
(such as building owner/operators) on which technologies should be 
considered for the Catalyst, and which market transformation methods 
may prove the most effective.
    Question. The success of the U.S. manufacturing base is vital to 
our country's long-term economic well-being. Many of our domestic 
companies, including those in New Hampshire, face real challenges when 
it comes to remaining competitive in a global economy.
    One of the most promising breakthroughs in helping companies deal 
with these pressures is the concept of smart manufacturing. New 
information and communications technologies (ICT) and supercomputing 
simulations allow manufacturing companies to optimize their production 
and supply networks by bringing together islands of information found 
throughout the manufacturing chain in order to achieve significant 
energy savings and increase productivity.
    These types of technological innovations can help U.S. manufactures 
become and remain cost effective, efficient, and sustainable. However, 
there remain significant challenges to deploying these technologies 
more widely.
    In particular, how can DOE make sure that smart manufacturing tools 
are made available to all manufacturing firms, particular small and 
medium-sized companies who may have more limited technical and 
financial resources?
    Answer. While many Smart Manufacturing technology elements exist in 
some form and level of maturity today, the scale of the required 
industry collaboration and development needed for Smart Manufacturing 
technology integration, open and interoperable platforms, and 
widespread cost-effective adoption of these technologies is beyond the 
scope of most individual private sector organizations, including small-
and medium-sized enterprises (SMEs). AMO supports the development of 
innovative next generation manufacturing processes and production 
technologies through the creation of collaborative communities with 
shared research, development and demonstration (RD&D) infrastructure, 
including Clean Energy Manufacturing Innovation Institutes, such as the 
proposed Smart Manufacturing Institute. At the technical core of these 
Institutes is shared RD&D infrastructure that contains equipment and 
resources accessible to external parties for technology development 
that would otherwise be cost prohibitive, particularly for SMEs. It is 
expected that the Smart Manufacturing Institute will engage the 
manufacturing community at all levels of the supply chain, including 
large companies, potential end users, researchers, and SMEs involved in 
critical development work and who will support the transition to 
commercial applications, to ensure the Institute is focused on industry 
relevant problems and increase likelihood of success.
    Question. I was very pleased to see that the DOE released a Notice 
of Intent (NOI) in December 2014 to propose its 3rd Nationwide Network 
for Manufacturing Innovation (NNMI), the Clean Energy Smart 
Manufacturing Innovation Institute. I also understand that the AMO 
hosted an Industry Day workshop in February 2015 held in Atlanta, GA, 
to provide an opportunity for potential proposers to understand the 
concept, vision and technology needs for the potential smart 
manufacturing Institute.
    Undoubtedly, the announcement and recent workshop has created 
excitement among manufacturers, academic institutions, national labs 
and State and local governments, all of whom welcome real-time control 
of energy, productivity and costs for manufacturing facilities and the 
benefits these advancements will bring to the sector. I understand the 
issuance of the Funding Opportunity Announcement (FOA) for the 
Institute was expected in March 2015, but an official FOA from DOE has 
not yet been issued.
    My concern is that the delay of the issuance of the FOA coincides 
with the Department of Defense's announcement of their NNMI, competing 
for an overlapping resource base for non-Federal cost sharing. For 
furthering our joint interests and priorities for making smart 
manufacturing a common practice and asset throughout the U.S. and 
driving transformational gains in energy productivity with overall 
improved manufacturing performance, issuing the FOA quickly is 
important for aligning resources and partners adequately.
    What are DOE's plans for the issuance of the FOA to ensure strong 
participation in the Clean Energy Smart Manufacturing Innovation 
Institute?
    Answer. DOE's Smart Manufacturing Institute funding opportunity 
announcement (FOA) is planned for release in mid-2015. The DOE hosted 
an Industry Day on the Clean Energy Manufacturing Innovation Institute 
on Smart Manufacturing in February 2015, which allowed potential 
proposers to hear presentations from government officials about the 
framework for a potential Institute, specific technical topic areas of 
interest, and anticipated proposal requirements. The Industry Day was 
strongly attended, and the Department anticipates strong interest in 
the Institute FOA.
    Question. I was pleased to hear about your commitment to ensuring 
that the benefits of thermal biomass will receive more focus within the 
Department of Energy. As we discussed during the hearing, I read with 
interest the President's recent Executive Order, ``Planning for Federal 
Sustainability in the Next Decade,'' and was pleased to see that it 
recognizes the importance of thermal power by including it in the 
Federal government's renewable energy procurement requirements. This is 
of significant interest to me since I have long been a proponent of 
thermal biomass.
    What is DOE's role in assisting Federal agencies comply with the 
new sustainability requirements pursuant to the President's recent 
Executive Order ``Planning for Federal Sustainability in the Next 
Decade?''
    Answer. The DOE's Federal Energy Management Program (FEMP) works 
with key individuals within agencies to improve the sustainability, 
energy and water use of the Federal Government, which facilitates the 
Government's ability to Lead by Example--encouraging establishment of 
energy goals, facilitating innovative technologies and creating change 
in the energy sphere. This mission helps serve the intent of the recent 
Executive Order 13693, which is to maintain Federal leadership in 
sustainability and greenhouse gas emission reductions. FEMP will 
continue assisting agencies with proven strategies to achieve 
sustainable reductions in greenhouse gas emissions. FEMP will be 
expanding its support for thermal renewable energy through two major 
types of assistance FEMP provides to agencies: technical assistance and 
alternative financing. For technical assistance, FEMP is already 
working with agencies to identify their largest energy-consuming 
campuses and then using FEMP's national laboratory experts and software 
screening tools to comprehensively analyze their most promising 
renewable energy, clean energy and energy efficiency opportunities. In 
financing these projects, agencies will now try to incorporate thermal 
renewable energy into on-site project acquisitions, energy purchase 
agreements with third-party developers, energy savings performance 
contracts and utility energy service contracts. FEMP will continue to 
advise agencies on the issues involved with all of these financing 
options, and provide agencies access to qualified energy service 
companies.
    Question. Will DOE--through the Federal Energy Management Program 
(FEMP)--work with agencies on best practices for compliance? If so, how 
can FEMP help ensure that thermal power options like biomass have a 
viable opportunity to be used as a compliance option?
    Answer. FEMP has and will continue to provide support for agencies 
in meeting their clean energy goals, including both renewable electric 
and thermal energy, as described in EO 13693. This support includes 
project technical assistance, project procurement assistance, guidance 
documents, training, and reporting. FEMP is responsible for tracking 
progress towards the achievement of Federal clean energy goals, and as 
such, advises agencies on how to report their renewable electric and 
thermal energy data to ensure compliance with Federal laws and 
requirements. FEMP will continue to help agencies identify existing and 
new incentives and programs either the agency or developers can use to 
reduce the cost of renewable energy and will continue to develop best 
practices for compliance.
    Question. You may recall that I sent a bipartisan letter to you and 
EPA Administrator McCarthy regarding EPA's recently proposed regulation 
to phase out certain hydrofluorocarbon substances having a relatively 
high global warming potential under EPA's Significant New Alternatives 
Policy Program, or ``SNAP'' program. Specifically, my concern relates 
to the likely impact of the proposal on energy efficiency. As you know, 
the proposal would require a change in the blowing agent used to make 
several types of building insulations. As a result, the energy 
efficiency gains provided by these products could be negatively 
impacted because the alternatives are both less efficient and more 
costly to manufacture, which would increase the price for consumers.
    My interest is ensuring that the EPA's rule does not have 
unintended consequences that results in achieving lower greenhouse gas 
emission reductions than expected. Can you please tell me whether DOE 
has reviewed the EPA proposal to identify how it may impact energy 
efficiency in the insulation sector? Is there close coordination 
between DOE and EPA on this rule?
    Answer. DOE is aware of the concerns expressed by some parties 
regarding SNAP rules and potential impacts upon energy efficiency. We 
consulted with the EPA to ensure that they were aware of our 
perspective on these issues. EPA has now issued their final rule in 
this matter.
                                 ______
                                 
           Question Submitted by Senator Christopher A. Coons
    Question. Major issues--As you know, Delaware is an EPSCoR/IDeA 
State, and the EPSCoR/IDeA programs have been beneficial for many 
universities around the country. It has been brought to my attention 
that there are some general concerns about how much the Department of 
Energy is seeking for this program and how it is operating its EPSCoR 
program in terms of the grant award process.
    In fiscal year 2013, the 25 States and three territories eligible 
for DOE EPSCoR received about 9 percent of all Office of Science 
research award dollars. There are two individual non-EPSCoR States 
that, on their own, were awarded more funding by the Office of Science 
than all of the EPSCoR States combined. In fact, one of these non-
EPSCoR States' funding is more than double what half the States in the 
Nation receive through the Office of Science. This year, your fiscal 
year 2016 request once again keeps DOE EPSCoR flat while the EPSCoR 
programs at the National Science Foundation and the IDeA program 
National Institutes of Health continue to grow.
    I am also concerned about how DOE EPSCoR handled last year's 
Implementation Grant award process. The University of Delaware and two 
other applicants were told in the fall that their proposals were being 
held over for possible fiscal year 2015 funding consideration. The 
University of Delaware was then informed, a few months later, that they 
were no longer being considered for the award and that DOE EPSCoR would 
only be considering funding of one additional proposal instead of all 
three.
    Can you explain why the DOE is not seeking additional funds for its 
EPSCoR program while other agencies have continued to make larger 
requests for their own programs? Can you also explain what happened 
between the time when the University of Delaware was informed about 
their potential award in the fall and subsequently when they were told 
that they were no longer in consideration a few months later? As you 
know, Congress provided $10 million last year for DOE EPSCoR, about 
$1.5 million more than was requested. Why is only one award now being 
made with those additional funds?
    Answer. Year-to-year changes in the DOE Experimental Program to 
Stimulate Competitive Research (EPSCoR) request are consistent on a 
percentage basis with changes in the core research portfolio in Basic 
Energy Sciences. The decision for declining the subject applications 
was due to the consideration of the available budget and the desire to 
have a future funding opportunity announcement with longer lead times. 
The additional funding provided in fiscal year 2015 is being used to 
minimize mortgages in future fiscal years of existing awards so as to 
increase funding available for potential new awards under a future 
funding opportunity announcement.

                         CONCLUSION OF HEARINGS

    Senator Alexander. Thank you for being here today. The 
subcommittee will stand adjourned.
    [Whereupon, at 4:11 p.m., Wednesday, March 25, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]












       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alexander, Senator Lamar, U.S. Senator From Tennessee:
    Opening Statements of 





    Prepared Statements of 





Baran, Jeff, Commissioner, U.S. Nuclear Regulatory Commission....    90
    Prepared Statement of........................................    91
Bostick, Hon. Thomas P., Lieutenant General, Commander General 
  and Chief of Engineers, Department of the Army.................     1
    Prepared Statement of........................................    12
    Summary Statement of.........................................    10
Burns, Stephen G., Chairman, U.S. Nuclear Regulatory Commission..    73
    Prepared Statement of........................................    83
    Questions Submitted to.......................................   110
    Summary Statement of.........................................    81

Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statement of........................................     7
    Questions Submitted by.......................................    61
    Statement of.................................................     6
Collins, Senator Susan M., U.S. Senator From Maine, Statement of.     9
Cook, Dr. Donald, Deputy Administrator for Defense Programs, 
  National Nuclear Security Administration, Department of Energy.   113
Coons, Senator Christopher A., U.S. Senator From Connecticut, 
  Question Submitted by..........................................   201

Darcy, Hon. Jo-Ellen, Assistant Secretary of the Army (Civil 
  Works), Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    15
    Prepared Statement of........................................    16
Durbin, Senator Richard J., U.S. From Illinois, Questions 
  Submitted by...................................................    68

Feinstein, Senator Dianne, U.S. Senator From California:
    Questions Submitted by.......................................    64
    Statements of 






Gimbel, Jennifer, Principle Deputy Assistant Secretary for Water 
  and Science....................................................    28
    Prepared Statement of........................................    29
Graham, Senator Lindsey, U.S. Senator From South Carolina:
    Question Submitted by........................................   190
    Statement of.................................................     9

Harrington, Anne, Deputy Administrator for Defense Nuclear 
  Nonproliferation, Department of Energy.........................   113

Klotz, Lieutenant General Frank G., U.S. Air Force (Retired), 
  Under Secretary for Nuclear Security and Administrator, 
  Department of Energy...........................................   113
    Prepared Statement of........................................   119
    Summary of...................................................   117

Lankford, Senator James, U.S. Senator From Oklahoma, Questions 
  Submitted by 




Lopez, Hon. Estevan, Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................    22
    Prepared Statement of........................................    23

McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by...................................................    62
Merkely, Senator Jeff, U.S. Senator From Oregon, Statement of....     7
Moniz, Hon. Ernest J., Ph.D., Secretary, Office of the Secretary, 
  Department of Energy...........................................   149
    Prepared Statement of........................................   157
    Summary Statement of.........................................   155
Murkowski, Senator Lisa, U.S. Senator From Alaska:
    Questions Submitted by.......................................    63
    Statement of.................................................    92
Murray, Senator Patty, U.S. Senator From Washington, Questions 
  Submitted by 




Orr, Franklin, Ph.D., Under Secretary for Science and Energy, 
  Department of Energy...........................................   149
Ostendorff, William C., Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................    88
    Prepared Statement of........................................    89
    Question Submitted to........................................   112

Richardson, Admiral John, United States Navy, Director, Naval 
  Nuclear Propulsion, Deputy Administrator for office of Naval 
  Reactors.......................................................   113

Shaheen, Senator Jeanne, U.S. Senator From New Hampshire, 
  Questions Submitted by.........................................   195
Svinicki, Kristine L., Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................    87
    Prepared Statement of........................................    87

Tester, Senator Jon, U.S. Senator From Montana, Statement of.....     8

Udall, Senator Tom, U.S. Senator From New Mexico, Statement of...     8












                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page

Additional Committee Questions...................................    61
Alternative Financing and Public-Private Partnerships............    20
Construction.....................................................    18
    Program......................................................    13
Emergency Management.............................................    14
Investigations Program...........................................    13
Operation and Maintenance........................................    19
    Program......................................................    13
Planning Modernization...........................................    17
Regulatory Program...............................................    20
Reimbursable Program.............................................    14
Remaining Items..................................................    20
Research and Development.........................................    20
Summary of Fiscal Year 2016 Budget...............................    13
Veterans Curation Program........................................    21

                          DEPARTMENT OF ENERGY

Additional Committee Questions...................................   190
Advanced Technology Vehicles Manufacturing Direct Loan Program...   178
Advancing:
    Nuclear Security, Science & Energy, and Environmental Cleanup   157
    the President's Vision: Implementing DOE's Strategic Plan....   166
Agency Duplications..............................................   173
American Centrifuge Project......................................   168
Arctic Energy Summit.............................................   177
Basic Energy Research............................................   189
B-61.............................................................   176
Cellulosic Ethanol...............................................   174
Clean Line.......................................................   188
Cleaning up the Cold War Nuclear Weapons Legacy..................   165
Department Staff Participation...................................   168
Doubling Basic Energy Research...................................   152
Energy...........................................................   159
Exascale Super Computing.........................................   187
Hanford Richland.................................................   171
International Thermonuclear Experimental Reactor.................   167
Leading the World in Advanced Scientific Computing...............   153
Liquefied Natural Gas Exports....................................   172
Management and Performance: Improving Efficiency and 
  Effectiveness..................................................   166
Mercury Treatment Facility.......................................   186
Mixed Oxide Fuel Fabrication Facility............................   182
National Labs....................................................   178
Nuclear:
    Reactor License Renewal......................................   184
    Security.....................................................   164
Reducing Federal Spending on Mature Technologies.................   153
Science: Leading Edge Research and World Class Research 
  Infrastructure.................................................   158
Sequestration....................................................   182
Small Nuclear Reactors...........................................   185
Smart Manufacturing Technologies.................................   181
Solving the nuclear waste stalemate..............................   154
Spallation Neutron Source........................................   188
Spent:
    Fuel Storage.................................................   179
    Nuclear Fuel Storage.........................................   169
The Future of Nuclear Power......................................   183
Thermal Biomass..................................................   180
Waste Isolation Pilot Plant......................................   175
Wind.............................................................   185
Yucca Mountain...................................................   172

                National Nuclear Security Administration

Defense Nuclear Nonproliferation Appropriation...................   123
Government Accounting Office High Risk List......................   139
Improving Safety, Operations and Infrastructure..................   121
Maintaining the Stockpile........................................   120
Management & Performance.........................................   126
MO<INF>X</INF>...................................................   141
National Ignition Facility.......................................   135
Naval Reactors...................................................   145
    Appropriation................................................   125
    Spent Fuel Storage...........................................   133
NNSA Federal Salaries and Expenses Appropriation.................   126
Nonproliferation Efforts.........................................   123
Nuclear:
    Counterterrorism and Emergency Response......................   125
    Cruise Missile...............................................   131
    Nonproliferation.............................................   144
    Weapons Stockpile............................................   130
Safety...........................................................   129
Uranium Processing Facility......................................   127

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

2016 through 2018 Priority Goal for Water Conservation...........    27
Additional Committee Questions...................................    61
Arctic Deep Draft Port...........................................    64
    Study........................................................    43
CALFED Storage Projects..........................................    58
California:
    Bay-Delta Restoration........................................    26
    Drought 



Central:
    Utah Project.................................................    32
    Valley Project Restoration Fund..............................    26
Chickamauga Lock.................................................    33
Climate Change...................................................    46
Columbia River Treaty............................................    67
Continuing Authorities Program 



Crooked River Prineville Reservoir...............................    38
Engaging the Next Generation.....................................    32
Ensuring Healthy Watersheds and Sustainable, Secure Water 
  Supplies.......................................................    29
Federal Flood Risk Management....................................    56
    Standard.....................................................    61
Fiscal Year 2015 Workplan/IWTF...................................    62
Funding for projects.............................................    68
Great Lakes and Mississippi River Interbasin Study...............    69
Harbor Maintenance:
    Tax..........................................................    66
    Trust Fund 



Highlights of the 2016 Budget for Water and Related Resources....    24
Hydropower 



Indian Water Rights Settlements..................................    26
Inland Waterways Trust Fund 



Intake Dam.......................................................    47
Introduction.....................................................    29
Kentucky Lock project on the Tennessee River.....................    62
Mel Price Lock and Dam...........................................    69
Mississippi:
    Delta Region Projects........................................    37
    River and Tributaries........................................    36
Missouri River Fish and Wildlife.................................    48
Mud Mountain.....................................................    67
Napa River Flood Control Project.................................    64
Native American Affairs Program..................................    42
Natural Disaster Preparedness....................................    45
New Starts.......................................................    51
Permanent Appropriations.........................................    27
Policy and Administration........................................    27
Powering Our Future..............................................    30
Project Prioritization...........................................    40
Public-Private Partnerships......................................    49
Reimbursements...................................................    42
Rio Grande Environmental Management Program......................    41
Rural Water......................................................    46
Salt Ponds.......................................................    35
San Francisco Bay Shoreline Study................................    34
San Joaquin River Restoration Fund...............................    26
Section 1035 WRRDA, Floating Cabins..............................    63
Small Subsistence and Emerging Harbors...........................    38
South San Francisco Bay Shoreline Study..........................    64
Standing Rock Reservation........................................    51
Strengthening Tribal Nations--Indian Water Settlements...........    31
Taxes and User Fees..............................................    52
Water:
    and Related Resources........................................    24
    for Irrigation, Streams and Economy..........................    39
    of the U.S.--Rulemaking......................................    70
    Resources Reform Development Act.............................    39
        Consolidation of Geographic Projects.....................    68
        Public/Private Partnerships..............................    68
    Settlements..................................................    47
Waters of the United States Rule 




                   U.S. NUCLEAR REGULATORY COMMISSION

Additional Committee Questions...................................   110
Avoiding Excessive Regulations...................................    77
Closing..........................................................    87
Collegiality at the Nuclear Regulatory Commission................   109
Compliance Costs.................................................    98
DoD Testing at Yucca Mountain....................................    97
Dry Cask Storage Safety..........................................   105
Fiscal Year 2016 Budget Request..................................    85
Fukushima........................................................   108
Licensing:
    for New and Existing Reactors................................    77
    Nuclear Waste Repositories, Including Yucca Mountain.........    76
Making Sure the Agency is Running Effectively....................    77
Nuclear:
    Materials and Waste Safety...................................    86
    Reactor Safety 


Pilot Program for Consent-Based Storage..........................    94
Potential Terrorist Threat.......................................   105
San Onofre Decommissioning.......................................   104
Small Modular Reactors...........................................    97
Steam Generators at Southern California Edison...................   103
The Changing Regulatory Environment..............................    84
Waste Storage....................................................   100
Watts Bar II.....................................................   108
Yucca Mountain...................................................   106
    Licensing....................................................    93

                                   [all] 
</pre></body></html>
